<html>
<title> - NATIONAL SECURITY AND FOREIGN POLICY PRIORITIES IN THE FISCAL YEAR 2015 INTERNATIONAL AFFAIRS BUDGET</title>
<body><pre>[Senate Hearing 113-585]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 113-585

NATIONAL SECURITY AND FOREIGN POLICY PRIORITIES IN THE FISCAL YEAR 2015 
                      INTERNATIONAL AFFAIRS BUDGET

=======================================================================

                                HEARING

                               BEFORE THE



                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 8, 2014

                               __________

       Printed for the use of the Committee on Foreign Relations


      Available via the World Wide Web: http://www.gpo.gov/fdsys/


                                     ______

                      U.S. GOVERNMENT PUBLISHING OFFICE 

93-615 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001


                COMMITTEE ON FOREIGN RELATIONS         

             ROBERT MENENDEZ, New Jersey, Chairman        
BARBARA BOXER, California            BOB CORKER, Tennessee
BENJAMIN L. CARDIN, Maryland         JAMES E. RISCH, Idaho
JEANNE SHAHEEN, New Hampshire        MARCO RUBIO, Florida
CHRISTOPHER A. COONS, Delaware       RON JOHNSON, Wisconsin
RICHARD J. DURBIN, Illinois          JEFF FLAKE, Arizona
TOM UDALL, New Mexico                JOHN McCAIN, Arizona
CHRISTOPHER MURPHY, Connecticut      JOHN BARRASSO, Wyoming
TIM KAINE, Virginia                  RAND PAUL, Kentucky
EDWARD J. MARKEY, Massachusetts
               Daniel E. O'Brien, Staff Director        
        Lester E. Munson III, Republican Staff Director        

                              (ii)        

  
                            C O N T E N T S

                              ----------                              
                                                                   Page

Corker, Hon. Bob, U.S. Senator from Tennessee, opening statement.     3
Kerry, Hon. John F., Secretary of State, U.S. Department of 
  State, Washington, DC..........................................     4
    Prepared statement...........................................     8
    Responses to questions submitted by the following Senators:
        Robert Menendez..........................................    47
        Robert Menendez, additional set of questions.............   105
        Bob Corker...............................................   107
        Barbara Boxer............................................   121
        James E. Risch...........................................   124
        Marco Rubio..............................................   128
        Tom Udall................................................   137
        Jeff Flake...............................................   140
Menendez, Hon. Robert, U.S. Senator from New Jersey, opening 
  statement......................................................     1

              Additional Material Submitted for the Record

Testimony given by Secretary of State John F. Kerry at the 
  hearing on September 9, 2013, submitted by Senator Bob Corker..   141

                                 (iii)

  

 
NATIONAL SECURITY AND FOREIGN POLICY PRIORITIES IN THE FISCAL YEAR 2015 
                      INTERNATIONAL AFFAIRS BUDGET

                              ----------                              


                         TUESDAY, APRIL 8, 2014

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:07 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Robert 
Menendez (chairman of the committee) presiding.
    Present: Senators Menendez, Cardin, Shaheen, Udall, Murphy, 
Kaine, Markey, Corker, Risch, Rubio, Johnson, Flake, McCain, 
Barrasso, and Paul.

          OPENING STATEMENT OF HON. ROBERT MENENDEZ, 
                  U.S. SENATOR FROM NEW JERSEY

    The Chairman. Good morning. This hearing of the Senate 
Foreign Relations Committee will come to order.
    Mr. Secretary, welcome back to Washington. I understand you 
have traveled to 44 countries and logged over 855 hours in the 
air, which translates to an incredible 35 days of flying. So I 
imagine it feels good to have your feet on the ground in a 
familiar place like this committee that you once chaired.
    We look forward to hearing your priorities for the State 
Department in the coming year. As the situations in the 
Ukraine, Syria, and Venezuela demonstrate, never has the need 
for American leadership and engagement in the world been 
greater.
    We understand the limitations and constraints that govern 
the budgetary environment, and that getting our fiscal house in 
order at home is the wellspring from which our national power 
flows. But in this complex and rapidly changing global 
environment, we also know that our national security interests 
are priority number one and they cannot be jeopardized.
    The $40.3 billion in base discretionary funding for the 
Department of State and USAID, equal to the 2014 enacted level, 
provides solid footing after several years of uncertainty for 
our international efforts. And the $5.9 billion for overseas 
contingency operations activities allows us to continue to 
address challenges in the Middle East and North Africa, 
including the Syrian humanitarian crisis, as well as in 
Afghanistan, and other frontline states.
    We also need to make sure that this budget is structured so 
that our Nation is capable of meeting the new challenges and 
opportunities of today's world. We face many challenging 
issues--most recently, the menacing threat by Russia in 
Ukraine, a challenge to its very existence. We can, and will 
continue to, stand with the Ukrainian people who, by right, 
will choose their own destiny.
    In addition to authorizing $1 billion in loan guarantees 
for Ukraine and other assistance to strengthen civil society 
and security in the region, we have also given you tools to 
respond to Russia in the form of sanctions. And our message to 
President Putin and his cronies must be robust and swift.
    On Syria, as we commemorate the third anniversary of the 
uprising, I am pleased that the administration is prioritizing 
assistance, both humanitarian aid and support for the Syrian 
opposition. That $1.7 billion request sends an important signal 
to the world and to the Syrian people of our commitment. But 
this leads to a broader question. We can demonstrate U.S. 
leadership on humanitarian assistance, but I would like to hear 
from you, Mr. Secretary, on how we are demonstrating, and 
intend to demonstrate, leadership in ending this crisis.
    On Afghanistan and Pakistan, let me say that I support the 
administration's efforts to right-size our investments in the 
overseas contingency operations account, but in this year of 
transition, I was hoping that more of the budget could be 
shifted into the base budget, so we could begin to normalize 
the assistance for these frontline states.
    We also should take special note of the elections held in 
Afghanistan last weekend. In the face of intimidation by the 
Taliban, the Afghan people demonstrated their desire to shape 
their destiny 
of their own country. The election was a historic marker in 
our engagement in Afghanistan, and we are hopeful that the 
final 
result will be credible and will genuinely reflect the will of 
the Afghan people.
    Now, there is a place that I am disappointed in the budget 
and that is in the Western Hemisphere. The 2015 request is a 
$358 million--a 21-percent decrease from the fiscal year 2013 
budget. I am incredibly troubled that every other major account 
in the Western Hemisphere is being cut and that there is not a 
reinvestment of those funds where programs are coming to an 
end.
    I do not dispute the importance of other priorities laid 
out in the administration's proposal, but I have seen year 
after year after year after year a continuous cut in the 
hemisphere's budget, and I believe that those cuts lead us to 
lack a comprehensive approach to Latin America and the 
necessary resources to back it up. Whether in Central America, 
where nations are facing a crisis of criminal violence and 
major challenges to governance and the rule of law, or in 
Honduras and El Salvador, which continue to have the world's 
highest murder rates, undercuting economic development and, in 
turn, leading to high levels of emigration that directly affect 
our country. And threats to democracy, freedom of expression 
and human rights in our hemisphere, from Cuba to Venezuela and 
Ecuador, should be a concern to us. As the volatile situation 
in Venezuela has shown, undermining democracy can lead to a 
political crisis and economic instability that has implications 
for the entire region.
    So let me close simply by saying that the overall budget 
sets a strong proposed funding level, but along with my 
concerns about Western Hemisphere issues, I am also concerned 
that there are significant reductions in humanitarian 
assistance and global health accounts. There is a nearly 5 
percent cut in global health, with the largest reductions in 
the Global Fund to Fight AIDS, TB, and malaria.
    So with those concerns--overall, I find a budget that I can 
support. I want to thank you, Mr. Secretary, for coming back to 
the committee. We look forward to hearing your views on all of 
these areas of concern. I am sure many members will have many 
questions outside of the budget as well. And with that, let me 
turn to Senator Corker for his remarks.

             OPENING STATEMENT OF HON. BOB CORKER, 
                  U.S. SENATOR FROM TENNESSEE

    Senator Corker. Thank you, Mr. Chairman.
    And I too want to extend my welcome back here. I know you 
have been doing a lot of traveling.
    And since we do not really pass budgets or reconcile them 
and since we have not yet moved to authorizations, although I 
think we may soon, I am not going to address the budgetary 
issues but talk about some other policy issues, if I could.
    Mr. Secretary, we all appreciate so much your willingness 
to serve in the capacity that you are right now. We all 
supported you. You had unanimous support of this committee and 
everybody in the Senate to do what you are doing, and you have 
certainly gone after it with a tremendous amount of energy.
    I think there is probably not a person on this committee, 
in spite of their appreciation for what you are doing, that 
does not have concerns someplace relative to our foreign policy 
in Syria.
    This committee strongly supported the authorization for the 
use of force to strike Assad for using chemical weapons. The 
committee passed overwhelmingly support for the Syrian 
opposition. And I think all of us understand today that the 
smartest thing Assad did for his own self-survival was to kill 
1,200 people with chemical weapons. We ended up jumping in 
Syria's lap. We now sit in the back of the bus as Iran and 
Russia really drive policy in Syria.
    One of your assistants was up here a few weeks ago and made 
some really reckless comments about a military strategy, if you 
will, in Syria and said that they would brief us. We have had 
no briefing. It has been 2 weeks. And as the chairman 
mentioned, instead of that, we read about something last night 
in the ``Wall Street Journal'' relative to disputes between you 
and the Pentagon.
    I do hope today that you will lay out clearly for us in 
this open setting what our strategy is in Syria and hopefully 
it is not just allowing people to kill each other off. Since 
the chemical weapons were used, another 50,000 people have been 
killed. Barrel bombs are being dropped indiscriminately on 
populations there. Assad is dragging his feet on alleviating 
the chemical weapons because he knows that prolongs his 
survival and continues to allow us, Russia, and Iran to prop 
him up.
    So I know there are a lot of concerns about our Syria 
policy. We have no policy from what I can tell other than, 
again, allowing people to kill each other off and us making 
commitments to the opposition that we do not honor and leaving 
them in refugee camps and basically stranded without the 
support that we committed to on the front end.
    In Ukraine, you know, here we have a 40,000 troop buildup. 
We know per public records Russia is basically paying people to 
foment violence in the eastern part of the country. I hope that 
you will address when we will implement the Executive order 
relative to sectoral sanctions. And hopefully that will be this 
week if they continue to have the buildup that they have. I am 
confused by the policy. We castigate them on one side. On the 
other hand, we are exchanging paper with them. I am confused 
about what our policy really is.
    In Iran, this is the first administration ever to agree 
that Iran will enrich uranium. That has never happened in the 
history of our country, and yet this administration has agreed 
to that.
    In Afghanistan, I am concerned that because of a monster 
that we have created, Karzai, and his actions which are 
certainly incoherent, I am afraid that we are going to pull out 
and not do the things that have been so strongly recommended by 
the Pentagon and others.
    And in China, in the Senkakus, we have a situation where we 
have unresolved disputes. We have skirmishes that are 
occurring. These are the kind of things that create world wars. 
And yet, our allies are concerned about where our support is. 
Japan is continuing to move ahead with ways of creating their 
own abilities to defend themselves.
    So, Mr. Chairman--Mr. Secretary--excuse me--I have a lot of 
questions. My sense is that the administration in so many ways, 
through rhetoric and persuasion, seems to think that people 
like the leaders of Russia and China and other places respond 
to nice rhetoric. I do not think that is the case. I am 
concerned about our policy, and I hope today, due to 
questioning that I am sure many will have, including me, I hope 
you will lay out very clearly what our policies are in these 
areas.
    Mr. Chairman, I thank you for calling the hearing, and I 
look forward to our witness.
    The Chairman. Thank you, Senator Corker.
    With that, Mr. Secretary, the floor is yours. Your full 
statement will be entered into the record, without objection. 
And we look forward to your statement and then to engaging in a 
dialogue.

   STATEMENT OF HON. JOHN F. KERRY, SECRETARY OF STATE, U.S. 
              DEPARTMENT OF STATE, WASHINGTON, DC

    Secretary Kerry. Well, thank you, Mr. Chairman, very much, 
Ranking Member Corker and members of the committee. I am very 
happy to be back here and appreciate enormously the committee's 
indulgence to have shifted this hearing because it came at a 
critical moment just before I was asked by the President to 
meet with Lavrov relative to Ukraine.
    And so I also want to thank everybody on the committee for 
working so hard to move the nominations, which obviously is 
critical. I think it is not the fault of the committee, but 
with the combination of the vetting process and public process 
and so forth and the combination of the slowdown on the floor 
of the Senate, I think we are averaging something like 220-some 
days and some people at 300 days and some over 365 days. So I 
literally, only in the last month, have gotten my top team in 
place 1 year in, and I am very grateful to the committee. Mr. 
Chairman, you have worked really hard to make that happen and 
the ranking member. Great cooperation. Senator McCain and 
others helped to intervene on that. And I want to thank you all 
for that.
    A lot of questions, Senator Corker, that you raised, and I 
really look forward to answering all of them because there is a 
cohesive approach. We are living in an extremely complicated 
world, unlike anything most of us grew up with. And we can talk 
about that here today because it really is critical to the 
question of how we deal as the United States in our budget, in 
our own politics here, and in the choices we make.
    Obviously--Senator Corker just brought it up--the intense 
focus on Ukraine continues, and everything that we have seen in 
the last 48 hours from Russian provocateurs and agents 
operating in eastern Ukraine tells us that they have been sent 
there determined to create chaos. And that is absolutely 
unacceptable. These efforts are as ham-handed as they are 
transparent frankly, and quite simply what we see from Russia 
is an illegal and illegitimate effort to destabilize a 
sovereign state and create a contrived crisis with paid 
operatives across an international boundary engaged in this 
initiative.
    Russia's clear and unmistakable involvement in 
destabilizing and engaging in separatist activities in the east 
of Ukraine is more than deeply disturbing. No one should be 
fooled--and believe me, no one is fooled--by what could 
potentially be a contrived pretext for military intervention, 
just as we saw in Crimea. It is clear that Russian special 
forces and agents have been the catalyst behind the chaos in 
the last 24 hours. Some have even been arrested and exposed. 
And equally as clear must be the reality that the United States 
and our allies will not hesitate to use 21st century tools to 
hold Russia accountable for 19th century behavior.
    We have stated again and again that our preference and the 
preference of our friends and allies is de-escalation and a 
diplomatic solution. But Russia should not for a single 
solitary second mistake the expression of that preference as an 
unwillingness to do what is necessary to stop any violation of 
the international order.
    At NATO last week and in all of my conversations of the 
past weeks, it is clear that the United States and our closest 
partners are united in this effort despite the costs and 
willing to put in effect tough, new sanctions on those 
orchestrating this action and on key sectors of the Russian 
economy, in energy, banking, mining. They are all on the table. 
And President Obama has already signed an Executive order to 
implement these sanctions if Russia does not end its pressure 
and aggression on Ukraine.
    Now, let me make an equally important statement. It does 
not have to be this way, but it will be this way if Russia 
continues down this provocative path.
    In my conversation yesterday with Foreign Minister Lavrov, 
we agreed to meet soon in Europe, next week, with Ukraine and 
our European partners to discuss de-escalation, de-
mobilization, inclusivity, support for elections, and 
constitutional reform. And it is not in our judgment a small 
matter that Russia has agreed to sit in this four-party status 
with Ukraine at the table in an effort to try to forge a road 
ahead.
    Between now and then, we have made it clear that Russia 
needs to take concrete steps to disavow separatist actions in 
eastern Ukraine, pull back its forces outside the country, 
which they say they have begun to do with the movement of one 
battalion, and demonstrate that they are prepared to come to 
these discussions to do what is necessary to de-escalate.
    So Russia has a choice: to work with the international 
community to help build an independent Ukraine that could be a 
bridge between East and West, not the object of a tug of war, 
that could meet the hopes and aspirations of all Ukrainians, or 
they could face greater isolation and pay the costs for their 
failure to see that the world is not a zero sum game.
    Ukraine, and so many other ongoing, simultaneous challenges 
globally, reinforce what I said a moment ago to all of you. I 
think the members of this committee have long appreciated it. 
That is, that this is not the bipolar, straightforward choice 
of the cold war. We are living in an incredibly challenging 
time where some of the things that the East-West order took for 
granted most of my life are suddenly finding a world in which 
American engagement is more critical and in many ways it is 
more complicated because of nation state interests, balance of 
power, other kinds of issues that are on the table.
    You all travel. All the members of this committee do that. 
And you see what I see in every place that I travel as 
Secretary. On issue after issue, people depend on American 
leadership to make a difference. That has been reinforced to me 
more than perhaps any other single thing in the year that I 
have been privileged to be Secretary, whether it is South 
Sudan, a nation that many of you helped to give birth to and 
now a nation struggling to survive beyond its infancy, or 
Venezuela where leaders are making dangerous choices at the 
expense of the people, or in Afghanistan where this weekend 
millions defied the Taliban and went to the polls to choose a 
new President, or on the Korean Peninsula where we are working 
with our allies and our partners to make sure that we can meet 
any threat and move toward the denuclearization of the Korean 
Peninsula. I think I have had five meetings with President Xi 
this year and five trips to Asia already in furtherance of our 
efforts to--and two of those meetings were with the President 
with President Xi in an effort to further our goals there.
    U.S. presence and leadership does matter, and that is why 
our rebalance to the Asia-Pacific has been supported and 
welcomed by people throughout the region.
    We also have great allies, great partners, but the fact 
remains that no other nation can give people the confidence to 
come together and confront some of the most difficult 
challenges in the same way as we are privileged to do. I say 
that without arrogance. I say it as a matter of privilege. We 
have this ability. And I hear this from leaders all over the 
world.
    I particularly hear it about the Middle East peace process. 
I read some who question why the Secretary of State is engaged 
or as intense, as he might be, or why the United States should 
be doing this if the parties do not want to do this. Well, the 
truth is the parties say they want to continue these talks. The 
truth is the parties are actually still talking to each other 
in an effort to try to see if they can get over this hurdle and 
make that happen.
    But I have one certainty in my mind. I have yet to meet any 
leader anywhere in the world who argues to me that it is going 
to be easier next week or easier next month or easier next year 
or easier in the next 5 years to achieve a long sought after 
goal if the United States is not engaged now. There is no 
Foreign Minister anywhere that I have met with, no leader. You 
know, when I visited recently at the Vatican with His Eminence, 
the Secretary of State, Cardinal Parolin, this is first and 
foremost of people all over the world. Prime Minister Abe, the 
Prime Minister of Indonesia. They ask you, do we have a chance 
of making peace in the Middle East, because everywhere it is a 
recruitment tool, everywhere it is a concern, everywhere it has 
an impact. And the fact is that everybody volunteers gratitude 
for the fact that the United States is engaged in that effort.
    So whether it was NATO this past week or the G7 last week 
or the Vatican itself, I have heard from minister after 
minister just how much the global community has invested in 
this effort. Japan just committed several hundred million 
dollars to the Palestinians for assistance. The Saudis, the 
Qataris, the Emiratis have each responded to our request and 
committed to $150 million each to assist the Palestinians going 
forward.
    So this is something that has an impact on everybody, and 
believe me, it has an impact on life in the United States, too. 
So we will continue to the degree that the parties want to. It 
is up to them. They have to make decisions, not us. They have 
to come to the conclusion that it is worth it.
    The same is true on Iran where every country understands 
the danger that a nuclear-armed Iran would pose to our national 
security and to the security of our allies. And that is why we 
have been so focused, along with all of you, on forging an 
unprecedented coalition to impose the sanctions. From day one, 
this administration has made it a foreign policy goal to 
prevent Iran from acquiring a nuclear weapon. To achieve this 
goal, we have been clear that we will use all the elements of 
our national power, including direct negotiations with Iran, 
the very kind that we are engaged in as I speak. We are 
approaching these talks seriously and with our eyes wide open.
    That is why, as we negotiate, we continue to enforce 
sanctions on Iran, not affected by the Joint Plan of Action, 
not just, incidentally, over its nuclear activities but also 
because of its support for terrorism. And we will press the 
case on human rights and its record wherever we can. And we 
will continue to urge Iran to release our American citizens, 
Amir Hekmati, Saeed Abedini, and we will work to help find 
Robert Levinson. All three should be home with their families 
and that is consistently raised by us with any Iranian official 
when we engage.
    These are just some of the biggest issues that we are 
focused on each and every day simultaneously, my colleagues. 
They are not the only ones.
    Senators Corker and McCain, you have both been to the 
Syrian refugee camps on the border. You have seen the horrors 
firsthand as I have. And this committee has focused on the 
moral and security imperative that is Syria. And I am 
particularly grateful for the fact that you voted the way you 
did, the one body in the Congress that took that vote, and it 
was a courageous and important vote.
    We are focused on this every single day, and we are 
currently routing increased assistance to the moderate 
opposition. I know we will talk about this in the course of 
this hearing. We are wrestling with these tough challenges, 
even as we are moving the State Department ahead to help our 
businesses succeed in a world where foreign policy is economic 
policy.
    One of the things that I want to emphasize. When I became 
the nominee, I said to everybody on the committee that foreign 
policy is economic policy. Economic policy is foreign policy in 
today's world. And so we have set ourselves up in the State 
Department to be increasingly geared toward helping American 
businesses and toward creating new partnerships in an effort to 
also promote our foreign policy goals. We are focused on jobs 
diplomacy and shared prosperity. That is why Embassy Wellington 
just helped a company in New Jersey land a $350 million 
contract to lay fiber optics across the Pacific. It is why our 
consulate in Shenyang has been so engaged to reverse tariffs 
against American agricultural products. It is the challenge of 
the modern State Department in a modern world, and that is to 
wrestle with the challenges and opportunities that come at us 
faster than ever before. It is a challenge balanced also 
against security in a dangerous world, which is why this budget 
implements the recommendations of the Independent 
Accountability Review Board and makes additional investments 
that go above and beyond what the review board recommended.
    So I want to thank you, all of you, for everything you have 
done for the security of our missions, and I want to thank you 
for the way this committee stands up for an active, 
internationalist American foreign policy that is in our 
interests.
    I spent enough time here in this room, as well as in the 
Senate, to know that you do not call anything that costs 
billions of dollars a bargain. But when you consider that the 
American people pay just 1 penny of every tax dollar for the 
$46.2 billion in this request, I think it is safe--and if you 
add OCO, it is $50.1 billion. I think it is safe to say that in 
the grand scheme of the Federal budget when it comes to the 
State Department and USAID, taxpayers are getting an 
extraordinary return on their investment.
    So I thank you for your partnership in these efforts, and I 
look forward to our conversation today. Thank you, Mr. 
Chairman.
    [The prepared statement of Secretary Kerry follows:]

         Prepared Statement of Secretary of State John F. Kerry

    Chairman Menendez and Ranking Member Corker, thank you. Thank you 
for your leadership of this committee, your help in moving our nominees 
through toward confirmation, and thanks to all of you for your patience 
and cooperation in rescheduling this hearing to accommodate some urgent 
issues with respect to Ukraine.
    Ukraine, and so many other ongoing, simultaneous challenges 
globally, reinforce what I think members of this committee have long 
appreciated--that because this is an incredibly complicated world, one 
more challenging than the bipolar, East/West world order we took for 
granted for most of my life, more than ever, this is a world where 
American engagement is absolutely critical.
    I know many of you travel, too, so you see what I see in every 
place I travel as Secretary: On issue after issue, people depend on 
American leadership--whether it's South Sudan, a nation some of you 
helped give birth to, a nation struggling to survive beyond its 
infancy--or Venezuela, where leaders are making dangerous choices at 
the expense of the people--or in Afghanistan where this weekend 
millions defied the Taliban and went to the polls to choose a new 
President, or on the Korean Peninsula, where we are working with our 
allies and partners to make sure we can meet any threat and for the 
denuclearization of the Korean Peninsula. U.S. presence and leadership 
matter, which is why our rebalance to the Asia-Pacific has been 
supported and welcomed throughout the region.
    We have great allies, great partners, but this fact remains: No 
other nation can give people the confidence to come together and 
confront the most difficult challenges the way the United States can 
and must, and I hear this from leaders all over the world.
    I particularly hear it about the Middle East peace process--where I 
have yet to meet anyone who has argued to me that it's going to be any 
easier next week, next year, or 5 years from now. But I've talked to 
Foreign Ministers from dozens of countries who think that this is 
something the United States needs to be doing. And whether it was NATO 
this week, or the G7 last week, or at the Vatican itself, I heard from 
minister after minister just how much the global community is invested 
in this effort--because peace would bring not only security and 
opportunity to the Israelis and the Palestinians, it would bring an end 
to one of the most intractable conflicts in the world.
    The same is true on Iran--where every country understands the 
danger a nuclear-armed Iran would pose to our national security and to 
the security of our allies. That's why we've been so focused--along 
with you--on forging an unprecedented coalition to impose sanctions.
    From day one, this administration has sought to prevent Iran from 
acquiring a nuclear weapon. To achieve this goal, we have been clear 
that we will use all elements of our national power, including direct 
negotiations with Iran of the kind we are engaged in as I speak.
    We are approaching these talks seriously and with our eyes wide 
open. That's why, as we negotiate, we will continue to enforce 
sanctions on Iran not affected by the Joint Plan of Action--not just 
over its nuclear activities but because of its support for terrorism 
and its gross human rights record. We will remain vigilant in 
confronting Iranian illicit conduct, including any attempts at 
sanctions evasion. And we will continue to urge Iran to release our 
American citizens, Amir Hekmati and Saeed Abedini, and work to help 
find Robert Levinson. All three should be home with their families.
    These are just some of the biggest issues we're focused on each and 
every day, simultaneously. They're not the only ones. Senators Corker 
and McCain--you have been to the refugee camps on the Syrian border--
you've seen these horrors first hand, as I have. This committee has 
focused on the moral and security imperative that is Syria--and we are 
focused on it every single day.
    We're wrestling with these tough, tough challenges even as we're 
moving the State Department ahead to help our businesses succeed in a 
world where foreign policy is economic policy. That is why we're 
focused on jobs diplomacy and shared prosperity, that is why Embassy 
Wellington helped a company in New Jersey land a $350 million contract 
to lay fiber optics across the Pacific, and it's why our consulate in 
Shenyang has been so engaged to reverse tariffs against American 
agricultural products.
    This is the challenge of the modern State Department in the modern 
world--to wrestle with challenges and opportunities that come at us 
faster than ever before.
    It's a challenge balanced against security in a dangerous world, 
which is why this budget implements the recommendations of the 
independent Accountability Review Board and makes additional 
investments that go above and beyond. I want to thank you for 
everything you have done to support the security of our missions.
    And I want to thank you for the way this committee stands up for an 
active, internationalist American foreign policy. I spent enough time 
in Congress to know not to call anything that costs billions of dollars 
a bargain. But when you consider that the American people pay just one 
penny of every tax dollar for the $46.2 billion in this request, I 
think it's safe to say that in the grand scheme of the federal budget, 
when it comes to the State Department and USAID, taxpayers are getting 
an extraordinary return on their investment.
    I thank you for your partnership in these efforts and I look 
forward to our conversations today.

    The Chairman. Thank you, Mr. Secretary, for that 
comprehensive review of both our challenges and opportunities, 
and the daily mission of the men and women of the State 
Department.
    I want to go to Iran. I read an article yesterday in the 
Wall Street Journal entitled, ``Obama Administration Shows 
Optimism on Iran Nuclear Talks.'' And despite significant 
political hurdles and vastly different stated positions with 
reference to Iran's nuclear programs, in public comments there 
is the sense of progress and optimism. I am trying to glean 
where that is from.
    I am worried when I read this and other articles where it 
says: ``some officials who have worked on developing the Obama 
administration's negotiating position toward Tehran have 
acknowledged that major concessions are needed by both sides 
for a deal to be reached.'' The complete dismantling of 
Tehran's uranium enrichment facilities and the Arak reactor--
the initial demand of the West--is no longer achievable. The 
West is unlikely to get a complete accounting from Tehran of 
the secret nuclear weapons work that the West believes it 
conducted in the past.
    The article goes on to suggest that the P5+1 should instead 
focus on extending the time it would take for Iran to break out 
and produce nuclear weapons to between 6 and 12 months.
    Now, I do not think that we did everything that we have 
done to only get 6 or 12 months' lead time because a deal that 
would ultimately unravel the entire sanctions regime for a 6- 
to 12-month lead time is not far from where we are today. And 
with no sanctions regime in place, and understanding that 
sanctions we have pursued have needed at least a 6-month lead 
time to become enforceable--and then a greater amount of time 
to actually enforce--that the only option left to the United 
States--to this or any other President and to the West--would 
be either to accept a nuclear-armed Iran or to have a military 
option.
    So I want to hear from you, Mr. Secretary, whether that is 
where we believe success lies. Or is the success as outlined in 
a letter by 83 Members of the Senate to the President, where we 
say that we believe that we need to dismantle Iran's nuclear 
weapons program and prevent it from having either a uranium or 
plutonium path to a nuclear bomb. Where we believe that there 
are no enrichment facility needs like Fordow and Arak, and 
where we must get evidence of what happened in Parchin. I am 
trying to get a sense of these parameters because, to the 
extent that the administration has asked for forbearance, part 
of it is going to have to be based on having an understanding 
of the parameters.
    And I would assume--and I ask you this question 
specifically. Does the administration, if it strikes a deal, 
ultimately believe that it needs to come back to the Congress 
for the approval of such a deal in terms of the elements of the 
law that exists today that would have to be repealed?
    Secretary Kerry. Well, Mr. Chairman, good questions, all, 
and entirely appropriate for us to try to dig into that a 
little bit.
    Let me begin by saying, first of all, I am not expressing 
optimism one side or the other. I remain agnostic and 
questioning even as we are just about halfway through. I talked 
with our team on the ground in Vienna yesterday. They are 
having serious expert, in-depth, detailed conversations about 
what it takes to achieve our goal, proving that this is a 
peaceful program. I think it is fair to say that I think it is 
public knowledge today that we are operating with a time period 
for a so-called breakout of about 2 months. That has been in 
the public domain. So 6 months to 12 months is--I am not saying 
that is what we would settle for, but even that is 
significantly more.
    Remember, ``breakout'' means that they make a decision to 
race, to sort of move out of the regime that has been put in 
place and overtly move to enrich sufficiently to create enough 
material for one weapon. That is what breakout means. It does 
not mean they have gotten to a warhead or to a delivery system 
or even a test capacity or anything else. It is just having one 
bomb's worth, conceivably, of material but without any 
necessary capacity to put it in anything, to deliver it, to 
have any mechanism to do so and otherwise.
    We have amazing capacity that is being built into this 
system to understand what they are doing. During just the JPOA 
implementation, we are inspecting in Fordow. We have never been 
in there before. We are inspecting in Natanz. We have not been 
in there. We are occasionally, I think several times a month, 
once or twice a month, inspecting in the Arak facility. They 
cannot move anything into the Arak facility to complete its 
commissioning. We are inspecting their storage of centrifuges. 
We are inspecting their mining and their milling and so forth. 
We have a huge track here of what they are doing.
    And so the greater likelihood is at the end of this, we 
hope to be able to come to you with an agreement that has the 
most extensive and comprehensive and accountable verification 
process that can be achieved in order to know what they are 
doing.
    So when we talk about the number of months, we do not know 
what they are yet, but if you know--I mean, you have to think 
about this. If they make a decision to break out, sanctions are 
not going to be what make the difference. If they are overtly 
breaking out and breaking an agreement and starting to enrich 
and pursue it, they have made a huge, consequential decision. 
And the greater likelihood is we are going to respond 
immediately.
    The Chairman. I gather what we are doing now--I have to be 
honest with you--if the end result is a 6- or 12-month window 
for which the sanctions regime will have fallen--and if it is 
true that they decide to break out. The only question is: Is 
the reason they are at the table because of the sanctions 
regime? Depending on how we act, they will calculate whether or 
not to make that decision based on internal consequences to 
their economy, and based on concerns that the Ayatollah has 
about regime change, either from the outside--which is his 
constant concern--or from within, because of the economic 
catalyst that can be created in Iran.
    And so if 6 to 12 months is where we end up--I know that 
you have not said that, but since you said that it would still 
be more significant than 2 months--the bottom line is I would 
hope that is not where we end up. Because with their research 
and development capacity still moving forward as we speak--
allowing them to create more sophisticated centrifuges that 
close the window for them, and even more quickly with their 
missile development--these elements are all worrisome. It is 
far different from where we started off, and what we were told, 
to where I believe we are heading.
    And this is why so many Members joined us in staking out a 
ground so that the administration understands. Does the 
administration intend to come back to the Congress if you have 
a final deal for ultimately lifting some of the elements that 
would be needed to be lifted under law?
    Secretary Kerry. Well, of course, we would be obligated to 
under the law, Mr. Chairman. We would absolutely have to. And 
so clearly, what we do will have to pass muster with Congress. 
We well understand that.
    But let me just say very quickly all of the things you just 
raised are very much contemplated. I mean, these are all part 
of the conversation, the research, what kind of research, 
warheads particularly. There has to be a huge level of 
transparency.
    Now, you mentioned the Arak reactor. We have been very 
clear that there is no legitimacy to a full-on heavy water 
plutonium reactor, none whatsoever, in any scheme that they 
have articulated for private sector use. So that has to be 
dealt with in the context of the negotiations. It will be.
    The Chairman. I agree. But originally we were told that it 
is going to be dismantled. Now we are told that we are going to 
find a different purpose for it. It continues to morph into 
different areas.
    Let me ask you one final question.
    Secretary Kerry. Actually, let me just clarify, Mr. 
Chairman. First of all, it is written in the Joint Action Plan.
    The Chairman. Nothing is agreed to----
    Secretary Kerry. Correct. Nothing is agreed until 
everything is agreed. This is a mosaic that is going to have to 
be put together, and I can assure you that we are going to 
strive to get the longest period we can get in terms of 
breakout. There are a number of different options as to how it 
can be managed. But the important thing is that it is not a 
heavy water plutonium reactor. That is critical.
    The Chairman. One final question. The Russians--we have 
seen consistent iterations of a barter deal that clearly, if it 
was consummated, would be sanctionable. So my question is, 
number one, if such a deal actually comes into fruition, is it 
the administration's intention to sanction those actions? I 
look at this in our engagement with Russia. We met with Russia 
to broker a deal over Syria in September, and now have a 
worsening humanitarian disaster and the delay on chemical 
weapons. We also met with Russia over Iran. There is an ``oil 
for goods'' deal with Russia and Iran that sources say could be 
worth $20 billion--then Russia annexes Crimea and destabilizes 
Ukraine.
    I mean, I am beginning to wonder what it is--at what point 
in this relationship with Russia, particularly vis-a-vis Iran, 
but even beyond, is it going to be clear that there are 
consequences? I understand that Russia is an entity we are 
going to have to deal with, but by the same token, right now 
they seem to act in ways that are contrary to just about all of 
our interests.
    Secretary Kerry. Mr. Chairman, the hard reality is that the 
relationship with Russia produces both moments of consternation 
and conflict, as well as cooperation and effect. We did, in the 
course of the last years, the START treaty, and in the course 
of the last years, we have cooperated on Afghanistan. We have 
cooperated on Syria. We have cooperated on P5+1 on the Syria 
chemical weapons.
    I talked yesterday to Foreign Minister Lavrov, and I also 
talked to the Director General of the OPCW. Currently 54 
percent of the chemical weapons are out of Syria, and we have 
major shipments that are planned at two sites near Damascus. 
They should take place in the next days. But there is a general 
sense that we are concerned about the slowdown, but we still 
believe we could be on schedule or close to schedule. We are 
pushing for that. And the Russians have indicated they are 
prepared to continue to push and to try to achieve that. They 
have an interest in achieving it.
    So, you know, there are pluses and, yes, there are minuses, 
obviously. We do not have the luxury as a country of being--you 
have got to deal at this point. In one time or another, Reagan 
dealt with Gorbachev. Nixon dealt with Mao. It is a reality of 
the world that we try to move forward even as----
    The Chairman. I appreciate that and I understand the 
challenge.
    Secretary Kerry. But let me say----
    The Chairman. But on the barter deal--such a deal would 
clearly violate the regime that has been set up. And I assume 
that we need to make it very clear to the Iranians, as well as 
to the Russians, that such a deal would be sanctionable if it 
happened.
    Secretary Kerry. Mr. Chairman, we have made it clear to 
both sides our deep concerns about the reported ``oil for 
goods'' deal. It would raise serious concerns, as you have 
said. It would be inconsistent with the terms of the P5+1 Joint 
Plan of Action, and yes, it could trigger U.S. sanctions 
against the entities or individuals that are involved in that 
deal.
    The Chairman. Senator Corker.
    Senator Corker. Mr. Chairman, I appreciate your questioning 
and I am glad you took the time you did. I did want the 
Secretary to see the concerns that we have about foreign policy 
are very bipartisan and very sincere and very deep.
    I am going to move to Syria.
    I will say that it is hard for me to discern the good 
things that have occurred relative to our negotiations with 
Russia, although I hope over time we will be able to see those.
    When the President talked about his redline back in August 
2012, 30,000 Syrians were dead. Today 150,000 Syrians are dead. 
We continue to talk about this shiny object, the chemical 
weapons, but people daily are being killed with barrel bombs. 
And I would just like for you in front of everyone, since you 
are up here asking for a budget request--I would like for you 
to explain to us what our Syria policy is right now.
    Secretary Kerry. Sure, I would be happy to, Senator.
    Senator Corker. And let me say this. We did not create the 
Syrian problem. I understand that. We did not create it. But 
our lack of attention in dealing with it has caused it to 
fester to a point where now it is a national security threat to 
our Nation. That is certainly what our leaders are saying in 
that area, that the amount of extremists, which we all said 
would grow, I might add--I think you even said on the front 
end. But I would like for you just to explain to all of us 
again what our strategy toward Syria is today in detail, if you 
would.
    Secretary Kerry. I would be delighted to explain what it 
is, but I also want to explain what it is not because I have 
heard people suggest many things. I mean, you just said the 
word. Inattention to it has led it to be where it is today and 
so forth. I just do not agree with that, Senator. I really do 
not agree with that.
    The fact is we have paid enormous attention to it. By 
absolute consensus in the United States Congress last year, I 
do not think there was a Member here who suggested there was a 
military--maybe one or two who suggested there was a military 
solution to Syria.
    Senator Corker. No, but we did suggest arming, training----
    Secretary Kerry. Senator, I am delighted. We are doing a 
lot of things and we are deeply engaged with the opposition. We 
are more engaged than we have ever been before right now and 
more successfully right now.
    Senator Corker. Would you be willing to tell us about that?
    Secretary Kerry. Not in an open session.
    Senator Corker. Well, would you commit right now to tell us 
every detail of our Syrian strategy in a classified setting?
    Secretary Kerry. I have always felt--as the chairman knows, 
in my years as chairman of this committee, I thought one of the 
great anomalies of the United States Senate was that the 
Foreign Relations Committee, which has to authorize and create 
foreign policy, is not part of the chain that----
    Senator Corker. So you will not commit to sharing.
    Secretary Kerry. No, I will. I will.
    Senator Corker. You will commit to sharing every detail of 
what our strategy is.
    Secretary Kerry. To the degree I am allowed to under the 
process of the law, I will do that. But if there are any 
limitations that I am aware of, I am not sure. But we always 
have these briefings down in CVC and I am happy to go through 
with you.
    But let me explain what I can here in open session. I want 
people to understand what we are doing.
    I came into this role in February, February 1st of last 
year. We immediately had a meeting with the Foreign Ministers 
of the so-called London 11 Support Group. We met in Rome. We 
met in Amman, and we began to coordinate our efforts with the 
opposition.
    Then in April--I think it was April--I went to Russia, met 
with President Putin, met with Foreign Minister Lavrov, and 
made the argument that we needed together to try to work toward 
a political solution. At that point in time, President Assad 
was not faring so well, and there was a great sense of 
insecurity in Syria. The Russians agreed that we needed to try 
to negotiate this.
    Subsequently, after agreeing to the concept of a Geneva II 
meeting where you would try to have a negotiation, the 
opposition began to have its own infighting, nothing we could 
control, just the nature of the beast. And while they began to 
have their infighting, large numbers of jihadists began to be 
attracted to the effort to get rid of Assad because he was 
killing Sunni, and many of them are Sunni-based.
    Senator Corker. All of which everyone said was going to 
happen on the front end. Very predicted.
    Secretary Kerry. But what was the plan to not have that 
happen, Senator? I did not notice Congress racing to the 
barriers saying we are going to do something. I do not think 
the American people who are going to send American----
    Senator Corker. Well, let me ask you this. Do you agree 
with the President's comments on CBS just recently that the 
authorization for force that you asked for, that had we done 
that, it would have had no effect in Syria? Do you agree with 
those comments? It would have no effect after you came in and 
told us the effect that it was going to have.
    Secretary Kerry. That is not what the President said. What 
the President said, it would not have had the effect of 
changing the calculation or the course of the war. It would 
have had an effect on precisely what he was asking for it for, 
which was to send a message to Assad about the use of chemical 
weapons.
    Senator Corker. So the authorization you asked for was not 
to degrade his capabilities?
    Secretary Kerry. Of using chemical weapons, correct. If you 
go back and read it, it was precisely targeted to reduce his 
capacity to use chemical weapons.
    Senator Corker. Let me ask you this.
    Secretary Kerry. But let me just finish the thought here. 
Everybody up here was saying we do not want to go to war.
    Senator Corker. Not everybody. This committee voted to go 
to war.
    Secretary Kerry. No. They did not vote to go to war. They 
voted to have a limited strike for the sole purpose of 
degrading his capacity to deliver chemical weapons. Guess what.
    Senator Corker. Did you not share with us that that 
degrading would have a definite effect on his ability to carry 
out strikes against the opposition? You did not tell us that?
    Secretary Kerry. I think it would have had some effect on 
that, Senator, but it would not have had a devastating impact 
by which he had to recalculate because it was not going to last 
that long. We all know that. It took 30,000 sorties and 30 days 
in Bosnia to have an impact. Here we were going to have 1 or 2 
days to degrade and send a message.
    And guess what. Senator, we came up with a better solution, 
to get all of them out by working through the diplomatic 
channel with Russia, and we have an agreement which is now 
working out with 54 percent removed and we are moving to more.
    So what is your take? Would you rather drop a few bombs, 
send a message, and then have him still with the weapons and 
capacity to deliver them, or would you rather get all of them 
out?
    Senator Corker. Let me ask you this question. Instead of 
meeting with us and laying out strategy, I have noticed the 
administration is really good at leaking things to newspapers. 
The chairman alluded to that 2 weeks ago when one of your 
assistants was making the most reckless comments that have been 
said before this committee.
    But let me just ask you. Apparently there is some debate 
occurring relative to military action or not. The Wall Street 
Journal reports that you are for it. We got a letter from Julia 
sitting right behind you. It was undated, but it said we do not 
believe that there is a military solution to the Syrian crisis.
    But I would like for you to share. Do you think there is or 
is not? Is there a debate that is occurring right now about 
military action or not? Clear it up. I would love to know 
whether Anne Patterson was making something up or something is 
actually occurring there.
    Secretary Kerry. Well, Senator, let me do that. I ask you 
to give me the time to do it because I do want to clear it up. 
But I also just want to finish quickly the notion.
    If there is no military solution--and everybody at the 
Pentagon would tell you there is no military solution.
    Senator Corker. But apparently you think there is.
    Secretary Kerry. No. I do not think there is a--I think 
there is a capacity to change Assad's calculation, and so does 
the President.
    Senator Corker. Which is what we discussed last August.
    Secretary Kerry. We will discuss in a classified session 
exactly what those things are. But let me come back for a 
minute because I want to answer your question.
    The reality is that if you are going to have a negotiated 
solution, you have to have a ripeness to the ability to be able 
to come. Last May, there was more ripeness. Then the situation 
changed on the ground. Today Assad feels fairly secure in 
Damascus and in some of the corridor going north to the ports, 
and that has been his strategy. But around him in the south 
particularly, in the east, and in the north, there is not that 
kind of security. In fact, the opposition has made some gains 
recently.
    And so the key here is how do you get the parties to a 
place where they both understand that there is not going to be 
a military solution that does not destroy the country 
absolutely and totally but which ultimately could be 
negotiated. There has to be a recognition by both of the 
ripeness of that moment. It is not now. We all understand that.
    So the question is can you do something in order to create 
that, and that is a legitimate question for the Congress, a 
legitimate question for the administration. And we talk about 
that. Of course, we do.
    Senator Corker. What is the answer?
    Secretary Kerry. But there is no difference in our policy. 
I support the choices the President has made. We need to have a 
classified briefing. You need to understand where we are and 
what we are doing, and I look forward to having that 
conversation.
    Senator Corker. Well, Mr. Chairman, I appreciate you having 
this hearing.
    And, Secretary Kerry, I guess, will tell after, when you 
write your memoirs, whether you support the policy of the 
administration or not. But we certainly get a lot of 
conflicting reports. I look forward to that classified----
    Secretary Kerry. I am happy to be the recipient of some 
good advice. What do you believe would make the difference 
right now in order to get a negotiated solution? Or do you 
believe there is a military solution?
    Senator Corker. So I actually strongly supported what we 
passed out of committee on both occasions, which was arming the 
vetted moderate opposition--I strongly supported that--with 
training, doing it under the Defense Department auspice not 
potentially other areas. I strongly supported that. I kind of 
thought you supported that actually.
    I strongly supported the limited strike that you asked for. 
Instead, we took another path and we have had another 60,000 
people dead there. No doubt the dynamics on the ground have 
changed. We have got 10,000 al-Qaeda folks on the ground, which 
we did not have at the time.
    And yes, it is a lot more complicated now. It is 
destabilizing Iraq. It is destabilizing other places. And we 
are in a very different place. And we did not take actions at a 
time when we could have made a difference. So many on this 
committee wanted us to do that. So, yes, we are in a very 
complicated place.
    It is interesting that we are going to end up in a place 
where our interests with Russia align because very soon we are 
going to get to a point where, because of the extremists on the 
ground there, it is a threat to their homeland and to ours.
    But you are the Secretary of State, and I would love to 
hear--you have to be disappointed by what has happened there. 
You have to be disappointed by the lack of action. You have to 
be disappointed by the indecisiveness. And candidly, we keep 
hearing about these things that are coming forth that are going 
to change the dynamic.
    Secretary Kerry. Well, Senator, I would say to you the fact 
is we are doing more than we have ever been doing. And you do 
need to be briefed. I am not sure I understand why you are not. 
We have had all Senator briefings historically on issues of the 
top level security. We ought to do that. I am ready to try to 
make that happen. The sooner the better, because if you had 
that, a lot of these questions would be answered.
    The Chairman. Senator Cardin.
    Senator Cardin. Thank you, Mr. Secretary. I very much 
appreciate not only you being here but the work that you are 
doing globally for U.S. interests.
    On Syria, let me just follow up one question where I would 
hope there would be strong agreement. I have been very vocal in 
the human rights violations that have occurred in Syria. During 
war, people get hurt, but there has been an intentional 
targeting of civilians by the Assad regime; 10,000 children 
have already died in Syria.
    At previous hearings, we have talked about the U.S. role in 
making sure that those who are responsible for these gross 
violations of international human rights are going to be held 
accountable. And yet, I still do not see a game plan to bring 
to justice those who have targeted innocent civilians for 
horrible outcomes, including the use of chemical weapons.
    So can you just share with us what steps the United States 
is taking to make sure that we will have preserved the record 
and people will be held accountable? Because I tell you the 
only way that we can try to reduce this type of action in the 
future is to make it clear those that are responsible are, in 
fact, held accountable by the international community.
    Secretary Kerry. I could not agree with you more, Senator. 
And all of those incidents are being chronicled and completely 
packaged, in a sense, ready for that prosecution. There are 
countless entities that are preparing those cases. There is no 
question in my mind or in anybody's mind I think who watches 
this closely that war crimes have been committed purposely, 
intentionally, ordered at the highest level. We saw that in the 
case of the gas, but it goes well beyond gas. The 
indiscriminate bombing of civilians, the use of starvation as a 
tool of war against civilians, blockades. The torture, 
documented, of more than 11,000 individuals. It is a human 
disaster beyond many words in the world.
    The only other place I can think of on the face of the 
planet where things may be worse is North Korea. We had the 
U.N. report recently on North Korea. But that is a level that 
is unfathomable since the days of Hitler.
    But Syria's aggression against its own people--there is no 
question in my mind it has to be held accountable, and we have 
said that we will.
    Senator Cardin. Will you keep us totally engaged on a 
regular basis as to what progress is being made in this area?
    Secretary Kerry. Absolutely. Part of the difficulty right 
now, obviously, is access to the country and to those 
individuals. But within the course of time--that is probably 
one of the reasons some of them are fighting the way they are 
fighting. But over time, we have historically proven we can 
bring people to accountability and we will.
    Senator Cardin. You have spent a great deal of time in 
regards to working with the Palestinians and Israelis on 
getting the peace talks started. In the meantime, the 
Palestinians have taken unilateral action dealing with 
recognition that is contrary to the peace negotiations that 
makes it difficult. Yet, they will not acknowledge the right of 
a Jewish state.
    Can you just bring us up to date as to the prognosis of 
where we are in regards to the peace discussions?
    Secretary Kerry. Sure. First of all, you know it is our 
position the Government of the United States and the President 
supports the notion of Israel being defined as a Jewish state, 
and he has said that in many speeches and it is in our policy. 
And we believe that that should happen.
    But when it happens and how it happens has to be part of 
the negotiation, obviously. It is not going to happen in the 
beginning, Senator. It is really going to be one of those 
narrative issues that gets resolved toward the end.
    Senator Cardin. I would just point out that the 
acknowledgement of a Palestinian state is up front. It seems to 
me that the U.S. position is a clear--as part of the outcome, 
the international recognition of a Jewish state. That is not a 
negotiable point. So I do not quite understand when you say 
that that will not be acknowledged up front when the 
establishment of a Palestinian state is acknowledged up front.
    Secretary Kerry. Well, it is and it is not. They do not 
have a state yet. You have to have borders. You have to have a 
defined solution to other issues before you have a state. You 
have to resolve issues of demilitarization and other kinds of 
things.
    But here is what is really important, Senator. Both sides, 
whether advertently or inadvertently, wound up in positions 
where things happened that were unhelpful. Clearly, going to 
these treaties is not helpful, and we have made that crystal 
clear. And we need both sides to find a way to create the level 
of compromise necessary to do what they both say they want to 
do, which is continue the talks because they both view it as 
important to the future.
    Now, the irony, bitter irony, is that at this particular 
moment, this fight is over process. It is not over the 
substance of a final status agreement. It is over how do you 
get to the discussion of a final status agreement. So our hope 
is that we can work a way through this.
    But in the end, the parties are going to have to make that 
decision. It is not our decision. We can cajole. We can 
leverage. We can offer one thing or another to try to be 
helpful. They have to make the fundamental decision. And in my 
judgment, both leaders have made courageous and important 
decisions up until now.
    You know, for Prime Minister Netanyahu to release prisoners 
is a painful, difficult political step to take, enormously 
hard. And the people of Israel have been incredibly supportive 
and patient in giving him the space to be able to do that in 
exchange for the deal being kept of the release of prisoners 
and not going to the U.N. Unfortunately, the prisoners were not 
released on the Saturday they were supposed to be released. And 
so a day went by, day 2 went by, day 3 went by, and then in the 
afternoon, when they were about to maybe get there, 700 
settlement units were announced in Jerusalem and poof. That was 
sort of the moment.
    So we find ourselves where we are. My hope is the parties 
will find a way back. We are working with them to try to do so. 
Again I repeat. They have to make that fundamental decision, 
and I hope they will. I believe if they do, there is a way to 
get into substantive discussions now. A lot of groundwork has 
been laid over the last 8 months. We do not talk about it 
publicly. I am not going to go into the details here. But there 
has been a narrowing of differences. Are there gaps? Yes, of 
course, there are gaps. But the narrowing of where they are and 
of different options of how one might deal with them is real. 
And I hope the parties will be able to find a way back.
    But we have an enormous amount on our plate. There are 
limits to the time the President and I, obviously, can commit 
to this, given the rest of the agenda, if they are not prepared 
to commit to actually be there in a serious way.
    So we will see what happens in the next days. Our teams are 
still having some discussion on the ground. There was a long 
meeting yesterday between Palestinians and Israelis. And I am 
not going to suggest anything is imminent, but one always has 
to remain hopeful in this very difficult, complicated process. 
If it were easy, it would have happened a long time ago. Plenty 
of Secretaries of State and Presidents have tried to help make 
this happen.
    Why is this moment perhaps different? Because at the back 
end, the consequences are more stark and clear than they have 
been before, and there is less space for mistakes. I hope they 
will make it.
    The Chairman. Thank you.
    Senator Risch.
    Senator Risch. Thank you, Mr. Chairman.
    Mr. Secretary, I do not envy the position you are in here 
today. This is supposed to be a budget hearing where the 
American people find out what they are getting for their money. 
After the discussion we have had here today, I think anybody 
who would come in here would have an impression that after we 
have looked at the issues with Russia and Iran and North Korea 
and Afghanistan, Pakistan, China, the peace process, and all 
the difficulties with every one of these--I appreciate your 
view that there are some things happening which are positive. 
But I tell you you cannot help but get the impression that our 
foreign policy is just spinning out of control and we are 
losing control in virtually every area that we are trying to do 
something in.
    You know, we have got such limited time here to talk about 
all of these problems, but probably what I want to talk about 
briefly are just a couple of them.
    One of the best examples is the one that is on the front 
pages today, and that is the Russian issue. You know, this 
administration said they were going to hit the reset button, 
and I cannot help think that somebody hit the wrong button 
because things have not gone well during this administration.
    You know, the Russians today are misbehaving worse than 
they have in decades, and nothing seems to change that. When 
you look at what they did in Georgia and still remain occupying 
part of Georgia, when they even agreed not to, what they have 
done in the Ukraine, what they have done in Syria and are 
continuing to do in Syria, plus we all know about the cheating 
that is going on on the treaties that have been entered into, I 
am very disappointed at what is going on. You cannot help but 
be discouraged about it.
    I am interested to hear your thoughts about this meeting 
coming up next week because you talked about what happened in 
Syria and you had a very similar meeting in Syria where you sat 
down with Lavrov and supposedly you forged a road forward, and 
that road forward has been a disaster. You have heard the 
people talk about how many tens of thousands of people have 
been killed since then. The dismantling of the chemical weapons 
has slowed down.
    What makes you think you are going to be able to make 
better progress on the Ukraine? I mean, we have seen this movie 
over and over and over again with the Russians. They misbehave. 
Then we sit down at the table. We make some kind of an 
agreement and they misbehave even worse after the agreement. So 
maybe you could give us a little taste of what you are going to 
tell Lavrov when you meet with him next week.
    Secretary Kerry. Well, let me give you what I consider a 
taste of reality, Senator, about our foreign policy and the 
realities of the world.
    Georgia happened under George Bush. Georgia happened under 
George Bush, and he did not even bring a sanction. President 
Obama has brought sanctions and it is having an impact.
    Senator Risch. It is having an impact?
    Secretary Kerry. Yes, it is having an impact. And the fact 
is that it will have a far more serious impact if they cross 
over or continue what is happening in east Ukraine.
    Now, I do not know anybody in the United States of America 
that said we ought to go to war over Crimea. Is there any 
members of this committee who believes that? I do not think so.
    So what are we doing? We are using 21st century tools, 
which are the tools of diplomacy to bring people together in 
other countries to put sanctions in place. And we now have 
announced the possibility of using sector sanctions. Now that 
is serious business. Serious business. It is banking. It is 
energy. It is mining. It is arms. It is other things. And if 
you start going down that road, it is not just them who feel 
it, we will feel it too. So you have to approach these things 
with some sense of responsibility. It is not just a speech. It 
is a policy and it has implications in what happens. And the 
fact is that we believe they take that seriously.
    Now, their economy is not that strong. They do not make a 
lot in Russia. They extract from the ground and sell it. And so 
if we start changing energy policy and we start moving with 
respect to LNG and we start moving with respect to these 
sanctions, it can have a profound impact. And I think Russia 
knows it. It is not the preferred way to go.
    But when you say, you know, something like our foreign 
policy is spinning out of control, those are great talking 
points. They make for good sound bites on TV nowadays. But I 
have to tell you, Senator, that is just not true. We have 
helped negotiate a truce in South Sudan and helped to pull that 
country back from the brink of civil war. We have helped to 
create a framework for the disarming of M23 in the Great Lakes 
Region of Africa. We are engaged in helping the French to quell 
the Boko Haram and other people in the region of Mali and 
elsewhere. We are engaged with the Chinese very directly in 
helping to change their policy, which they have done, to put 
greater pressure on North Korea and to deal with their route to 
denuclearization. We have moved vessels into the region. We 
have sent clear messages of our need and willingness to defend 
the United States of America and our interests in the region. 
We are the force that has been helping to bring parties 
together to defend our interests in the South China Sea with 
respect to Chinese claims in that region. We have been engaged 
in our peace efforts in Somalia and other parts of the world in 
our peacekeeping. We are engaged in Syria, as I told you, 
leading nation in terms of humanitarian assistance, and we are 
doing more than any other country with respect to what is 
happening on the ground now with the opposition. In the Middle 
East peace, we are leading the effort. In the gulf, we are 
leading the effort.
    I just do not agree with you. We are living in a 
complicated world where there is more sectarianism, there is 
more religious extremism. There are more young people. You 
know, 60 to 65 percent of countries are under the age of 30; 50 
percent are under the age of 21. What is the American policy 
for being able to help them to be able to develop jobs in the 
future and not go be extremists? There is so much we need to do 
that depends on the budget, on the Congress, on our engagement 
in the world, and we are more engaged than ever before, which 
is why my travel schedule is what it is.
    Senator Risch. Well, Secretary Kerry, the one thing I 
really agree with you is the results of foreign policy are not 
speeches. It is the results. It is the perception of the 
American people. And you heard the list we have gone through of 
the problems we have, and I agree that you have certainly done 
some good things in some of the areas that you have just 
indicated. But the major issues, the major initiatives that 
affect the national security of this country are in a very 
desperate situation in some places, and they are deteriorating. 
I understand the speeches. But I am telling you the American 
people believe that in these areas that we have talked about, 
particularly in Russia, our situation has deteriorated.
    Before the chairman cuts me off, I want to talk just 
briefly about Iran. I have got a constituent and that is Pastor 
Abedini who is in prison. John, you have got to do something 
about this. You sit across the table from these people. There 
is no reason he should be in prison today. You cut loose 
hundreds of millions of dollars to those people. You have 
relaxed some of the sanctions. Please help these people. Tell 
them you are not going to do anything more. Tell the Iranians 
you are not going to do anything more for them until they 
release him and the two other people that they are holding 
against all international law, against all human rights, and 
against any definition of morality that you have.
    And my time is up, and thank you, Mr. Chairman.
    The Chairman. Senator Kaine.
    Senator Kaine. Thank you, Mr. Chairman.
    Thank you, Mr. Secretary. So much to talk about.
    Let me just offer one thank you. I recently returned from a 
trip with Senator King to Israel, the West Bank, Lebanon, and 
Egypt. And in direct discussions with both Prime Minister 
Netanyahu and Mahmoud Abbas, their personal praise of you for 
your efforts in trying to put the United States in the 
appropriate position to try to find a difficult peace deal--
they said almost exactly the same thing about you. They were 
very praiseworthy of your efforts, unprompted. And they 
comments that they made are comments that I have heard from our 
allies and partners in Egypt, Bahrain, the UAE, Jordan, Turkey, 
Saudi Arabia.
    This is a very difficult thing. It is a holy grail in 
international diplomacy to try to find a solution to a problem 
as vexing as this without venturing a thought on the potential 
outcome. I just want to thank you for your efforts to try to do 
something that would be so important in the world.
    I want to ask you about Syria. Syria is complicated partly 
because there is not a real consensus in this body about 
military action. When we had a debate here in August, there was 
a very narrow committee vote authorizing military force for a 
limited purpose. The odds makers basically said had that been 
taken on the floor of the House, it would have failed. In the 
Senate, it might have been close. But clearly, there was 
division.
    But let me ask you about something where there is not 
division in this body, and that is humanitarian aid to Syrians. 
The United States is the largest provider of humanitarian aid 
in the world to Syrians outside Syria, Lebanon, Jordan, and 
Turkey especially. And that is not by accident. That is because 
we want to do it and it is a bipartisan priority.
    Now what we need to do is focus upon the delivery of 
humanitarian aid to the 9 million Syrians inside Syria who need 
it. After many efforts to stonewall humanitarian resolutions, 
Russia finally acceded to one, and on the 22nd of September, 
U.N. Security Council Resolution 2139, which demanded that all 
parties, in particular the Syrian authorities, promptly allow 
rapid, safe, and unhindered humanitarian access to provide 
humanitarian access to Syrians, including--and it is 
specified--access across conflict lines and across borders.
    Last week, the Senate, after action by this committee, 
unanimously approved a Syrian humanitarian aid resolution that 
was sponsored by myself and Senator Rubio. And in part, that 
resolution indicated that the Senate--and it passed unanimously 
on the floor--supports the immediate and full implementation of 
U.N. Security Council Resolution 2139 which calls for unimpeded 
access of humanitarian assistance to all Syrians.
    The 30-day report after the U.N. Security Council 
resolution says 30 days in, there is not unimpeded access. What 
is the United States going to do to help carry out the 
unimpeded access provision of the U.N. Security Council 
resolution that we fought for months to see pass?
    Secretary Kerry. Well, we are very disappointed in that, 
obviously. And you are absolutely correct. It has not been 
successfully implemented. We are pushing in the region to see 
if we can get a consensus about ways in which we might approach 
that, and that is part of the consideration of what we should 
talk about in classified session.
    Senator Kaine. I view that as important. Again, just to 
underscore the point, where you have division here over 
something like what is the right military step, that is going 
to make it complicated. But where you have unanimity that we 
want to be 
the largest provider of humanitarian access and we want to do 
what we can to provide unimpeded access in the country, that is 
a place I think where much can be done. So I look forward to 
that discussion.
    The next question I will ask and my last question is when 
you were here a year ago, I asked you a question that is a 
budgetary matter but also a policy matter. For a number of 
years, the State Department had assessed that the training of 
embassy security personnel needed to be done in a more thorough 
way with better facilities and better coursework.
    Prior to the horrible attack on Benghazi in September 2011, 
the State Department had identified a training facility on a 
BRACed Army base in Virginia, Fort Pickett, and it indicated 
that was going to be the training facility for embassy security 
personnel needs.
    After the attack in Benghazi, the ARB report recommended as 
a key recommendation, recommendation 17, that security training 
had to be improved. The State Department in response to that 
recommendation said we are going to do it and we have 
identified the site. We have looked for it for years. It is 
going to be at Fort Pickett, and we are going to get moving on 
it.
    Last winter, February or March, largely in sort of a back 
and forth between the State Department and the OMB, that plan 
to proceed in Fort Pickett was slowed down.
    I asked you about it a year ago. We are here a year later, 
and there has not been any appreciable movement on the proposal 
to upgrade the security training in this instance of State 
Department personnel.
    If an enhanced security training facility at Fort Pickett 
was a good idea before Benghazi, my assessment is in the 
aftermath of Benghazi with an ARB recommendation, it is a 
better idea. Why have we not moved forward on this with more 
dispatch?
    Secretary Kerry. Well, we are moving forward. The reason it 
did not go forward as rapidly as you would have hoped or I 
would have hoped was from somewhere--I am not even sure of the 
details--there was a suggestion of an alternative site that had 
to be evaluated. It was properly evaluated. Due diligence was 
done. The Department is 100 percent determined that Fort 
Pickett is the best site. It is the site that we want to work 
with you to go forward on. There is no question of that. And we 
want to try to do that as fast as we can. There was 
coordination with the Defense Department and the intelligence 
community, et cetera. Fort Pickett is the site.
    Senator Kaine. Thank you, Mr. Secretary.
    Mr. Chair, I would just say in our travels, when I see 
these foreign security officers like in Lebanon living on a 
compound and they get 6 hours a week and that is all they get 
off compound, and they have to be accompanied by security, I do 
not think we should be penny-wise and pound-foolish on security 
training for our FSOs. I think it is an important initiative, 
and the ARB report recommends with an underline and an 
exclamation point that we ought to be moving more quickly.
    Thank you, Mr. Chairman.
    The Chairman. I agree with the Senator. As you know from 
our embassy security bill, there are provisions as it relates 
to this. And you have been the most successful member today. 
You got a very direct, specific, positive answer. [Laughter.]
    Senator Rubio.
    Senator Rubio. Thank you, Mr. Chairman.
    Thank you for being here, Mr. Secretary. I appreciate it 
very much.
    I also want to thank you in your written testimony for 
mentioning the crisis in Venezuela. I wanted to talk about that 
briefly.
    As you know, they had elections about a year ago in 
Venezuela where there were credible reports of irregularities, 
but even leading up to the election, the government controls 
all the modes of communication, denying the opposition airtime, 
meanwhile dominating the airtime for the government. Of course, 
the government there has invested heavily in these armed 
militias called collectivos, which are basically these 
neighborhood groups armed by the government who go out 
intimidating and, in fact, shooting and killing protestors in 
the current protests that are going on. They have jailed 
members of the opposition. They control the courts. About 90 
percent of the judges in Venezuela or a significant percentage 
of the judges in Venezuela serve on a provisional basis, which 
means at any point they could be removed by President Maduro if 
he chose to do so. In fact, they recently removed a member of 
their national assembly because she, according to them, had the 
gall of appearing at the Organization of American States and 
traveling abroad to condemn what is happening within that 
country.
    In addition, as you are well aware, in July 2009, the 
General Accounting Office found that the so-called Bolivarian 
National Guard, the Venezuelan National Guard, is deeply 
involved in the trafficking of illicit narcotics. And as you 
know, our Government has significant concerns about senior 
Venezuelan Government officials being involved as well in 
transnational criminal activities, including people like Mr. 
Hugo Carvajal, Mr. Henry Rangel Silva, the former Defense 
Minister and now is the Governor of Trujillo State. Mr. Tarek 
el-Assami, who was the Governor of Aragua State, a Congressman 
by the name of Freddy Bernal, and last but not least, the 
President of their own Congress, Mr. Diosdado Cabello. All of 
these are people we have concerns about in terms of their 
engagement in transnational criminal activity.
    So here is my question. Why cannot we just say what is 
obvious to anyone who sees these facts that the Government of 
Venezuela is not and does not comport itself as a democracy and 
in fact, because of all of these activities and others and 
violence against their own people, have lost the legitimacy of 
a government? Are we prepared to say that as a matter of stated 
policy of the United States?
    Secretary Kerry. Senator, first of all, let me thank you 
for, and congratulate you for, your leadership on this because 
it is important. I appreciate enormously the clear message in 
Senate Resolution 365 that deplores the repression and the 
violence against the people of Venezuela. And we have spoken 
out against it and criticized their ridiculously contrived 
attacks on us as somehow being engaged in doing things that we 
have not been engaged in and so forth.
    Right now, we are very supportive of third party mediation 
efforts that are aimed at trying to end the violence and see if 
we cannot get an honest dialogue to address the legitimate 
grievances of people in Venezuela. Even as we are sitting here 
today, I think the UNASUR delegation is meeting in Caracas, and 
for the first time, the government and the opposition is going 
to be meeting today as we meet here. So this is a very delicate 
time in the possibility of a negotiation, and I do not think we 
should--I do not want to do something today that provides 
cannon fodder for them to use me or us as an excuse to say this 
is why they have to do things.
    Senator Rubio. And I understand that concern.
    I mean, my bigger concern is that our interests in 
stability, which is what the hope of this negotiation would be, 
somehow takes precedent over our stated foreign policy of 
standing always on the side of liberty, freedom, democracy, 
respect for human rights, all of which are being systematically 
abused. And I think it is important for the people in Venezuela 
to know that the United States condemns these acts of violence 
that are going on and all the other things that I have 
mentioned. And I just do not understand why we cannot look to 
this and say, by the way, just because you had an election does 
not make you a democracy. There are other aspects of democracy, 
and this government in Venezuela does not behave like a 
democracy.
    Secretary Kerry. They are putting that to the test. There 
is no question about it, Senator, and I do not disagree with 
you. We have spoken out. I have issued statements personally. I 
called the Foreign Minister some time ago to weigh in. We have 
had our people, as you know, on the ground speaking out. So I 
do not think there is any question for the people of Venezuela 
where we stand.
    The question is, Is there a way to protect those people and 
earn for them the ability to be able to get out of jail, 
express their rights in the political process, and fight for 
the future of their country? I think let us let this meeting 
take place. Let us see what happens. And there is time for me 
and you and others to work on this and see if we have to go a 
different road forward.
    Senator Rubio. I have one more question about another part 
of the hemisphere.
    Last summer, the Cuban regime was caught smuggling over 240 
tons of weapons to North Korea in violation of international 
law. The United Nations has confirmed this. In fact, it is the 
largest interdiction of weapons to or from North Korea since 
the U.N. sanctions were imposed. What has been the United 
States reaction to that? What have we done in reaction to this 
violation of U.N. sanctions?
    Secretary Kerry. We are working directly with the DPRK 
Sanctions Committee at the U.N. in order to ensure a vigorous 
response, to shine a light on this activity, and to get 
accountability for what has happened. In our dialogue with 
them, we have thus far focused on the individuals who have been 
involved in this and the entities involved in it. So in March, 
along with likeminded states, we pushed to make the Panel of 
Experts report public on the incident. That was released. It is 
the first time the Panel of Experts report has been made public 
since June of last year. And we have made clear that this 
violates the sanctions, and Cuba's interpretation of the U.N. 
Security Council resolution is incorrect. So we intend to 
review the results of the U.N. process and try to see if we can 
get a united multilateral response.
    Senator Rubio. Would you agree that this evidence that is 
now out there before the public is strong evidence of the fact 
that Cuba remains a state sponsor of terrorism?
    Secretary Kerry. Well, in this sense, they have exported 
weapons, and that is certainly would contribute to that 
judgment. But in other respects, it is a question--you know, it 
still does not fit the legal definition, Senator. But you and 
I, in a common sense point of view, would say this is----
    Senator Rubio. What about holding an American hostage like 
Mr. Alan Gross?
    Secretary Kerry. It is an act of personal terror. It is not 
international terrorism under the sense of the definition that 
fits for the designation.
    I will tell you that I think just today Alan Gross 
announced that he is going to engage in a hunger strike. We are 
deeply involved in this. I met with his family just a few weeks 
ago, a month ago or so. We have a number of efforts underway, 
which I would be happy to talk to you about privately. But we 
are very, very focused on trying to get Alan Gross out of 
there. His treatment is inhumane, and he is wrongfully 
imprisoned.
    The Chairman. Mr. Secretary, let me just add--selling 
weapons to North Korea in violation of Security Council 
resolutions--the only country in the Western Hemisphere and the 
largest such violation of the Security Council resolution by 
any country--is in my view a pretty significant terrorist act.
    Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman.
    Mr. Secretary, thank you very much for being here and for 
all of your efforts to address so many conflicts and hotspots 
around the world.
    I understand that nobody has yet mentioned today the recent 
election in Afghanistan, and while we do not have a full report 
in, the early reports are that that election was significant, 
that the turnout was over 60 percent. And it is a real tribute 
to the people of Afghanistan that they came out in defiance of 
threats from the Taliban. It is also a tribute to all of the 
military efforts on the part of the United States and the 
international community and the diplomatic efforts and the 
economic assistance programs that the United States has 
provided to Afghanistan. So let me congratulate you and 
everyone at the State Department who has worked so hard to 
support the people of Afghanistan.
    One of the programs that the State Department is currently 
engaged in that I have worked on is the Afghan special 
immigrant visa program. And as we are preparing for the 
transition in Afghanistan, I believe that there is still a 
continued need for us to ensure that all of those Afghans who 
have helped our men and women on the ground there who are 
threatened--they and their families are threatened--have the 
opportunity to try and come to this country to rebuild their 
lives.
    And I wonder if you can update me on the status of the 
program. There were some issues that were not working very well 
with the program last year that I know the State Department has 
been addressing. Can you give us an update on how those are 
going?
    Secretary Kerry. I would be delighted to, Senator. Thank 
you for your comments at the beginning of your question.
    Let me just say quickly about the Afghan election. I want 
to join you. A couple of people did mention, sort of in 
passing, that it happened.
    But this is very significant, but I do not want to overblow 
it because it is the first one and you have to get through the 
runoff and there are still challenges. But nevertheless, 
millions of Afghan men and women went to the polls, and they 
voted for their next President. It is something that was 
unfathomable not so long ago. People wondered if this could be 
achieved.
    The last couple of months in Afghanistan, there was a full 
and open, flourishing debate in Afghanistan as people listened 
to the candidates. And I think what is really important to 
understand is this was owned and operated, managed, run by 
Afghans. It was their election commission. It was their rules. 
They put this together. They made this happen. And I give great 
credit to President Karzai who appointed the commission, played 
by the rules, helped make this happen, to all the people who 
have been invested in this. And their army helped provide the 
security. We helped with the planning and laid out some of the 
thoughts about it, but they helped execute it. So it is very 
important. It is a critical step forward.
    There will be challenges ahead. I do not want anybody to 
suggest this smoothes the way completely at all. There are big 
challenges. But this is important.
    Now, on the special immigrant visas, we have improved the 
processing times. We have expanded the outreach to current and 
former employees who may be eligible. We have issued more 
special immigrant visas in Afghanistan and in Iraq, 
incidentally, than at any time in any previous year. Since 
October of last year, more than 2,000 Afghans, interpreters, 
their family members, have received special immigrant visas. 
There were over 700 principal applicants and more than 1,300 of 
their dependent family members. And in the first 5 months of 
this year, we have issued more SIVs to Afghans, to their 
dependents than in all of last year. So I think there is a lot 
of work being done, even as we are maintaining the standards 
that you want and other people want with respect to the program 
itself. And I think the current allocation of visa numbers, the 
3,000 that are allocated, should get us through this year, but 
it will not be enough to handle the cases in the pipeline. We 
are going to have to expect that new applications are going to 
have to be approved as we go forward.
    Senator Shaheen. Well, thank you. I certainly look forward 
to continuing to work with the State Department on that 
program.
    On a note that is not so positive, last week it came to 
light that the State Department's Office of Inspector General 
has discovered that over the past 6 years, contracts worth more 
than $6 billion have lacked complete, and in some cases, no 
records and that many of the files for contracts supporting our 
United States mission in Iraq could not be located. So I wonder 
if you could tell us what actions the State Department is 
taking in response to the concerns that have been raised by the 
inspector general.
    Secretary Kerry. Well, let me begin by saying that we had 
not had an inspector general at the State Department for 3\1/2\ 
years or more. There was no inspector general.
    Senator Shaheen. And I appreciate your swift action to try 
and finally get one hired.
    Secretary Kerry. I decided that needed one. It is 
important. It is an important part of oversight. And so I hired 
Steve Linick who is our current inspector general who came from 
FHFA, but who also has been a former Federal prosecutor. He is 
an outstanding attorney and a good person for the job.
    And I welcome the oversight. That is number one.
    Number two, I began this process looking at the possible 
sort of liabilities. It came from my time here on the 
committee. When I traveled to Afghanistan, I saw the 
contracting and recognized the corruption that existed in 
Afghanistan itself and other problems. So when I first came in, 
I told folks we got to really get a handle on what is happening 
here.
    What we found is and what this inspector general report 
confirms is there have been some problems in just paperwork 
management. No $6 billion has been lost. The money is 
accountable. But it is keeping up with the paperwork. And part 
of the problem is, I have learned--and this is important to the 
budget process--every single entity of Government where we are 
managing contracting is underresourced, understaffed, and it is 
hard to be able to keep up with the paper. Now, you say why not 
go electronic. Well, in some of these places, electronic is not 
exactly an option in Afghanistan or other places. But it takes 
people. And so we are underresourced with respect to that.
    But we are on it. The Deputy Secretary of State for 
Management is pursuing this completely. We will have a report 
to the inspector general showing exactly where they are and 
where they are going. And this is a good process. I think 
people should welcome this kind of oversight and 
accountability. It helps us get on top of things.
    Senator Shaheen. Thank you.
    The Chairman. Senator Johnson.
    Senator Johnson. Thank you, Mr. Chairman.
    Mr. Secretary, welcome back. You left this committee and 
took on your new role at the same time I joined this committee, 
and it has been a rather momentous time in history. I think 
most Americans would really like to concentrate on the enormous 
domestic challenges, but reality is pretty well smacking us all 
in the face. Like Senator Risch, I do not envy you or the 
President's tasks having to grapple with these enormous 
challenges, kind of evidenced by this hearing.
    I would like to concentrate on what I think is right now 
the most pressing of all these problems, and it really is going 
back to Ukraine and our relationship with Russia. I was part of 
the bipartisan delegation that was there the day before they 
took the vote in Crimea. And certainly as we were meeting with 
Prime Minister Yatsenyuk, you could see the stress in his face. 
It was pretty sobering. I think we could also sense the 
disappointment that the United States was not even willing to 
offer small arms and ammunition to support the courageous 
people of Ukraine.
    In response to my question, I was asking, well, what can we 
do. What can we do to support Ukraine? And Prime Minister 
Yatsenyuk, first of all, made the statement that Vladimir Putin 
will not respond to words. He only responds to action.
    Now, in your testimony here, you say you have made it clear 
about our deep concerns and we will not hesitate to use 21st 
century tools. I just want to ask what are we going to do. What 
actions are we going to take to change the calculus of Vladimir 
Putin who will only respond to action? What are we going to do 
to make the price high for Vladimir Putin if he continues the 
provocations? You are saying it is a contrived crisis, 
contrived pretexts.
    Bottom line. The reason we heard from this administration 
they were not willing to provide arms is we thought it would 
create a provocation. Well, he does not need provocation. What 
Vladimir Putin needs is deterrence. What are we going to do to 
deter Vladimir Putin from going further in Ukraine?
    Secretary Kerry. Well, we are doing it.
    Senator Johnson. Just a minute. They mocked at our last set 
of sanctions.
    Secretary Kerry. I beg your pardon?
    Senator Johnson. They mocked our last set of sanctions.
    Secretary Kerry. The last set were not mocked. The first 
round met with some--because I think people's expectations were 
higher.
    But, look, Senator, you know this, in dealing with human 
nature and with problems, that you want to aim before you 
shoot. And I think it is clear that we have huge capacity to 
have an impact. You know, they are not incapable of analyzing 
America's capacity here with respect to banking and finance and 
movement of people and so forth.
    So what we wanted to do initially was make it clear there 
is going to be action. And the Europeans have marched together 
with us in partnership here in unanimous form. And that has a 
profound impact because Europe does a lot more business with 
Russia than we do.
    Senator Johnson. But Vladimir Putin, as you say, he is 
creating this provocation. They are moving into cities in 
Ukraine. He is setting up the exact same circumstances as he 
did in Georgia, as he did in Crimea.
    Secretary Kerry. Could be, but he could also not be. And I 
do not have the answer to exactly what step he is going to take 
when. What I do know is that we are sending a signal today of 
the clarity of our intention to use whatever sanction is 
necessary if they continue. Now, that is clear. And that is 
taking full aim. And the question is will that have an impact 
or will it not.
    I think given the fact that yesterday at their initiation, 
they called us to suggest that it was important to have a 
meeting to try to deal with this. I am not going to place any 
stock in a meeting. I am not going to place it on words. It has 
got to be actions. But you got to sit down and at least find 
out.
    Senator Johnson. Of course, that is my point. What actions? 
The former Governor of your State, Governor Romney, was pretty 
well mocked by this President when he said that Russia was 
America's greatest geopolitical foe. He wrote an interesting 
column. I just want to read part of it. ``Why across the world 
are Americans' hands so tied? Which kind of seems like we are. 
A large part of the answer is our leader's terrible timing. In 
virtually every foreign affairs crisis we have faced these past 
5 years, there is a point when America had good choices and 
good options. There was a juncture when America had the 
potential to influence the event, but we failed to act at the 
propitious moment. The moment having passed, we were left 
without acceptable options.'' And he went on to say, ``it is 
hard to name even a single country that has more respect and 
admiration for America today than when President Obama took 
office. And now Russia is in Ukraine.''
    If you disagree with that, can you name a country that has 
greater respect for America 5 years later?
    Secretary Kerry. I can name lots of countries that have 
greater respect for us as we are attempting to move people out 
of Guantanamo, as we end a war in Iraq, as we are beginning to 
draw down in Afghanistan, as we stand up for human rights, as 
we are the single greatest supporter of the humanitarian effort 
in Syria, as we do countless things, as we save 5 million kids' 
lives in Africa with our program on AIDS. There are many things 
that people admire about what we are doing.
    Are there problems? Sure, there are problems. In different 
parts of the world, there is greater sectarianism, greater 
religious extremism, greater radical Islam presence in various 
places. Are you going to dump all of that on the United States 
of America? I mean, please.
    This is a complicated world, my friend. And the fact is the 
United States I think is doing an amazing amount with some 
handicaps I might add. You know, a budget that is getting 
smaller, not bigger, having to hold back on what we are doing 
in certain countries, having to cut in certain places what we 
have been doing to try to help people educate or change or 
provide health care or do some of the things we do.
    So I think you need to look carefully at this kind of talk 
about the action that produces the differential. President 
Putin did not decide to do what he did in Crimea because of 
something the United States did or did not do. He decided to do 
it because he could and it was in his interest.
    Senator Johnson. And he did not feel he would pay a price. 
Trust me. I totally blame Vladimir Putin. If there is blood 
shed, it is because of Vladimir Putin, but we have to deter.
    Secretary Kerry. You have to measure price in certain ways. 
Is he paying a price? His oligarchs are not able to travel to 
various places. They are losing money. The ruble has gone down 
7 percent. There is an impact in Europe. I think he has had a 
massive change in public opinion in Ukraine. People who once 
felt better about Russia do not today. He has united many 
Ukrainians, even those who are Russian speaking, against 
Russia.
    Senator Johnson. But he is still sending in agents under 
the pretext for further action. He has not been deterred.
    Secretary Kerry. Yes, he is. No, he has not stopped doing 
that. That is accurate.
    But there are, I think, legitimate questions, before you 
pull the trigger, that need to be answered about what they may 
or may not be willing to do in the next days. They are willing 
to meet with Europe, with Ukrainians. That is a step forward. 
They are willing to sit with the interim government of Ukraine, 
with Europe, with the United States in an effort to sort of 
plot a road ahead. And we have made it clear the imperative to 
de-escalate, the imperative to demobilize, the imperative to 
move troops. After my meeting in Paris, they did announce the 
drawback of one particular battalion, not enough yet, not what 
we are obviously looking for, but a first signal.
    And the question now is can some of their other legitimate 
interests be met in a way that is appropriate, which does not 
invite illegitimate interests to also be mixed into the batch. 
And that is the key. I do not know the answer to that question 
yet, and I do not think we will until we meet.
    But I do think that given the serious implication of the 
sector sanctions, we owe it to ourselves and to everybody to 
exhaust the possible remedies that the diplomatic process might 
provide. We have not done that yet, and we are going to find 
out.
    Obviously, yesterday was a step backward. No question about 
it. And we have spoken out loudly and clearly as a consequence 
of it and made clear what our determination is.
    Senator Johnson. America must face reality, and hope is not 
a strategy. Thanks.
    The Chairman. Let me congratulate Senator Murphy on behalf 
of his State. He is proudly wearing his UConn pin. I know there 
are other members of the committee who will not feel--but we 
appreciate the excellent game of both sides, but we want to 
congratulate Senator Murphy, as he is beaming today. So, 
Senator Murphy.
    Senator Murphy. Thank you very much, Mr. Chairman. We wear 
our Huskies allegiance on our sleeve and also on our lapel.
    Secretary Kerry, thank you very much for being here today.
    I think there are a number of guiding principles behind 
Putin's foreign policy. One of them clearly is to reestablish 
control over what he calls the ``near abroad.''
    But one of them also is to do whatever he can to poke a 
stick in the eye of the United States. While I certainly 
understand some of the arguments and some of the interests by 
Members of the Senate to arm the Ukrainian military, in a lot 
of ways that plays directly into his hands by creating a 
military contest in Ukraine between the United States and 
Russia. And if this is ultimately just a geopolitical battle 
between the United States and Russia over Ukraine, we lose 
because we are playing in his back yard, and we are not willing 
to play by the same rules that he is willing to play by.
    And so, Mr. Secretary, I guess I want to ask you a question 
about how we take steps to insert the Ukrainians back into this 
discussion about their future relationship with Russia. I maybe 
want to ask that in sort of two ways.
    One, how do we shift the diplomatic conversations from 
conversations between you and Lavrov to conversations that 
truly make sure that the Ukrainians are part of that 
discussion?
    And second, what are the things that we can do, leading up 
to the May 25 elections, to make sure that they come off in a 
free and fair manner and the Russians have no ability between 
now and then to try to influence that choice? Clearly, we are 
getting some really, really discouraging signals about some of 
the actions that Russians are taking on the ground today to try 
to intimidate candidates, perhaps to try to dissuade people 
from coming out to the polls. What we have heard over and over 
again is that this is a revolution of dignity in Ukraine, that 
they want control over their destiny again. How do we put them 
at the center of these political deliberations? How do we 
support the upcoming elections to make sure that they actually 
get to register a free and fair choice?
    Secretary Kerry. Well, Senator, thank you. Terrific 
question. And congratulations on the Huskies.
    We have been really working--I mean, we have been very 
sensitive to and I think proactive in our efforts to make 
certain that everything is emanating from the Ukrainians. And 
so we have said very, very clearly that no decision will be 
made for Ukraine without Ukraine.
    I talk to Prime Minister Yatsenyuk regularly before I have 
a meeting, after I have a meeting, and in between in order to 
make sure that we are listening very, very carefully to what 
they need and do not want. But they do want us engaged, and 
they do want us supporting them in the way that we are through 
these discussions.
    Now, yesterday in my conversation with Foreign Minister 
Lavrov, I said it was really important for him to have a 
conversation directly with the Foreign Minister of Ukraine. And 
he said I intend to call him after we have talked, and he did. 
And they had a good conversation from what I understand and 
agreed to sort of try to come to this meeting and see if we can 
work constructively going forward.
    Now, look, I have been around long enough to know that 
scheduling a meeting, having a meeting, does not solve the 
problem necessarily, and it cannot become a camouflage for the 
realities that have to change on the ground. We all understand 
that. But if you do not talk, and you do not try, to arrive at 
some understanding of what the steps are that become the 
actions that are measurable, you are never going to get there 
and things spiral out of control and become worse.
    So what we are trying to do is manage the process going 
forward with a clarity that things were professed before going 
into Crimea that were not upheld. Statements were made about 
not violating the integrity of Ukraine, and they did. And so 
all of these protests and/or proffers have to be taken with a 
grain of salt pending the process.
    So we will continue to work very closely with Ukrainians. 
Our Ambassador on the ground, Jeff Pyatt--you guys have met 
him--is terrific. He is very engaged. He is listening 
carefully. And we are talking regularly with all of the members 
of the interim government.
    Now, with respect to the election, it is interesting that 
in our last meeting in Paris, while not accepting the 
legitimacy necessarily, there was no effort to change the date 
of the election. There was no sense that that is not going to 
go forward. Now, yesterday raises some question marks about 
that, and they are concerning obviously. But we will continue 
to try to work.
    And I might add it is not just us. All of our European 
partners, countless other people are invested in this notion 
that what has happened is a violation of the international 
order, a structure by which we have dealt since World War II in 
recognizing boundaries of countries and sovereignty and 
integrity of territory. And that is a serious issue. And so 
that is all going to have to be resolved in the days ahead 
going forward.
    Senator Murphy. Just a quick word, Mr. Chairman, about our 
Ambassador there. I do not think he has taken a day off or a 
half a day off or an hour off since this crisis erupted. And I 
will just note that he was voted out of this committee and out 
of the Senate expeditiously so that he was on the ground in 
time to know the country, learn the players so that he was 
ready to go when this crisis erupted, having no idea at the 
moment of his confirmation that he would be needed in this way. 
It is just another advertisement for why the Senate needs to 
move with all deliberate speed on nominees because you never 
know when they are going to be badly needed on the ground.
    Secretary Kerry. Well, thank you, Senator. I appreciate 
that very much. And you are right.
    The Chairman. Senator McCain.
    Senator McCain. I thank you, Mr. Chairman.
    Secretary Kerry, I watched with great interest some of your 
comments. May I say I think you are about to hit the trifecta? 
Geneva II was a total collapse, as I predicted to you that it 
would be. The only tangible result is that people who went to 
Geneva for the Free Syrian National Council--their relatives 
were kidnapped. The Israeli-Palestinian talks, even though you 
may drag them out for a while, are finished. And I predict to 
you even though we gave the Iranians the right to enrich, which 
is unbelievable, those talks will collapse too. You can talk 
about Mali and you can talk about other places in the world, 
but on the major issues, this administration is failing very 
badly.
    On the issue of Ukraine, my hero, Teddy Roosevelt, used to 
say talk softly but carry a big stick. What you are doing is 
talking strongly and carrying a very small stick, in fact, a 
twig. What has been done so far as a result of the Russian 
dismemberment of Ukraine in violation of a treaty that they 
signed and returned for the nuclear inventory of Ukraine, which 
was then the third-largest nuclear power, some individual 
sanctions, some diplomatic sanctions, suspension not removal 
from the G8, and now more threats to come.
    I predicted that Putin would go into Crimea because he 
could not bear to give up Sevastopol because he is what he is. 
And I am now very concerned, because of our lack of response, 
whether he will foment discontent in the manner which he is 
now, which will then demand autonomy for parts of eastern 
Ukraine.
    And when the Foreign Minister of Russia lies to your face 
once, twice, three, four times, I would be very reluctant to 
take his word for anything.
    So here we are with Ukraine being destabilized, a part of 
it dismembered, and we will not give them defensive weapons. I 
take strong exception to Mr. Murphy's statement, we do not want 
to provoke. We do not want to provoke Vladimir Putin by giving 
these people the ability to defend themselves after their 
country has been dismembered and there are provocations going 
on? That I say to you, sir, is the logic of appeasement. The 
logic of appeasement.
    I want to know and I think the American people should know 
and, maybe most importantly, the people of Ukraine should know 
why will we not give them some defensive weapons when they are 
facing another invasion, not the first, but another invasion of 
their country. It is just beyond logic. And frankly, when we do 
not give people assistance to defend themselves then, just as 
the Syrian decision, it reverberates throughout the entire 
world. I would like to know why it is not at least under 
serious consideration to give them some defensive weapons with 
which to defend themselves.
    Secretary Kerry. Well, Senator, let me begin with the place 
that you began with your premature judgment about the failure 
of everything. I guess it is pretty easy to lob those judgments 
around particularly well before the verdict is in on any of 
them.
    Geneva II, my friend, I said will not succeed maybe for a 
year or two. But if the truth is there is no military solution 
and there is only a political solution, you have to have some 
forum in which to achieve it. You know, the talks on Vietnam--
you know this better than anybody--went for how many years? 
Years. It took them a year to design the table to sit around. 
So I had no expectations that Assad's calculation is going to 
change in time for the first meeting or second meeting.
    But what we learned is that the Syrian regime was 
completely unwilling to negotiate in any serious way, which 
helps in terms of the opposition, and the opposition showed 
itself to be quite capable and that was important. And 40 
nations took it seriously enough, Senator, to come in order to 
make it clear you needed a political solution. Now, that is a 
beginning. That is all it is. I understand that.
    But if Syria is ever going to be resolved, it is going to 
be through a political process, and that political process, 
Geneva II, is now in place, though the moment is not ripe 
because we still have to change Assad's calculation. And you 
know, as well as I do, because you and I have talked about 
that, that that has yet to happen and it has to happen.
    Secondly, Israel-Palestine. It is interesting that you 
declare it dead, but the Israelis and the Palestinians do not 
declare it dead. They want to continue to negotiate.
    Senator McCain. We will see, will we not, Mr. Secretary.
    Secretary Kerry. I beg your pardon?
    Senator McCain. We will see.
    Secretary Kerry. Well, yes, we will see.
    Senator McCain. It has stopped. Recognize reality.
    Secretary Kerry. We will see where the reality is as we go 
down the road here. There are serious problems. It is a tough 
issue. But your friend, Teddy Roosevelt, also said that the 
credit belongs to the people who are in the arena who are 
trying to get things done. And we are trying to get something 
done. That is a Teddy Roosevelt maxim, and I abide by it. I 
think it is important to do this. Sure, we may fail.
    And you want to dump it on me. I may fail. I do not care. 
It is worth doing. It is worth the effort. And the United 
States has a responsibility to lead not always to find the 
pessimism and negativity that is so easily prevalent in the 
world today.
    And finally, on the subject that you raise about Iran; we 
are talking. The option is you can go to war. A lot of people 
are ready to drop bombs all the time. We can do that. We have 
the ability. But this President and this Secretary of State 
believe that the United States of America has a responsibility 
first to exhaust every diplomatic possibility to find out 
whether we could prove what the Iranians say, that their 
program is peaceful. Before you ask the American people to go 
to war, we have an obligation to exhaust the remedies that are 
available to us in order to legitimize whatever subsequent 
action we might have to take.
    Now, we are engaged in eyes-open negotiations. We have no 
illusions about how tough this is. I am not predicting success, 
Senator. I am not. But I know we have an obligation to go 
through this process before we decide to go to war.
    So that is where we are. You declare them all dead. I do 
not. And we will see what the verdict is.
    With respect to arming and providing assistance to the 
Ukrainians, the fact is that we are currently working with 
Ukraine to determine their requirements across the entire 
security sector, and based on those requirements, we are going 
to review the options with the Congress and find out whether or 
not we are in a position to provide assistance.
    But let me tell you something. If we decided today to give 
them a whole bunch of assistance, you got to train them. You 
got to do things. Which is the greater deterrent?
    We happen to believe right now that if the deterrence you 
are looking for is going to have an impact, the greatest 
deterrence will come from Putin's recognition of his own 
vulnerabilities in his economy and his recognition that if we 
bring sector sanctions, Russia is going to really hurt. I think 
that is a strong deterrent even as we consider what we do for 
the long term for military assistance, which will not make a 
difference fast enough to change this calculation.
    Senator McCain. Mr. Chairman, I appreciate the time. But 
facts are stubborn things, as Ronald Reagan used to say. Geneva 
I, there were 50,000 dead. Geneva II, there were 100,000 and 
some dead in Syria. Now there are 150,000 dead. Any objective 
observer will tell you that Bashar Assad is winning on the 
battlefield from the time when the President of the United 
States said it is not a matter of whether, it is a matter of 
when Bashar Assad is going to leave. Nobody says that anymore.
    Your view of what the Ukrainians need is vastly different 
from what the Ukrainians think they need, which is a sovereign 
right to try to defend themselves, which is something that we 
have done historically, helping people who are struggling 
against overwhelming odds.
    I thank you, Mr. Chairman.
    Secretary Kerry. Well, John, if I can just say to you, I 
just said to you we are evaluating with them exactly what their 
needs are, and we will come back here and ask you----
    Senator McCain. They have said what their needs are a long 
time ago, and you and I could sit down in 15 minutes, knowing 
what their needs are and that is defensive weapons.
    The Chairman. I think you have both made your points.
    Secretary Kerry. The greatest single need right now is to 
get their economy moving and to be economically strong because 
they will not survive otherwise.
    The Chairman. Senator Markey.
    Senator Markey. Thank you, Mr. Chairman, very much.
    Mr. Secretary, you talked about the Russian-led unrest in 
eastern Ukraine. There has now been an announcement that they 
are going to try to have a referendum in Donetsk on May 11 in 
front of the Presidential election on May 25. Clearly, the goal 
of that referendum is to say that part of the country wishes to 
secede and go back to Russia.
    Could you talk a little bit about that as it is unfolding 
as a strategy, a referendum strategy, in Russia and what the 
administration is thinking about as a strategy to deal with 
that?
    Secretary Kerry. Well, thank you, Senator.
    That may be the strategy, and if it is, it is very 
dangerous. And if they proceed down that road, that will be a 
second swing at a completely illegal, unconstitutional, 
internationally unsupportable effort to violate the territorial 
integrity of Ukraine. So nobody has any illusions about what 
might come with that.
    Now, the call for that I believe came from some paid 
individual in Donetsk, not necessarily an announcement per se 
that that is what is going to happen. And so I think it is 
unclear. There are representatives of the Ukrainian Government 
who have gone out there to begin to negotiate the de-occupation 
of the buildings 
and the process forward, and I think it is a moving target 
right 
now as to exactly what may or may not happen. But the issue is 
whether the Russians are serious in this discussion that we 
hope to have next week at resolving these kinds of questions.
    Part of their complaint right now is that there is an 
inadequate representation within the constitutional reform 
process in Ukraine, and they allege that if there is a proper 
representation and listening to people in the east and the 
south that that is really what they are after. I do not know 
the answer to that. If this is camouflage for this other move, 
we are obviously going to watch extremely carefully, and the 
President is completely poised to move forward with the sector 
or other sanctions necessary to respond to this.
    Senator Markey. So is the EU and the United States working 
together in terms of pushing for a fair and democratic process 
in this election? And what concerns do you have about the 
Russians trying to interfere with this electoral process? And 
what role do you think we can play with the EU to make sure 
this next month----
    Secretary Kerry. Well, the key is to flood the zone with 
observers, make sure we have got OSCE. We have asked the U.N. 
We are trying to get as many people in there who can be the 
truth-tellers, the people who can inform as to exactly what is 
happening and allow less maneuverability for the pretexts and 
the contrived situations to try to provide a legitimacy. And I 
think that is one important thing.
    The second is to work with the Ukrainians themselves to 
make sure that all of the instruments for a legitimate, open, 
free, fair, accountable, accessible election are available.
    Senator Markey. And I would like, while you are here, just 
to add one more subject, and that is climate change. It is 
worsening. The IPCC report actually has shown a telescoped 
timeframe for the dangers that the planet is facing. Could you 
talk a little bit about that as you see this impact globally?
    Secretary Kerry. Well, Senator, I appreciate your asking 
the question.
    The impacts of climate change are growing enormously, not 
significantly, but just enormously at a pace where you know, 
Senator, very well because you have followed this for years and 
been a leader on it, all of the scientific analysis that 
suggested targets that we need to meet in order to hold the 
carbon levels such that we can hold the warming of the earth at 
2 degrees centigrade--we are in excess of them. We are moving 
beyond them. And we are moving beyond them at a pace that shows 
us bringing more coal-fired power plants online, more methane 
being released, which is 20 times more potent than carbon, 
which is the consequence of the warming that is already taking 
place, more carbon dioxide going into the oceans, which is 
changing the ecosystem, more fires, more floods, more different 
weather patterns. I mean, there is just a profoundly impactful, 
clear, scientifically proven pattern taking place. And all of 
the predictions of the scientists are not just being met, they 
are being exceeded both in the rapidity with which it is 
happening and the level to which it is happening.
    So given the most recent IPCC report by the U.N. climate 
panel, really we have got to respond and we have got to respond 
rapidly. The margin for error is disappearing. And when I hear 
people say to me, well, you know, some people still contest the 
evidence or they contest the science, without any science to 
contest it, by the way, but they contest it nevertheless--and 
they say, well, why should we take these measures? What if you 
guys are wrong? Well, as you know, Senator, better than 
anybody, if what you are proposing or countless governments 
across the world are starting to do is wrong, the worst that 
can happen is they have made themselves more energy 
independent, they have got cleaner energy, there is less carbon 
dioxide, less particulates in the air, people are healthier, 
there are more jobs created in the realm of new energy, 
alternative energy, renewable energy, all for the better. If 
the other guys are wrong, the people saying do not listen to 
it, what is the worst that can happen? The worst that can 
happen is life as you know it on earth is over.
    And so I think people in public life have a responsibility 
to employ the precautionary principle that when you are 
weighing various concepts and they are supported by science and 
fact and empirical evidence, there is a responsibility to take 
action, and I hope we will.
    Senator Markey. Thank you for your work on that issue, Mr. 
Secretary, and all the other issues that we have been 
discussing here today. These are tough, tough issues.
    Secretary Kerry. Thank you, Senator. I appreciate it.
    Senator Markey. They have to be resolved.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    As I call upon Senator Paul, let me say that Kentucky 
played a really tough, defensive, exciting game, and we 
appreciate them showing the Nation what Kentucky is all about.
    Senator Paul. I know your consolation is sincere, and I 
wish I could accept it with a better attitude. [Laughter.]
    But I am still unhappy with the outcome.
    Thank you, Secretary Kerry, for coming today.
    One of the first things or actions that I remember as you 
began your office was that you reinstated the four employees 
that were involved and implicated by the review board in 
Benghazi.
    It has always, to me, been more of a concern about the 
decisions that were made in the 6 months in advance of Benghazi 
than the talking points. In fact, I think the talking points 
have drowned out some really important decisions we made. We 
are all human. So these people I am not saying are bad people, 
but some really bad decisions were made in the 6 months leading 
up.
    Two of the big ones that were made I think were that there 
was a 16-person security team led by Colonel Wood who said we 
wanted to stay in-country and they were not allowed to stay in-
country.
    And there was also a request for a plane. And apparently 
that evening--you know, for a DC-3 that was denied earlier, 
maybe about 6 months before the attack. That plane would have 
been important. There was a struggle that evening, you know, to 
get permission from the Libyans to get a plane. I think the C-
30 they were trying to get on was a Libyan plane.
    So there really, I think, were some bad decisions made. And 
this does not make the people who made the decisions bad 
people, but they were bad decisions that were made. There were 
requests for security that were turned down.
    Throughout the 6 months preceding the attack on Benghazi, 
though, a lot of money was spent on things that I think most 
Americans would say are frivolous and maybe not part of the 
immediate mission of the State Department.
    I will give you a few examples: $100,000 was spent on 
sending comedians to India--it was the Make Chai Not War tour; 
$100,000 was spent getting an electrical charging station in 
Vienna for the Ambassador so he could green up the Embassy; 
$650,000 was spent on Facebook ads--these are all State 
Department expenses; $700,000 was spent on landscaping for the 
Embassy in Brussels; and $5 million was spent on crystal wine 
glasses and crystal glassware, barware for the State Department 
for embassies.
    You can argue the legitimacy of these but it is hard to 
argue that in the face of the disaster in Benghazi. And it is 
hard to argue this in the face of people who say, well, we did 
not have enough money.
    The other criticism I think that ought to be considered 
with regard to Benghazi is that--this is something I think the 
review board did not adequately address--is whether or not in 
the midst of a country coming out of war, that really the State 
Department should be in charge of security, whether they can 
adequately provide security.
    And I think one of the biggest mistakes in decision--these 
all happened from your predecessor, not you. But the biggest 
decision mistake I think in Benghazi was thinking that Benghazi 
was more like Paris than Baghdad. And had we treated Benghazi 
as a fortress in the middle of a military base, I think we 
might have had a better chance. Nobody can predict exactly what 
could happen with a different outcome. But I think when we have 
a civil war raging, we have to consider whether or not one of 
the errors in decision was how we chose to protect or not 
protect the consulate.
    Why is this still important? I think it is still important 
because I am concerned another attack could happen like this in 
other countries that are under State Department control. I know 
you are probably well aware of sort of the situation on the 
ground in Libya, but I do not know that it is perfectly stable. 
I am concerned whether or not we could have another attack of 
this magnitude in Tripoli at the Embassy. I guess we no longer 
have any consulate in Benghazi. Correct?
    Secretary Kerry. We did not have one then, Senator. It was 
not a consulate. It was not a consulate.
    Senator Paul. Okay.
    But anyway, my concern is whether or not we are adequately 
protected, whether the State Department can adequately protect, 
and whether or not maybe embassies in war-torn countries or 
countries emerging from civil war would be better off treated 
more as we did in the Embassy in Baghdad, you know, with a much 
greater military presence and a much greater military oversight 
of protection, and whether or not you have looked at the 
expenses, and if you have not, you will look at some of these 
expenses that many of us have seen in the press and are aghast 
that we spent $100,000 sending some comedians to India, 
$650,000 on Facebook ads, $700,000 on landscaping, $5 million 
on crystal ware that really, in the face of the Benghazi 
disaster, we need to reevaluate how we are spending our money 
at the State Department.
    Secretary Kerry. When did the comedians go to India? I am 
curious.
    Senator Paul. It is all previous to your tenure. I am not 
blaming this on you.
    Secretary Kerry. We could use a few right now. [Laughter.]
    Senator Paul. I do not want to be frivolous about sending 
some comedians. I mean, really, seriously. There are complaints 
we do not have enough money for security.
    Secretary Kerry. Senator, let me answer your question. It 
is a good question and it is legitimate.
    But let me dispel you of any--I keep hearing repeated again 
and again that there was, quote, ``no accountability'' for 
these people who were involved. Two of them were forced to 
retire. They retired. And the other two were essentially 
demoted and took on lesser responsibilities. That is pretty 
heavy stuff for career people. So this needs to end, this 
notion that there was no accountability, not just the lives 
that were changed but the lives lost and the people who were a 
part of that, but these people obviously paid a price and a 
significant one.
    In addition to that, we have gone beyond what the ARB 
required in the 29 requirements. We have done even more with 
respect to our embassies. Every week I--every meeting that we 
have every day, as a matter of fact, we start the morning with 
an 8:30 meeting. If I am here, I am there. If I am not, I am 
informed. But we have a review of our threat levels, and we 
have too many places where there are threats.
    We have done an incredible job under the hardest of 
circumstances hardening sites where they can be, taking 
unbelievable precautions for our people. And we have done a lot 
of different things. We have created a new Deputy Assistant 
Secretary for High Threat Posts who is responsible for making 
sure they get the focused attention necessary to keep people 
safe. We have ensured that the staff of diplomatic security go 
to regular bureau meetings and regional meetings communicating 
on security issues. We have adjusted work requirements. I am 
not going to go through all of it. We have got 151 new security 
personnel. We have got countless Marine detachments slowly 
going out to provide protection where we can. And all of this 
has budget implications, obviously.
    I am puzzled by some of these expenses. I am going to look 
at them, and I will investigate it.
    But I think there is an incredible effort underway at the 
State Department to both tighten the belt but also upgrade our 
capacity to provide security to all of our people. It is a 
paramount responsibility of mine and the Department.
    Senator Paul. Do you think it was a mistake to have the 
Ambassador in Benghazi without more significant military 
protection?
    Secretary Kerry. Well, let me speak to--there was a request 
put in for additional security for Ambassador Stevens, and it 
was given to him. He had additional numbers of people that went 
out there with him. The problem is it was not adequate, 
obviously.
    Senator Paul. Well, and quite a bit of it was sort of 
unofficial militia. I mean do you think it was a good decision 
to have unofficial militia who basically ran when the time 
came?
    Secretary Kerry. He actually had additional security 
personnel official within the Department. There was an 
additional, I think it was, one or two people who were 
assigned. So his number when he went out there met what he had 
requested in terms of official State Department personnel. But, 
obviously, it was not adequate, as we all have sadly learned, 
to the task of repelling what took place.
    But the intelligence community has said they had no 
information about that kind of attack. There was nothing 
operative on which to be able to make a decision.
    Senator Paul. Are we still using militias, or do we have 
more of our own people doing protection?
    Secretary Kerry. We have more of our own people. We have 
significantly hardened up the Embassy there. I am not going to 
go into the numbers, but we have a very significant increase in 
American personnel on the ground. We have much more significant 
emergency contingency plans, and we are working very, very hard 
with other countries to work on the overall security issue.
    I was just in Algeria and Morocco for the security dialogue 
in the last few days of last week, and we discussed 
specifically the training of personnel for a rapid response 
force in Libya and the ability to be able to provide greater 
training and capacity going forward. I think everybody is 
concerned about Libya in the current status.
    Senator Paul. Thank you.
    The Chairman. Mr. Secretary, we are almost at the end here. 
I know that Senator Corker has a few comments to make, and then 
I will close out and we will get you back to the challenges 
that we all collectively face.
    Senator Corker. Mr. Chairman, thank you.
    And, Mr. Secretary, thank you for being here.
    I would like to ask permission that the testimony on 
September the 3rd be entered into the record, especially as we 
have highlighted. It tells a very different story about why the 
administration was asking for the military strike, the limited 
military strike, that the Secretary alluded to. It is a very 
different story than the story that is now being told by the 
administration.

[Editor's note.--The September 3, 2013, testimony mentioned 
above can be found in the ``Additional Material Submitted for 
the Record'' section at the end of the hearing.]

    Senator Corker. And, Mr. Secretary, I want to say that I 
know the issues in Syria are very difficult, and I look forward 
to this detailed briefing we will have soon, one of many that 
has been promised and has not occurred. And I do not think 
there are easy solutions.
    I do think that from a bipartisan standpoint, people are 
very concerned right now about United States credibility, and 
Syria I think was the beginning of that. I think there are 
concerns about Ukraine, our actual willingness to go forward 
and do something after we lost so much credibility around the 
redline issue and so much credibility on the ground with just 
people in the neighborhood regarding not following through on 
commitments that were made. And I know that you know they were 
made.
    So, look, I hope the chapter is not written, and I hope we 
have successes. I think everybody on this committee wants our 
foreign policy to be successful, and I think under Chairman 
Menendez's leadership, we have operated in a very bipartisan 
way. But I will say to you that if things do not change, you in 
effect could be presiding over a period of time where more U.S. 
credibility is lost than anyone could have imagined and a time 
when the world is becoming less safe as a result.
    So I wish you well. I really do. I am very genuine in my 
thoughts that I am glad you are in a position to try to affect 
these things, and I have said that over and over again. But I 
will tell you I think there is genuine concern here about where 
we are on both sides of the aisle. I think you sensed that 
today. I do hope that somehow the people that we are dealing 
with get a sense that we are really willing to do the things 
that are necessary.
    And I hope the President will soon--we had a good 
conversation a few weeks ago--look at sectoral sanctions. If we 
end up having the troops on the border there much longer, it 
seems to me that would be a good place to start.
    But again, a lot of concerns. I thank you for your work and 
I hope things turn around because I do believe that right now 
our foreign policy efforts are not yielding the kind of results 
that you would like to see or we would like to see, and yet, we 
all want them to be successful.
    Secretary Kerry. Well, Senator, if I can comment. Having 
spent 29 years on this committee, I started way over there in 
that far end seat and worked my way up to where Senator 
Menendez is. So I have seen the ups and downs. I have seen the 
merry-go-round and the rollercoaster of American foreign policy 
up close and personal.
    And I will tell you that we are living in a different time. 
I know the expectations are very high, but at the end of World 
War II, there was only one country standing, so to speak, and 
we were magnanimous enough to rebuild Germany and Japan. People 
opposed it. Many people. Truman had the courage with Marshall 
to make it happen. The fact is that we could make mistakes 
either in policy choices or in economy and still win, and we 
did for a long time.
    And ultimately in 1990-1991, things changed with the Soviet 
Union, and that released an enormous amount of pressure in 
places like what was then Czechoslovakia, now the Czech 
Republic and Slovakia. It unleashed all kinds of forces 
everywhere.
    And so today we are living with a far more, almost 19th 
century/18th century diplomatic playing field where interests 
and in some cases mercantilist interests, in other cases just 
security interests or territorial interests, other kinds of 
things are raising their head in ways that they did not during 
the cold war because they were suppressed.
    And now with the rise of radical Islam and massive numbers 
of young people who are filled with aspirations because they 
are in touch with everybody in the world through the media, the 
social media, they know what is happening everywhere. I mean, 
if you look at what happened in Tunisia, it was a fruit vendor 
who was tired of being slapped around by the police and the 
corruption in the country and so he self-immolated, and that 
ignited a revolution and a dictator of 30 years left.
    In Tahrir Square, that was not the Muslim Brotherhood. It 
was not religiously driven. It was young people looking for a 
future.
    Syria, the same thing. Young people were looking for a 
future, and when their parents came out to protest, the way 
they were put down, Assad started shooting them. And that has 
brought us to where we are today.
    You know, the United States has power, enormous power, but 
we cannot necessarily always dictate every outcome the way we 
want, particularly in this world where you have rising economic 
powers, China, India, Mexico, Korea, Brazil, many other people, 
who are players. You know, 11 of the 15 people who used to 
receive aid from IMF are now donor countries. We are living in 
a changed world. And governance is not doing very well in many 
places. Might I add also here, regrettably.
    So we need to do--all of us--a job of looking into the 
future and trying to figure out how we are going to stand up 
for America's interests and promote them more effectively. And 
that includes in the budget for foreign policy and in the 
options that we can put on the table.
    Now, one final word, if you will permit me. On Syria where 
we hear this notion that somehow there was a redline and then 
it was not enforced and somehow it is a sign of weakness. I beg 
to differ. Facts are stubborn things. The President of the 
United States made his decision. He said I am going to use 
military force but he listened to people on the Hill who said 
if you are going to do that, you ought to come to Congress. 
Now, maybe some of them were--you know, there were some 
crocodile tears in that particular plea because when he came to 
the Congress to accede to the constitutional process of our 
country and get them to affirm his prerogative to do what he 
decided to do, there was a resounding reluctance and you fought 
it. This committee was the sole exception. We know what the 
Senate floor might have done, and we know what the House would 
have done. So the President made his decision to use force.
    But out of my discussions with Lavrov--and, might I add, 
President Obama's discussions with Putin at the summit that 
they had, they talked about an alternative way of doing it 
without use of force. And so we came to an agreement to remove 
all of the weapons, not just to degrade some of his capacity 
over 1 or 2 days or whatever it was going to be.
    Now, that would have had an impact, yes, on people's 
thinking, but it would not have changed the fundamental course 
I believe of what was going to happen. It might have had an 
impact, though.
    But I have to tell you the President made his decision, and 
he was ready to use force. And we actually came up with a 
better solution, which is to get all of the weapons out, all of 
them out. And that still leaves us with other options, folks.
    So I think we need to depoliticize this a little bit and 
try to find a way forward for us to----
    Senator Corker. Yes. I do not think when you have a 
bipartisan concern that anybody is politicizing. I take 
tremendous offense at you making a comment that I have concerns 
as some kind of political implications when both sides of the 
aisle have expressed concerns.
    But let me just say----
    Secretary Kerry [continuing ]. When I say depoliticize----
    Senator Corker [continuing]. Well, well, let me finish.
    Secretary Kerry. Senator, I am not directing that at you 
personally. When I say depoliticize, I mean this whole notion 
that--you know, I think there are some politics involved in 
this notion that we are not pressing in enough places on enough 
things. And I just think that the United States interests are 
better served by us trying to find the common ground to move 
forward on these things rather than falling prey to some of 
these, I think, sort of stereotypes.
    Senator Corker. I do not think the President made the kind 
of effort that most Presidents would make in shaping opinion 
within Congress, but we will let that go.
    And I will just say in general I cannot imagine that you 
would feel differently that our move to work with Russia in the 
way that we did has certainly changed the dynamics in many 
places. And certainly Iran has been the beneficiary of that. 
Russia has been the beneficiary of that. We have created an air 
of permissiveness. There is no question. And I do not see how 
you can debate that. I mean, scholars on both sides of the 
aisle understand that to be the fact, and facts are hard to 
overcome.
    So, look, you got a tough hand. You have been dealt a tough 
hand. And I do not know what kind of support you get or not 
support you get from the White House. But we wish you well. We 
want to be successful in our foreign policy.
    But right now I will say I think the steps that we took in 
Syria have affected us in Iran. They have affected us in the 
peninsula. They have affected us in Ukraine. China is watching 
us. It has affected us there. And I hope that somehow during 
the remainder of your tenure, you are able to turn around our 
foreign policy in such a way that the statements that have been 
made are not true but that we have some successes because I 
think all of us are very concerned.
    Secretary Kerry. Well, Senator, look, you have been a 
terrific help in keeping this committee working with the 
chairman and cooperating in so many different ways. And I thank 
you for that. And I know this comes from a genuine concern. I 
am not suggesting otherwise, I promise you.
    But I would say to you that I think Russia, with all due 
respect, is not acting out of strength. I do not believe that 
Russia has particularly helped itself. Have they accomplished a 
goal to protect Sevastopol for the time being and to, quote, 
``secure Crimea'' at least in a military concept if not 
legitimately in international law? Yes, but at great cost. At 
great cost.
    And over time, if you look at Russia's economy, there are 
real challenges. They are running the risk clearly of isolating 
themselves further and of losing friends around the world. They 
have already lost them in Ukraine where people who were once 
more supportive now feel threatened and frankly abused by what 
has happened.
    And if Russia were to come in, I tell you Ukrainians, I 
believe, will fight over the long term. That will not be a 
pretty picture, and I suspect that President Putin understands 
that.
    So this is not a hand of strength, and I think we need to, 
all of us, stay focused on a strategy, on a long-term strategy 
and recognize that Russia also has far closer ties to Ukraine 
and far greater interests other than our interests in democracy 
and freedom, which are huge, but in terms of history, that is 
where Russian religion comes from. That is where Russian wars 
of liberation were fought. And they have interests that they 
are trying to assert, I think, in the wrong way, but we have 
to, obviously, counter that and we are. So my hope is that we 
can write a better chapter going forward, but I am not sitting 
here telling you naively that that is automatically going to 
happen.
    Senator Corker. Yes, I would agree with you that Russia has 
tremendous weaknesses. And I think our hopes are on this 
committee that their move into Crimea ends up being one of the 
biggest geopolitical mistakes they could possibly have made. I 
think our concern is will the administration carry out policies 
to ensure that that is the case.
    Secretary Kerry. I think you heard me pretty clearly today, 
and I do not doubt this President's resolve one iota. He is 
clearly going to--he will continue. He has in the last weeks 
been conversing with all of the leaders personally on the 
telephone, building the support for this current level of 
sanctions and for what has yet to come. And we hope it will not 
have to come because I think that is a challenge for all, but 
it is something we are ready to effect if we need to.
    Senator Corker. Thank you, Mr. Chairman.
    The Chairman. I have listened with interest to the dialogue 

between you and Senator Corker, and since I gathered the desire 
to engage in such a dialogue, I let it go on for a while. And I 
appreciate that.
    I have one final question and then a closing comment.
    Mr. Secretary, I said at the very beginning of this hearing 
that the one part of the budget that most worries me is the 
Western Hemisphere. Year after year after year after year, we 
have seen cuts to the hemisphere even though it is our own 
front yard. In doing so, I think we undermine taking advantage 
of the economic opportunities; underestimate the security 
challenges stemming from international criminal organizations; 
and do not do enough to promote development, educational 
exchanges, and the consolidation of democracy and the rule of 
law. When I look at Central America and the crime rate; when I 
see what is happening in Venezuela, in Ecuador, in Bolivia; and 
when I see the challenges in Argentina, I say to myself that 
there is an enormous agenda here to pursue.
    So, would you commit to working with me to figure out how 
we can better position the Western Hemisphere in our budgetary 
priorities, sir?
    Secretary Kerry. I would be delighted to, Senator. Some of 
the change is a reflection of shifting circumstances, like 
Colombia is much more capable today and is doing things it was 
not able to----
    The Chairman. I recognize that in Colombia and Mexico it is 
a fact. The problem is that we do not reinvest that money back 
in the hemisphere. We send it somewhere else.
    Secretary Kerry. That is a fair comment. That is true. 
There are choices that have been made in the overall budget 
allocation process.
    There are other places like, for instance, in Haiti there 
were some reductions, but that is a reflection of money in the 
pipeline. When the money in the pipeline gets used, we will be 
right back here asking for the same level or more.
    So there are challenges, and nobody knows it better than 
you do. And we are happy to sit down and work with you.
    The Chairman. Well, let me close the hearing by just making 
an observation.
    I think, as you well know, Mr. Secretary, from your service 
here that the members on this committee are passionate about 
the wide range of views that they have. And these views, I 
think, are generally held in very principled positions. We may 
not always agree as to them, but they are held in very 
principled positions. I would hate for the hearing to end 
without putting that in context.
    This committee, on a bipartisan basis, has passed virtually 
every nomination that the administration has sent us, from the 
Secretary all the way on down in a timely basis--what happens 
on the floor is another challenge--but in a timely basis 
overwhelmingly.
    Now, this committee took one of the most significant steps 
that any Member of the Senate could ever take, which is to vote 
in a bipartisan way for the authorization for the use of force 
in Syria. I think we all acknowledge that this was critical for 
the President to get Russia to change Assad's calculation on 
the use of chemical weapons.
    This committee, in the aftermath of Benghazi, passed 
embassy security legislation in a bipartisan way.
    This committee passed OAS reform, PEPFAR reauthorization, 
previous Iran sanctions that have been vigorously pursued by 
the administration, and most recently, legislation on Ukraine.
    So even though there are very passionate views here in the 
midst of partisanship on the floor, I am happy to say that we 
have had a wide breadth of bipartisanship within the committee 
on the critical issues of the day, working with the 
administration.
    And so let me close by saying I have one disagreement with 
my colleague who said that our foreign policy is spinning out 
of control. We are facing some of the most intractable 
challenges. And you, Mr. Secretary, and the administration have 
sought to go after some of the most intractable challenges that 
others could have just simply walked away from. Instead of 
walking away from them, you sought to try to change the course 
of events for the better.
    So from the chairman, I want you to know that I have every 
confidence in your intellect, in your tenacity, in your 
capacity to try to meet these challenges. That does not mean we 
will be successful every time, nor does it mean that we will 
necessarily agree every time on how to get there, although 
generally we agree on what we want to get to.
    So with the gratitude of the committee for your service and 
for the time you spent with us here today, I am going to leave 
the record open until the close of business on Thursday.
    And the hearing is adjourned.
    Secretary Kerry. Mr. Chairman, could I just say you know 
what a fan I am of this committee, and I appreciate enormously 
the bipartisan efforts. I really do. Thank you.

    [Whereupon, at 12:40 p.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


      Responses of Secretary of State John F. Kerry to Questions 
                  Submitted by Senator Robert Menendez

    Question #1. Venezuela.--In the past 2 months, the political unrest 
in Venezuela have left at least 39 dead--including antigovernment 
protesters and members of the state security forces. Amidst this 
turmoil, there is evidence that should outrage the international 
community that Venezuelan security forces and armed supporters of the 
government have detained, beaten, tortured, and killed protesters. 
Furthermore, the Venezuelan Government has also used its legal system 
to arrest and silence its political opponents, as well as remove 
Colombian television station NTN24 from the air. The recent visit to 
Caracas by Foreign Ministers from South American countries suggests the 
potential for greater regional engagement, but didn't deliver any 
concrete results.

  <diamond> What steps can the United States take to end violence in 
        Venezuela and facilitate a peaceful, mediated solution to the 
        country's political crisis?
  <diamond> How can we promote greater international consensus about 
        the ongoing deterioration of democracy, governance, and the 
        rule of law in Venezuela?
  <diamond> Finally, what steps can we take to defend civil, political, 
        and human rights in Venezuela; and, is the administration 
        considering individualized sanctions to hold responsible those 
        complicit in human rights abuses?

    Answer. Our immediate focus remains to bring an end to the violence 
and encourage authentically inclusive dialogue to address the 
Venezuelan people's legitimate grievances. We have been actively 
engaging international partners to find a peaceful solution. We are 
encouraged by what we have heard so far of the UNASUR-led initiative 
with Vatican participation involving meetings between the government 
and many parties within the political opposition. We hope this effort 
will lead to an end to the violence and promote honest dialogue.
    We believe the OAS, as the region's premier multilateral 
institution, must assume a greater role to help find a peaceful 
resolution to the crisis in Venezuela, consistent with its mandate to 
promote peace, democracy, and respect for human rights in member 
states, as expressed in its Charter and in the Inter-American 
Democratic Charter.
    We have consistently called on the Venezuelan Government to release 
those it unjustly jailed, lift restrictions on freedom of the press, 
respect freedoms of assembly and association, tone down its 
inflammatory rhetoric, and engage in an authentically inclusive 
dialogue with Venezuelans across the political spectrum. The Venezuelan 
Government has an obligation to protect fundamental freedoms and the 
safety of its citizens, including those who engage in peaceful protest.
    The U.S. Government supports a wide range of civil society 
organizations that promote and defend fundamental freedoms, democratic 
processes, and nonviolent advocacy. We are studying a range of 
diplomatic tools, including sanctions, to address human rights 
violations that have occurred over the past few weeks. As I said last 
month, we will consider all available options to help foster a peaceful 
solution.

    Question #2. WHA Counternarcotics/INCLE Funding.--While I fully 
understand that gravity of the threats that our country faces around 
the world, I would also note that some of the most pressing challenges 
we face on a daily basis--including the trafficking of narcotics, arms, 
people and contraband--arrive at our borders after passing through 
countries in the Western Hemisphere. Additionally, the threat posed by 
transnational criminal organizations undercuts governance and the rule 
of law in several countries throughout the hemisphere, and has fueled a 
sharp rise in criminal violence that means today many of the countries 
with the highest per capita homicide rates are located here in our 
hemisphere. This year, the administration has requested $220 million in 
cuts to International Narcotics and Law Enforcement funding for Latin 
America and the Caribbean, with reductions scheduled for Central 
America, Mexico, Colombia and the Caribbean.

  <diamond> What is the administration's assessment of security 
        challenges in the Western Hemisphere and does our reduced 
        budget prepare us to fully address these challenges?

    Answer. We recognize the full range of citizen security challenges 
facing our regional partners. Crime and violence, much of it fueled by 
drugs and gangs, undermine our efforts to help promote economic 
opportunity and strengthen democracy. We remain firmly committed to 
building practical partnerships with governments, the private sector, 
and civil society throughout the region to promote citizen security. We 
continue to place a strong emphasis on citizen security programs to 
advance U.S. interests, which account for just under half of the total 
request, and include other funds in addition to INCLE.
    We believe these to be the resources we need to meet our top 
citizen security objectives for FY 2015 in Mexico, Colombia, Central 
America, and the Caribbean. Our budget requests reflect programmatic 
needs rather than a decrease in priority. Our requests for citizen 
security reflect shifting circumstances and prior achievements, such as 
Colombia's increased capacity to support its security and development 
goals. In some countries, such as Mexico, our request reflects an 
assistance pipeline in some accounts. We are working to plan for and 
spend down existing pipelines.

    Question #3. Embassy Security, Construction, and Maintenance.--The 
administration's FY 2015 budget request, under the description of the 
Capital Security Construction Programs and MCS Major Rehab Program, 
calls for work at several posts throughout the Western Hemisphere, 
including Asuncion, Paraguay; Belmopan, Belize; Guayaquil, Ecuador; 
Nuevo Laredo, Mexico; Tijuana, Mexico; Matamoros, Mexico; Mexico City, 
Mexico; Paramaribo, Suriname; and Georgetown, Guyana.

  <diamond> Please provide an overview for work at each of these 
        facilities. What is the total funding request scheduled for 
        this work?

    Answer. Only three of the projects listed are included in the 
Department's FY 2015 budget request (Asuncion, Matamoros, and Mexico 
City). The other projects were funded in FY 2013-2014 and are in 
various stages of design or construction.
FY 2013
Georgetown--Chancery compound major rehabilitation ($50.8M).
Paramaribo--New Embassy Compound ($165.8M) including chancery, 
    warehouse, support facilities, community facilities, utility 
    building, and compound access pavilions.
FY 2014
Belmopan--Marine Security Guard residence ($18.1M).
Guayaquil--Marine Security Guard residence ($30.4M).
Nuevo Laredo--New Consulate Compound ($156.0M) including consulate 
    office building, support annex, Marine Security Guard residence, 
    utility building, compound access pavilions, community facilities, 
    and parking.
Tijuana--Marine Security Guard residence ($17.4M).
FY 2015
Asuncion--New Embassy Compound ($213.3M) including chancery, Marine 
    Security Guard residence, shops, warehouse, community facilities, 
    parking garage, and compound access pavilions.
Matamoros--New Consulate Compound ($178.1M) including chancery, Marine 
    Security Guard residence, shops, limited warehousing, community 
    facilities, parking garage, and compound access pavilions.
Mexico City--New Embassy Compound ($763.5M) including chancery, Marine 
    Security Guard residence, shops, warehouse, parking garage, and 
    five compound access pavilions.

    Question #4. The Economic Statecraft Initiative within H.R. 
includes $9.1 million for 23 new positions in Foreign and Civil Service 
worldwide. What is the anticipated amount intended for Western 
Hemisphere Foreign and Civil Service posts?

    Answer. The following are FY 2015 Costs for the four Western 
Hemisphere Economic Statecraft Foreign Service Overseas positions. No 
Civil Service WHA positions are requested for Economic Statecraft.

American Salaries--$370,455
Bureau Managed--$1,389,355
Total--$1,759,810

    The four Foreign Service positions will be deployed to Mexico, 
Panama, and Brazil (one each to Mexico and Panama and two to Brazil) 
toward the Department's Economic Statecraft goals. These positions will 
focus on the energy market given Brazil's recent oil discovery, as well 
as other trade and tourism activities. We expect new positions to start 
in mid-March 2015.

    Question #5-6. Public Diplomacy and Educational and Cultural 
Exchanges.--(a). What is the estimated outlay intended for public 
diplomacy and educational and cultural exchanges in the Western 
Hemisphere? What was the final enacted amount for FY 2013?
    (b). The FY 2015 request for Fulbright ($204 million) and 
International Visitors Leadership ($90 million) programs intent to 
focus resources on South East Asia and sub-Sahara Africa from the 
Western Hemisphere and Europe. What is the expected adjustment of funds 
for the Western Hemisphere? How does it compare to FY 2013 enacted 
amount and estimate for FY 2014?

    Answer.
WHA/PD or .7 Funds (in thousands):
    FY 2013 Actual--44,134
    FY 2014 Estimate--43,495
    FY 2015 Request--44,312
ECE Funds (in thousands):
    FY 2013 Estimate--80,000
    FY 2014 Estimate--80,000
    FY 2015 Estimate--75,000

    The FY15 ECE funding request for the Western Hemisphere allows us 
to maintain our traditional educational and cultural programs, such as 
the International Visitor Leadership Program and English language 
programs. We are building on those exchanges through regional and 
bilateral initiatives that bring together government, academia, and 
civil society to foster regionwide prosperity. The FY15 budget also 
includes a new budget line called Exchanges Rapid Response (ERR) that 
enables ECA to quickly scale up exchange programs to respond to 
significant events. This funding could be used for programming in Latin 
American and Caribbean countries, if needed.
    Through the 100,000 Strong in the Americas initiative launched by 
President Obama in 2011, we are focusing on promoting increased 
international educational exchanges in the Americas. This initiative 
focuses attention on the importance of increased international study 
throughout the Western Hemisphere to address common challenges 
including citizen security, economic opportunity, social inclusion, and 
environmental sustainability. We are, in fact, seeing an increase in 
the exchange of students between the United States and Latin America 
and the Caribbean countries. Between academic year 2011-12 and 2012-13, 
student exchanges to the United States from Latin America and the 
Caribbean increased by 3.8 percent. The number of U.S. students 
studying in Latin America and the Caribbean increased by 11.7 percent 
between academic years 2010-11 and 2011-12.
    Our bilateral dialogues throughout the region complement 100,000 
Strong in the Americas. For instance, on her first trip abroad, 
Assistant Secretary of Educational and Cultural Affairs Evan Ryan 
cochaired the working group on the promotion of student mobility at the 
U.S.-Mexico Bilateral Forum on Higher Education, Innovation, and 
Research in Mexico City. This forum, along with similar bilateral 
strategic dialogues with Colombia and Brazil, serve as models for 
engaging all sectors of society to expand the economic gains of the 
past decades through educational and cultural exchanges.
    In partnership with governments throughout the region, the United 
States supports the Fulbright Program and other educational exchanges 
for students, scholars, and teachers. We are providing students with 
accurate, comprehensive, and current information about opportunities to 
studying in the United States through our EducationUSA advising 
network. And, we are providing opportunities for students to learn 
languages. Over the past decade, Fulbright cost-shares from foreign 
governments and the private sector have almost tripled in the region--
from $11 million in 2000 to over $27 million in 2012.

    Question #7. Global Health Initiative.--What percentage of the FY 
2015 budget request for State Department PEPFAR worldwide will be 
allocated to the Western Hemisphere?

    Answer. PEPFAR has played a significant role in the Western 
Hemisphere. For more information on the State Department's FY 2015 
request for GHP-State funding for HIV/AIDS programs in the region, 
please see Table 13h: Country/Key Interest: HIV/AIDS-FY 2015 in the 
Congressional Budget Justification: Foreign Assistance Summary Tables 
for Fiscal Year 2015 at http://www.state.gov/documents/organization/
224071.pdf.
    Since its inception, PEPFAR programs have been implemented in the 
Caribbean, with Haiti and Guyana designated as focus countries. Since 
that time, work has expanded to include a country program in the 
Dominican Republic (DR), as well as two regional programs with 
governments in Latin America and the Caribbean (LAC).
    The national HIV responses in general in the Latin America and 
Caribbean region have been extremely strong. A 2013 analysis by the Pan 
American Health Organization noticed that ``All of the Latin America 
and the Caribbean countries offer free services for HIV care and 
treatment, financed for the most part by national resources.'' A key 
focus of PEPFAR in this region is improving the sustainability of these 
programs by reducing costs and working with countries to increase 
country resources that are used to finance HIV.
    While PEPFAR will continue to invest in the LAC region with the aim 
of reducing costs, decreasing dependence on external funders, and 
promoting the needs of key populations, many of the governments in the 
region are able to address their epidemics without significant PEPFAR 
investment in direct services. Overall prevalence in Latin America is 
0.4 percent, and has dropped significantly in the past decade. PEPFAR 
maintains country programs in Haiti and Guyana, and works in the 
Dominican Republic to address both the needs of the country as well as 
the health needs of Haitians who seek care in the DR.

    Question #8. What percentage of the FY 2015 request for USAID 
Global Health Initiative will be assigned to countries in the Western 
Hemisphere?

    Answer. Three percent of the FY 2015 request for USAID's Global 
Health Initiative will be assigned to countries in the Western 
Hemisphere. Overall, there has been significant progress on key health 
indicators in the Latin America and the Caribbean (LAC) region in 
recent decades. Since 1990, infant mortality in LAC has declined by 
more than half, from 43 to 19 deaths per 1,000 live births. Estimates 
indicate that maternal mortality has declined from 140 deaths per 
100,000 live births to 85. Fertility rates have fallen from over 4 to 
2.2 children per woman since 1980. In addition, malaria and 
tuberculosis infection rates have declined, and progress has been made 
in controlling the HIV/AIDS epidemic among key populations. As the 
largest health donor in the region since the 1960s, USAID has been a 
major contributor to the impressive health strides in the region. As a 
result, we have graduated numerous country health programs.
    However, at the same time, we recognize that health progress in LAC 
has not been universal and we remain committed to undertaking key 
health assistance in this important region. To adapt to the contracting 
of our bilateral health programming, cost-effective regional platforms 
have been established, which allow us to maintain assistance in 
maternal and child health, family planning and reproductive health, 
HIV/AIDS, tuberculosis and malaria control.
    USAID has also greatly expanded the number of partnerships and 
alliances it has successfully built over decades to sustain and extend 
our successes in health. For example, to ensure the continuation of 
voluntary family planning programs, we are working with the Inter-
American Development Bank (IDB) and UNFPA on logistics, procurement, 
and service quality issues. Further, to address the health disparities 
in the region, we are working with a consortium of international health 
organizations--including UNICEF, PAHO, IDB, World Bank, UNFPA and 
UNAIDS, along with ministries of health, civil society, faith-based 
organizations, and the private sector under the umbrella of ``A Promise 
Renewed for the Americas.'' In addition, working through the regional 
office of the World Health Organization, we have expanded our reach to 
ensure that new developments in global health are both learned from and 
shared throughout the region, as part of the new South-to-South 
collaboration.

    Question #9. Global Climate Change Initiative.--What percentage of 
the FY 2015 budget request for State Department GCCI worldwide will be 
allocated to the Western Hemisphere? Under this amount, what are the 
estimated outlays for Clean Energy, Sustainable Landscapes, and 
Adaptation?

    Answer. The administration's FY 2015 request for the Global Climate 
Change Initiative (GCCI) for the Department of State and USAID is 
$506.3 million. Of this amount, the Department of State request is 
$157.8 million. The Department of State's GCCI programming, requested 
for the Bureau of Oceans and International Environmental and Scientific 
Affairs (OES) and the Bureau of International Organizations (IO), 
generally has a global focus, with many countries in the Western 
Hemisphere benefiting, for example, from the Climate and Clean Air 
Coalition (Clean Energy), Initiative for Sustainable Forest Landscapes 
(Sustainable Landscapes), and the Special Climate Change Fund 
(Adaptation). Mexico, Chile, Colombia, and Brazil are members of the 
Climate and Clean Air Coalition.
    The administration request includes $348.5 million for USAID, of 
which $72.6 million, or 21 percent, is for Latin America and the 
Caribbean (LAC). The $72.6 million includes $27.5 million for 
Adaptation, $15.5 million for Clean Energy, and $29.6 million for 
Sustainable Landscapes.

    Question #10. Security Assistance.--What is the estimated reduction 
in Western Hemisphere funding for Foreign Military Financing? How does 
this amount compare to FY 2013 and estimate FY 2014? What specific 
programs and countries are scheduled for reductions under the FY 2015 
budget request?

    Answer. We remain firmly committed to partnership in the Western 
Hemisphere. Our Foreign Military Financing (FMF) request reflects 
budget realities and our focus on strengthening the security 
capabilities of our regional partners.
    The State Department requests $47.1 million in FMF for the Western 
Hemisphere in FY 2015. The FY 2015 Request is a 20-percent decrease 
from the FY 2013 653(a) level ($59.2M) and a 22-percent decrease from 
the FY 2014 estimate level ($60.2M). The FY 2015 request includes a 
$3.8M decrease for Colombia from FY 2013, which results from Colombia's 
ability to increasingly support their military to provide security 
throughout the country. The request also includes a $1.6M decrease for 
Mexico from FY 2013, which demonstrates an appropriate level of support 
to begin development of maintenance and logistics systems for the UH-
60Ls and technical training and professional military education. 
Additionally, the request includes a $4.5M decrease in FMF funding for 
the Caribbean Basin Security Initiative (CBSI) from FY 2013. CBSI FMF 
is shifting focus from prior years when we procured equipment, such as 
boats, toward developing maintenance and logistics systems to maintain 
these assets long term. As such, our FY15 request reflects this lower 
cost programmatic shift. Finally, due to complications in implementing 
assistance and political challenges, the FY 2015 request does not 
include funding for Ecuador and Nicaragua, which also reduced the 
overall FMF level.

    Question #11. Democracy, Human Rights and Labor.--Under the FY 2015 
budget request for the Bureau of Democracy, Human Rights and Labor 
(DRL), what amount of funding is targeted for the Western Hemisphere, 
and what percentage of global DRL funding does this account for?

    Answer. DRL does not attribute funding by regions in our annual 
budget request. Instead, DRL uses its annual global appropriation to 
react in real-time to changing political situations by funding low cost 
programs targeting democratic opportunities or challenges as they arise 
in addition to addressing ongoing deficiencies in human rights or 
democracy. Many of DRL's programs operate in difficult environments and 
provide crucial support to human rights defenders and civil society 
activists both through regional and country specific programs as well 
as global rapid response mechanisms and thematic programs. DRL supports 
regional and country priorities through programs that strengthen civil 
society, labor unions, political parties, election and watchdog 
organizations, access to justice, and independent media. In addition, 
DRL supports broader global thematic programs in all regions including 
for international religious freedom, Internet freedom, labor rights, 
and the human rights of members of at-risk populations, which includes 
women, youths, persons with disabilities, religious and ethnic 
minorities, and LGBT persons. For example, for Fiscal Year 2013 Human 
Rights and Democracy Funds (HRDF), DRL has around 53 percent of total 
HRDF available for specific regional and country priorities, of which 
approximately 8 percent of this, or around $3 million, is for the 
Western Hemisphere.
    The remaining FY 2013 HRDF is for our global rapid response 
programs and thematic programs, some of which also support activities 
in the Western Hemisphere. For example, DRL's S.A.F.E. (Securing Access 
to Freedom of Expression) Initiative is a global program that promotes 
journalist digital and physical safety in difficult environments. In 
the Western Hemisphere, S.A.F.E. has assisted media actors in the 
region to operate more safely through the provision of trainings, 
tools, and individualized threat-mitigation plans. Beneficiaries also 
have access to help 24 hours a day, 7 days a week for emergency 
situations and receive basic assistance for coping with high stress and 
emotional trauma. This initiative compliments region-specific 
programming that improves the capacity of journalists to produce fact-
based, data-driven analysis of crucial issues such as corruption and 
human rights.

    Question #12. Populations, Refugees and Migration.--Under the FY 
2015 budget request for the Bureau of Population, Refugees and 
Migration (PRM), what amount of funding is targeted for the Western 
Hemisphere, and what percentage of global PRM funding does this account 
for?

    Answer. The President's FY 2015 request includes $2.0 billion for 
the Migration and Refugee Assistance (MRA) account, which is managed by 
the Bureau of Population, Refugees, and Migration. The FY 2015 MRA 
request includes $45.4 million in funding targeted for the Western 
Hemisphere which equates to 2.2 percent of the total FY 2015 MRA 
request.

    Question #13. Ukraine.--Mr. Secretary I'd like to ask you about the 
economic consequences for Russia's military intervention in Ukraine, 
annexation of Crimea and, continued intimidation of its neighbors. 
Today's Russian economy is obviously more interconnected with the world 
than it was under communism. In response to internationally coordinated 
sanctions there have been comments in Russia about retaliating by not 
paying loans, seizing hard assets, and not using the dollar. There has 
been an outflow of investment and a lack of foreign direct investment 
in Russia for some time, which will only be exacerbated by this sort of 
talk.

    Answer. The goal of our sanctions is to persuade Russia to de-
escalate the situation. The President has stated that Russia must pay 
an economic cost for its illegal occupation of Crimea, and he has made 
clear that Russia will pay a still greater cost for any further 
escalation of the situation. We have made--and continue to make--every 
effort to calibrate the sanctions to Russia's actions, while to the 
extent possible limiting the spillover impact on U.S. companies and the 
U.S. economy. To date, the administration has imposed targeted 
sanctions on three tranches of persons most directly involved in 
destabilizing Ukraine and those who have provided material support to 
Russian leadership. We have also designated members of Putin's inner 
circle, a medium-sized bank controlled by a number of them, and a 
company involved in the misappropriation of Ukrainian state assets. We 
have not imposed sanctions on economic sectors or large Russian 
companies. We cannot predict what actions are still to come, since what 
we do will depend on what takes place on the ground. If the Russian 
Government decides to escalate its intervention in Ukraine, then we 
will escalate our sanctions. At the same time, we have provided Russia 
an off-ramp if it is prepared to de-escalate.

    Question #14. All of this must be having a very punitive effect on 
the Russian economy, how badly are they hurting themselves by scaring 
investment away? Is there any business or civic society pressure that 
could result from the hit the Russian economy is experiencing as a 
result of the military intervention in Ukraine and annexation of 
Crimea? What do you think the longer term impact of this pressure will 
be on Russian foreign and economic policy?

    Answer. Sanctions and the threat of further sanctions weigh on 
Russia's economic growth. The World Bank has warned that Russia's 
economy could shrink by 1.8 percent this year. International ratings 
agencies have downgraded the Russian economy, including a significant 
number of state-owned firms, from a stable to negative outlook. The 
Russian currency remains under pressure: between March 3 and April 14, 
the Central Bank of Russia spent $26.7 billion to stabilize the ruble, 
and as capital exits the country, it has resorted to emergency rate 
hikes. Furthermore, Russia's actions in Crimea have caused 
deterioration in foreign and international investors' confidence in 
Russia, whose economy is already stagnating from a lack of investment 
and reform. Stability, respect for international law, and integration 
in the global economy are extremely important to investors and market 
participants. Russia's actions raise doubts about its commitment to all 
three, and you can see that investors are already worried.

    Question #15. Ukraine and IMF Reform.--Lately we have all been 
singularly focused on the crisis in Ukraine, and as events play out 
there it is increasingly evident that we need a strong IMF to play the 
central, anchoring role in stabilizing Ukraine's economy. Could you 
please update the committee on the latest economic developments in 
Ukraine, how the pledges of assistance by the United States, EU, and 
other multilateral institutions will help the country, and what the 
role of the IMF will be in addressing the crisis? Could you also speak 
to how Russia's announcement that they are raising the price of gas for 
Ukraine will affect the size and timing of IMF assistance?

    Answer. While the Ukrainian economy has potential, unsustainable 
economic policies under previous administrations have left Ukraine with 
high current account and budget deficits, financial sector instability, 
expensive nontargeted energy subsidies and noncompetitive industries. 
As part of its engagement with the IMF, Ukraine has now initiated 
reforms to avoid a debilitating financial crisis. To succeed, the 
Ukrainian Government is working to secure sizable external financing to 
help put these reforms in place. The IMF estimates those needs will 
approach $27 billion in external financing over the next 2 years. 
Financing of continued gas purchases from Russia and new purchases from 
European companies via reverse-flow are critical short-term actions, 
while fundamental institutional reform and improved efficiency are 
ultimately necessary.
    The United States is working closely with international partners to 
develop an assistance package to ensure Ukraine has sufficient 
financing to restore financial stability and return to growth. Thanks 
to support from Congress and this committee, the administration signed 
a $1 billion loan guarantee agreement with Ukraine on April 14, which 
will complement the Government of Ukraine's IMF reform program. By 
guaranteeing the principal and interest payments on Ukrainian bonds, 
the loan guarantee will support Ukraine's access to capital markets on 
favorable terms (lower interest rates) and, as part of a broader 
international package of economic assistance, send a strong signal of 
international support. This loan guarantee will bolster the Government 
of Ukraine's ability to provide critical services as it implements 
reforms, while protecting the most vulnerable Ukrainian households from 
the impact of the necessary economic adjustment.
    Beyond the loan guarantee, we also are providing technical 
assistance to support Ukraine as it undertakes reforms to restore 
economic stability and growth. Technical advisors from the United 
States Treasury have been on the ground in Kyiv since March 9 helping 
Ukrainian authorities manage immediate market pressures. USAID 
technical advisors have also been working with Ukraine's National Bank, 
Finance Ministry, and Deposit Guarantee Fund. In addition, USAID, the 
State Department, and the Justice Department provide assistance in 
areas such as energy tariff reforms, anticorruption legislation, and 
private sector development that will also support the IMF program. This 
assistance contributes to a broader international assistance effort, 
which includes $2.2 billion from the EU in near-term budget support, up 
to $11 billion in medium-term project finance from the European 
Investment Bank and the European Bank for Reconstruction and 
Development to enhance Ukraine's private sector and infrastructure, $3 
billion from the World Bank in budget support and development 
assistance, as well as a loan guarantee from Canada of $200 million.
    Ukraine is in the process of finalizing a Stand-by Arrangement 
program with the IMF, which will be at the center of international 
assistance efforts and is best placed to support Ukraine's 
implementation of robust and market-oriented reforms. The goal of the 
financing and reform package agreed to by Ukraine and the IMF is to 
restore macroeconomic stability and put the country on the path of 
sound governance and sustainable economic growth while protecting the 
vulnerable in the society. The program will focus on reforms in the 
following key areas: monetary and exchange rate policies; the financial 
sector; fiscal policies; the energy sector; and governance, 
transparency, and the business climate. The price of imported Russian 
gas is considered by the IMF as it evaluates Ukraine's financing needs 
and develops its reform program.

    Question #16. Afghanistan.--At $1.5 billion, the administration's 
Afghanistan assistance request remains among the largest in the 150 
Account. I support this funding and sustained engagement by the U.S. in 
Afghanistan and the region, but accountability for these funds will 
continue to be an important concern of this committee. In the past, we 
have incentivized a portion of our assistance tied to specific Afghan 
reforms as agreed to in the 2012 Tokyo Mutual Accountability Framework. 
This seems to be a good model for how we provide assistance in a 
country plagued with corruption and weak governmental capacity.

  <diamond> Should the U.S. incentivize more of its assistance to 
        Afghanistan as a way toward encouraging Afghan reform and 
        strengthening the confidence of the international community and 
        U.S. taxpayer?

    Answer. We agree on the importance of incentivizing positive change 
in Afghanistan as called for under the Tokyo Mutual Accountability 
Framework (TMAF). A $175 million, 2-year bilateral incentive fund 
linked to the TMAF reforms is one part of our broader strategy to 
increase accountability in our relationship with the Afghan Government. 
We also support incentives offered by multilateral institutions 
including the Incentive Program of the Afghanistan Reconstruction Trust 
Fund and conditions included in the Expanded Credit Facility provided 
by the International Monetary Fund. Further, we continue to include 
various reform benchmarks in our direct assistance programs with Afghan 
ministries, and encourage policy implementation with programs like the 
Bureau of International Narcotics and Law Enforcement's Good Performers 
Initiative and Governor Led Eradication that only disburse project 
funds after Afghans take action to control illicit narcotics.
    Incentive programs and regular international monitoring of TMAF 
reform indicators have both helped to establish a transparent and 
constructive dialogue with the Afghan Government on its reform agenda. 
This dialogue has produced some notable results including the passage 
and implementation of an improved electoral framework that has so far 
served Afghanistan well in the first round of the Presidential 
election. Accountability will be a critical part of our relationship 
with the new government that will come to power this year, and we plan 
to continue to use all tools at our disposal to encourage improved 
governance in Afghanistan.

    Question #17. Secretary Kerry, current Appropriations legislation 
dictates that the administration provide a spending plan for 
Afghanistan programs before relevant committees allow funds to be 
obligated. The current spending bill makes clear that future 
programming should be directed toward efforts to strengthen rule of law 
and civil society and promote women's rights and women's health. The 
legislation specifically demands cuts to large scale infrastructure 
projects, many of which were (in the past) beset by waste and 
corruption.

    Answer. We strongly believe a continued partnership between 
Afghanistan and the United States is critically important to U.S. 
national security and sustaining the hard won gains of the past decade. 
Per the Strategic Partnership Agreement signed by Presidents Obama and 
Karzai, our foreign assistance programs will continue to support better 
governance and economic growth including increased opportunity for 
women.
    Assistance from the United States has led to major improvement in 
nearly every significant indicator of Afghanistan's development. 
Examples of progress facilitated by U.S. assistance includes:

  <bullet> Education: In 2002, there were only 900,000 Afghan children 
        in school, and virtually none of them were girls. Today, 
        approximately 8 million children are registered to attend 
        school and more than one-third of them are girls.
  <bullet> Health: Life expectancy has increased from 42 years to over 
        62 since 2001; the maternal mortality rate has declined by 80 
        percent from 1,600 deaths to 327 per 100,000 births; and child 
        mortality decreased from 172 to 97 deaths per 1,000 live 
        births.
  <bullet> Energy: In 2002, only 6 percent of Afghans had access to 
        reliable electricity. Today 18 percent do. In addition, USAID 
        assistance has helped put the Afghan national power company 
        (DABS) on a path to become fully self-sustaining. DABS 
        collected $220 million from the sale of electricity in 2012, an 
        increase of 67 percent from 2010.
  <bullet> Mobile Technology: In 2002, there were few fixed telephone 
        lines in Afghanistan, and making an international call required 
        a satellite phone. Today, the combined phone network covers 90 
        percent of the Afghan population. Eighty-five percent of women 
        have access to a mobile phone. The telecommunications sector is 
        Afghanistan's greatest source of foreign direct investment, 
        largest remitter of taxes to the government, and biggest licit 
        employer, providing jobs for 100,000 Afghans.
  <bullet> Women: Today, there are over 3,000 women-owned business and 
        associations; almost 20 percent of Afghans enrolled in higher 
        education are women; and women are active participants in the 
        Afghan political process, with three female members of the 
        Afghan Cabinet, 68 Members of Parliament (of the 249 seats), 
        and three women Vice Presidential candidates.
  <bullet> Infrastructure: Prudent investment in Afghanistan's 
        infrastructure including roads, schools, dams, and other 
        projects with careful measures to protect U.S. funding played a 
        critical enabling role in Afghanistan's development gains.

    The priorities for our future assistance efforts are well aligned 
with congressional guidance. We have already greatly reduced our 
budgets for large-scale infrastructure projects and will continue to 
strengthen our focus on building the capacity of the Afghan Government 
and private sector to maintain existing investments and facilitate 
inclusive private sector-led economic growth. We will continue to 
support Afghan civil society and media organizations in their efforts 
to reduce corruption and advocate for improved governance in a variety 
of sectors. We also remain focused on improving the ability of formal 
and informal Afghan justice institutions to sustainably provide 
services to all Afghans.
    The United States remains committed to implementing robust measures 
to prevent corruption and waste of U.S. assistance funds. For example, 
USAID is utilizing a multitiered monitoring approach that includes, as 
appropriate, independent monitoring contractors; observation by U.S. 
Government staff; reporting by implementing partners, local 
nongovernmental organizations and civil society; and use of 
technological tools, such as time- and date-stamped photos. The United 
States also maintains stringent oversight and accountability procedures 
for direct assistance projects with the Afghan Government, such as 
requiring the establishment of a noncommingled, separate bank account 
for each project, disbursement of funds only after a performance 
milestone has been achieved, or the United States has verified accrued 
costs, as well as full compliance by Afghan ministries of mitigation 
measures identified by the U.S. Government prior to and through the 
disbursement process. If Afghan ministries fail to adhere to these 
measures, the agreements are subject to immediate suspension or 
termination.
    In addition, the United States will continue to seek progress on 
issues affecting women as a fundamental tenet of U.S. policy in 
Afghanistan and essential to Afghanistan's security, governance, and 
development. Afghanistan made strong commitments in our Strategic 
Partnership Agreement regarding ensuring and advancing the essential 
rights of Afghan women. In support of Afghan efforts to abide by those 
commitments, USAID will launch this year its standalone women's 
empowerment program, ``Promote,'' and programs in health, education and 
many other areas will continue to focus on expanding the gains made by 
Afghan women over the last 12 years. The Department of State will 
continue to support Afghan-led initiatives that increase awareness and 
strengthen enforcement of the Elimination of Violence Against Women 
law, particularly support to women's shelters and Violence Against 
Women prosecution units. The United States will also begin this year a 
program to increase awareness of the problem of trafficking in persons 
in Afghanistan and build the capacity of civil society and government 
to combat the problem.

    Question #18. Can you pledge that the State Department, as it 
crafts the 2014 spending plan and a more detailed budgetary description 
for fiscal year 2015, will protect--and not cut--vital support to 
women's rights groups, women's shelters, schools, and other relevant 
funding for civil society? Can you pledge that the cuts will be focused 
elsewhere? Can you pledge that cuts will not be made ``across the 
board'' but will, as required by the legislation, focus on the big 
ticket infrastructure programs that have, in the past, been so 
associated with waste and corruption?

    Answer. Global stability, peace, and prosperity depend on 
protecting and advancing the rights of women and girls around the 
world. Research shows that progress in women's employment, health, and 
education can lead to greater economic growth and stronger societies. 
Advancing gender equality and women's empowerment is a policy across 
U.S. foreign assistance. The Department of State has mandated that 
gender equality and women's empowerment be integrated into strategic 
and budget planning; programming; monitoring and evaluation; and 
management and training. Therefore all of these processes must and do 
prioritize gender, as called for by the Secretary of State.

    Question #19. The Special Immigrant Visa (SIV) program has provided 
an important lifeline for endangered Afghan employees of the USG in 
Afghanistan. How many Afghans that worked for the State Department have 
been granted SIVs? How many total SIVs have been granted in Afghanistan 
since the beginning of the program? How many remain in the pipeline? 
Please describe how the State Department works to ensure that the 
knowledge and expertise of Afghans who receive SIVs is captured before 
their departure from the country? How can this process be improved to 
ensure that institutional memory and key local relationships do not 
suffer as a result of the SIV program?

    Answer. Through FY 2013, 2,718 Afghans and their family members had 
been issued visas under the SIV program authorized by section 602(b) of 
the Afghan Allies Protection Act of 2009, as amended. In FY 2014, 
through April 15, we have so far issued 3,902 SIVs to Afghans and their 
dependents, including 1,457 SIVs to Afghan principal applicants. This 
is more than in all the previous years combined and more than double 
the total number of Afghan principal applicants issued in FY 2013 
(651). Attached are issuances through the second quarter of FY 2014, 
available on our public-facing Web site, travel.state.gov.
    As of April 16, 10,862 Afghans and their family members have 
applications pending, including 5,752 principal applicants.
    Afghan Locally Employed (LE) Staff employed by the Department of 
State have received 196 SIVs since 2012. The vast majority (172) have 
been issued since October 2013. To date, 714 LE Staff have submitted 
SIV application letters, which represents 82 percent of the currently 
encumbered 868 positions. In CY 2013, we had a total of 111 LE Staff 
who left the mission because of the SIV program. This year, we 
anticipate another 200-250 LE Staff out of a roughly 1,000-strong LE 
Staff complement will leave the U.S. mission as a result of this 
program.
    To ensure that the knowledge and expertise of Afghans who receive 
SIVs is captured before their departure from the country, the mission 
double-encumbers positions so that there is overlap between the 
departing and incoming employees. The mission also promotes Portfolio 
Continuity, an IT-based solution for maintaining and passing on 
institutional knowledge. Post utilizes American and third-country 
national staff to bolster Embassy technical and administrative 
capacity, but in terms of local contacts and knowledge, there is no 
equal substitute for locally engaged personnel. Since anyone we 
employ--whether directly or through a contracted organization--is 
eligible to apply for the SIV program after 12 months of employment 
between October 7, 2001 and December 31, 2014, this limits mitigation 
options available to the Embassy.

    Question #20. The FY14 appropriations bill also called on the State 
Department to begin planning for the transition of the office of the 
Special Representative for Afghanistan and Pakistan into the Bureau of 
South and Central Asia Affairs. This seems to be an important 
bureaucratic step in order to better coordinate U.S. policymaking in 
the region.

  <diamond> Have any steps been taken to prepare for the folding of 
        SRAP into SCA?

    Answer. The Office of the Special Representative for Afghanistan 
and Pakistan (SRAP) was created in 2009 as a unique stand-alone office 
given the critical importance of Afghanistan and Pakistan as pivotal 
countries during a critical period for the United States and the world. 
The course of events over the past 5 years has necessitated the 
sustained focus of the SRAP office, particularly as we surged our 
military and civilian presence in Afghanistan. During this period, the 
SRAP office has fostered coordination throughout the interagency and 
within the Department, particularly with the Bureau of South and 
Central Asian Affairs (SCA), to meet U.S. strategic goals in the 
region. It has also played the lead role in engaging NATO and other key 
partners around the world who have supported these efforts.
    SRAP and SCA have worked together closely to ensure the best 
possible coordination to advance U.S. goals in Afghanistan and 
Pakistan. From SRAP's inception, its principal deputy was also dual-
hatted as a DAS in SCA, and has shared a common EX for all management 
issues and common public diplomacy team with SCA. Another SCA DAS 
attends all of SRAP's senior staff meetings with the Special 
Representative, typically three times per week, to ensure alignment 
with SCA. Additionally, the principal deputies of both offices meet at 
least biweekly to discuss common concerns, as well as regular meetings 
between the SCA Assistant Secretary and the Special Representative. 
There are many areas of joint effort regarding policy development. We 
share a common communications team.
    We have spent the past year working on the first FY15-18 Joint 
Regional Strategy for internal purposes, as a collaborative resourcing 
effort by SCA, SRAP, and USAID, which presents a cohesive strategy for 
the entire region. On key topics such as the role of India in the 
region, or regional economic connectivity, we have developed working 
groups that meet regularly and have jointly drafted policy papers. 
Representatives from SCA and SRAP regularly visit each other's 
countries to brief on current issues (most recently in late June, when 
a Deputy Special Representative traveled to Central Asia for Afghan 
consultations), jointly host meetings with Embassy staff in Washington 
of their countries of jurisdiction, brief the Hill together, cochair 
trilateral meetings jointly, participate in the Strategic Dialogues of 
the other bureau's countries, and clear all their relevant policy 
papers with each other.
    In short, many steps have already been taken to prepare for the 
eventual folding of SRAP back into SCA. When the time is ripe for a 
full integration of the two, it will not be difficult to complete. 
However at this moment, with more than 30,000 U.S. troops still in 
Afghanistan and the drawdown specifics still being formulated, billions 
of dollars of civilian assistance still flowing to both countries which 
requires careful oversight, a fragile elections process still underway 
in Afghanistan, the continued robust engagement of the International 
Contact Group for the over 50 international partners that have also 
appointed SRAPs to facilitate their relationships in Afghanistan and 
Pakistan, and the sustained efforts to partner with Pakistan on core 
counterterrorism concerns, there is still a critical need for an SRAP 
office that exclusively focuses attention on this region and 
coordinates U.S. Government policy. As long as SRAP exists, it will 
continue the efforts to integrate Afghanistan into the broader region, 
working closely with SCA colleagues until the Secretary decides that 
the time is appropriate to formally integrate the two offices.

    Question #21. The 2012 Tokyo Mutual Accountability Framework 
provides an important foundation for discussion with the incoming 
Afghan Government on the accountability of our assistance. In the past, 
we have incentivized a portion of our assistance tied to specific 
Afghan reforms as agreed to in the 2012 Tokyo Mutual Accountability 
Framework. This seems to be a good model for how we provide assistance 
in a country plagued with corruption and weak governmental capacity.

  <diamond> Should the U.S. incentivize more of its assistance to 
        Afghanistan as a way toward encouraging Afghan reform and 
        strengthening the confidence of the international community and 
        U.S. taxpayer?

    Answer. We agree on the importance of incentivizing positive change 
in Afghanistan as called for under the Tokyo Mutual Accountability 
Framework (TMAF). A $175 million, 2-year bilateral incentive fund 
linked to the TMAF reforms is one part of our broader strategy to 
increase accountability in our relationship with the Afghan Government. 
We also support incentivization through multilateral institutions 
including the Incentive Program of the Afghanistan Reconstruction Trust 
Fund and conditions included in the Expanded Credit Facility provided 
by the International Monetary Fund. Further, we continue to include 
various reform benchmarks in our direct assistance programs with Afghan 
ministries, and encourage policy implementation with programs like the 
Bureau of International Narcotics and Law Enforcement's Good Performers 
Initiative and Governor Led Eradication that only disburse project 
funds after Afghans take action to control illicit narcotics.
    Incentive programs and regular international monitoring of TMAF 
reform indicators have both helped to establish a transparent and 
constructive dialogue with the Afghan Government on its reform agenda. 
This dialogue has produced some notable results including the passage 
and implementation of an improved electoral framework that has so far 
served Afghanistan well in the first round of the Presidential 
election. Accountability will be a critical part of our relationship 
with the new government that will come to power this year, and we plan 
to continue to use all tools at our disposal to encourage improved 
governance in Afghanistan.

    Question #22. Has the State Department decided on its footprint for 
its diplomatic presence in Afghanistan? What is the current thinking on 
the scope and size of the U.S. diplomatic presence in Afghanistan post-
2014?

    Answer. The President continues to review options regarding the 
size and scope of our post-2014 military presence, a decision that will 
influence the scale of the State Department's activities in 
Afghanistan, the size of its footprint, and the resources the 
Department requires to secure its facilities and personnel post-2014. 
We continue to plan for the various options under consideration to 
ensure we are prepared for whatever option the President may choose. 
The Department has adjusted its footprint to correspond with each phase 
of the planned reduction in the overall U.S. presence. As of April, our 
diplomatic presence includes the Embassy in Kabul, consulates in Herat 
and Mazar-e Sharif, and six other field platforms, down from a total of 
49 field platforms in January 2013. There are approximately 770 direct 
hire employees and some 850 locally employed staff positions.

    Question #23. Pakistan.--The U.S. incentivizes a portion of its 
``on-budget'' assistance in Afghanistan. Would the administration also 
consider incentivizing a portion of its assistance to Pakistan? What 
would be the implications of incentivizing a portion of ``on-budget'' 
assistance to Pakistan?

    Answer. The administration is already achieving the objective of 
incentivizing assistance through a variety of means. A key goal of U.S. 
assistance in Pakistan is to strengthen the capacity of the civilian 
government and to support the Government of Pakistan's economic reform 
efforts in close association with the IMF. The IMF program has specific 
reform requirements which Pakistan must meet to receive each tranche of 
funding. The United States and other major donors are all coordinate to 
ensure their programs help the Government of Pakistan meet those reform 
requirements.
    We currently allocate approximately 35 percent of U.S. civilian 
assistance to Pakistan through ``on budget'' mechanisms. The Government 
of Pakistan has consistently asked that we increase this amount as much 
as possible as it helps with the balance of payments, and because they 
prefer that donor funds be spent on their priority programs.
    ``On budget,'' or government-to-government, assistance in Pakistan 
is typically provided via project-specific agreements for 
infrastructure and/or services, such as schools, roads, energy 
projects, etc. These projects include a series of associated management 
improvements or reforms such as standing up project management units to 
ensure agencies can properly manage funds transparently, developing 
standardized methods for monitoring and evaluating projects, policy or 
structural changes that will make the project more effective or 
sustainable, and improving financial management systems. These projects 
are often accompanied by specialized technical assistance to help the 
government implement policy reforms relevant to the given sector, and 
to improve management structures and practices.
    The World Bank does not have a multilateral trust fund in Pakistan 
like it does in Afghanistan. Their ``incentivized'' on-budget support 
comes in the form of a Development Policy Credit which requires 
specified reforms to be negotiated with the government before the funds 
are disbursed. The Asian Development Bank, JICA and DFID participate in 
the Development Policy Credit.
    In Afghanistan, our strategy to build accountability into our 
engagements with the government has multiple layers. The first level of 
conditionality occurs on a project-by-project basis, consistent with 
what we described above. In addition, as you note, we designed a 
separate, limited ``incentive program'' in Afghanistan that links the 
disbursement of a portion of our overall assistance to progress on 
reform benchmarks included in the Tokyo Frameworks. Incentive funds are 
disbursed to the World Bank-managed funding mechanism that finances 
certain recurring government civilian expenditures after progress is 
verifies. Our bilateral Afghan incentive program takes advantage of the 
World Bank mechanism and the agreed upon set of basic governance and 
economic reforms that the Afghan Government and the International 
Community agreed upon at the Tokyo Conference in 2012.
    We regularly review and assess options for how U.S. assistance 
could be better utilized to support reform and build host government 
capacity in Pakistan. However, given that no analogous mechanism to the 
Afghan Reconstruction Trust Fund exists in Pakistan and the fact that 
we do not provide direct budget support in Pakistan, we have not 
imposed policy-based conditions on our bilateral civilian assistance to 
date.

    Question #24. Central Asia.--The FY14 appropriations law authorized 
the administration to spend up to $150 million in Afghanistan funding 
for programs that support regional economic connectivity, with a focus 
on Central Asia. This authorization seems to align with the 
administration's stated goal of strengthening Afghanistan's economic 
links with its neighbors. Does the administration have specific plans 
to use FY14 appropriated Afghanistan funding for programs that promote 
regional connectivity in Central Asia? I understand that the 
administration is conducting a review of U.S. policy in Central Asia. 
Please describe how the Central Asia policy review process will take 
place within the State Department and among the interagency. In what 
ways does the administration plan to involve the relevant congressional 
committees in the review? How will the results of the review, once 
completed, be integrated into the policymaking process?

    Answer. The Department of State and USAID are currently developing 
plans for the use of FY 2014 foreign assistance funding in Afghanistan, 
including programs to support Afghanistan's economic integration into 
the broader South and Central Asia region. We continue to support 
constructive regional cooperation and mutually beneficial links between 
Afghanistan and its neighbors as part of our strategy to help 
Afghanistan achieve sustainable stability. We appreciate the flexible 
authority provided in the FY 2014 appropriation that will allow us to 
use a portion of the resources allocated to Afghanistan for regional 
activities. We fully expect that, as in years past, a portion of our FY 
2014 assistance portfolio in Afghanistan will be focused on increasing 
Afghanistan's trade with the region and on facilitating the transit of 
goods and resources across Afghan territory. For instance, we expect FY 
2014 funds will support the continuation of the Afghanistan Trade and 
Revenue Project that is working to finalize Afghanistan's accession to 
the WTO and facilitate increased trade, including through improved 
coordination with Central Asia. In addition, we are actively 
considering whether funds allocated to Afghanistan will be used to 
support regional initiatives, such as those developed by the 
multilateral Istanbul Process or USAID's Almaty Consensus.
    The Department is reviewing strategy on Central Asia as part of a 
larger interagency process. We welcome continuing consultations with 
Congress as that process moves forward.

    Question #25. How does the recent annexation of Crimea impact the 
perception of Russia among the countries of Central Asia? Does this 
provide an opening for greater U.S. engagement with the countries of 
Central Asia?

    Answer. Central Asian states welcome greater U.S. engagement, but 
at the same time are vulnerable to varying degrees to Russian political 
and economic pressure. Each country has a unique relationship with 
Russia and will likely view Russia's illegal annexation of Crimea in 
light of its own specific national interests.
    In the weeks since Russia annexed Crimea, we have sought to counter 
the Russian narrative on events in Ukraine by increasing our public 
messaging. We translated several op-eds by independent analysts into 
Russian and procured the rights to release the op-eds in Central Asia. 
Central Asian media outlets have also translated and published State 
Department press releases, including a recent fact sheet outlining 
Russia's false claims about Ukraine.
    In our interactions with our Central Asian partners, the United 
States underscores our strong support for Central Asian independence, 
sovereignty, and territorial integrity, including our belief that the 
region is best served by broad partnerships with the United States, 
Russia, China, EU, India, and others. The United States objective is to 
provide the Central Asian states with the space necessary to make their 
own political and economic decisions while reiterating the United 
States enduring commitment to the region and its long-term democratic 
and economic development post-2014. We have emphasized to our partners 
in Central Asia that that this is not a zero-sum game between East and 
West. We will continue to support the Central Asian states in areas of 
mutual cooperation to promote each country's sovereignty and 
territorial integrity, while reinforcing the importance of respecting 
fundamental human rights within their borders.

    Question #26. India.--Has the State Department conducted an 
internal review on the arrest of Indian diplomat Devyani Khobragade? 
What are the interagency standard operating procedures for arrest 
practices for those persons accorded status under the Vienna Convention 
on Diplomatic Relations of 1961 and the Vienna Convention on Consular 
Relations of 1963? What lessons did the State Department learn from 
this incident? Were any reforms in this process instituted following 
this incident?

    Answer. The State Department conducted a thorough review on the 
arrest of Devyani Khobragade, including the applicability of the Vienna 
Conventions on Diplomatic and Consular Relations to the case.
    Under international law as stated in the Vienna Convention on 
Diplomatic Relations of 1961 and the Vienna Convention on Consular 
Relations of 1963, foreign diplomatic and consular personnel are under 
a duty to respect U.S. laws and regulations. At the time of her arrest, 
Dr. Khobragade enjoyed immunity only for official acts undertaken in 
her role as Deputy Consul General at India's Consulate General in New 
York. Consequently, she did not enjoy immunity from the charges against 
her at the time of her arrest, which related to her private employment 
of a domestic worker.
    Persons enjoying immunity under the Vienna Convention on Diplomatic 
Relations cannot be arrested consistent with the Convention. The Vienna 
Convention on Consular Relations, on the other hand, provides that 
consular officers can be arrested only with a warrant and for a grave 
crime, which we have long interpreted to be a felony. Consular officers 
can be arrested by federal authorities or state and local authorities. 
There are no set procedures applicable to the arrest of consular 
officers or other members of the consular post; rather, as with any 
arrest, how the relevant authorities proceed depends on the 
circumstances in a particular case. The Department is committed to 
improving communication and coordination with the Department of Justice 
and the U.S. Marshals Service regarding the arrest and processing of 
consular officers, and has been discussing that topic with those 
agencies in recent months.
    As the Department reflects on the period following the arrest, we 
are encouraged that, even during the toughest moments, our two 
countries kept open the lines of communication. We knew then and know 
now that the U.S.-India partnership is too important, and too strong, 
to be defined by one event. We are carrying that very important lesson 
forward as we get back to the vital business at hand.

    Question #27. MENA Reform.--Then State Department's FY15 request 
does not seek funding for the Middle East and North Africa Incentive 
Fund. Instead, funding for political and economic reform will be drawn 
from the overall Economic Support Funds account.

  <diamond> Do you anticipate negative impacts to the effectiveness of 
        U.S. efforts in promoting political and economic reform by 
        moving funding into ESF rather than a stand-alone, specific 
        account?
  <diamond> Will this limit flexibility to respond to quickly changing 
        circumstances?
  <diamond> $225M is allocated specifically for MENA reform. How does 
        this break down by country and program? What State Department 
        priorities for the MENA region are addressed by the programs to 
        be funded under this account in FY 15?
  <diamond> How will the MENA Transition Fund reinforce and align with 
        the programs funding with the $225M in ESF, and how will you 
        work to avoid redundancies?

    Answer. Given the ongoing volatility in the Middle East and North 
Africa (MENA) and the importance of continued, active U.S. engagement, 
we believe it remains critical to request funding in anticipation of 
future contingencies and reform opportunities. These requested funds 
would provide us, in consultation with Congress, the ability to respond 
rapidly and flexibly to emerging needs and opportunities. The FY 2014 
request for the MENA Incentive Fund proposed the creation of a new 
account. The FY 2015 request for the MENA Initiative instead requests 
funds within existing accounts, utilizing the authorities available in 
the Foreign Assistance Act and annual appropriations bills. We have 
identified and selected those accounts based on experience and lessons 
learned over the past 3 years, and an internal review of the areas of 
intervention--such as supporting private sector development and job 
creation--in which U.S. assistance can advance our national interests 
and support positive change in the region.
    Moreover, by requesting centrally managed money for reforms we 
retain the flexibility to implement those funds regionally as well as 
in countries with the strongest need and greatest opportunity. We are 
confident this mechanism will give us the ability to direct foreign 
assistance where it can have the greatest impact. The FY 2015 MENA 
Initiative request also represents a shift from a focus on national 
governments to working with and empowering citizens around the region 
on key transition challenges: jobs, security, democratic governance, 
and human rights.
    The $225 million in ESF that we have requested will focus primarily 
on reforms on a regional scale. This includes $50 million for USAID's 
MENA Investment Initiative, $50 million for USAID's MENA Water Security 
Initiative, $70 million for economic reform programs, $40 million for 
governance and civil society programs, and $15 million for programming 
in human rights and rule of law. We are not breaking down MENA 
Initiative funding by country, which ensures it is available for use 
across the entire region in response to developments on the ground.
    The MENA Investment Initiative aims to create jobs and spur private 
investment by providing financing for startup and early-stage companies 
and technical support for business development services. The MENA water 
security initiative aims to combine economic entrepreneurship 
opportunities with the development of ``water-smart'' technologies to 
improve long-term, sustainable access to water. Economic reform funds 
will support efforts to reduce trade barriers, change policies, and 
regulations that suppress private investment, and improve revenue 
management. The $70 million in MENA economic reforms request includes 
$10 million for a potential U.S. contribution to the Deauville 
Transition Fund. The United States sits on the Deauville Transition 
Fund Steering Committee, which decides whether to approve or reject 
project proposals. Steering Committee decisions are made by consensus, 
which allows the United States to determine whether proposed projects 
are consistent with U.S. policy objectives and legal requirements. The 
U.S. position on each proposal is decided through an interagency 
process, which allows the opportunity to deconflict U.S. Government 
reform initiatives.
    Programming in human rights and rule of law will include funds to 
counter violent extremism and support security sector reform. 
Governance funds will include support for elections and political 
process reforms, strengthening media and internet freedom, and the 
engagement of civil society with emerging leaders and democratic 
institutions across the region.

    Question #28. Israel.--The President's budget includes $3.1 billion 
in security assistance for Israel in line with the U.S.-Israel MOU on 
assistance. During his trip to Israel last year, President Obama 
committed to negotiating a new aid agreement with Israel as the current 
MOU expires in a few years.

  <diamond> Can you update us on where talks with Israel stand on a new 
        MOU?
  <diamond> How are State and DOD ensuring Israel's Qualitative 
        Military Edge (QME) considering huge sales of sophisticated 
        weaponry to other partners across the region? Are Israeli 
        officials concerned by continued U.S. sales of sophisticated 
        weapons platforms to other countries given the high degree of 
        instability, violence, and sectarianism sweeping the region?

    Answer. Discussions with Israel are underway on a new FMF Foreign 
Military Financing (FMF) MOU. Teams from Israel and the United States 
and Israel have met several times over the past year both in Israel and 
Washington on this issue. As we continue these discussions, we are 
mindful of the mounting fiscal constraints on U.S. foreign assistance 
allocations.
    Israel remains, by a significant margin, the leading recipient of 
FMF, and the Israel Defense Forces enjoy privileged access to the most 
advanced U.S. military equipment, such as the F-35 Joint Strike Fighter 
and the V-22 Osprey. The United States also provides substantial 
financial and technical assistance to help Israel develop a 
comprehensive air and missile defense system to protect against 
rockets, cruise missiles, and ballistic missiles.
    With regard to Israel's Qualitative Military Edge (QME), this 
administration has consistently reaffirmed its commitment to 
maintaining Israel's QME. The administration regularly assesses the 
capabilities of the region's militaries and nonstate actors, and 
closely monitors regional developments. U.S. and Israeli officials meet 
regularly to discuss both regional security and U.S. defense 
cooperation throughout the region.
    The sale of sophisticated defense equipment to the Middle East is 
critical and a key part of an extensive U.S. effort to ensure our 
partners in the region have credible military capabilities to respond 
to potential regional threats. The administration does not proceed with 
the release of U.S. defense articles or services that would threaten 
our allies and partners including Israel, or compromise regional 
security in the Middle East.
    This administration regularly assesses the capabilities of the 
region's militaries and nonstate actors and closely monitors regional 
developments to ensure Israel maintains its QME. We are also taking 
full advantage of the consultative and political mechanisms currently 
in place to respond to and act on Israel's concerns. U.S. and Israeli 
officials meet regularly to discuss both regional security and U.S. 
defense cooperation throughout the region.

    Question #29. Iran.--The administration has said that as part of a 
final deal with Iran a significant portion of its nuclear 
infrastructure will have to be dismantled. Meanwhile, Iran is saying 
``no'' to any dismantlement and this week announced that it wants to 
postpone discussion on the possible military dimensions of its program.

  <diamond> How will you address these issues that suggest Iran is not 
        negotiating with the P5+1 in good faith?
  <diamond> Do we have a set of hard requirements--a bottom line--that 
        we will insist upon in order to reach an agreement? What can 
        you tell us about these minimum requirements?
  <diamond> You and the President have said that we must make it 
        impossible for Iran to get a nuclear bomb. Will we demand that 
        Fordow be closed (not just that there be no enrichment there)? 
        Will we insist that Iran cannot have a heavy water reactor? Do 
        we have a figure in mind for the number of centrifuges Iran can 
        maintain? Can they have any advanced centrifuges?
  <diamond> You have indicated that a bad deal is worse than no deal. 
        What, in your view, would constitute a bad deal?
  <diamond> Given the increased responsibilities the IAEA is taking on 
        to monitor the Joint Plan of Action, are we providing 
        sufficient funds to that organization to do what it needs to 
        do?

    Answer. The administration is working with the P5+1 and EU to reach 
a comprehensive solution to the international community's concerns with 
Iran's nuclear program. Our goal remains to prevent Iran from acquiring 
a nuclear weapon and ensure that its nuclear program is exclusively 
peaceful. Our negotiations with Iran to date have been respectful, 
professional, and intense.
    All of the things on which we will have to reach agreement in the 
course of the negotiations are addressed in the Joint Plan of Action 
(JPOA). We are looking to ensure that we have the right combination of 
measures in place to ensure Iran cannot acquire a nuclear weapon. 
Moreover, any long-term comprehensive solution will have to demonstrate 
to the international community in a meaningful and verifiable way that 
Iran's nuclear program will be used for exclusively peaceful purposes. 
This is why we agreed in the JPOA that nothing is agreed until 
everything is agreed in a comprehensive solution. All members of the 
P5+1 must agree on any final decision, so we will be able to ensure 
that an agreement meets our needs. Anything that falls short of meeting 
our needs would be a bad deal.
    The IAEA continues to play an essential role in verifying the 
nuclear-related understandings contained in the JPOA, and we commend 
the Director General and the Secretariat for their objective and 
impartial effort in this enhanced verification role. The IAEA Director 
General has discussed the need for extra-budgetary contributions to 
support the Agency's JPOA-related activities, most recently during the 
March meeting of the IAEA Board of Governors, when he noted that a 
shortfall still remains in the necessary additional extra-budgetary 
funding. The United States is committed to working with other IAEA 
Member States to provide the Agency the resources it needs for carrying 
out this JPOA-related work.
    The United States made a contribution of 750,000 euros in extra-
budgetary funding to the IAEA in support of the JPOA and is prepared to 
contribute additional funding to ensure the Agency has the necessary 
financial resources to complete its verification under the JPOA. It 
does not appear that the IAEA will ultimately face a large shortfall, 
but we will ensure that the IAEA has the funding it needs to finish the 
job under the JPOA.

    Question #30 (a-f). Egypt.--The Egyptian Government is making 
progress in its self-identified roadmap for a Constitutional Referendum 
and elections. However, media repression, activist intimidation, 
exclusionary politics, and continued inability of the security services 
to refrain from using deadly force against protestors are troubling 
signs. The March 7 joint declaration by the U.N. Human Rights Council 
underscores international concern about human rights abuses in Egypt. 
These dynamics will not enable a sustainable, genuine democratic 
transition and will likely only lead to further instability.

  <diamond> (a). When will the State Department certify that Egypt is 
        taking steps to govern democratically in order to release the 
        FY14 assistance? What indicators and benchmarks will you use to 
        make this certification?

    Answer. We are not yet in a position to make the 6(A) and 6(B) 
certifications required by section 7041(a) of the FY14 Appropriations 
Act and do not have a specific timetable for doing so. However, we have 
consistently expressed, publically and privately, that the protection 
of fundamental rights and freedoms is a required benchmark of any 
peaceful democratic transition. As such, we have expressed grave 
concern over the politicized arrests, trials, and sentences of civil 
society activists in Egypt and have urged the government to redress 
unjust verdicts and provide full and transparent due process to all 
accused. We continue to urge the Egyptian Government to uphold these 
democratic principles, many of which are articulated in the new 
Egyptian Constitution, and to build an environment free of threat and 
intimidation in order to create a stable and secure country for all 
Egyptians. As we monitor the situation in Egypt, we will continue to 
review Egypt's progress toward meeting the 6(A) and 6(B) certification 
requirements. We will continue to consult with Congress as Egypt's 
political transition proceeds.

  <diamond> (b). The Senate Foreign Relations Committee's bipartisan 
        Egypt Assistance Reform Act of 2014 called for a strategic 
        reassessment of security and economic assistance provided to 
        Egypt in light of new realities on the ground. Is the 
        administration undertaking its own review of U.S. assistance to 
        Egypt? If so, what is the timeline for completing this review 
        and will you engage Congress on your findings?

    Answer. The administration undertook a careful and deliberate 
review of assistance to Egypt in the aftermath of the events of early 
July and is continuing to review U.S. assistance as the situation 
evolves. We will continue to hold certain forms of assistance from the 
Egyptian Government pending credible progress on their political 
roadmap toward an inclusive, sustainable transition to a civilian-led, 
democratic government through a free and transparent process. We will 
continue to engage Congress over developments in Egypt.

  <diamond> (c). The administration has also placed policy holds on a 
        number of weapons systems scheduled for delivery to the 
        Egyptian Armed Forces. Egyptian military leaders believe the 
        delivery of Apache helicopters is particularly urgent for 
        continuing Egypt's counterterrorism campaign in the Sinai. Do 
        you agree with the assessment that the Apache helicopters will 
        help fight terrorism in the Sinai? What about the other 
        deliveries currently on hold?

    Answer. Egypt faces a persistent and growing threat from extremist 
groups. Consistent with our policy, our assistance to the Egyptian 
military will continue to support our national interests in maintaining 
regional peace and stability and countering transnational threats. This 
includes aiding border security and supporting counterterrorism 
operations. Undoubtedly, weapon systems like Apache helicopters are 
significant tools in Egypt's counterterrorism campaign in the Sinai. We 
believe these helicopters will help the Egyptian Government 
counterextremists who threaten U.S., Egyptian, and Israeli security. We 
will continue to work closely with the government to ensure that our 
shared security priorities are protected, while we also push the 
government to take credible steps to improve the democracy and human 
rights environment.

  <diamond> (d). The Egyptian military campaign in the Sinai has been 
        criticized as heavy-handed with numerous civilian casualties, 
        which risks radicalizing extremist groups further. Do you 
        agree? What specific U.S. assistance, equipment, and guidance 
        are Egyptian Security Forces receiving? Is this a counterterror 
        campaign or a counterinsurgency campaign?

    Answer. We have seen reports of possible excessive and 
indiscriminate use of force by the Egyptian military during the current 
campaign in the Sinai. We are looking into those reports and discussing 
them with the Egyptian Government. We take allegations of any misuse of 
our assistance or broaching of the standards of the Law of Armed 
Conflict very seriously, and we continually review our security 
assistance to ensure that it fully complies with U.S. policy 
objectives. Our military assistance in Egypt is directed toward 
enabling the Egyptian military to secure the country's borders and 
counter legitimate terrorist threats, including in the Sinai.

  <diamond> (e). Please characterize the Egyptian Armed Forces' efforts 
        to close the tunnels into Gaza and to stabilize the Sinai.

    Answer. The Egyptian military is placing a greater priority on 
border security responsibilities, nonproliferation and 
counterterrorism--a focus that we strongly support given its importance 
to the U.S. and Israel's national security priorities. This stronger 
commitment to border security has manifested itself in the past several 
months as an Egyptian military campaign of tunnel destruction to limit 
the flow of weapons and militants into the Sinai from Gaza, steps 
Israeli officials have welcomed.

  <diamond> (f). The actions that the Egyptian military and interim 
        government has taken to suppress the Muslim Brotherhood--
        especially designating it a terrorist organization--seem 
        guaranteed to lay the foundation for years of insurgency, 
        unrest, and perhaps terrorism. They are validating the 
        contentions of extremist groups that elections and democracy in 
        Egypt and elsewhere are a dead end. Can the Egyptian military, 
        and a military-backed government, really suppress its way to a 
        stable democracy? What are the long-term implications of the 
        policies undertaken by this interim government?

    Answer. Our message to the Egyptian Government regarding 
politicized arrests and the designation of the Muslim Brotherhood has 
been clear: the government has the responsibility to ensure a 
comprehensive, inclusive, and peaceful political transition to a 
civilian-led government that respects the fundamental rights and 
freedoms of all Egyptians. We believe that stability and prosperity in 
Egypt can only be achieved through this approach, as a wholly security-
focused approach risks increasing radicalization and instability. Our 
full provision of aid is dependent on credible progress being made 
toward these goals, and we remind them of this consistently at high 
levels. We will continue to urge the interim government to follow 
through on its commitments to uphold democratic principles and to 
ensure that all Egyptians have the ability to exercise their universal 
rights and freedoms without fear of intimidation or retribution. We 
have stressed that this is not only an aspiration of the Egyptian 
people, but also a necessary component for long-term partnership with 
the United States and for Egypt's long-term stability.

    Question #31 (a-e). Iraq.--Iraq is due to hold national elections 
at the end of April, but the violence particularly in western Iraq 
shows no signs of stopping and bombings continue to be a daily 
occurrence.

  <diamond> (a). Given the current level of violence, can Iraq's 
        elections be held on time throughout the country? What are the 
        prospects for any post-election coalition to be able to 
        effectively govern Iraq given the deep ethnic and sectarian 
        tensions and distrust? Will security be further undermined if 
        there is a prolonged government formation period?

    Answer. We expect that Iraq will hold its April 30 national 
elections on time throughout the country, including at polling stations 
in secure areas of Anbar province. Iraq's Independent High Election 
Commission (IHEC) has taken steps to ensure that people displaced by 
the violence in Anbar province can vote in other provinces in Iraq. We 
continue to support efforts by IHEC and the U.N. Assistance Mission in 
Iraq to ensure that Iraqi citizens will be able to exercise their right 
to vote in a secure and fair environment in spite of security threats 
posed by the Islamic State in Iraq and the Levant (ISIL). At the 
highest levels we continue to impress upon all of Iraq's leaders the 
importance of coming together quickly after the elections to form a 
government.

  <diamond> (b). In the FY15 budget request, Iraq is still defined as a 
        ``front line'' state receiving funding for both U.S. operations 
        and assistance in the Overseas Contingency Account. The 
        administration envisions this funding as a downward ``glide-
        path'' as Iraq becomes more stable and prosperous and is better 
        able to fund its own development and defense. Given the current 
        state of affairs in Iraq, is providing such a large amount of 
        U.S. assistance still in the U.S. national interest? When will 
        Iraq be able to fund its down security requirements?

    Answer. Providing robust assistance to Iraq is not only in the best 
interests of the U.S., but in our national security interest, as well. 
Given the critical nature of our strategic relationship in an 
increasingly volatile region, it is crucial that we provide the 
necessary support to build Iraq's capacity in securing its borders, 
combating nonstate-based terrorist and criminal interests, and 
promoting regional stability. However, as Iraq's internal capabilities 
have improved, the U.S. has consistently reduced our levels of direct 
support. For example, from FY 2013 to the FY 2015 request, Iraq's 
bilateral FMF account level has seen a $221.32 million dollar decrease 
(^46.96 percent). Over the same period, the combined values of the 
NADR, INCLE, and IMET accounts have been reduced by 20.78 percent 
(^$9.51 million). Iraq still needs our help.

  <diamond> (c). You have requested $250 million in security assistance 
        for Iraq in FY15. What is your confidence level that the Iraqi 
        Security Forces will use U.S.-funded equipment responsibly and 
        effectively?

    Answer. Since 2005, Iraq has received FMS equipment, training, and 
support valued at $15.5 billion; more than 75 percent ($11.8 billion) 
of which has been funded by the Iraqi Government. The Iraqi Security 
Forces are engaged in a daily battle against an ISIL threat that now 
resembles more of a professional army than a terrorist organization. 
The ISF are suffering significant casualties (over 1,000 dead in 2013) 
and battle damage--over 50 percent of their helicopters have suffered 
combat damage and several have been shot down. In recent years, the 
U.S. has based its decisions to reduce Iraq assistance levels on 
projections based off steadily increasing oil production, exports and 
revenues. However, for 2013 and 2014, the projections for increasing 
oil revenue are proving to have been overly optimistic. Iraq has 
already spent a substantial amount to modernize its forces.
    Although Iraq's host-nation funded FMS program is significant at 
$15.5 billion, nearly all of Iraq's available defense spending is 
focused on supporting the immediate and substantial needs for the 
counterterrorism fight. Over the past 6 months, Iraq has paid $250 
million in FMS to fund an urgent request to expedite, with the help of 
Congress, deliveries of small arms, ammunition and other munitions.

  <diamond> (d). I remain concerned about the safety and security of 
        the residents at Camp Liberty, who continue to be in danger 
        from rocket attacks and already survived a horrific attack at 
        Camp Ashraf last summer. The Iraqi Government has reiterated 
        its commitment to their protection while we continue to work on 
        resettlement outside of Iraq.

    Answer. Our Foreign Military Financing (FMF) request for FY 2015 of 
$250 million is a critical piece of the ISF's defense funding strategy. 
While FMF provides specific counterterrorism and niche needs, the bulk 
of the program focuses on longer term professionalization and logistics 
capacity-building efforts. We take end-use monitoring of all U.S.-
provided equipment seriously. OSC-I works closely with senior Iraqi MOD 
leadership to stress the importance of responsible use and stringent 
management of all weapons systems, and the GOI continues to strengthen 
its relevant security procedures. OSC-I regularly conducts inspections 
on U.S.-provided systems already fielded in Iraq and thus far have 
found no end use violations.

  <diamond> (e). i--Has the Iraqi Government completed the installation 
        of T-walls at Camp Liberty? If not, what is the timeline for 
        completion and what actions is the U.S. Government undertaking 
        to hasten this progress?
  <diamond> (e). ii--The U.S. is contributing $1 million to a United 
        Nations trust fund for the resettlement of MEK members outside 
        of Iraq. Please provide an update on (1) status of this 
        funding, (2) status of Iraqi Government donations to the trust 
        fund, and (3) next steps and timeline for resettlement of MEK 
        members outside of Iraq.

    Answer. We continue to work with the GOI and the U.N. to ensure the 
protection of those currently residing at Camp Hurriya. U.N. monitors 
also visit the camp daily in accordance with the MOU to assess human 
rights and humanitarian conditions at the camp, which meet and exceed 
international humanitarian standards.
    T-wall installation at Camp Hurriya, in accordance with a mutually 
agreed plan between the GOI and the residents, is ongoing. Currently, 
there are over 1,488 large T-walls, 520 bunkers, nearly 700 small T-
walls and 95,000 sandbags in the camp.
    On March 20, Congress cleared the Congressional Notification for 
the U.S. Government's $1 million grant to the United Nations trust fund 
for the resettlement of Camp Hurriya residents outside of Iraq. The 
funds will soon be available so that NEA can finalize the grant 
agreement with the U.N.
    The Iraqi Government pledged $500,000 to the United Nations trust 
fund for the resettlement of Camp Hurriya residents outside of Iraq. 
The transfer of funds is still in process, keeping in mind that the GOI 
has not yet passed its 2014 budget.
    We intend that an interagency interview team will begin evaluating 
candidates for U.S. resettlement in May 2014. Our initial goal is to 
identify at least 100 qualified individuals for U.S. resettlement, 
subject to security conditions, cooperation of the MEK, and 
availability of interested candidates. However, we cannot predict how 
many candidates will successfully complete the interview vetting and 
robust security vetting process. The earliest possible date that fully 
cleared candidates for U.S. resettlement may arrive in the United 
States is summer 2014. We will continue to keep Congress informed of 
the results of the interviews and security vetting.
    The Senior Advisor for MEK Resettlement will continue to hold 
discussions with a number of countries, primarily in Europe, regarding 
the possibility of accepting Camp Hurriya residents.
    The timing of complete relocation of Camp Hurriya residents depends 
on how quickly countries will agree to offer places for relocation, 
process individual cases, and issue entry permits as well as continued 
cooperation.

    Question #32 (a-j). My committee provided the administration with 
Authorization for Use of Military Force last year. It is clear that a 
credible military threat paved the way for a deal on Syria's chemical 
weapons stockpile. Now, 6 months later, the Assad regime continues to 
miss deadlines for the removal of its chemical weapons, the Geneva 2 
process has failed to realize the goal of transitional governing body, 
and a stalemate on the ground in Syria persists between Assad and rebel 
forces. Meanwhile, Syria is a magnet for violent extremists and 
millions of Syrian inside and outside the country are in critical need 
of humanitarian aid. The current policy is not working.

  <diamond> (a). Do you agree with this assessment? What can be done to 
        shift the stalemate on the ground in Syria?

    Answer. We share your deep concern that the conflict in Syria 
continues to worsen. While we have already taken important steps across 
multiple lines of effort, we must do more. We are looking at what more 
we can do and also at what our international partners can do to support 
the moderate opposition more effectively and to change the realities on 
the ground, but we must reiterate that a political solution--and not a 
military solution--offers the best means to resolve the Syrian crisis.

  <diamond> (b). What is the administration's strategy for ending the 
        Syrian war?

    Answer. Our policy in Syria is to isolate and degrade violent 
extremist networks and to facilitate an orderly, negotiated end to the 
conflict, through a clear transition to a new, competent, and 
representative authority. We have identified and are working to advance 
the following six specific policy interests: (1) countering violent 
extremism and preventing the establishment of a terrorist safe-haven in 
Syria; (2) avoiding the collapse of the Syrian state and its 
institutions; (3) preventing the transfer or use of chemical weapons 
(CW); (4) providing support to Syria's neighbors; (5) alleviating 
humanitarian suffering resulting from the conflict; and (6) helping 
foster a negotiated transition leading to a representative government 
that is responsive to the needs of the Syrian people.
    Our strategy for achieving these policy goals is to leverage 
pressure on the regime so that it views a political agreement with the 
moderate Syrian opposition as its only viable exit plan.
    We have made some important progress. Over the past few months the 
State Department and USAID have stepped up efforts to channel resources 
from the $260 million in our nonlethal assistance programs directly to 
local and provincial governments and civil society groups, as well as 
to the Syrian Opposition Coalition (SOC). In towns and cities under 
opposition control, we are beginning to provide stipends to local law 
enforcement and teachers to help them stay on the job rather than 
ceding the ground to extremist groups. We continue to train local 
councils and civil society organizations in administration and local 
governance. We are also providing equipment and supplies to help them 
provide basic services, including heavy equipment such as generators, 
cranes, trucks, and ambulances. This assistance includes $80 million in 
nonlethal support to the Supreme Military Command (SMC). Providing this 
support to groups engaged in a highly fluid battle zone has been 
challenging, but remains an important part of our strategy nonetheless.
    We recognize that our nonlethal assistance will not directly 
determine outcomes on the battlefield nor will it, on its own, force 
Assad to change his calculus about trying to hold on to power. However, 
our assistance does provide needed equipment and supplies, while 
sending a signal both to those inside and outside Syria of our strong 
support for the moderate opposition. Our assistance also helps maintain 
basic administrative institutions, helps prevent the formation of 
vacuums in services and security that extremists exploit, and helps 
create relationships with moderates who can, when this conflict is 
over, form the basis of a transitional government.
    As the situation in Syria remains dynamic, so too must our 
approach. We are assessing our tools to better achieve our policy 
goals. We are working more closely with regional partners to maximize 
the impact of our collective assistance at the same time that we are 
improving our own assistance channels. Importantly, we share a common 
understanding with our gulf partners regarding the importance of 
ensuring that extremists not benefit from external assistance.

  <diamond> (c). The FY15 budget request includes $155 million for 
        support to the Syrian opposition. Please describe the types of 
        support that this funding will provide. How will this 
        assistance directly contribute to shifting the stalemate on the 
        ground?

    Answer. The FY 2015 request of $155 million will continue ongoing 
opposition support efforts, including support to national- and local-
level opposition groups as they strive to achieve and implement a 
negotiated political solution. As negotiations progress, and should a 
transition occur, U.S. nonlethal assistance will help consolidate the 
political transition, support democratic processes, strengthen criminal 
justice institutions within Syria, and enable reconstruction and 
recovery efforts, in coordination with the other international donors. 
Some of these funds may also be used to help mitigate the economic, 
security, and infrastructure impacts this ongoing crisis and its 
refugee flows have on neighboring countries.

  <diamond> (d). The Syrian Opposition Coalition (SOC) performed 
        admirably at Geneva, but lacks street credibility and key local 
        relationships with communities on the ground. What is the 
        administration doing to help the SOC develop these links and 
        gain credibility?

    Answer. We share your assessment of the importance of strengthening 
ties between the SOC and communities inside Syria. We are addressing 
this issue diplomatically in senior-level meetings with SOC leadership 
and through our foreign assistance programs. We seek every opportunity 
to involve the SOC in public fora with Syrian civil society leaders and 
local media and have successfully facilitated multiple SOC meetings 
with local councils, media outlets, and grassroots organizations over 
the past year.
    We have pledged $10 million to support local councils across Syria, 
an initiative that is implemented in close coordination with SOC's 
Assistance Coordination Unit (ACU)--and we have provided approximately 
$700,000 to help the ACU strengthen its ability to respond to the needs 
of Syrians and conduct outreach inside Syria. With our help, the SOC's 
ACU has taken a lead role in determining the distribution of $17.5 
million in USG-purchased and SOC/ACU-branded equipment, such as fire 
trucks, water bladders, ambulances, food baskets, and winterization and 
school supplies. In January 2014, the State Department finalized a $2 
million grant to the SOC that provided operational support and 
resources to increase their connectivity to local actors. These funds 
supported their participation in the Geneva II process and will allow 
for SOC leaders to host townhall meetings, travel regularly to Syria, 
and open offices across Syria.

  <diamond> (e). What new initiatives and assistance is the 
        administration planning to provide to the Syrian opposition as 
        a direct result of President Obama's visit to Saudi Arabia?

    Answer. President Obama's recent trip to Saudi Arabia was intended 
to enhance our consultation with regional allies regarding the Syria 
conflict along with other issues. We are actively evaluating what more 
we can do and what our partners can do to support the moderate 
opposition more effectively and to change the realities on the ground. 
The President and King Abdullah discussed Syria extensively, including 
our shared objectives of bringing about a political transition, 
supporting the moderate opposition, and isolating violent extremists. 
Our cooperation on these efforts continues to improve.

  <diamond> (f). How will the U.S. Government respond if Assad fails to 
        implement the legally binding requirements set out in U.N. 
        Security Council Resolution 2139?

    Answer. Under Resolution 2139, the Security Council intends ``to 
take further steps in the case of noncompliance.'' We are working with 
our like-minded countries on the Security Council on what further steps 
are available to ensure full implementation of the resolution's 
provisions. As Ambassador Power recently said, ``we are obliged to 
pursue action not just by the seriousness with which we approach our 
Security Council mandate and the commitments we make, but also, of 
course, out of a basic sense of decency.''

  <diamond> (g). What are the prospects that Assad will run in Syria's 
        elections projected to take place in June 2014? Will he win?

    Answer. As we noted in our joint press release with London 11 
partners on April 3, ``recent actions by the Assad regime to pave the 
way for Presidential elections in the coming months, including the 
promulgation of a new electoral law, have no credibility. Bashar al-
Assad intends these elections to sustain his dictatorship. They would 
be conducted in the midst of a conflict, only in regime-controlled 
areas, and with millions of Syrians disenfranchised, displaced from 
their homes, or in refugee camps.'' A sham electoral process led by 
Assad, who has overseen a regime that the independent international 
commission of inquiry has concluded has committed war crimes and crimes 
against humanity, mocks the innocent lives lost in the conflict.
    If the Assad regime goes forward with this display of elections, it 
will announce Bashar al-Assad as the winner and that most of the 
international community will recognize the absurdity and invalidity of 
this exercise.

  <diamond> (h). Recent reports out of Iran suggest that voices within 
        the Iranian Government, academia and society may be in the 
        early stages of conflict fatigue, questioning the wisdom of 
        supporting Assad in a long conflict. Do we have any evidence 
        that the Iranians may now view Assad as expendable, while 
        remaining supportive of the regime?

    Answer. Iranian politicians, academics, and other private citizens, 
have made public statements voicing their criticism of Iran's Syria 
policy or support to Assad at various times since the conflict began. 
Deputy Foreign Minister for Arab and African Affairs Amir Abdollahian, 
who oversees the Syria portfolio in Iran's Ministry of Foreign Affairs, 
is cited in April 2 media reports as saying that Iran does not want 
Assad to stay in power indefinitely.
    After Iran announced the sending of 30,000 tons of food aid to 
Syria, many Iranian citizens voiced opposition to the move, pointing to 
the contradiction of Iran sending food to Syria when domestic food 
needs were unmet.

  <diamond> (i). Most accounts now hold that the Assad regime is no 
        longer fully cooperating with the agreement on removing their 
        chemical weapons, certainly doing the barest minimum to comply.

      <all>  Please provide an update on the status of this agreement 
            and its implementation. What consequences will Assad face 
            for not living up to the agreement?

    Answer. As of April 8, 2014, just over 54 percent of all declared 
chemicals have been removed from Syria, and 93 percent of the regime's 
stockpile of isopropanol (a binary component of the nerve agent sarin) 
has been destroyed in country. In addition, the OPCW has verified the 
functional destruction of Syria's chemical weapons production, mixing, 
and filling equipment. Still, much work remains to be done.
    We continue to work with the international community to maintain 
pressure on the regime to deliver all of the remaining chemicals for 
removal by the international community as urgently as possible. We 
believe the Syrians are fully capable of fulfilling their obligation to 
complete the removal effort by late April, and, if they do, we believe 
the June 30 target date for the complete elimination of the program 
remains achievable.
    We continue to monitor the regime's compliance with its obligations 
under the Chemical Weapons Convention, UNSCR 2118, and related OPCW 
Executive Council decisions closely. Those obligations are clear, and 
we will continue to underscore the importance of the Assad regime's 
continued cooperation. The Security Council decided in UNSCR 2118 to 
impose measures under Chapter VII of the United Nations Charter in the 
event of noncompliance with the resolution.

  <diamond> (j). Russia continues to undermine efforts to reach 
        meaningful progress and a negotiated transition in Syria. What 
        actions is the U.S. prepared to take to counter Russia's 
        continued supply of weapons and support to Syria?

    Answer. We are very concerned about Russia's arms supplies to the 
Assad regime, as they serve to reinforce the regime and make a 
negotiated political solution more elusive. What is clearly needed is 
for Russia to push harder on the Assad regime and to recognize what's 
at stake is not just for Syria but for the whole region. We have made 
this clear to the Russians. We continue to evaluate all available 
options that would exert strong pressure on the regime and countries 
that support it to bring about an end to the violence and enable a 
democratic transition. I assure you that we continue to work in 
coordination with our international partners to force a shift in the 
regime's behavior.

    Question #33 (a-b). Jordan.--Jordan is a reliable partner and a 
stabilizing presence in a difficult region. It is one of only two Arab 
countries to have signed a peace treaty with Israel and establish full 
diplomatic relations. At the same time, Jordan faces serious economic 
strains made worse by an ongoing wave of Syrian refugees who are taxing 
Jordan's infrastructure and competing with Jordanians for jobs.

  <diamond> (a). What impact is the flood of Syrian refugees having on 
        Jordan's political and economic stability? How is U.S. 
        assistance specifically supporting Jordan in hosting such a 
        high level of refugees?

    Answer. Jordan currently hosts approximately 600,000 Syrian 
refugees; approximately 85 percent live in host communities with access 
to subsidized food, energy, health, and education. The influx of Syrian 
refugees into Jordanian communities has strained government-provided 
services, and generated complaints from host communities directed at 
the government. Schools are overcrowded, even with double-shifting of 
classes. Already grappling with water conservation issues prior to the 
influx, municipalities in northern Jordan are unable to meet increased 
demands on water and sanitation systems. Refugees from Syria represent 
9 percent of health needs in northern Jordan, leading to shortages in 
medical supplies and medications.
    Jordanian authorities are also concerned about the potential for 
the export of extremism from Syria into Jordan.
    The United States has provided more than $268 million in 
humanitarian assistance to international organizations and 
nongovernmental organizations (NGOs) to support refugees from Syria and 
related host country needs in Jordan since the start of the Syria 
crisis. For example, USAID has built five new schools in northern 
Jordan, is expanding 67 existing schools to accommodate the influx of 
Syrian children and youth, and is supporting teacher training to 
prepare educators for the challenges of crowded classrooms and students 
with very different educational and psychosocial needs. Additionally, 
USAID has expanded programs for water conservation, water catchment and 
storage, and water infrastructure repair and maintenance.
    In addition to significant amounts of bilateral development and 
economic assistance, the United States provided an additional $300 
million in direct budget support to mitigate costs associated with the 
Syria crisis. We have also provided a $1.25 billion, 7-year sovereign 
loan guarantee to Jordan. Additionally, the administration announced 
its intention to provide Jordan with a follow-on $1 billion loan 
guarantee in 2014. These guarantees strengthen the Government of 
Jordan's ability to maintain access to international financing, while 
enabling it to achieve its economic development and reform goals--even 
while addressing the costs of hosting 600,000 refugees from Syria.

  <diamond> (b). Is the assistance that we are providing to Jordan to 
        secure their border with Syria sufficient?

    Answer. The administration is committed to enhancing Jordan's 
border security, particularly in light of threats stemming from the 
Syria crisis. Both the Departments of State and Defense have committed 
funding to these efforts and we believe that, once completed, these 
programs will contribute substantially to strengthening Jordan's 
capability to defend its borders. The main effort driven by the State 
Department is the Jordan Border Security Program (JBSP), which is a 
three-phase project designed to secure Jordan's borders with Syria 
(Phases 1 and 2) and Iraq (Phase 3). This program has provided critical 
support to Jordan's border security, including by providing detection 
equipment along the border, to enable security forces to identify and 
respond to threats.

    Question #34 (a-e). As Deputy Assistant Secretary Lawrence 
Silverman stated on February 26, ``the February 15 formation of a 
government by Prime Minister Suleiman after 10 months of gridlock, is a 
welcome development for the Lebanese people, and an opportunity for the 
United States and Lebanon to work together to achieve shared goals.''

  <diamond> (a). What are the U.S.-Lebanon shared goals? How has U.S. 
        assistance contributed to advancing these shared goals?

    Answer. Our shared goals are the sovereignty, security, stability, 
and independence of the Lebanese state as it plays a constructive role 
in achieving regional peace and prosperity. We share the goal of the 
development of Lebanese democracy and economic growth. The Lebanese 
people are rightly proud of their long democratic tradition since 
independence in 1948. This democracy has been tested through war and 
conflict, but with our assistance the state has demonstrated an ability 
to represent the interests of all Lebanese people, even in the face of 
entities that threaten the state's sovereignty, including but not 
limited to Hezbollah. U.S. support strengthens Lebanon's state 
institutions, including the Lebanese Armed Forces (LAF) and the 
Internal Security Forces (ISF), which not only helps stabilize Lebanon, 
but also provides the mechanisms for the Lebanese to address the 
country's political, economic, and social future collectively. We also 
support democracy in Lebanon by encouraging the functioning of the 
processes outlined in the Lebanese Constitution, exemplified by the 
recently formed Cabinet, and now the call for a Presidential election 
on time free of foreign interference.

  <diamond> (b). Lebanon hosts more Syrian refugees than any other 
        country in the region. Last week that number passed 1 million 
        Syrian refugees in Lebanon. What impact is the flood of Syrian 
        refugees having on Lebanon's political and economic stability? 
        How is U.S. assistance specifically supporting Lebanon in 
        hosting such a high level of refugees?

    Answer. There is not a single Lebanese community that has not been 
affected by the refugee crisis; the Syrian refugees reside in 1,600 
communities in Lebanon. With refugee arrivals continuing unabated, the 
sheer volume of need has overwhelmed the ability of the central 
government and local municipalities to respond to the enormous 
challenge of providing public services to this large and growing 
population. The United States is the single-largest contributor of 
humanitarian assistance to the Syria humanitarian response, providing 
more than $1.7 billion to date, of which more than $340 million 
supports humanitarian organizations assisting those in need in Lebanon. 
International agencies and nongovernmental organizations use 
contributions from the United States and other major donors to provide 
food, clean water, emergency shelter, health care, and education for 
refugees. These contributions help keep refugees safe and help 
alleviate the burden on communities generously hosting refugees.
    We are directly assisting host communities that bear the burden of 
the refugees. For example, we provide support via U.N. agencies to 27 
Ministry of Social Affairs Social Development Centers serving both 
local communities and refugees. These centers, which provide primary 
health care, education, vocational training and activities for Lebanese 
children in local communities, have been designated as focal points for 
refugee service delivery as well. Beyond serving as platforms for 
programs, these centers bring local residents and refugees together to 
build a sense of community and reduce social tensions. In addition to 
our humanitarian assistance, the United States provides Lebanon with 
annual development and economic assistance that supports Lebanon's 
long-term development priorities and addresses needs in communities 
that are hosting refugees from Syria.

  <diamond> (c). What actions has the State Department taken to mediate 
        the maritime boundary dispute between Israel and Lebanon?

    Answer. The most promising economic sector in Lebanon in the 
medium- to long-term is the hydrocarbons industry. Lebanon may have 
substantial reserves of offshore natural gas and maybe even oil 
deposits. However, the lengthy political stalemate of the last 
caretaker government, as well as an unresolved maritime boundary with 
Israel, has prevented Lebanon from further exploring its offshore 
resources. No exploration has taken place, and any potential finds 
would take a number of years to begin producing, but U.S. companies are 
interested in this potential new sector.
    The United States engages both the Lebanese and Israelis to 
encourage an arrangement, without prejudice to competing claims over 
maritime boundaries, whereby international petroleum companies can have 
the confidence to explore and develop Lebanon's resources. We hope the 
new government will continue efforts to find such an arrangement, and 
we hope the Lebanese people will be able to enjoy the benefits of these 
resources. Deputy Assistant Secretary of State Amos Hochstein has been 
engaged with Lebanese officials and was in Beirut earlier this month 
for discussions with the new government. We continue to make progress 
toward a mutual understanding between Israel and Lebanon and continue 
to encourage both sides to avoid activity in the disputed area.

  <diamond> (d). The Government Accountability Office reported in March 
        2013 (``Security Assistance: Evaluations Needed to Determine 
        Effectiveness of U.S. Aid to Lebanon's Security Forces'' (GAO-
        13-289) that State had evaluated only one of its security 
        assistance programs for Lebanon (the INCLE program); neither 
        State nor DOD had completed plans or established timeframes to 
        evaluate the other programs. State's evaluation policy requires 
        that certain programs be evaluated periodically. Without such 
        evaluations, State and DOD have little objective evidence to 
        show that the programs have been effective or what the proper 
        mix of programs should be.

      <all>  What steps have State and DOD taken since March 2013 to 
            evaluate the effectiveness of its security-related 
            assistance programs in Lebanon?
      <all>  Without such evaluations, how do State and DOD assess that 
            their security-related assistance programs are achieving 
            their goals?

    Answer. The Department of State's Bureau of Political-Military 
Affairs (PM) is in the process of contracting a program evaluation of 
State-funded military grant assistance programs in Lebanon. The 6-month 
evaluation is expected to start in the spring of 2014. As we noted in 
our formal response to the GAO, State relies on feedback from our DOD 
implementers and the Lebanese Armed Forces to shape our military 
assistance programs. PM uses this feedback, in concert with planning 
documents from Embassy Beirut and DOD, to direct security assistance 
funding allocations each year. Additionally, State relies on the annual 
Performance Plan and Report, which assesses all State-funded assistance 
to Lebanon, to provide additional information on program success. Many 
of our individual programs have evaluation criteria and indicators 
built into their implementing mechanisms. In short, State uses all 
available information to inform the direction of our assistance and 
adjust the programs if found to be deficient. We believe that this 
information provides a limited, but significant, evaluative role in 
determining the effectiveness of our assistance.

  <diamond> (e). Press accounts at the end of 2013 reported that Saudi 
        Arabia is promising to provide Lebanon with $3 billion for the 
        purchase of weapons and equipment from a third party.

      <all>  Does such a large increase of funding complement or 
            conflict with the much smaller total of U.S security-
            related funding of $671 million allocated for Lebanese 
            security forces from FY09-13?
      <all>  Can the Lebanese Armed Forces effectively absorb the 
            amount of equipment such funding would provide?

    Answer. We have long encouraged our partners who are interested in 
a secure and sovereign Lebanon to support the LAF, a key national 
institution and a guarantor of Lebanese stability. We are talking with 
Saudi Arabia and France about how their assistance can best help 
enhance LAF capabilities. Saudi Arabia's announcement of a $3 billion 
package, to be dispersed over several years, does not replace and 
should not preclude U.S. efforts to bolster the LAF. U.S. FMF is being 
used to underwrite part of a 5-year $1.5 billion Capabilities 
Development Plan developed by DOD and the LAF, with defined priorities 
from the Joint Capabilities Review. We have consulted closely with our 
partners who have an interest in supporting Lebanon's stability to 
ensure that all of our assistance is complementary. We recently 
participated in a meeting of the International Support Group for 
Lebanon in Rome that focused the attention of donor countries on 
Lebanon's security sector needs, in order to ensure that assistance is 
complementary and focused on enhancing the LAF's capabilities.
    In general, our FMF assistance has been essential to rebuilding the 
LAF from a broken institution after the civil war into the military 
force it is now--we provide equipment and training to help the LAF 
become a stronger force. We are a trusted partner for the LAF.
    U.S. security assistance is also crucial to help the LAF achieve 
its long-term objective to become the sole legitimate defender of 
Lebanon's sovereignty as called for by UNSCR 1701. Our sustained 
support--through FMF, 1206, and IMET, among other funds--is critical to 
maintaining and improving the LAF's ability to respond to threats, 
including increasing extremist violence in Lebanon. Already this year, 
several suicide bombs have detonated around the country, and violence 
from Syria continues to spill over and threatens to destabilize 
Lebanon. The LAF is the best state institution to counter this threat.

    Question #35. Gulf Cooperation Council (GCC).-- The U.S.-Gulf 
relationship is rooted in decades of cooperation and partnership as 
Deputy Secretary Burns recently noted.
    A pillar of U.S. engagement with gulf countries has focused on 
building a capable, unified, and effective regional security 
architecture. A new U.S. initiative announced by Secretary Hagel in 
December is Foreign Military Sales to the GCC as a collective. Please 
provide an update on this initiative. How have gulf countries responded 
to this initiative? How will the recent recall of Saudi, UAE, and 
Bahrain's Ambassadors from Qatar impact this initiative? What about the 
impact on other regional policies, such as coordination on Iran and 
Syria?
    Our gulf partners have made clear that Iran's illicit nuclear 
program is only one concern. A potentially greater threat is Iran's 
destabilizing asymmetric activities and support for terrorism across 
the region. How is the administration responding to security concerns 
raised by gulf partners? What are we doing to reassure gulf partners in 
light of these concerns?

    Answer. The President's December 16 designation of the Gulf 
Cooperation Council (GCC) as an international organization eligible to 
procure U.S. defense articles and services complements U.S. foreign 
policy goals to promote security and stability throughout the gulf. Our 
objectives include enhancing the military professionalism of key U.S. 
allies, strengthening multilateral ballistic missile defense 
cooperation with all six Gulf States, and improving the collective GCC 
capacity to deter terrorists and address humanitarian emergencies. The 
regional response to the designation itself has been positive, though 
no new cases have been developed at this time.
    Recent intra-GCC tensions have not altered our overarching foreign 
policy objectives in the region. To cite one recent example, 
counterterrorism and border security experts from the United States and 
all six Gulf States met in Riyadh on April 3 to discuss expanding 
multilateral cooperation. Likewise, Secretary of Defense Hagel will 
convene a U.S.-GCC Defense Ministerial in the region this spring. That 
said, we have encouraged our GCC partners to work out their policy 
differences. They have made good progress in doing so, and agreed on a 
set of principles recently to manage the issues in question.
    We share the Gulf States' concerns regarding Iran's destabilizing 
regional behavior. The administration regularly briefs senior gulf 
officials on the status of P5+1 negotiations. These conversations and 
senior-level travel to and from the region, most prominently the 
President's March 28-29 visit to Riyadh, demonstrate our sustained 
commitment to the security of the gulf region.
    Progress on the nuclear issue does not change our resolve in 
pushing back against Iranian support for terrorism, threats against our 
friends and partners, and violations of human rights. As the President 
said on November 23, 2013, ``As we go forward, the resolve of the 
United States will remain firm, as will our commitment to our friends 
and allies--particularly Israel and our gulf partners, who have good 
reason to be skeptical about Iran's intentions.''

    Question #36. The system of kafala, or employer sponsorship, is 
prevalent in many GCC countries. Foreign workers under the kafala 
system are often subject to abuses such as wage theft, substandard 
housing and dangerous working conditions. I have written letters to 
you, Mr. Kerry, and International Federation of Association Football 
(FIFA) President Sepp Blatter highlighting my concerns.

  <diamond> I am particularly worried by the deaths of 44 Nepalese 
        workers in Qatar last year. How is the State Department 
        engaging with the Qatari Government to ensure that protections 
        for workers under Qatari law are enforced and that workers 
        building infrastructure for the 2022 World Cup are not 
        subjected to the same conditions that led to the deaths of 
        those 44 Nepalese?
  <diamond> How is the State Department engaging with other GCC 
        countries to ensure that rights of foreign workers are 
        protected?

    Answer. Advancing the protection of labor rights, particularly for 
migrant workers, is a priority of our diplomatic engagement with the 
governments of the Gulf Cooperation Council (GCC) countries. The 
Department's annual Human Rights and Trafficking in Persons Reports 
discuss these challenges, highlighting both progress and areas where 
additional action is needed by the governments of the GCC countries. 
The sponsorship system binds foreign workers to their designated 
employers, giving them the unilateral authority to cancel residency 
permits, deny workers' ability to change employers, and deny permission 
to leave the country. This leaves workers vulnerable to abuse and 
exploitation, some of which amounts to human trafficking.
    We carefully followed the reports of Nepalese worker deaths in 
Qatar last summer with great concern. We engage the Government of Qatar 
regularly on these issues, and the U.S. Ambassador has consistently 
raised concerns about the restrictive nature of the sponsorship system 
and encouraged more robust enforcement of the labor and antitrafficking 
laws with senior Qatari officials. Over the past year, the Government 
of Qatar has taken steps to strengthen its legal framework and improve 
protections for foreign workers, but clearly more needs to be done. We 
will continue to urge greater Qatari efforts to enforce its laws 
vigorously and to reform existing laws and practices to ensure the 
thorough protection of workers' fundamental labor rights in Qatar. Our 
Embassies undertake similar discussions in each of the GCC countries, 
pressing for enforcement of existing labor and antitrafficking laws and 
reforms to those laws in cases when they do not provide sufficient 
protections.
    Additionally, we are working with international organizations to 
increase awareness in countries of origin about workers' rights and the 
risks associated with working abroad, including human trafficking. 
Addressing the problems along the migration trajectory, in origin and 
destination countries, is critical to protecting human rights of 
migrant workers wherever they are.

    Question #37 (a-d). Tunisia.--In another hopeful sign for an 
inclusive, peaceful democratic transition, on March 6 the Tunisian 
President lifted the State of Emergency which had been in effect since 
the initial revolution began in 2011. The State Department has now 
lifted its Travel Warning as well. Tunisia remains perhaps the best 
hope for successful democratic transition in the MENA region, but 
serious economic challenges lie ahead.

  <diamond> (a). What are the U.S. political, economic, and security 
        interests in, and goals for, Tunisia? How does the U.S. 
        strategy for engagement and assistance align with these 
        objectives?
  <diamond> (b). What types of U.S. assistance, security and otherwise, 
        have been most effective since 2011 in addressing Tunisia' 
        security challenges and promoting economic and political 
        reform, and an active civil society?
  <diamond> (c). Tunisian officials tell us they would like a public 
        declaration of support for the eventual start of Free Trade 
        Agreement (FTA) negotiations. What is the administration's 
        position on a U.S.-Tunisia FTA?
  <diamond> (d). The FY15 request for bilateral ESF to Tunisia is $30 
        million, which also includes $20 million in support of the 
        Tunisian-American Enterprise Fund. Tunisia was not a recipient 
        of a significant bilateral assistance package from the U.S. 
        prior to 2011; as a result, funds had to be mobilized from a 
        variety of other accounts to support Tunisia's transition. 
        Secretary Kerry noted recently that ``since the revolution 
        began, the United States has committed more than 400 million in 
        foreign assistance for the transition.''

      <all>  However, the FY15 request of $30 million is far below the 
            administration's FY14 request of $61 million for bilateral 
            assistance to Tunisia. Given the extremely important and 
            significant political progress Tunisia has achieved in the 
            past few months, why is the administration decreasing 
            Tunisia's bilateral aid package?

    Answer. We are working closely with the Tunisians to support their 
democratic transition and help them become a stable and prosperous 
country. Tunisian Prime Minister Jomaa led a high-level delegation to 
Washington to hold the first-ever U.S.-Tunisia Strategic Dialogue on 
April 3 to discuss our strategic bilateral priorities in the areas of 
economics and investment, security, and governance and partnerships 
over the next year. President Obama and Prime Minister Jomaa met at the 
White House on April 4 to further these discussions.
    The United States is providing more than $400 million in assistance 
intended to support Tunisia's democratic transition and includes 
security, economic, and governance components. Our security assistance 
bolsters Tunisia's capacity to address internal and external threats, 
particularly on countering regional terrorist groups, including 
improving the Tunisian Military's ability to obtain and maintain 
equipment necessary to secure its borders and locate terrorist 
suspects. Our Foreign Military Financing and International Military 
Education and Training programs provide leadership and counterterrorism 
training to Ministry of Defense officials. Similarly, International 
Narcotics Control and Law Enforcement (INCLE)- and Antiterrorism 
Assistance (ATA)-funded programs have been effective in supporting 
leadership development and police reform at the Ministries of Interior 
and Justice. Specifically, the assistance provided to date has been 
effective in improving the capacity of the police to respond to 
hostage-rescue situations, provide crowd control support in a safe and 
humane manner, and improve corrections management and emergency 
response.
    The Government of Tunisia continues to face daunting economic 
challenges. The estimated 2.8-percent growth rate for 2014 is not 
expected to reduce the overall unemployment rate of 16 percent. The 
United States prioritizes our economic assistance to support Tunisia's 
fiscal needs as well as provide for overall economic growth and job 
creation, particularly in the small and medium enterprise sector.
    For example, our Information and Communications Technology 
Development program generated more than 2,600 Tunisian jobs and 
assisted in Tunisian Tax Code reform. Other U.S. programs have focused 
on developing Tunisia's small and medium sized enterprises and creating 
the market space for this sector to flourish, including facilitating 
loans to small enterprises. To respond to Tunisia's near-term fiscal 
challenges and support a reform agenda, the administration announced 
its intention, pending congressional approval, to provide Tunisia with 
a second loan guarantee allowing the government to raise approximately 
$500 million from international capital markets at favorable rates.
    Governance programming also remains an assistance priority. During 
2014, we plan to provide assistance to support Tunisia's upcoming 
Presidential and parliamentary elections. U.S.-funded activities will 
include nonpartisan domestic election observation and parallel vote 
tabulation, as well as international observation conducted through our 
partners the National Democratic Institute and International Republican 
Institute. U.S. assistance to Tunisia has also furthered our 
partnership with Tunisian civil society and advanced the rule of law 
and human rights. We remain actively engaged with Tunisian civil 
society and are providing capacity-building and civic engagement 
trainings.
    The United States and Tunisia seek to broaden and deepen trade and 
business relations. We have conveyed to Tunisia that, while we are 
ready to deepen our engagement, raise the visibility of our 
relationship, and pursue concrete outcomes, we are not in a position to 
enter into or announce FTA negotiations at this time. To that end, the 
bilateral Trade and Investment Framework Agreement (TIFA) Council is 
scheduled to meet in June in Tunis. The Council plans to address 
specific issues aimed at facilitating trade and investment, including 
in the areas of market access, entrepreneurship, information and 
communication technology services, and intellectual property. We will 
also discuss how to build a more robust bilateral trade and investment 
relationship and liberalize the exchange of goods and services.
    Our FY 2015 request for Tunisia represents an increase--not a 
decrease--from the administration's FY 2014 request. The total FY 2014 
request for Tunisia is approximately $62 million, including ESF and 
other bilateral security assistance accounts, and the FY 2015 request 
is approximately $66 million. While both requests include $30 million 
in Economic Support Fund (ESF)--of which $20 million is for the 
Tunisian-American Enterprise Fund--the FY 2015 request includes an 
increase in security assistance reflecting the prioritization of and 
increased need for U.S. security assistance to Tunisia.

    Question #38. Algeria.--Algeria is the Maghreb's economic, energy 
and security powerhouse, with tremendous potential. Yet an ailing 
President Abdelaziz Bouteflika is seeking an unprecedented fourth term 
in the April 17 elections, which could undermine others seeking greater 
political and economic reform.

  <diamond> What are the U.S. political, economic, and security 
        interests in, and goals for, Algeria? How does the U.S. 
        strategy for engagement and assistance align with these 
        objectives?
  <diamond> What steps is the State Department pursuing to encourage 
        greater political and economic openness in Algeria?

    Answer. Algeria has a very important role to play in working to 
improve security in North Africa and the Sahel and one of the principle 
objectives of my visit to Algiers last week, and of the Strategic 
Dialogue that I cochaired there with Algerian Foreign Minister 
Lamamara, was to identify ways that the United States and Algeria can 
work together to assist other partners in the region to secure their 
borders, strengthen rule of law, and build strong and stable democratic 
institutions. We look forward to continuing our programs to build 
capacity among Algerian security services, including providing training 
on judicial reform, terrorist investigation, crisis management, border 
security, and countering terrorist finance through reforms to the legal 
system. Working together, we can ensure that the Algerian security 
services have the tools and training they need to defeat Al Qaeda in 
the Islamic Maghreb and other terrorist groups. Algeria and the United 
States have been strong partners together in the Global Counter 
Terrorism Forum, which unites like-minded countries in the fight 
against terrorism and violent extremist organizations. Algeria is also 
a member of the U.S. Government's Trans-Sahara Counterterrorism 
Partnership (TSCTP), which is a program focused on improving the 
individual and collective capability of its member states to defeat 
terrorist organizations.
    U.S.-Algerian cooperation goes beyond the traditional realm of 
security cooperation as we work to enhance political and economic ties 
across a range of issues. We look forward to Algerian participation in 
the U.S.-Africa summit scheduled for later this year. Through the 
Middle East Partnership Initiative (MEPI), we have expanded support for 
Algerian citizens' engagement on political and economic reforms. For 
example, MEPI launched a training program for new women 
parliamentarians elected in 2011 and is providing employment skills 
training for youth at universities across the country. Algeria has 
committed to registering the National Democratic Institute (NDI) which 
is one step toward improving freedom of association in Algeria, and 
will advance civil society and the U.S.-Algerian relationship. We look 
forward to continuing to work with Algeria to advance political and 
economic reforms.
    On the economic front Algeria is one of United States largest 
trading partners in the North African region. We are working with 
Algeria to enhance the business and economic climate by encouraging 
reconsideration of certain regulations on foreign direct investment. 
The U.S. Government is encouraged by the Government of Algeria's 
continuing interest in joining the World Trade Organization (WTO). We 
believe that the added predictability, transparency, and openness 
associated with WTO compliance will make the Algerian market more 
attractive for business.

    Question #39 (a-c). Libya.--At the Rome conference you attended in 
March, you noted that Libya is at a ``pivotal moment'' and pledged U.S. 
support for the country going forward. Some experts, however, would say 
the country is closer to collapse, given that security has deteriorated 
in several parts of the country while arbitrary detention, unlawful 
killing, and kidnapping have reached alarming levels.

  <diamond> (a). What are the U.S. political, economic, and security 
        interests in, and goals for, Libya? How does the U.S. strategy 
        for engagement and assistance align with these objectives?
  <diamond> (b). The FY15 budget includes Libya as an eligible country 
        for the ``MENA Transition Fund'' and the administration has 
        already agreed to support a Foreign Military Sale (FMS) to help 
        train and support a General Purpose Force for some 5,000-8,000 
        Libyans. But those two programs alone don't seem sufficient to 
        help move the country toward national reconciliation while 
        addressing persistent instability and impunity. With the Prime 
        Minister just recently ousted by a no-confidence vote in 
        Parliament, could you clarify what role you see the 
        administration playing and what other types of support will be 
        involved to help Libya walk back from the brink of collapse?
  <diamond> (c). Please provide an update on the effort to train and 
        develop a General Purpose Force (GPF).

    Answer. The United States has a strategic opportunity to forge a 
strong and mutually beneficial relationship with this country that is 
now emerging from decades of oppressive, authoritarian rule. Libya, 
regional stability, our battle against extremism, and our support for 
democracy would lose from a further slide toward violence and 
instability there. Indeed, protracted instability in the Sahel and 
Maghreb region risks making the region a staging ground for attacks by 
terrorists and other extremists on our allies and U.S. interests. 
Transitions to democracy are notoriously difficult endeavors. It is in 
our interest to remain engaged with the Libyan Government as it pursues 
its transition to a more open, democratic, tolerant society.
    We have two strategic goals in Libya: (1) to support the government 
in developing a capability to secure its own borders and maintain 
stability in the face of internal and regional challenges; and (2) to 
maintain progress on Libya's transition to a sustainable, inclusive 
democracy accountable to the Libyan people. To that end, we are 
focusing our diplomatic engagement and assistance to support four lines 
of effort: Libya's security and stability; its transition to a 
democratic and effective government; the strengthening of Libyan 
Government institutions; and the development of a robust and diverse 
economy.
    Libya has asked a number of countries, including the United States, 
for assistance training its armed forces in order to better protect the 
Libyan people. The Government of Libya committed to fund the training, 
and Turkey and Italy are already training troops for this General 
Purpose Force (GPF). We expect the U.K. to begin its training regimen 
shortly. A small U.S. team is in Libya to work with the Ministry of 
Defense on this GPF effort, in line with our shared strategic goals for 
Libya. U.S. training is scheduled to begin later this year, outside 
Libya. We are coordinating this training mission closely with not only 
the Government of Libya, but with our partners in the U.K., Italy, and 
Turkey as well.
    U.S. policy is to support Libya's democratic institutions. That 
support is not tied to any particular leader, so long as that 
individual leads on the basis of the country's legitimate political 
processes and respects the values of the Libyan people and our own. I 
met with the new, interim Prime Minister, al-Thanaie, at the Rome 
Ministerial March 6, when he was serving as Defense Minister, and 
Ambassador Jones is in frequent contact with him and his staff in 
Tripoli. However, we are concerned by the difficulty Libyan leaders 
have had in achieving needed political agreements to build consensus 
and keep the country on track. We are considering how we could take a 
more proactive role in engaging a range of Libyans to push for 
constructive political dialogue, working closely with counterparts from 
the EU, U.K., and Arab League.

    Question #40 (a-f). Support to Palestinian Authority.--The FY15 
budget request includes $370 million in economic assistance for the 
West Bank and Gaza which supports economic development, humanitarian 
needs in Gaza as well as increasing the capacity of the Palestinian 
Authority (PA) to meet the needs of its own people through budget 
support.

  <diamond> (a). What are the prospects for the Palestinian economy's 
        near-term improvement?

    Answer. The prospects for the Palestinian economy's near-term 
improvement depends heavily on the continued implementation of reforms 
by the PA, the easing of Israeli restrictions on the movement and 
access of goods and people, and the exploitation of natural resources 
in the West Bank. These issues are tied to the status and outcome of 
the ongoing negotiations between the Israelis and Palestinians. 
Economic growth was weaker than expected in 2013, in part due to the 
uncertainty of individuals and businesses regarding the prospects for 
peace. The International Monetary Fund (IMF) recently revised downward 
its forecast for real GDP growth in 2014 from around 4 percent to now 
around 3 percent.

  <diamond> (b). What have Arab States contributed to help the PA in 
        recent years?

    Answer. Between 2007 and 2013, members of the Arab League have 
contributed on average 36 percent of the donor budget support received 
by the PA--compared to 40 percent for the EU and EU member states and 
13 percent for the United States.


                                                                              BUDGET SUPPORT TO THE PA (2007-2013)
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                       2007                 2008                 2009                 2010                 2011                 2012                 2013
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Saudi Arabia.................................        $127,704,197         $234,053,786         $241,056,731         $145,633,071         $179,693,900         $100,000,000         $260,265,649
United Arab Emirates.........................        $110,000,000         $134,221,750         $173,930,947          $42,906,703          $42,500,000          $85,486,120          $50,000,000
Arab league..................................                  $0              $99,895                   $0                   $0                   $0                   $0                   $0
Oman.........................................                  $0                   $0           $2,909,431                   $0          $10,000,000                   $0           $5,000,000
Algeria......................................         $52,799,969          $62,943,959          $25,969,871          $29,574,309          $52,799,920          $26,400,000          $26,399,982
Kuwait.......................................         $33,415,814          $80,000,000                   $0          $50,000,000          $50,000,000          $50,000,000          $50,000,000
Iraq.........................................         $10,000,000                   $0                   $0                   $0                   $0          $25,000,000          $28,749,980
Egypt........................................                  $0          $14,628,676          $17,831,750           $7,895,200           $5,014,828           $3,175,861                   $0
Qatar........................................        $110,076,873                   $0                   $0           $9,658,120                   $0          $30,000,000           $8,999,982
Arab League..................................        $443,996,853         $525,948,066         $461,698,730         $285,667,403         $340,008,648         $320,061,981         $429,415,593
EU and EU Members............................        $522,256,300         $749,735,298         $510,780,986         $492,407,663         $303,787,960         $327,128,287         $347,850,320
United States................................          $4,705,897         $302,261,822         $275,000,000         $222,864,771          $50,000,000                   $0         $348,000,000
Other Donors.................................         $41,069,651         $185,475,653         $100,709,599         $144,457,229          $67,898,799         $178,867,227         $125,699,960
                                              --------------------------------------------------------------------------------------------------------------------------------------------------
    TOTAL....................................      $1,012,028,701       $1,763,420,839       $1,348,189,315       $1,145,397,066         $761,695,407         $826,057,495       $1,250,965,873
                                              ==================================================================================================================================================
United States as % of Total..................                  0%                  17%                  20%                  19%                   7%                   0%                  28%
EU/EU Members as % of Total..................                 52%                  43%                  38%                  43%                  40%                  40%                  28%
Arab League as % of Total....................                 44%                  30%                  34%                  25%                  45%                  39%                  34%
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------


  <diamond> (c). Given that the PA has grown more capable over the 
        years and is the governing institution for important services 
        in the West Bank, what do you see as the continued role of 
        UNRWA operating schools and clinics in the West Bank?

    Answer. The status of Palestinian refugees is one of the most 
sensitive final status issues confronting Israel and the Palestinians. 
The Department of State does not support any action that would 
circumvent final status issues, including phasing out the role of UNRWA 
by transferring services to the PA. Such action would damage confidence 
between the parties at a particularly fragile time, undercut our 
ability to act as a mediator and peace facilitator, and generate strong 
negative reaction from Palestinians and from our allies, including 
Jordan.
    UNRWA provides essential humanitarian and education support to 
refugees in the PA-controlled West Bank that is simply beyond the 
financial and organizational capacity of the PA at present. While UNRWA 
has faced funding shortfalls, the PA faces a deeper fiscal crisis and 
does not have the resources to take on responsibility for the 174 
installations UNRWA operates nearly 750 or the more than 725,000 
registered refugees that UNRWA supports in the West Bank.
    We look forward to the day that UNRWA is no longer needed, but the 
need will continue absent resolution of the Palestinian refugee issue 
in the context of a negotiated peace deal. Decreasing international 
community support, including U.S. funding to UNRWA, could signal a 
dimunition of support for the Palestinian people, and could raise host 
country concerns that international support for UNRWA elsewhere is also 
decreasing. While host governments in the region have been generous in 
hosting Palestinian refugees, these governments cannot bear the burden 
alone.

  <diamond> (d). The President requested $70 million for security 
        assistance for the Palestinian Authority to provide training, 
        equipment, and infrastructure support to the Palestinian 
        security forces.

      <all>  Can you provide an update on the status of Vice Admiral 
            Paul Bushong's efforts to train Palestinian security 
            forces? Have his efforts been successful to date? How many 
            personnel have been trained and are capable of imposing 
            order?
      <all>  What equipment will be provided to the security forces and 
            under what safeguards?

    Answer. To date, nine full National Security Force (NSF) Special 
Battalions, with approximately 500 personnel each, and two Presidential 
Guard (PG) Battalions, with approximately 400 personnel each, have been 
trained at the Jordan International Police Training Center (JIPTC). 
With the completion of initial battalion training in September 2012, 
Vice Admiral Bushong and his team have transitioned to sustaining and 
maintaining improvements in the performance of the Palestinian security 
forces. U.S. assistance provides refresher training for select 
companies, advanced training for small groups, and individual basic 
training for new personnel recruited due to attrition. More than 6,643 
NSF and 2,116 PG personnel have received U.S.-funded training. In 
addition, 897 members of the Palestinian Civil Defense (PCD), including 
firefighters and other emergency service personnel, have been trained 
at the Jordanian Academy of Civil Protection. Members of all 
Palestinian security services have participated in joint leadership and 
specialized courses, chiefly at the Central Training Institute (CTI) in 
Jericho.
    The NSF battalions that have been trained and equipped by the 
United States have been instrumental to the Palestinian Authority's 
ongoing law-and-order campaigns, by conducting operations in restive 
cities and refugee camps and by successfully managing popular 
demonstrations and other activities in the West Bank. According to 
Israeli data, there has been a dramatic decline in the number of 
terrorist attacks emanating from the West Bank since the beginning of 
U.S. assistance to the PASF, and Israeli security officials have 
praised the PASF's professionalism and commitment to fighting 
terrorism. Moving forward, we will increase our assistance to the 
Palestinian Civil Police and the justice and corrections sectors, to 
ensure that the Palestinian Authority can effectively and transparently 
prosecute those responsible for terrorism and serious crime, in 
accordance with the rule of law.
    The United States has provided nonlethal equipment to the 
Palestinian security forces. This includes vehicles, riot shields, 
helmets, office equipment, and other nonlethal equipment a battalion 
needs to be operational. We conduct regular end-use monitoring visits 
to PASF facilities across the West Bank and have assisted the 
Palestinian Authority's development of a monitoring database that 
tracks the location and use of donor-provided equipment and will serve 
as the foundation for a comprehensive inventory management system. We 
have also worked with the PA to develop transparent disposal procedures 
for depleted equipment. Israeli authorities review all proposed U.S. 
provision of equipment to the Palestinian security forces.
    PASF are predominantly trained by Jordanian and Palestinian 
personnel with U.S. oversight. The U.S. does not pay PASF salaries; the 
PA pays them directly through a combination of tax revenue and non-U.S. 
foreign assistance.

  <diamond> (e). For many years, U.S. assistance was provided to the PA 
        knowing that Palestinian Prime Minister Salam Fayyad had a 
        reputation of fighting internal corruption, building 
        responsible governing institutions and working closely with 
        Israel on security cooperation. Has the new Palestinian 
        leadership similarly proved its willingness to confront 
        corruption?

    Answer. Under the leadership of President Abbas and Prime Minister 
Hamdallah, the Palestinian Authority continues to make significant 
strides in reforming its institutions to better serve the Palestinian 
people, and the PA remains committed to and continues to promote and 
support full transparency and anticorruption efforts.
    The U.S. Government supports these efforts in myriad ways, 
including under the Palestinian Justice Enhancement Program (PJEP). By 
developing the capabilities of the High Judicial Council and the 
Ministry of Justice, improving legal education for judges and future 
lawyers, and increasing public understanding of the justice system by 
raising public awareness of legal rights and responsibilities and how 
the justice system operates, PJEP strengthens public confidence and 
respect for justice sector institutions and the rule of law in the West 
Bank. This program complements the efforts of the United States 
Security Coordinator to strengthen the Palestinian justice sector by 
building the capacity of public prosecutors and criminal investigators.

  <diamond> (f). In the FY14 Omnibus appropriations bill, new language 
        was included linking disbursement of economic aid to a 
        certification by the Secretary of State that the PA is acting 
        to counter incitement of violence against Israelis and is 
        supporting activities aimed at promoting peace, coexistence, 
        and security cooperation with Israel. Can you please update us 
        on whether the PA is in fact countering incitement of violence?

    Answer. The Palestinian Authority (PA) is taking steps to condition 
the environment for peace and to counter incitement to violence. 
President Abbas regularly speaks publicly in support of tolerance and 
nonviolence. In mid-February, Abbas hosted 300 Israeli students in 
Ramallah, where he emphasized the need for a peaceful resolution to the 
Israeli-Palestinian conflict. In his remarks, which were later 
broadcast on Palestinian television, he discussed several final status 
issues including Jerusalem, borders, recognition of Israel as a Jewish 
state, and refugees.
    Abbas also appointed Mohammed al-Madani to serve as the head of the 
``Palestinian Committee for Interaction with Israeli Society.'' Al-
Madani facilitated the first visit of Palestinian officials to the 
Knesset in July 2013, and recent meetings between Fatah and Israeli 
officials in Ramallah and Budapest.
    The impact of the PA's effort is visible throughout Palestinian 
society. For example, in the education sector, the PA has made 
significant progress in the past two decades by revising official PA 
textbooks in order to remove instances of incitement to violence. As 
part of the post-Oslo process, between 1996 and 2005, the PA began 
introducing new textbooks that included many references to promoting 
values of reconciliation, human rights, religious tolerance, respect 
for the law, diversity, and environmental awareness, and has replaced 
textbooks for all 12 grades. A succession of studies has found that the 
new textbooks represent a significant improvement and constitute a 
valuable contribution to the education of young Palestinians, and in 
general, concluded that the new textbooks eliminated a number of 
negative references to Israel and Jews and made attempts to promote 
tolerance.
    The PA also monitors the content of Friday sermons delivered in 
over 1,600 West Bank mosques to ensure they do not endorse incitement 
to violence. The PA Minister of Awqaf and Religious Affairs prohibits 
speech that is likely to lead to incitement to violence.
    The PA leadership, under President Mahmoud Abbas, remains committed 
to nonviolence and a peaceful solution to the Israeli-Palestinian 
conflict. The Palestine Liberation Organization (PLO) has recognized 
the existence of the State of Israel since 1993, and in international 
fora and in bilateral contacts the PA leadership has insisted on 
recognition of Israel even while others have sought to delegitimize 
Israel. Abbas stated in his September 2012 speech at the United Nations 
General Assembly that ``The two-State solution, i.e., the State of 
Palestine coexisting alongside the State of Israel, represents the 
spirit and essence of the historic compromise embodied in the Oslo 
Declaration of Principles.''

    Question #41. Yemen recently concluded a National Dialogue and 
embarked on the process of drafting and ratifying a new constitution 
and preparing for elections. Yemen still faces considerable hurdles, 
from combating Al Qaeda in the Arabian Peninsula (AQAP) to the 
continued alienation from the central government of Houthi rebels in 
the North and separatists in the South. Moreover, chronic economic 
problems, resource shortages, and significant unemployment will 
challenge the central government. It is estimated that Yemen may run 
out of groundwater by 2025.

  <diamond> Yemen has set an ambitious timeline to hold a 
        constitutional referendum within 12 months of the end of the 
        National Dialogue and elections within 21 months. Is this 
        timeline is achievable? What assistance are providing to help 
        the Yemeni Government keep to this timeline?
  <diamond> How is U.S. assistance helping Yemen cope with its water 
        shortage?

    Answer. The U.S. Government has provided nearly $39 million to 
train National Dialogue delegates, previously disenfranchised groups, 
including women and the youth, and strengthen civic engagement. The 
outcomes from this conference are currently guiding the work of the 
constitutional drafting committee, which will produce a new 
constitution for referendum. The transition will conclude with national 
elections.
    We are in close coordination with the Yemeni Government and 
international partners to encourage transition progress. Technical 
preparations for the upcoming referendum and national elections are 
ongoing, and we are supporting the government's efforts to update the 
voter registry and prepare for upcoming election. We will also conduct 
civic education and get-out-the-vote activities, and will support 
elections monitoring. President Hadi has signaled a strong commitment 
to advancing the political transition and timely elections in Yemen.
    Water scarcity is one of the most important natural resource issues 
facing Yemen. There have been several reliable estimates predicting 
Yemen's water resources will run out before 2035. Much of Yemen's water 
problems trace back to poor agriculture management practices, which 
account for 90 percent of water use. USAID works cooperatively with the 
Yemeni Government and local entities to improve water management 
techniques in individual and agricultural use through a combination of 
modern and traditional methods.
    The U.S. Government allocated more than $100 million in FY 2012 and 
FY 2013 toward economic growth and development in Yemen, including 
projects to support sustainable agriculture. We have also brought 
Yemeni leaders to the United States to study water resource management, 
and hosted a Yemeni trade delegation that explored business 
opportunities in alternative energy and water.

    Question #42 (a-b). Mauritania.--Mauritania is a key 
counterterrorism partner, but ranked number one on 2013's Global 
Slavery Index for the systemic persistence of various forms of slavery 
and human trafficking. It has consistently been in Tier 3 in the State 
Department's annual Trafficking in Persons report. I sent a letter in 
February to President Abdel Aziz, cosigned by 11 of my colleagues, 
urging more aggressive action to implement their 2007 antislavery law 
and provide support to antislavery NGOs. This month, we see the 
government has released a roadmap to address these concerns.

  <diamond> (a). What are the primary goals and geographic focus areas 
        for our CT cooperation with Mauritania? How would you assess 
        this cooperation?

    Answer. Through the Trans-Sahara Counterterrorism Partnership 
(TSCTP) and related initiatives, the United States supports regional 
efforts to contain, degrade, and ultimately defeat al-Qaeda and its 
affiliates and allies in the Sahel and Maghreb regions of Africa. 
Mauritania is a TSCTP member and has demonstrated strong will to 
counter terrorism.
    The Mauritanian military has effectively countered Al Qaeda in the 
Islamic Maghreb (AQIM) and other extremist groups in the past. It has 
been well over a year since the last terrorist attack in Mauritania. 
Mauritania's two tactical defeats of AQIM, using U.S. and French 
training and equipment, stymied AQIM aspirational goals in Mauritania. 
We continue to work to enhance Mauritania's military and law 
enforcement capabilities to detect, deter, degrade, and disrupt 
terrorist operations and secure Mauritania's borders, particularly its 
long eastern border with Mali. We also continue to provide assistance 
for regional efforts to build resilience and counter violent extremist 
messaging and recruitment throughout the Sahel. Our assessment of the 
partnership is that it is effective to the extent that the Mauritanians 
consistently demonstrate the will--if not always the wherewithal and 
technical expertise--to confront regional terrorist threats.

  <diamond> (b). Has there been any significant improvement in the 
        Mauritanian Government's efforts to address slavery issues 
        since late 2013?

    Answer. On March 6, 2014, the Government of Mauritania adopted the 
U.N. Special Rapporteur for Contemporary Forms of Slavery's ``roadmap'' 
to hasten an end to slavery in Mauritania. While this is a positive 
step, what matters most is implementation of the report's 
recommendations. The government has not yet taken concrete action in 
key areas. Legal authorities, for example, have not pressed charges 
against any accused slaveholders or made efforts to improve victims' 
protection.

    Question #43. Burma.--Please list all programs or activities which 
involve dialogue or other interactions with Burmese military or police 
officials or personnel, including programs outside of Burma--specific 
requests (for instance, regional programs.) Please explain the goals 
and purposes of such programs and detail what pledges or deliverable 
reforms, if any, were requested from Burmese authorities in exchange 
for these military-to-military interactions.

    Answer. All programs or activities which involve dialogue or other 
interaction with Burmese military or police officials or personnel, 
including programs outside of Burma, are as follows:

  <bullet> Defense Institute of International Legal Studies (DIILS): 
        The Department of Defense (DOD), in coordination with the State 
        Department, sent a Defense Institute of International Legal 
        Studies (DIILS) delegation to Burma in July 2013 for a scoping 
        visit and conducted initial exchanges on law of armed conflict 
        and international humanitarian law in August 2013 and February 
        2014 with the Burmese military's judge advocate corps. The team 
        has repeatedly met with opposition leaders, ethnic groups, and 
        civil society representatives to discuss this engagement and 
        the current human rights situation in Burma. DIILS' engagement 
        is designed to promote knowledge of, and respect for, human 
        rights and rule of law--a shared U.S. Government and GOB 
        objective. Aung San Suu Kyi, Generation 88, civil society, and 
        ethnic representatives widely indicated their support for the 
        engagement. The DIILS program is funded by DOD Title 10 
        funding.
  <bullet> Human Rights Dialogue: In October 2012, the United States 
        held the first-ever Human Rights Dialogue (HRD) in Naypyitaw, 
        led by then-Assistant Secretary of State for Democracy, Human 
        Rights and Labor Michael Posner. The large delegation included 
        then-Deputy Assistant Secretary for Defense (DASD) for South 
        and Southeast Asia Vikram Singh and then-Lieutenant General 
        Frank Wiercinski, Commander, U.S. Army, Pacific. The dialogue 
        included an exchange between DOD representatives and their 
        Burmese counterparts as part of a broad interagency discussion 
        of human rights and reform. The next dialogue is planned for 
        late 2014.
  <bullet> Diplomatic Meetings: In order to begin a dialogue with the 
        Burmese military on issues related to human rights, rule of 
        law, and civilian control, Department of Defense officials have 
        met with Burmese officials on the margins of multilateral 
        forums. Secretary of Defense Hagel engaged in a 10-minute pull 
        aside with his Burmese counterpart Lieutenant General Wai Lwin 
        on the margins of the ASEAN Defense Ministers' Meeting Plus in 
        Brunei in 2013, where he relayed the U.S. desire to see the 
        reform movement continue and to establish contact ahead of 
        Burma's 2014 chairmanship of ASEAN. The Secretary subsequently 
        hosted the Defense Ministers Meeting in Honolulu in April 2014. 
        In addition, then-Assistant Secretary of Defense for Asian and 
        Pacific Security Affairs Mark Lippert and DASD Singh met with 
        their Burmese counterparts at the Fullerton Forum in Singapore 
        in February 2013 and January 2014, respectively. Finally, DOD 
        officials have working-level contacts with members of the 
        Burmese Embassy Defense Attachee's Office in Washington. In 
        late 2012, DOD officials began attending relevant Burmese 
        Embassy receptions.
  <bullet> The Asia-Pacific Center for Security Studies (APCSS): APCSS 
        is a Department of Defense academic institute in Honolulu, 
        Hawaii. APCSS addresses regional and global security issues, 
        inviting military and civilian representatives of the United 
        States and Asia-Pacific nations to its comprehensive program of 
        executive education and workshops, both in Hawaii and 
        throughout the Asia-Pacific region. APCSS has invited a small 
        number of Burmese participants to multilateral workshops (e.g., 
        ``Water Future of South Asia'') While most of the Burmese 
        participants have been GOB civilians, two military officers 
        have taken part in APCSS workshops. The purpose of these 
        multicountry APCSS workshops is to promote the Government of 
        Burma's exposure to internationally respected counterparts and 
        to discuss nontraditional security issues, improve civil 
        military relations, and promote human rights and civilian 
        oversight.
  <bullet> USPACOM's Joint Prisoner of War/Missing in Action Accounting 
        Command (JPAC): Though a humanitarian rather than military 
        engagement, the Government of Burma and the Burmese military 
        respect U.S. efforts to locate, recover, and identify the 
        remains of missing U.S. personnel from World War II and other 
        conflicts. JPAC resumed operations in Burma in 2013 and 
        completed three successful bilateral investigations. To aid 
        investigations, JPAC initiated an ``Outreach'' program which 
        placed ads in Burmese newspapers from March to May 2013 and 
        established a call center in Rangoon. The call center received 
        over 1,200 calls yielding over 370 potential leads. In April 
        2012, JPAC and Defense POW/Missing Personnel Office 
        representatives visited Burma to discuss resuming World War II 
        accounting operations. In August 2012, an eight-person Burmese 
        military delegation visited JPAC to learn about U.S. remains 
        recovery techniques and discuss recovery operations in Burma.
  <bullet> Cobra Gold: Thailand invited two Burmese Armed Forces 
        officers to observe humanitarian aspects only of the 
        multinational Cobra Gold exercise in 2013 and again in 2014. 
        The Burmese spent 1 day observing peace enforcement, 
        humanitarian assistance, disaster relief, and medical portions 
        of the Cobra Gold exercise, which the United States cohosts 
        with Thailand. Burma self-funded their participation in this 
        observer program. The intent of inviting Burma to the observer 
        program is to expose the Burmese military to internationally 
        respected military counterparts and demonstrate how these 
        militaries inculcate international standards--especially the 
        respect for human rights--into their planning and operational 
        execution.
  <bullet> International Law Enforcement Academy (ILEA): The State 
        Department's Bureau of International Narcotics and Law 
        Enforcement (INL) supported training for 42 senior 
        counternarcotics officials at ILEA in Bangkok in 2013. In 2014, 
        INL is introducing basic, yet targeted training opportunities 
        for Burmese police officials at ILEA.
  <bullet> Humanitarian Landmine Action: Embassy Rangoon, with the 
        Bureau of Conflict and Stabilization Operations, frequently 
        consulted with senior Burmese Government officials in the 
        Burmese Army Engineering Corps (the Burmese military office 
        responsible for landmine removal) on best practices for mine 
        risk education and survivor assistance as part of a pilot 
        initiative to support humanitarian landmine action and build 
        trust between and within disparate communities in Burma's 
        conflict-affected Kayah State. These conversations also served 
        to expand civil society's limited contacts with the Burmese 
        military.

    In pursuing the President's strategic objective in Southeast Asia, 
the U.S. Department of Defense has attempted to strengthen its ties 
with ASEAN and other multilateral fora. In that multilateral context, 
DOD regularly engages its ASEAN counterparts to discuss regional 
security issues and identify new cooperative activities that support 
stability and interoperability in the region. Burma is the chair of 
ASEAN in 2014. The following multilateral programs or activities 
involve dialogue or other interaction with Burmese military or police 
officials or personnel:

  <bullet> ASEAN Regional Forum Disaster Relief Exercise: Biennially 
        the ARF holds a disaster relief exercise to improve the 
        capacity of regional states and actors to reduce risk, prepare 
        for and respond to disasters and crises. The next exercise will 
        be held in Malaysia February 2015. As this is a joint civil-
        military exercise, and Burma is a member of ASEAN, its military 
        and civilian sectors will be invited and will most likely 
        participate.
  <bullet> ASEAN Regional Forum meetings and the ASEAN Regional Forum 
        Defense Officials Dialogue: The ASEAN Regional Forum is a 
        security forum where civilian agencies normally lead the 
        discussion but military members are often present and have a 
        voice. Topics generally discussed include, but are not limited 
        to, maritime security, humanitarian assistance/disaster relief, 
        nonproliferation and disarmament, space security, cyber 
        security, counterterrorism, and international crime. In 
        addition, ARF hosts defense officials three times a year for a 
        strategic dialogue on the Asia-Pacific region at the ARF 
        Defence Official's Dialogue. This regional discussion of the 26 
        member nations plus the EU ranges from peacekeeping to the 
        region's most pressing security issues. As Burma is the chair 
        of ASEAN this year, Burma chairs this discussion along with the 
        EU.
  <bullet> ASEAN Defense Ministers' Meeting Plus: The ADMM-plus is a 
        platform for ASEAN and its eight Dialogue Partners to 
        strengthen security and defense cooperation for peace, 
        stability, and development in the region. The ADMM-plus 
        conducts exercises and has expert working groups on maritime 
        security, counterterrorism, humanitarian assistance/disaster 
        management, peacekeeping, military medicine, and humanitarian 
        mine action.
  <bullet> Regional Cooperation Agreement on Combatting Piracy and 
        Armed Robbery against Ships in Asia (ReCAAP): This is a 
        regional government-to-government agreement to promote and 
        enhance cooperation to combat piracy and armed robbery in Asia. 
        The ReCAAP's Information Sharing Center (ISC), located in 
        Singapore, is an international organization that serves as a 
        platform for information exchange among contracting parties. 
        The ISC improves incident response and facilitates capacity-
        building efforts to enhance the capability of contracting 
        parties to combat piracy and armed robbery against ships in the 
        region. Through its periodic reports to the shipping community, 
        the ISC helps ships in the region avoid and deter piracy and 
        armed robbery attacks. The ISC has a Governing Council, 
        composed of 19 contracting parties, including Burma, which 
        typically sends an official from their navy as a representative 
        at the annual Governing Council Meeting. The United States is 
        an external participant seeking membership to ReCAAP and 
        currently shares information with the ISC through established 
        channels in the DOD and attends open sessions of the annual 
        Governing Council Meeting. U.S. participation in ReCAAP 
        improves our ability to share and receive information and 
        allows for U.S. representation on the Governing Council and 
        participation in ReCAAP's various capacity-building events. 
        U.S. participation and membership also aligns with the U.S. 
        Government's goal of strengthening regional organizations, 
        signals our commitment to long-term cooperation in this 
        organization, and strengthens our efforts to counter piracy and 
        robbery at sea.
Goals and Purposes
    U.S. engagement with Burma's military is intended to support our 
broader policy objective of ensuring the success of the country's 
democratic transition and building appropriate institutions. Our goal 
is to cultivate a professional military under civilian control that 
operates in accordance with international law, as well as with 
standards of transparency and accountability; that ends the unlawful 
recruitment and use of child soldiers; that withdraws from politics and 
the economy; that severs arms-related ties with the DPRK and that 
supports Burma's peace process. Absent efforts to reform, the Burmese 
Armed Forces have the potential to hinder the peace process, good 
governance, protection of human rights, a successful transition to 
democracy, and equitable economic growth.
    Through all of our engagements, we underscore the need for Burma's 
military to undertake meaningful reforms in order for our engagement to 
continue and expand over the long term. Indicators of a strengthening 
military commitment to reform might include:

  <bullet> Increased professionalism/transparency (e.g., establishing 
        and consistently applying a military code of conduct based on 
        international best practices, creating a transparent process 
        for military procurement, etc.);
  <bullet> Implementation of, and compliance with, international law, 
        including international humanitarian law (e.g., creating and 
        implementing a training plan for all military troops and 
        commanders on applicable treaty obligations, including the 1949 
        Geneva Conventions; ceasing the unlawful recruitment and use of 
        children; ending abusive tactics, etc.), and granting 
        international monitors full access to military installations to 
        monitor implementation of processes for the identification and 
        demobilization of child soldiers, as agreed upon in the U.N. 
        Child Soldier Action Plan;
  <bullet> Nonproliferation (e.g., avoiding all engagement with North 
        Korea on military procurement and fully adhering to all U.N. 
        Security Council Resolutions, etc.);
  <bullet> Supporting the peace process (e.g., completing work on and 
        signing a mutually acceptable nationwide cease-fire agreement 
        with the ethnic groups that leads quickly to a political 
        dialogue on core issues; repositioning troops away from 
        villages and religious sites in regions controlled by such 
        ethnic groups, and withdrawing from conflict zones, etc.);
  <bullet> Stepping back from politics (e.g., constitutional reform 
        that ends the requirement that the military hold 25 percent of 
        the seats in Parliament and key ministry leadership positions, 
        as well as supports greater local autonomy rights for ethnic 
        nationalities, etc.);
  <bullet> Disengaging from an active role in the economy (e.g., 
        bringing all off-budget military revenue streams formally into 
        the Union budget and adjusting military appropriations 
        accordingly; divesting from businesses that compete with 
        private enterprise in a transparent and legal manner, etc.)

    Question #44. Multilateral Investment Fund.--Further to the 
disappointment I have already mentioned over the fact that the current 
budget request calls for significant cuts to Western Hemisphere 
programs, I noticed that the administration did not request funding to 
pay our $29 million in arrears to the Inter-American Development Bank's 
Multilateral Investment Fund (MIF). This lack of funding is sure to 
undermine the MIF's operations. The MIF does critical work in promoting 
private sector-led economic development in Latin America and the 
Caribbean and I believe it deserves the full support of the U.S. 
Government.

  <diamond> Could you please explain why the administration did not 
        request any funding at all for the MIF?

    Answer. In last year's budget, Treasury requested and Congress 
appropriated $6.3 million to clear a portion of the outstanding U.S. 
arrears to the Multilateral Investment Fund (MIF). While the 
administration would like to have requested additional funds in FY 
2015, we were unable to include funding for the MIF in the budget 
request given the very difficult budget environment and numerous 
competing development priorities. The U.S. continues to be an active 
and vocal supporter of the MIF. We were the primary force behind its 
creation in 1993 and remain its largest shareholder. We continue to 
strongly support the MIF's critical work and valuable contributions to 
development in Latin America.

    Question #45. Economic Statecraft.--I announced recently during my 
trip to Mexico that I am developing an Economic Statecraft initiative 
aimed at boosting U.S. jobs and exports by empowering our export and 
investment promotion agencies so they can level the playing field for 
U.S. companies operating abroad. A key component of this initiative is 
to increase funding to these agencies and enhance their coordination in 
support of our international economic priorities. I applaud the 
administration's continuing efforts to increase American exports, and a 
critical element of this is devoting adequate resources to our export 
and investment promotion agencies, which create thousands of American 
jobs, support billions of dollars of exports, further U.S. foreign 
economic policy goals, while also returning hundreds of millions of 
dollars per year to the Treasury.

  <diamond> Given the tremendous importance of exports in generating 
        American jobs and economic growth, could you please explain the 
        status of the State Department's Economic Statecraft 
        initiative, your efforts to improve coordination with all the 
        agencies that promote U.S. exports and investment, and what 
        concrete steps the Department plans to take over the coming 
        year to elevate the importance of economic issues in our 
        diplomatic engagement?

    Answer. Secretary Kerry has placed a high priority on supporting 
U.S. jobs and exports, and has made supporting U.S. business an 
important part of his work in Washington and his overseas trips. Under 
the policy leadership of Catherine A. Novelli, Under Secretary of State 
for Economic Growth, Energy, and the Environment, the Department of 
State is fully committed to utilizing economic diplomacy to generate 
American jobs and economic growth. Both Assistant Secretary for 
Economic and Business Affairs (EB), Charles Rivkin, and Special 
Representative for Commercial and Business Affairs, Scott Nathan, are 
specifically engaged on improving coordination between the Department 
of State and the Commerce Department, and more broadly all the agencies 
that promote U.S. exports and investment.
    The prior initiative known as Economic Statecraft, has been 
expanded and rebranded as the Shared Prosperity Agenda (SPA). Led by 
Senior Advisor to the Secretary (SRA) David Thorne, the SPA is working 
to elevate economic approaches to foreign policy challenges throughout 
the Department of State. The SPA task force convenes several cross-
functional working groups focused on specific economic diplomacy 
related issues including but not limited to the following: Human 
Capital, Knowledge Platforms, Jobs Diplomacy, Public Diplomacy and 
Entrepreneurship.
    Officers at all levels in E, EB, ENR, and the regional bureaus are 
implementing the Secretary's vision for commercial advocacy and 
elevating economics in U.S. foreign policy through multiple lines of 
activity, including the following:

  <bullet> The Department of State is taking a more focused and 
        systematic advocacy effort with the Department of Commerce on 
        behalf of U.S. companies. This approach was launched at last 
        year's United National General Assembly meetings and continued 
        at the recent World Bank-International Monetary Fund meetings. 
        As part of this, the Department of State advocated for $15 
        billion in U.S. export content on behalf of over a dozen of our 
        firms. Additionally, we facilitated direct advocacy by the 
        Commerce Department at the APEC Ministerial, where cases 
        totaling $19 billion in U.S. export content were raised.
  <bullet> The State-Commerce Department Partnership Post program 
        allows State Department personnel to provide commercial 
        services in 60 countries. These services, such as the popular 
        Gold Key Matching Service, are marketed to American companies 
        by personnel from domestic Department of Commerce U.S. Export 
        Assistance Centers. Commerce and State organize interagency 
        trainings (including Ex-Im, OPIC, and USTDA) to equip State 
        officers to provide high-quality services and promote the range 
        of U.S. Government resources available to companies. Such 
        training is conducted by region with the last major session for 
        23 sub-Saharan Africa posts in Johannesburg, South Africa, in 
        March 2014.
  <bullet> The State Department is working to assure that U.S. firms, 
        which are leaders in cutting edge energy technologies, benefit 
        from global investment needs in the power sector that exceed 
        $17 trillion dollars by 2035.
  <bullet> Promoting and institutionalizing a regional trade and 
        investment framework with market-oriented rules that promote 
        open, transparent, and fair trade is our primary economic 
        objective in the Asia-Pacific region. State officers are 
        coleading BIT talks with China, India, and other key countries, 
        which offer an avenue for increasing access for U.S. firms to 
        large and significant foreign markets.
  <bullet> State officers, domestically and in the field, including 
        Ambassadors, are working closely with USTR to finalize the 
        Trans-Pacific Partnership (TPP) negotiations, which will 
        increase U.S. export opportunities in Australia, Brunei 
        Darussalam, Canada, Chile, Malaysia, Mexico, New Zealand, Peru, 
        Singapore, Vietnam and Japan.
  <bullet> The U.S. coordinating office for the Asia Pacific Economic 
        Cooperation (APEC) forum, which is within State, works with the 
        interagency to achieve U.S. priorities that help facilitate 
        trade and investment with the Asia-Pacific region, such as 
        improvements in regional supply chain performance; reduction in 
        tariffs on environmental goods; and work to address the 
        pervasive problem of corruption.
  <bullet> Under the U.S.-ASEAN Expanded Economic Engagement 
        initiative, we are working on specific cooperative activities 
        to expand trade and investment ties between the United States 
        and the ASEAN countries, including through more efficient trade 
        flows and supply chains, as well as to create new business 
        opportunities and jobs on both sides.
  <bullet> In cooperation with the interagency, we are maximizing 
        investment opportunities through the U.S.-Asia-Pacific 
        Comprehensive Energy Partnership, which provides up to $5 
        billion in export credit financing from Export-Import Bank of 
        the United States and up to $1 billion in Overseas Private 
        Investment Corporation financing. This financing increases 
        access to American technology, services, equipment, and 
        investment, in support of projects providing access to cleaner 
        and more reliable sources of energy in the region. In addition, 
        the State Department is funding the Asia-Pacific Clean Energy 
        Program, which will colocate OPIC and U.S. Trade and 
        Development Agency personnel at the U.S. Embassy in Bangkok to 
        better identify regional energy projects that could benefit 
        from U.S. financing and investment.
  <bullet> Launched in 2011, the New Silk Road vision is an integral 
        part of U.S. policy in Afghanistan and Central Asia, reflecting 
        growing regional support for closer economic cooperation and 
        connectivity. We have embraced these policy goals as a way for 
        countries in the region to strengthen economic linkages, reduce 
        regional instability, promote foreign investment, and increase 
        access to energy resources. The New Silk Road concept was first 
        envisioned as a means for Afghanistan to integrate further into 
        the fabric of the region via the resumption of traditional 
        trading routes and the reconstruction of significant 
        infrastructure links, broken by decades of conflict. Today, 
        Afghanistan and its neighbors are championing the New Silk Road 
        vision, creating new North-South transit and trade routes that 
        complement vibrant East-West connections across Eurasia. The 
        region is leading efforts to reduce barriers to trade, invest 
        in each other's economies, and support international 
        development and cross-border projects.
  <bullet> In June 2013, during the President's trip to South Africa, 
        he announced his intention to host a summit in Washington with 
        African heads of state. The U.S.-Africa Leaders summit will 
        take place August 5-6, 2014, in Washington, DC. This summit, 
        the first of its kind, will be the largest event that any U.S. 
        President has ever convened with African heads of state. The 
        summit is intended to catalyze USG and other efforts in sub-
        Saharan and North Africa--to advance economic growth, trade, 
        and investment; good governance and strong democratic 
        institutions; inclusive development; youth engagement; and 
        peace and security.
  <bullet> The State Department is working with the private sector and 
        our European partners to spur needed investments in energy 
        conservation and efficiency there, as well as on energy 
        infrastructure investments that can foster greater energy 
        diversity. The U.S. is working closely with European partners 
        to help achieve a secure energy future. We will not let any 
        country use energy as a political weapon. Diversification, 
        transparency and private investment are key. We need to work 
        with European partners to create the conditions--including 
        controlling corruption--to attract the private investment 
        needed for expansion of energy production.
  <bullet> The Bureau of Western Hemisphere Affairs and its overseas 
        posts engage frequently with foreign governments to promote 
        policies advantageous to U.S. businesses through bilateral 
        dialogues as well as multilateral engagements, among which the 
        North American Leaders summit, the Summit of the Americas, and 
        the Pacific Alliance. Priority issues for 2014 include 
        deepening regulatory cooperation, accelerating regional 
        integration, easing barriers to trade for small and medium 
        enterprises, promoting increased public-private consultations, 
        and improving regional energy market efficiency.
  <bullet> Chiefs of mission and economic and commercial teams at U.S. 
        embassies and consulates in the Western Hemisphere work 
        collaboratively to assist U.S. businesses to export and invest. 
        Commerce's Advocacy Center has 23 pending infrastructure 
        projects in Latin America and the Caribbean, with total project 
        value of $57 billion, including $17 billion in U.S. export 
        content. State coordinates closely with Commerce to assist 
        businesses as they bid on these projects. Through 18 Direct 
        Line webinars and conference calls in 2013, State provided 
        market information to nearly 1,000 U.S. companies interested in 
        doing business in the Western Hemisphere.
  <bullet> The Bureau of Near Eastern Affairs (NEA) and it posts abroad 
        work closely with interagency partners to promote the U.S. 
        exports to the Middle-East and North Africa region, aligning 
        with the goals of the National Export Initiative. For example, 
        in 2013, in collaboration with the U.S. Foreign Commercial 
        Service, the Department of Commerce, the Department of 
        Agriculture, and other stakeholders, Mission UAE helped 
        organize and support the participation of more than 200 U.S. 
        businesses in two large trade shows, the ``Arab Health'' and 
        ``Gulfood'' trade shows. At the ``Arab Health'' trade show, 
        U.S. companies signed contracts worth $196 million in sales--
        five times more than the year before, while the ``Gulfood'' 
        show generated an additional $106.7 million in onsite sales.
  <bullet> NEA is working with USTR to revise and establish new trade 
        and investment protocols and accords in the region. For 
        instance, we are currently supporting the enactment of a Trade 
        and Investment Framework Agreement (TIFA) with the Gulf 
        Cooperation Council, while also strengthening discussions with 
        Tunisia, Iraq, and others under the TIFA framework.

    As the above examples demonstrate, the Department of State is fully 
committed to deepening our alignment and coordination with the 
Department of Commerce to advance our commercial interests abroad. We 
are specifically exploring shared technology platforms to reduce 
duplication of efforts in the field, and to equip State's economic 
officers to serve as effective commercial officers at posts which do 
not have a Department of Commerce presence. The development of these 
systems will provide a mechanism for sharing business leads and 
economic information among all interagency partners focused on 
supporting U.S. exports, including the Foreign Agriculture Service, the 
Ex-Im Bank, OPIC, and the U.S. Trade and Development Agency.

    Question #46 (a-c). USIP.--For more than 10 years, the U.S. 
Institute of Peace has produced detailed analysis and ideas for 
mitigating the effects of the internal armed conflict that Colombia has 
suffered for more than a half century.

  <diamond> (a). As the Colombian Government is negotiating with the 
        Revolutionary Armed Forces of Colombia (FARC), what role does 
        USIP play in influencing the U.S. Government's posture toward 
        these negotiations; what role can it play in providing 
        technical support to the Colombian Government and the Colombian 
        people; and what role will it play in defining how U.S. policy 
        could support a potential peace agreement? Given the scale of 
        the $9 billion the U.S. has invested in Colombia in security, 
        intelligence, development, governance assistance over the past 
        15 years, what role do the much more modestly resourced USIP 
        programs play in helping to leverage and support a possible 
        agreement and the hope of a lasting peace?

    Answer. The State Department views the U.S. Institute of Peace 
(USIP) as an experienced and helpful resource as we support President 
Santos' efforts to bring an end to decades of conflict in Colombia. 
USIP's expertise in helping nations move toward a post-conflict phase 
of rebuilding and transformation is especially relevant to Colombia. 
Its sponsorship of the Colombia Peace Forum provides a valuable 
opportunity for policymakers from across the U.S. Government and civil 
society to discuss the link between human rights and the peace process. 
This is particularly true as the Colombian people begin to seek out 
justice for past abuses and reconciliation.
    USIP has looked toward supporting a post-peace agreement for 
Colombia, and offered candid analysis of common pitfalls and 
challenging issues surrounding peace negotiations, transitional 
justice, demobilization and reintegration, truth commissions, etc. The 
State Department looks to USIP to generate creative, expert ideas of 
how the United States can play a constructive role in ensuring that a 
potential agreement in Colombia leads to a durable peace.
    USIP has carried out a number of valuable programs to support 
Colombia's search for peace and efforts to address the conflict and the 
needs of its victims over the years, including workshops on long-term 
conflict mitigation and community-based reconciliation. In particular, 
we appreciate USIP's sponsorship and participation in the Department of 
Arauca's first International Forum on Peace and Reconciliation in May 
2012, which launched Citizen Commissions for Reconciliation--a model 
and replicable tool to help mitigate violence, strengthen local peace-
building processes, and engage communities living in conflict zones in 
the search for nonviolent solutions.

  <diamond> (b). As the United States ``rebalances'' toward the Asia-
        Pacific, how is this reflected in USIP's programming and 
        activities?

    Answer. The State Department views the U.S. Institute of Peace 
(USIP) as an experienced and helpful resource in the Asia-Pacific 
region, especially with regard to our ongoing rebalance to this dynamic 
region. With higher risk of conflict in the Asia-Pacific region and the 
region's growing significance for U.S. security, economic, political 
and diplomatic interests, USIP activities are having a meaningful 
impact in line with the Institute's mandate to prevent, mitigate, and 
resolve conflict.
    The USIP provides a useful forum for policymakers from across the 
U.S. Government and civil society to discuss how to maintain peace and 
stability in the Asia-Pacific region. USIP also brings Northeast Asian 
and U.S. officials together to discuss conflict prevention at the Track 
1.5 level. Since 2012, USIP has also been working in Burma to 
strengthen rule of law community projects that support tolerance and 
mutual understanding. This work is in the beginning stages and USIP 
plans to augment it through programing in crisis management, conflict 
prevention and reconciliation strategies in the Asia-Pacific, in order 
to better address rising regional tensions.

  <diamond> (c). With the political and security transition in 
        Afghanistan this year, how will USIP's programming contribute 
        to the work of the High Peace Council and the reconciliation 
        process?

    Answer. The United States Institute of Peace is not a part of the 
U. S. Department of State, but rather an independent institution 
created and funded by Congress that has been advancing U.S. interests 
and fulfilling its congressional mandate to prevent, mitigate, and 
resolve conflict around the world for nearly 30 years. For specific 
questions regarding their programming and activities, we would refer 
you to USIP directly. Our USIP colleagues have provided the following 
information:

          The United States Institute of Peace has played an important 
        role in 
        Afghanistan for more than 10 years. The Institute's work ranges 
        from improving peaceful dispute resolution mechanisms, to 
        strengthening civil society organizations' efforts to advance 
        the rule of law, to promoting peaceful elections like the one 
        just held. USIP also convened the Afghanistan Working Group led 
        by now White House Chief of Staff John Podesta and USIP Board 
        Chair and former National Security Advisor Stephen Hadley.
          USIP is poised to contribute to the work of the High Peace 
        Council (HPC) and the reconciliation process in several ways. 
        The Institute maintains a permanent office in Kabul with three 
        expatriate staff and 10 local professional staff. This office 
        serves as a point of contact in Afghanistan between USIP and 
        HPC representatives. USIP has relationships with key members of 
        the Council, including the Chairman of the HPC Secretariat, 
        Mohammad Masoom Stanekzai, who was a fellow at USIP from 2007 
        to 2009, and the Chairman of the Council, Salahuddin Rabbani.
          USIP continues its congressional mandate to produce applied 
        research on promoting peace. The Institute's wide-ranging 
        research agenda includes issues that are directly relevant to 
        the work of the Council. Previous research on this topic, 
        including proposed designs for a peace process and suggestions 
        on post-negotiation institutional arrangements, was compiled in 
        a volume published in 2013, Getting it Right in Afghanistan. 
        This volume includes an essay by Mr. Stanekzai that became the 
        blueprint for the reintegration program now being implemented 
        in Afghanistan.
          USIP has issued a standing invitation to the HPC to make use 
        of the institute's training capacity for negotiations. Until 
        now, the peace process has mostly been characterized by 
        delicate negotiations, often conducted through quiet contacts 
        and the search for confidence-building measures. Should the 
        process reach the phase of structured, face-to-face 
        negotiations, USIP expects to play a role in supporting the HPC 
        members who conduct those negotiations. It is worth noting that 
        the HPC was a creation of President Karzai, and is not a 
        constitutional body. The next government may wish to pursue 
        negotiations with the Taliban, but using a different mechanism.
          USIP also supported the 2014 Afghan election process in 
        several ways. USIP and the Center for American Progress, under 
        the cochairmanship of Stephen Hadley and John Podesta, 
        organized three working groups bringing together principals 
        from the State Department, the NSC, the Pentagon, and USAID, 
        along with Afghanistan experts, to offer advice on how to 
        ensure that policy was coordinated between the election and 
        reconciliation processes. The working group focused attention 
        on the electoral process, recommending funding for preelection 
        polling and strengthening efforts to increase voter 
        participation--factors that proved critical to the perceived 
        legitimacy of the result and limiting the potential impact of 
        fraud.
          To increase participation, USIP's Peaceful Education Campaign 
        reached out to young and old voters in Afghanistan, in rural 
        and urban areas, with a variety of techniques, for example, 
        sponsoring Afghanistan's national soccer tournament, hosting a 
        1-minute film competition as well as an election anthem 
        competition, promoting traditional and popular poetry readings 
        in rural areas, and a number of other innovative methods. This 
        program was implemented through USIP's office in Kabul with 
        full-time Afghan and international staff who are generally able 
        to move around the country. USIP also produced numerous 
        research publications in the lead-up to the election providing 
        timely analysis based on inputs from the field across the 
        country. USIP intends to conduct a Peaceful Election Campaign 
        for next year's parliamentary election, as well as continue its 
        election-related research and advisory activities.
          USIP is committed to remaining in Afghanistan after the U.S. 
        troop drawdown and to working with the new Afghan Government 
        and with USIP's Afghan partners to promote peace and 
        reconciliation and build on the significant progress 
        Afghanistan has made since 2001.

    Question #47. International Monetary Fund.--As we all know, just a 
few weeks ago this committee passed a bill with a strong bipartisan 
vote, which in addition to providing aid to Ukraine, authorized U.S. 
acceptance of the 2010 IMF reforms. When that bill ultimately reached 
the Senate floor, however, the IMF reform provisions were removed due 
to the opposition of some members who apparently disagree that these 
reforms are in the interest of the United States.

  <diamond> Could you please state for the record the administration's 
        position on why approving the 2010 IMF reform package is in our 
        national interest, and what you think the impact of our failure 
        to approve the reforms would be to U.S. credibility and 
        international leadership and to the IMF's ability to respond to 
        global financial crises?

    Answer. The Administration supports IMF reform because it would 
give the IMF greater flexibility and resources to respond to crises of 
geopolitical and economic significance, preserve the U.S. veto over 
important institutional decisions, and do so without increasing the 
U.S. financial commitment to the IMF. In 2010, G20 Leaders and the IMF 
membership decided on a set of quota and governance reforms designed to 
strengthen the IMF's role and effectiveness. The 2010 reforms increase 
the permanent resources of the IMF and modernize its governance 
structure to better reflect countries' economic weights in the global 
economy and keep emerging economies anchored in the multilateral system 
that the United States helped design and continues to lead. The reforms 
would put the IMF's finances on a more stable long-term footing, which 
would provide the institution with more financial flexibility in 
lending additional resources to countries in economic crisis such as 
Ukraine. We are the last major economy to act and our approval is the 
only remaining step for these important reforms to go into effect. We 
appreciate the committee's support for hese forms.
    U.S. leadership in the IMF promotes American core interests in 
three ways: protecting the U.S. economy with the IMF as the first 
responder when financial crises abroad threaten jobs and growth at 
home; strengthening our national security; and designing and promoting 
rules for an open global trade and financial system. The IMF promotes 
financial stability and economic growth abroad, which in turn supports 
U.S. jobs and exports, foreign direct investment in the United States, 
and America's economic health and prosperity. The IMF reforms are 
necessary to maintain our strong leadership position and influence in 
the IMF and to maintain the integrity of the IMF's financial structure.
    Inaction on quota reform has caused other IMF members to question 
our commitment to the institution and to the multilateral system that 
we helped create. At the IMF spring meetings this year, an increasing 
number of countries called for identifying ways to move forward on IMF 
quota and governance reforms without the United States.
    As the United States has delayed approving the 2010 reforms, other 
countries have sought to increase their influence in the institution, 
outside of the IMF's quota-based financial and governance structures in 
which the United States exercises its leadership role. Furthermore, if 
Congress does not authorize acceptance of the 2010 reforms, it could 
harm our influence and overall credibility not only at the IMF, but 
also at the G20 and with emerging economies. A failure to reform the 
IMF could also give new momentum to regional alternatives such as a 
BRICS (Brazil, Russia, India, China, and South Africa) development bank 
and currency support arrangements. These would divert resources from 
the IMF and exclude the United States. Congressional approval of U.S. 
support for the 2010 reforms is necessary to reaffirm the U.S. 
leadership position and reinforce the IMF's central position in the 
global financial system, at a time when emerging economies explore 
establishing new and parallel financial institutions.

    Question #48. Intellectual Property.--We have an economy 
increasingly driven by innovation, and this has created millions of 
jobs, spurred stronger economic growth, and enabled the United States 
to remain among the most economically competitive countries in the 
world. However, I have serious concerns about the inadequate protection 
of property rights in a number of important emerging economies, and 
even by some of our closest allies. The administration has made an 
effort to encourage stronger IP protections, including direct 
interventions by the President and Vice President, multiple Cabinet 
Secretaries and, of course, yourself. However, many American U.S. 
companies continue to struggle with unfair treatment in many markets 
around the world.

  <diamond> Given the increasing importance of innovative sectors of 
        our economy, is the administration considering a whole-of-
        government strategy to ensure the fruits of American innovation 
        are properly protected?

    Answer. Protecting the fruits of American innovation is a high 
priority for the administration, and we use a whole-of-government 
strategy with this aim. The State Department partners with other U.S. 
Government agencies and works with international organizations, 
including the World Intellectual Property Organization and the World 
Trade Organization, to promote laws and enforcement of laws that 
protect patents, trademarks, copyrights, and trade secrets around the 
world. In coordination with the Office of the Intellectual Property 
Enforcement Coordinator, the State Department is facilitating 
Intellectual Property Enforcement Working Groups at 17 key embassies to 
bring together all agencies at post to better coordinate U.S. 
Government resources devoted to protected U.S. intellectual property. 
This coordination is also evident in State's funding of intellectual 
property rights enforcement and technical assistance training provided 
by the Department of Justice, Customs and Border Protection, and the 
U.S. Patent and Trademark Office. We encourage businesses to use the 
tools available to register their intellectual property, and we 
advocate for them when their rights are violated. We also conduct 
public diplomacy campaigns, often with content stakeholder support, to 
spread the word that respecting intellectual property is in everyone's 
interest if they want a world that benefits from innovation and 
creativity.

    Question #49. Global Health.

  <diamond> Over the past few years, PEPFAR has emphasized the country 
        ownership model, whereby partner countries commit to investing 
        in their own health care systems. Please give some examples of 
        steps countries have taken to demonstrate political commitment 
        to fighting HIV/AIDS and investing in national HIV/AIDS plans. 
        What is the United States doing to encourage and facilitate the 
        development of policies that strengthen health systems in 
        recipient countries?
  <diamond> PEPFAR funding is essential to the development and 
        strengthening of health care systems worldwide. What do you 
        anticipate will be the impact of the reduction? Are these 
        reductions tied to the country ownership model?

    Answer. Greater country ownership is key to ensuring that the 
PEPFAR investments, systems, and capacities that have been established 
in the program to date continue in the long-term. Through our 
partnerships, we have saved millions of lives, and our paramount 
responsibility is ensuring that those to whom we provide treatment and 
care continue to receive treatment and care during our transitions.
    Under PEPFAR we have learned that political leadership, local 
management and technical capabilities, supportive public health 
institutions and communities, and mutual accountability are factors 
that affect the degree to which countries are ready to assume 
responsibility for the prevention, treatment, and care of people 
dependent on services that the United States has been providing. With 
our partner countries, we need to share the common goal of using 
scientific data with adequate financing to invest in proven 
interventions and key populations to achieve continued progress toward 
an AIDS-free generation.
    In countries where PEPFAR funds have been used to provide support 
for direct service delivery in prevention, care, and treatment 
programs, PEPFAR teams have delivered transition successes in 
conjunction with their country counterparts. Health care workers 
previously trained and funded by PEPFAR are now funded by the 
government. Delivery of clinical services has transitioned from 
international NGOs to the Ministry of Health, local NGOs, and faith-
based local providers. National procurement and delivery of commodities 
are funded by domestic resources. In all cases, these successes have 
been possible due to strong partnerships and sustained because of 
strong political will and commitment. In addition, across multiple 
countries, PEPFAR has registered successful transfers of 
responsibilities for the care of key populations--groups that may have 
difficulties accessing health and support services--to local civil 
society.
    Across former focus countries, district- and provincial-level 
government and nongovernmental entities have assumed the role of direct 
service provider, enabling efficiencies and maintaining or improving 
performance. We are monitoring the use and impact of evidenced-based 
scientific interventions through our newly launched quality strategy. 
To optimize the impact of investments, expand population coverage, and 
retain more patients in care, PEPFAR is developing, in partnership with 
host countries, strategies for strengthening the quality of clinical 
services with a focus on improving linkage, engagement, and retention 
in care. These strategies are rooted in sound international standards 
and locally relevant strategies for quality management so that the best 
possible results are achieved from PEPFAR and domestic investments.
    PEPFAR is also monitoring the readiness for and impact of 
transitions through a series of joint assessments with countries that 
will be taking on additional responsibility. These assessments focus on 
identifying what additional capacities are required for local 
partners--governments, research, development, and academic 
institutions, NGOs, the private sector, and civil society networks and 
communities--to lead, manage, and monitor internal and external efforts 
to address HIV/AIDS in country. Part of this process includes 
supporting a country's ability to drive the process to identify, 
source, and manage ongoing capacity-building efforts as a sustained 
government-led effort to target change, facilitated by capacity-
building frameworks and indicators developed by PEPFAR in conjunction 
with our partners.
    Our health partnership with South Africa is a model we are learning 
from, and continue to evolve with our partners in other countries, for 
transition to greater country ownership. Throughout the evolution of 
all of our partnerships, we have never lost sight of our shared goals: 
to enable more people in need of HIV/AIDS services to receive them, and 
ensure that those who already receive these services continue doing so. 
Strong partnerships with many diverse stakeholders are vital to 
achieving these goals. Where we face challenges, we work jointly to 
address them. For example, as some patients move from one facility to 
another, they can get lost in the system. Preventing this ``loss to 
followup'' is a challenge in any health system, including within the 
United States. PEPFAR continues to work closely with our South African 
partners to support the rollout of monitoring systems to ensure 
patients are properly tracked over time and retained in care.
    As PEPFAR moves from an emergency to a sustainability response, we 
are extremely cognizant of the challenges that partner nations face as 
we make this transition. Every country is situated at a different point 
on the continuum of country ownership, with a different range of needs 
and strengths. Advancing sustainability in a way that is tailored to 
each specific circumstance will require time and careful planning. 
PEPFAR is committed to ensuring that the eventual transfer of program 
management, implementation, and ownership to the host country occurs 
smoothly and at a pace appropriate to the local context. There is not a 
one-size-fits-all approach to country ownership. The eventual 
transition of PEPFAR program activities to host countries will occur in 
a step-wise manner, at a pace appropriate to their local context. In 
all countries, PEPFAR's goal is to support the country in achieving an 
AIDS-free generation, increasing the impact of core interventions, as 
well as protecting our investments and the patients on the ground.

    Question #50. Gender Based Violence.--Gender-based violence remains 
a rampant problem in many of the world's conflicts, including Syria, 
Burma, and the Democratic Republic of Congo. Please provide an update 
on implementation of the National Action Plan on Women, Peace, and 
Security.

  <diamond> How, if at all, has implementation of the Administration's 
        National Action Plan on Women, Peace and Security made a 
        difference in these countries?

    Answer. The Department of State is devoted to supporting the United 
States unqualified commitment to protect and empower women in countries 
threatened and affected by war and conflict, violence and insecurity. 
Through the Department's leadership role in U.S. diplomatic engagement, 
its foreign assistance programming, and robust relationships with civil 
society actors across the globe, during fiscal year 2013 we built on 
longstanding efforts to integrate women's views and perspectives into 
our diplomatic, security and development efforts in Syria, Burma, the 
DRC and dozens of other countries. In line with the protection and 
relief and recovery pillars of the U.S. National Action Plan on Women, 
Peace and Security, in 2013, the State Department and USAID launched a 
new initiative, Safe from the Start, to strengthen the humanitarian 
system's capacity to prevent and respond to gender-based violence from 
the onset of an emergency. Safe from the Start was launched with an 
initial commitment of $10 million. The first partners to receive 
funding were UNHCR and ICRC in 2013. This funding will go toward hiring 
specialized staff, launching new programs, and developing innovative 
methods to protect women and girls at the onset of emergencies 
worldwide.
Syria
  <bullet> Guided by the National Action Plan on Women, Peace and 
        Security, which articulates a link between protection and 
        prevention, the Department and USAID are working to support a 
        resolution to the conflict in Syria in which women can be 
        active participants in peace-building in Syria. Toward this 
        end, the Department and USAID continue to support a range of 
        efforts aimed not only at protecting these vulnerable 
        populations, but ensuring all Syrians have the opportunity to 
        participate in conversations about the future of their country.
  <bullet> The Department continues to advocate for the protection of 
        vulnerable populations, including women and girls, in this and 
        all other situations by working with our partners to prevent 
        and respond to gender-based violence (GBV), including sexual 
        violence. Through our support to U.N. agencies and NGOs, the 
        Department and USAID are providing assistance to gender-based 
        violence survivors in Syria and to those who have fled to 
        neighboring countries. Both our U.N. and NGO partners work with 
        refugee hosting governments to develop capacity in the health 
        sector, to increase awareness of gender-based violence and to 
        meet the specific needs of survivors.
  <bullet> Protecting and supporting women in meeting their unique 
        needs is an important component of the National Action Plan's 
        commitment to women becoming active participants in conflict 
        resolution. We continue to incorporate women with Department-
        funded training and workshops related to peace processes, local 
        governance, civil society capacity building, and countering 
        violent extremism. Working with Syrians and several 
        international actors, the Department played an important role 
        in advocating for the inclusion of women at the negotiations 
        table at the Geneva II conference in January.
  <bullet> Lastly, the National Action Plan articulates a link between 
        prevention and protection in holding perpetrators of mass 
        atrocities, including GBV, accountable. An integral part of the 
        Department's investments in accountability is supporting 
        documentation of violations committed by all sides for use in 
        future Syrian led transitional justice and accountability 
        processes.
Burma
  <bullet> The Department continues to engage the Government of Burma, 
        civil society and particularly women's groups to support 
        greater women's representation in the peace process. Our 
        activities include small grants to women's organizations to 
        fortify trust across religious and ethnic divides, strengthen 
        community resiliency, and increase agency to more directly 
        contribute to the nationwide peace process.
  <bullet> These efforts are often paired with localized outreach to 
        women's civil society groups gauging women's views and concerns 
        about their role in public life. Additionally, the Department 
        elevated women's participation in conflict resolution and 
        political leadership through a small grants program supported 
        by the Abbot Fund's partnership and the Secretary of State's 
        International Fund for Women and Girls.
  <bullet> The Department, under the leadership of the Trafficking in 
        Persons Office, engaged with international partners to develop 
        common policy frameworks for combating human trafficking. For 
        example, diplomatic efforts led by Ambassador CdeBaca and a 
        U.S. delegation to the inaugural bilateral dialogue on human 
        trafficking with Burma in August allowed an open exchange of 
        ideas and best practices as well as funding for technical 
        assistance to the Government of Burma's newly established 
        antihuman trafficking division.
DRC
  <bullet> We remain concerned about the continuing epidemic of gender-
        based violence (GBV) throughout the DRC, including sexual 
        violence and the use of mass rape as a tactic of war. The U.S. 
        Government is committed to preventing and responding to GBV 
        through diplomatic and foreign assistance initiatives, pursuant 
        to both the National Action Plan on Women, Peace and Security 
        and the U.S. Strategy to Prevent and Respond to Gender-based 
        Violence Globally.
  <bullet> For example, democracy and governance programs seek to fight 
        impunity, including through national-level legal reforms, while 
        community awareness activities educate and mobilize local 
        communities to promote women's rights and protection for the 
        entire community. USAID has allocated millions to respond to 
        and prevent GBV across the DRC, providing care and treatment 
        services for GBV survivors, including access to medical care, 
        counseling and family mediation, social and economic 
        reintegration support, as well as legal aid. The President's 
        Emergency Plan for AIDS Relief (PEPFAR) is also investing 
        significantly in the DRC to address GBV across HIV prevention, 
        care and treatment platforms.
  <bullet> In addition to direct services for survivors, the United 
        States is working to strengthen institutions and promote rule 
        of law through our contributions to U.N. peacekeeping 
        operations. The Department continues to highlight the security 
        of vulnerable populations, including protection from GBV, as a 
        core component of civilian protection mandates in U.N. 
        missions. Furthermore, the Department led international efforts 
        to ensure successful implementation of the U.N.'s policy of 
        zero tolerance for sexual exploitation and abuse by U.N. 
        personnel. In an effort to improve the effectiveness of the 
        databases used to screen personnel, our Department funded the 
        United Nations Organization Stabilization Mission in the 
        Democratic Republic of the Congo's (MONUSCO) profiling project, 
        which compiles data on perpetrators of human rights abuses in 
        DRC.
  <bullet> The Department emphasized the relationship between prospects 
        for justice and accountability for GBV and women's 
        participation in conflict resolution and judicial processes. In 
        the DRC, the Department, led by the Special Envoy for the Great 
        Lakes and backed by the Office of Global Criminal Justice, 
        engaged with signatories to a peace declaration outlining 
        specific limitations on amnesty for sexual violence crimes. The 
        agreement set a clear international marker ensuring that 
        accountability for sexual violence crimes constitutes an 
        integral part of peacebuilding and conflict resolution.
  <bullet> In addition to providing specialized training for law 
        enforcement and judicial actors, the Department assisted the 
        DRC in establishing specialized judicial infrastructure to 
        address GBV and developed tools to strengthen the capacity of 
        these initiatives. Our Bureau of International Narcotics and 
        Law Enforcement Affairs (INL) supported the American Bar 
        Association's mobile courts program which has provided legal 
        counseling to 2,275 survivors of SGBV and filed 1,930 cases 
        with local authorities, resulting in 461 trials and 378 
        convictions in the North and South Kivu provinces. The program 
        also included medical support for victims and reinforced the 
        link between access to services and access to justice by 
        training medical and legal professionals on the documentation 
        of evidence for prosecution.

    Question #51. Gender Based Conflict.--What is the breakdown of 
resources the Department has obligated and disbursed toward the 
implementation of the Strategy to Prevent and Respond to Gender-based 
Violence Globally for the remainder of FY 2014 given the $150 million 
appropriation in the FY 2014 Consolidated Appropriations bill? Does the 
Department plan to allocate similar funds in FY 2015 to maintain the 
work?

    Answer. Based on our current allocations, we expect to exceed $150 
million for gender-based violence programming in FY 2014. Our FY 2015 
Request includes $139 million to continue these programs that implement 
the Strategy to Prevent and Respond to Gender-based Violence Globally. 
Maintaining the commitment to respond and reduce gender-based violence 
is a strategic priority for U.S. foreign assistance.

    Question #52. Trafficking.--NGOs report that exploitation and abuse 
of domestic workers brought to the U.S. by diplomats and consular 
officials is commonplace, and the Khobragade case is just the tip of 
the iceberg. For example, a new civil case was just filed against the 
Consulate General of Bangladesh for similar abuses. What strategies is 
the Department of State developing to help prevent trafficking, both 
labor and sex exploitation, of workers coming in on nonimmigrant visas, 
specifically domestic workers by their diplomat employers?

    Answer. The State Department takes very seriously its 
responsibility to prevent the abuse of domestic workers employed by 
diplomats and consular officials and its obligation to address 
allegations of abuse of these workers. The Department has implemented 
safeguards to prevent abuse, including requiring foreign missions to 
``pre-notify'' the Office of Protocol or the United States Mission to 
the United Nations (USUN), of any prospective domestic worker who may 
accompany or join a diplomat. This ensures that the Department has an 
up-to-date record of all domestic workers working for diplomatic 
personnel in the United States. Before domestic workers are issued A-3 
or G-5 visas, they must be interviewed by a U.S. consular officer 
abroad, and are required to present a written contract in a language 
the domestic worker understands. At the visa interview, they are given 
a ``Know Your Rights'' pamphlet, which provides them with information 
on how to contact an assistance hotline in the United States. We have 
also recently released a ``Know Your Rights'' video to be shown in 
consular waiting rooms worldwide, initially available in 39 languages, 
with additional translations to follow.
    In recent years, the Department has prohibited cash payments of 
wages to domestic workers of diplomats and consular officials. These 
domestic workers must be paid by check or direct deposit into a local 
bank account to which only they have access. Wage deductions for any 
expenses, including meals and lodging, are also now prohibited.
    The Department immediately responds to allegations of abuse of 
domestic workers. We place an immediate hold on the employing 
diplomat's file so that he or she may not obtain any subsequent A-3/G-5 
employees until the matter has been resolved to the satisfaction of the 
Department. The Department's Office of Protocol and USUN take 
allegations of abuse very seriously, conveying concern about each and 
every serious allegation in writing to the chief of the respective 
diplomatic mission and requesting a timely reply to the issues raised. 
The trafficking experts within the Bureau of Diplomatic Security's 
Criminal Investigations Division, working closely with Protocol or 
USUN, will initiate an investigation into such allegations, often 
requesting that the Chief of Mission make available the subject of the 
investigation for a voluntary interview. In the conduct of these 
investigations, the State Department works closely with the Department 
of Justice.
    The Department of State monitors allegations of abuse with an 
interbureau internal working group comprised of representatives of the 
Office of Protocol, the Office to Monitor and Combat Trafficking in 
Persons, USUN, the Office of Foreign of Missions, the Office of the 
Legal Adviser, the Bureau of Consular Affairs, the Bureau of Diplomatic 
Security, and representatives of regional bureaus with active 
allegations. The Bureau of Consular Affairs regularly trains consular 
officers and periodically updates the Foreign Affairs Manual to provide 
consular officers with education and support in order to better 
recognize human trafficking indicators, and the Office of Protocol 
sends circular notes to the diplomatic community regarding their 
obligations with respect to the employment of domestic workers.
    In addition, the Office of Protocol provides annual briefings to 
the Deputy Chiefs of diplomatic missions on the issue of trafficking in 
persons and the legal and policy requirements for the employment of 
domestic workers by foreign mission personnel. USUN recently conducted 
such a briefing for the heads of missions to the United Nations. The 
Office of Protocol launched its first briefing of domestic workers in 
the Washington, DC, area in 2012 and will provide such briefings 
annually to ensure that domestic workers understand their rights and 
responsibilities, as well as the resources available to them should 
they suffer abuse or mistreatment. The Office of Protocol has also 
engaged nongovernmental organizations in discussions about the 
Department's requirements related to the employment of domestic workers 
by diplomatic personnel.

    Questions #53, #54, #55.
  <diamond> 53. Civilian Security.--There are reports that indicate 
        evidence of official policies of persecution by the Government 
        of Burma against the minority Muslim Rohingya ethnic group and 
        warning signs of genocide. Are you concerned about the risk of 
        genocide in Burma and what is the administration doing to 
        address the concerns around ongoing persecution of Muslims and 
        other ethnic minority groups in Burma?
  <diamond> 54. Human Rights Watch and other NGOs have reported on 
        evidence of official policies of persecution by the Government 
        of Myanmar or Burma against the minority Muslim Rohingya ethnic 
        group and warned about red flags for possible atrocities and 
        ethnic cleansing. Are you concerned about the risk of mass 
        atrocities against the Muslim Rohingya in Myanmar? What is the 
        administration doing to address the concerns around ongoing 
        persecution of Muslims and other ethnic minority groups in that 
        country?
  <diamond> 55. The Rohingya.--The Rohingya, a Muslim minority long 
        resident in Burma, are essentially stateless, and lack basic 
        rights, including the rights to work, travel, and marry. They 
        routinely suffer forced labor, confiscation of property, 
        arbitrary arrest and detention, and physical and sexual 
        violence. In addition, several hundred thousand reside in 
        squalid conditions in Bangladeshi camps. Please describe recent 
        efforts by the Department to address the multiple crises facing 
        the Rohingya, and the concrete results of those efforts.

    Answer. This answer addresses QFR numbers 53, 54, and 55 on the 
Rohingya.
    The administration has long been active in pressing the Government 
of Burma to address the problems surrounding discrimination toward 
ethnic minorities including the Rohingya. While we continue to assess 
that Burma's overall reform efforts are positive, the situation in 
Rakhine State is deteriorating. We are greatly concerned about the risk 
for further violence, and are using all the tools at our disposal to 
try to prevent further violence. The departure of INGOs in particular 
greatly concerns us, not only because of the dire humanitarian 
implications, but also because the absence of eye and ears on the 
ground increases the risk of violence.
    The situation was exacerbated when ethnic Rakhine mobs attacked 
U.N. and INGO offices and warehouses on March 26-27, resulting in the 
departure of U.N. and INGO staff from Rakhine State, extensive damage 
to humanitarian assets, and the temporary suspension of nearly all 
humanitarian operations throughout Rakhine State. Despite the recent 
return of U.N. and INGO staff, humanitarian access remains limited and 
U.N. and INGOs have not been able to resume full operations to provide 
life-saving services to vulnerable populations in Rakhine.
    The humanitarian situation is compounded by the government's 
overall inadequate management of Rakhine State. The stateless Muslim 
Rohingya, who are largely regarded as illegal immigrants, have for 
decades been targeted with discriminatory laws and practices, including 
birth limitation policies, restrictions on freedom of movement, and 
stripping of citizenship. The central Burmese Government has failed to 
address the underlying issues related to discrimination, security, 
access to justice, provision of humanitarian assistance, and 
reconciliation. The increasingly segregated local communities each view 
the other as a threat. Conditions in camps for over 140,000 internally 
displaced persons (IDPs) and other vulnerable people in Rakhine State 
are worsening, as many lack access to life-saving medical services, as 
well as sufficient water, sanitation, and food. Burma's monsoon season 
begins in May exposing tens of thousands of vulnerable populations to 
additional risk from incoming cyclones and torrential rain.
    We are very concerned the limited humanitarian space and poor 
conditions in the IDP camps raise the risk of violence. The situation 
in Rakhine State is also exacerbating nationalist anti-Muslim sentiment 
elsewhere in the country, which could intensify as 2015 election 
campaigning ramps up.
    We raise our concerns with the highest levels of government at 
every opportunity, travel regularly to Rakhine State, and are in 
constant communication in Washington and in Burma with INGOs and the 
U.N. For example, EAP Assistant Secretary Danny Russel recently met 
with President Thein Sein to discuss the humanitarian crisis in Rakhine 
State in depth, and urged the central government to take full 
responsibility of the crisis, hold accountable those individuals 
responsible for the violence, and to take immediate steps toward 
providing necessary security to facilitate the full return of INGOs and 
resumption of aid delivery. Under Secretary for Political Affairs Wendy 
Sherman likewise raised concerns about the situation in Rakhine State 
and the status of INGOs and delivery of aid in all of her government 
meetings during her March visit. In Rangoon, Ambassador Mitchell 
regularly chairs diplomatic roundtables to help align positions among 
international community representatives in the field. We are pressing 
the government to strengthen the rule of law and to articulate a clear 
plan for achieving durable solutions, to include implementing a path to 
citizenship for the Rohingya.
    The State Department, through PRM, supports the work of two primary 
partners in the region, United Nations High Commissioner for Refugees 
(UNHCR) and the International Committee of the Red Cross (ICRC). UNHCR 
continues to work toward resolving the protracted situation of Burmese 
refugees and asylum seekers in Thailand, Rohingya in Bangladesh, and 
other vulnerable Burmese populations in Malaysia, China, India and 
elsewhere throughout the region. Durable solutions include voluntary 
return and reintegration, local integration, and third country 
resettlement.
    State/PRM also supports the International Organization for 
Migration to improve the capacity of governments to protect and assist 
vulnerable migrants by drafting a national trafficking action plan with 
the Burmese Government, establish bilateral standard operating 
procedures for repatriation and reintegration of victims of trafficking 
between Burma and neighboring countries, and train Thai Government 
officials on trafficking victim identification and counseling.
    In 2012-2013, USAID's Office of Food for Peace and Office of 
Foreign Disaster Assistance provided nearly $15 million in humanitarian 
assistance to support the populations displaced by conflict in Rakhine 
State. This assistance was used to deliver food, water, sanitation and 
nutritional supplies to displaced populations. In FY 2013, PRM provided 
over $39.2 million in humanitarian assistance for Burmese IDPs in Burma 
and Burmese refugees and asylum seekers, including the Rohingya, in 
neighboring countries in the region.

    Question #56. CSO.--A recent Inspector General report on the Bureau 
of Conflict and Stabilization Operations highlighted some key 
challenges. What's being done to follow up on the report's 
recommendations, including the lack of clarity surrounding the CSO 
Bureau's strategic direction?

    Answer. CSO submitted its official response to the Office of the 
Inspector General (OIG) on April 23, 2014.
    CSO takes the OIG inspection seriously and is addressing the 
report's recommendations. CSO developed detailed action plans for each 
of its 35 assigned recommendations and has already implemented 18 of 
the 35 recommendations. CSO is working with our partners in the State 
Department to implement the recommendations assigned to them.
    CSO is committed to professionalizing the Bureau's administrative 
practices. Since October 2013, CSO has hired experienced Human 
Resources and Finance Directors who have been charged with aligning 
Bureau policies with Department regulations. CSO has brought on board 
an experienced IT advisor to correct our IT deficiencies.
    CSO has taken several steps to clarify and refine its mission. 
During the time of the inspection, CSO developed its Functional Bureau 
Strategy, part of a regular State Department planning process. This 
update of CSO mission and goals involved extensive consultations with 
the staff of the Under Secretary for Civilian Security, Democracy, and 
Human Rights (J), the J bureaus, the regional bureaus, Ambassadors 
stationed in conflict countries, and State Department leadership. To 
further integrate our mission into the broader State Department 
mission, CSO participated in the drafting of the Fragile States section 
of the State/USAID Joint Strategic Plan and is working with J on the 
development of a strategic plan for the J family of bureaus. Finally, 
CSO created an internal working group to build consensus around CSO's 
mission, capabilities, and operations.
    CSO is committed to working with the interagency and expanding our 
capacity to deploy experts to conflict areas. In the coming months, CSO 
and J will consult with the State Department's Bureau of Legislative 
Affairs, the Office of the Legal Advisor, and the National Security 
Council to refine our understanding of the ``whole-of-government'' 
approach to conflict prevention and response, and will further clarify 
CSO's responsibilities related to interagency coordination. CSO will 
develop and implement action plans to address CSO's coordination and 
surge responsibilities as dictated by the defined ``whole-of-
government'' approach.
    As these efforts bear fruit, CSO will execute a strategic 
communications plan to explain its mission, capabilities, and 
operations within the State Department, to Congress and to the public. 
CSO would welcome your ideas on our strategic direction and would be 
pleased to provide you or your staff with more information or a 
briefing.

    Question #57. Atrocity Prevention.--This month marks the 20th 
anniversary of the Rwandan genocide and 2 years since the establishment 
of the Interagency Atrocities Prevention Board. Since the Atrocities 
Prevention Board's inception, what reforms has the Department of State 
undertaken to strengthen its capacity to prevent mass atrocities and 
how was this reflected in your FY 2015 budget request to Congress? 
Moving forward, what other key reforms must be institutionalized and 
how can Congress best support you in fulfilling U.S. commitments with 
regard to preventing mass atrocities and protecting civilians?

    Answer. Since the inception of the Atrocities Prevention Board 
(APB), the Department of State has identified its existing political, 
economic, diplomatic tools relevant to atrocity prevention work, and 
has worked on implementing and, where relevant, enhancing these tools 
for effective atrocity prevention. The State Department has also taken 
steps to expand the pool of civilian expertise to identify and enhance 
tools and assess and respond to risks of mass atrocities within the 
U.S. Government.
    The State Department developed a Diplomatic Engagement strategy, 
which centers on increased collaboration with the multilateral, 
regional, and civil society organizations, as well as partner 
governments. Conversations on enhancing prevention work have begun with 
the United Nations in both Geneva and New York, with the European 
Union, and dialogues will take place later this year with NATO, the OAS 
and the AU. We have also enhanced partnerships with the Office of the 
Special Advisor on the Prevention of Genocide, the Office of the High 
Commissioner for Human rights, the U.N. Department of Peacekeeping 
Operations, Justice Rapid Response, and the American Bar Association 
Rule of Law Initiative.
    The State Department introduced a new tool in the War Crimes 
Rewards legislation that the President signed in January. Acting on 
this new authority, the State Department recently designated Joseph 
Kony and other senior leaders of the Lord's Resistance Army, as well as 
Sylvestre Mudacumura from the Democratic Forces for the Liberation of 
Rwanda, for rewards of up to $5 million.
    The Atrocities Prevention Board interagency provided policy 
guidance on resource reallocation to six main priority areas, which is 
also reflected in the Department's FY 2015 budget submissions. These 
priority areas include work related to: (1) promoting early warning of 
atrocity threats; (2) isolating perpetrators of atrocities; (3) surging 
specialized skills and expertise to address emerging atrocity threats; 
(4) strengthening local and regional processes and institutions that 
address core grievances and mitigate potential threats; (5) building 
capacity in multilateral organizations and institutions; and (6) 
ensuring training and learning within the U.S. Government. Most bureaus 
incorporated work related to atrocity prevention in their bureau 
strategy, and U.S. embassies did the same in their integrated country 
strategies. Staying in line with the APB's function outlined in 
Presidential Study Directive 10, the FY 2015 requests did not reflect 
additional requests for funding but rather re-allocated existing Bureau 
and Department funding to efforts related to atrocity prevention.
    In 2013, the Atrocities Prevention Board and partners completed the 
first National Intelligence Estimate on Global Risks of Mass Atrocities 
and Prospects for International Response. The National Intelligence 
Estimate guides the interagency's prevention and response efforts in 
medium risk countries, high risk countries, and countries where 
atrocities are already taking place.
    The Department has developed an atrocity assessment framework in 
conjunction with our USAID colleagues, which highlights the need to 
identify and understand the means and motives of potential 
perpetrators, targeted groups and third parties. The Department 
developed a monitoring tool that helps country watchers systematically 
track an escalation of short-term atrocity risks over time. Finally, 
the Department developed ways to target U.S. leverage for atrocity 
prevention, including use of early warning, economic leverage, 
diplomatic engagement, community outreach, as well as accountability 
and reconciliation efforts.

    Question #58 (a-e). South Sudan.--The Intergovernmental Authority 
on Development (IGAD) has been essential to the negotiation process 
thus far, and is now proposing the deployment of a regional 
stabilization force to enforce the cessation of hostilities.

  <diamond> (a). What is your assessment of this stabilization force? 
        How will it complement or complicate the work of the IGAD 
        monitoring mission in South Sudan?

    Answer. We deeply appreciate the leadership of IGAD in seeking a 
peaceful resolution to the crisis in South Sudan. We welcome the 
region's work to support implementation of the Cessation of Hostilities 
(CoH) agreement in South Sudan, including through IGAD's proposal to 
deploy a force to South Sudan comprised of troops from IGAD and other 
regional states. We believe that this force must deploy under the U.N. 
Mission in South Sudan (UNMISS) to provide force protection for the 
Monitoring and Verification Mechanism (MVM) and to reinforce UNMISS's 
protection of civilians mandate. IGAD and the U.N.'s Department of 
Peacekeeping Operations (DPKO) are finalizing agreement on the 
deployment of this force under UNMISS.

  <diamond> (b). Last month, the African Union announced the formation 
        of the Commission of Inquiry, to be headed by former Nigerian 
        President Obasanjo. As you know, many of us in Congress are 
        very concerned about the issue of accountability for human 
        rights abuses. How does the administration plan to support the 
        work of the Commission? Is such support taken into account as 
        part of the FY15 budget request?

    Answer. The United States welcomes the creation of the African 
Union (AU) Commission of Inquiry (COI). The AU's announcement sets 
forth ambitious and commendable goals for the COI that include 
determining the causes of the current conflict, establishing the facts 
regarding possible violations of international human rights and 
humanitarian law, and making recommendations for justice, 
accountability, and reconciliation. We will closely watch how the COI 
moves forward in fulfilling its mandate.
    The U.S. Government stands ready to support COI efforts to carry 
out its goals. We have offered an array of tools to support to the COI, 
including providing technical experts with experience in international 
criminal investigations and the collection, preservation, and analysis 
of forensic evidence; identifying and sharing information relevant to 
the COI's mandate; providing advice and support to the Commission on 
engaging in public outreach; and facilitating the inclusion of South 
Sudanese civil society voices into the work of the COI which could be 
supported within the administration's FY15 budget request.
    We strongly believe that the investigation and prosecution of 
atrocity crimes is fundamental to dealing with a legacy of mass abuses, 
preventing future violence, and establishing a lasting peace. We 
welcome this announcement as a key step in opening space for inclusive 
discussions on justice that will help address deep grievances in South 
Sudan. We will also continue to support efforts that seek to bring 
peace, justice and reconciliation to the people of South Sudan.

  <diamond> (c). According to the U.N. officials, independent human 
        rights monitors, and even the State Department's own recent 
        annual Human Rights report, grave human rights abuses have been 
        attributed to South Sudan's security forces, both in the 
        context of the current conflict and prior to the outbreak of 
        hostilities in December. In the context of these allegations 
        and the apparent lack of accountability under President Kiir's 
        administration, under what conditions would the State 
        Department propose to resume security assistance, now halted, 
        for the country's security forces?

    Answer. The State Department will not consider resuming military 
assistance to South Sudan until: a peace agreement has been signed and 
implemented; the parties have demonstrated that the conditions 
underlying the current fighting are being addressed; and there is 
commitment to ending human rights abuses, violations and atrocities, 
and holding perpetrators accountable. If or when military assistance 
resumes, proposed recipients will be vetted for gross violations of 
human rights in accordance with the Leahy Law and State Department 
Leahy Law implementation policy. We value a security partnership with 
South Sudan that is based on mutual commitments to peace, human rights, 
and democracy.

  <diamond> (d). Given the numerous responsibilities of UNMISS and the 
        increasingly negative view of the mission in country, what do 
        you believe is the proper role of UNMISS moving forward? What 
        role, if any, should UNMISS play in monitoring the cessation of 
        hostilities agreement and why?

    Answer. The United States has begun negotiations within the U.N. 
Security Council (UNSC) on a revised UNMISS mandate that emphasizes 
protection of civilians, in response to recommendations in the U.N. 
Secretary General's March 6, 2014, report. UNSC members broadly agree 
that the mission should reprioritize its activities around the 
protection of civilians, supporting the delivery of humanitarian 
assistance, and human rights monitoring and investigation. In addition, 
IGAD and other countries from the region likely will deploy forces to 
UNMISS that, in addition to supporting the core tasks of the mission 
described above, will provide force protection for the MVM in its 
activities related to implementation of the CoH.

  <diamond> (e). It seems that negotiations in Addis Ababa are at a 
        standstill. What is the status of talks and what pressure 
        should the U.S. consider applying to encourage meaningful 
        progress?

    Answer. The President's Special Envoy is in Addis Ababa pressing 
all sides involved in the conflict to respect the Cessation of 
Hostilities agreement and to seriously engage in good faith in the 
IGAD-led peace process immediately. Additionally, we are engaging and 
coordinating our efforts with our partners in the region and with our 
Troika and EU partners to further increase pressure upon all parties 
for meaningful progress. In the Secretary's recent trip to South Sudan, 
he pressed President Kiir and subsequently Riek Machar, by phone, to 
travel to Addis Ababa themselves.

    Question #59. Central African Republic.--The U.S. response to the 
humanitarian, political, and security crisis in the Central African 
Republic (CAR) has increased dramatically in recent months, 
particularly as the crisis in CAR has become more desperate. While the 
response to the immediate crisis has been critical, the protracted 
nature of the situation in CAR will require sustained United States and 
international support.

  <diamond> The FY15 request sets aside $150 million to respond to 
        unanticipated requirements of peacekeeping missions. Would this 
        amount be sufficient should a U.N. mission be established in 
        CAR? Do we have any sense of what a mission such as that 
        proposed by the U.N. Secretary General might cost?
  <diamond> As I understand it, BINUCA--the U.N. political mission in 
        the Central African Republic--is still acquiring the 
        appropriate staff and resources to function effectively. The 
        mission will no doubt be integral to the interim government as 
        they reestablish law and order in the country. What is the 
        status of BINUCA's operations and what specifically is the 
        mission's focus over the next 6 months?
  <diamond> The number of women, adolescents, and children in the CAR 
        and South Sudan that have been killed, injured, subjected to 
        gender-based violence, and/or forcibly recruited into armed 
        forces and groups is astounding. What is the U.S. Government 
        doing to urge all armed forces and groups in CAR and South 
        Sudan to immediately cease grave violations against civilians, 
        especially women and children?

    Answer. Based on preliminary estimates, the annual cost of the new 
U.N. peacekeeping operation in CAR, once it reaches full operating 
capacity some time well into 2015, could cost between $1 billion to 
$1.2 billion. The U.S. assessed share at the current rate of 28.36 
percent would therefore be roughly $283 million to $340 million per 
annum. The $150 million Peacekeeping Response Mechanism (PKRM) request 
is intended to address urgent and unanticipated requirements, whether 
assessed or voluntary, where funding is urgently needed in response to 
new or changing requirements. Some of the startup costs or initial 
assessments associated with the U.N. peacekeeping operation in CAR 
might be met appropriately with the PKRM. However, in determining 
whether and how to use the PKRM, the Department would need to consider 
a range of future needs, inclusive of U.N. missions and African-led 
regional operations.
    Pursuant to UNSC resolution 2149 (April 2014), BINUCA was 
immediately subsumed into the United Nations Multidimensional 
Integrated Stabilization Mission in the CAR (MINUSCA). MINUSCA is 
tasked with supporting the transitional government to reestablish law 
and order and to take the leading role in assisting the transitional 
government with the political transition and the electoral process, as 
well in mediation and reconciliation processes. The mission will also 
continue to monitor and report on the human rights situation. On 
September 15, 2014, when its military component will be deployed, 
MINUSCA will begin to implement its mandated tasks, including the 
protection of civilians, facilitating access for humanitarian 
assistance, supporting the creation of local policing capability, and 
developing and implementing security sector reform and Disarmament, 
Demobilization Reintegration (DDR) and Repatriation (DDRR) processes.
    The Security Council has requested that the U.N. Secretary General 
accelerate the deployment of MINUSCA civilian personnel, including the 
deployment of Child Protection and Women Protection Advisors. Moreover, 
the U.N. Security Council has also authorized the deployment of 
contractors as well as U.N. military enablers prior to September 15, 
with the purpose of preparing the groundwork for the full deployment of 
MINUSCA so that the mission will be up-and-running on time.
    The United States believes that the quickest and most effective way 
to prevent further atrocities, improve the security situation, and 
increase humanitarian access is to support the African Union-led 
International Support Mission in CAR (MISCA) and the French forces 
during this interim period leading to the deployment of MINUSCA's 
military component. The United States has committed up to $100 million 
to transport French forces and to transport, to equip, and to train 
MISCA forces in order to restore security and end the dire humanitarian 
crisis that jeopardizes the lives of millions throughout the country. 
We have airlifted Burundian and Rwandan troops to Bangui and will 
continue to transport, equip, and train additional troops that are 
identified. In early April, we delivered to MISCA the first tranche of 
vehicles to improve mobility of MISCA's elements.
    The United States also strongly supports targeted U.N. and U.S. 
sanctions against those who threaten the peace, stability, and security 
of the Central African Republic, including through human rights 
violations and abuses. We believe that sanctioning these individuals 
sends a strong message that supporting violence in CAR will not be 
tolerated by the international community. We will continue to work with 
our international partners to hold accountable all individuals 
responsible for atrocities committed in CAR.
    We also continue to support efforts to mitigate conflict and to 
promote reconciliation between the varied communities, ethnic groups, 
and religions in CAR. We have supported activities to promote religious 
tolerance, including the April 8 visit by an interfaith delegation of 
U.S. religious leaders to Bangui, which concluded with the signing by 
CAR Government and religious leaders, civil society, and 
representatives of the armed groups of a declaration supporting efforts 
to promote reconciliation and peace in CAR and denouncing the use of 
violence. We welcomed a delegation of CAR religious leaders to the 
United States, which followed up on a State Department-hosted 
interfaith dialogue in January, making clear our strong support for 
efforts by CAR residents to encourage interfaith dialogue and oppose 
religious violence.
    Of course our humanitarian efforts continue, including an emphasis 
on addressing the health consequences of widespread gender-based 
violence as well as efforts to combat such violence in the first place.

    Question #60. Democratic Republic of the Congo.--What kinds of 
bilateral military assistance are planned for FY 2015? What conditions 
has the administration placed on military aid to DRC, for example 
regarding the demobilization of child soldiers and the prosecution of 
human rights abusers within the DRC armed forces?

    Answer. In FY 2013 and 2014, Foreign Military Financing and Sales 
to the Democratic Republic of the Congo (DRC) Government were 
restricted due to Presidential Determinations under the Child Soldiers 
Prevention Act (CSPA) and the Trafficking Victims Protection Act 
(TVPA). Partial waivers of restrictions in the CSPA and TVPA were 
granted on the basis of U.S. national interest in both years, which 
resulted in continuation of International Military Education and 
Training (IMET), nonlethal Excess Defense Articles, issuance of 
licenses for commercial sales of nonlethal defense articles, and 
Peacekeeping Operations (PKO) funding. In 2013, the administration 
recognized the important steps the DRC Government has taken to prevent 
the recruitment of and demobilization of child soldiers, like signing 
and implementing a national action plan. The administration notes that 
the DRC Government has also begun to take steps to hold human rights 
abusers within the DRC Armed Forces accountable for their actions. We 
continue to work with the government to strengthen its efforts.
    In FY 2015, in the absence of CSPA and TVPA restrictions, military 
assistance would support institutional reform and professionalization 
of the DRC Armed Forces. This includes building the capacity of the 
military justice system, assisting in the development of the military 
training and logistics systems and capabilities, and conducting 
training to improve command and control of the military and relations 
between the military and the civilian population.

    Question #61. Democratic Republic of the Congo (DRC).--Over the 
last year, the U.N. peacekeeping mission in the Democratic Republic of 
the Congo (MONUSCO) has seen two important innovations: the deployment 
of an ``Intervention Brigade'' with a strong mandate to neutralize 
armed groups in eastern Congo; and the deployment of unarmed unmanned 
aerial vehicles (UUAVs) to help improve the situational awareness of 
peacekeepers on the ground, potentially enhancing their ability to 
protect civilians.

  <diamond> What are the potential implications of these recent 
        innovations for MONUSCO and U.N. peacekeeping in general? What 
        is your view regarding the U.N.'s willingness to adapt new 
        strategies and technologies?

    Answer. MONUSCO is a critical part of the effort to stabilize the 
Democratic Republic of the Congo (DRC) and to create the security 
conditions in eastern DRC necessary for lasting stability. In January 
2013, the U.N. Security Council approved the use of force multipliers 
such as UUAVs to improve MONUSCO's situational awareness, and to 
promote force protection and advanced analysis and surveillance 
capabilities. The administration strongly supported this effort. While 
the U.N. has a learning curve with respect to this innovation, the 
introduction of the UUAVs has already helped MONUSCO respond to threats 
to the civilian population and to the mission itself.
    The administration also supported the U.N. Security Council's 
approval of the Intervention Brigade (IB) within MONUSCO tasked with 
neutralizing and disarming armed groups. MONUSCO has long had the 
authority within its mandate to use force to protect civilians from the 
predations of armed groups. U.N. Security Council Resolution 2098 
(March 2013) did not change that authority or the mission; instead, it 
made it more explicit, by adding a brigade that is trained, organized, 
and equipped to deal specifically with the array of armed groups and 
other threats to civilians unique to eastern DRC. The Intervention 
Brigade played a key role in the DRC military's and MONUSCO's joint 
defeat of the M23 rebel group last fall.
    The deployment of UUAVs and the creation of the Intervention 
Brigade are examples of the U.N.'s willingness to embrace new ideas and 
new technologies to better protect civilians and to give missions the 
capabilities needed to carry out their mandates more effectively. The 
U.N., with full U.S. support, is seeking to use technologies and 
capacities in a more efficient way. To this aim, it created a 
Capabilities Steering Group that is exploring new solutions, such as 
intermission cooperation, to address challenges posed by new threat 
environments and financial shortfalls.

    Question #62 (a-b). Somalia.--We have heard repeated reports that 
al-Shabaab is on its last legs, yet the number and boldness of the 
organization's attacks have increased over the past several months. The 
assault on Villa Somalia and the intimidation of Internet service 
providers in their areas of control are especially troubling.

  <diamond>  (a). What is your assessment of al-Shabaab's strength?

    Answer. While al-Shabaab has lost territory and the ability to 
govern most urban areas in Somalia, it remains a lethal terrorist group 
with the intent and capability to attack civilians, government 
officials, and U.S. interests in Somalia and the region.
    Al-Shabaab continues to exploit divisions within Somalia and commit 
asymmetric attacks to destabilize the country. In 2013, al-Shabaab 
executed a wide spectrum of attacks in Mogadishu and throughout 
Somalia, including sophisticated, asymmetrical attacks and 
assassinations, and destruction of property.
    Somalia remains a safe haven for al-Shabaab and the group continues 
to plan and mount operations within Somalia and in neighboring 
countries, particularly in Kenya. However, despite its successes, al-
Shabaab continues to face pressure from AMISOM and the Somali National 
Security Forces and experience internal leadership disputes.
    Working with our African partners to defeat al-Shabaab remains one 
of our top priorities.

  <diamond> (b). How does the administration plan to support AMISOM in 
        its combined efforts to eradicate al-Shabaab in theater? What 
        measures does the administration plan to take in order to 
        prevent a security and service-provision vacuum once AMISOM has 
        cleared an area?

    Answer. The United States provides nonlethal equipment, food, fuel, 
and training advisors to support AMISOM and Somalia National Army (SNA) 
soldiers. Since 2007, the United States has obligated over $512 million 
in support of AMISOM. In October 2013, the Department of Defense 
established a Military Coordination Cell in Somalia to provide planning 
and advisory support to AMISOM and to coordinate with the SNA.
    As AMISOM and the SNA work together in their offensive against al-
Shabaab, the Federal Government of Somalia, with support from the 
international community, is implementing a stabilization plan that 
provides interim governance and paves the way for humanitarian 
assistance in areas free from al-Shabaab's control. The United States 
will continue to coordinate with the Federal Government of Somalia and 
international donors on stabilization efforts, specifically supporting 
community driven quick impact activities in areas identified by the 
stabilization plan.

    Question #63. Cuts to Humanitarian Assistance.--Congress provided 
robust funding for the humanitarian accounts, including the Migration 
and Refugee Assistance Account in the FY 2014 appropriations bill as 
the world faces unprecedented crises in Syria and the Middle East. 
However, the FY 2015 request cuts the Migration and Refugee Account by 
33 percent from the FY 2014 enacted levels. Recognizing there may be 
some carry over from FY 2014 into FY 2015, we are still facing a 
protracted crisis in Syria, simmering conflict in South Sudan, a 
humanitarian crisis in the Central African Republic and huge 
uncertainty in Afghanistan.

  <diamond> The budget requests notes the USG will be able to respond 
        to the Syrian crisis with this requested level, but what about 
        other crises around the world like the Central African 
        Republic?
  <diamond> Are you confident that there are sufficient funds to 
        respond to a natural disaster or new emergency in FY 2015?

    Answer. The administration remains dedicated to providing robust 
support for humanitarian programs worldwide. The President's FY 2015 
request includes $2.097 billion for the Migration Refugee Assistance 
and the Emergency Refugee and Migration Assistance accounts and $1.3 
billion for the International Disaster Assistance (IDA) account. The 
Department of State and the United States Agency for International 
Development plan to carry over significant FY 2014 funding into FY 2015 
to support humanitarian assistance needs. Taken together, we anticipate 
having the funds needed to support our humanitarian assistance goals in 
Syria, Africa, and elsewhere. The President's FY 2015 request reflects 
the administration's ongoing commitment to humanitarian programs, while 
taking into account the current constrained budget environment.

    Question #64. United Nations.--What is the current status of the 
Palestinian effort to seek international recognition as a state in U.N. 
fora? Please comment on recent reports that Palestinian Liberation 
Organization (PLO) Chairman and Palestinian Authority President Mahmoud 
Abbas has submitted letters of accession for 15 multilateral treaties 
or conventions.

  <diamond> Do you anticipate that the Palestinians will continue 
        efforts to pursue such recognition? How is the United States 
        working to address this issue?

    Answer. The Palestinians have not pursued any additional 
recognition efforts since President Abbas submitted letters of 
accession to various conventions and treaties on April 1, 2014.
    The United States continues to strongly oppose unilateral actions 
that seek to circumvent or prejudge the very outcomes that can only be 
negotiated. We believe the only way to a two-state solution is through 
direct negotiations between the two sides.
    We are disappointed by unilateral actions by either side and seek 
to maintain an atmosphere conducive for ongoing negotiations. There is 
still room for the Israelis and Palestinians to engage with one 
another, and we are encouraging all sides to make the hard decisions 
necessary to move negotiations forward. Meetings between the 
negotiators continue, and the parties are engaging in serious and 
intensive efforts.

    Question #65. According to Admiral Mike Mullen, former Chairman of 
the Joint Chiefs of Staff, ``United Nations peacekeepers help promote 
stability and help reduce the risks that major U.S. military 
interventions may be required to restore stability in a country or 
region. Therefore, the success of these operations is very much in our 
national interest.''

  <diamond> Do you agree with this statement? From a diplomatic 
        perspective, why is it important for the United States to 
        continue to support U.N. peacekeeping?

    Answer. I agree wholeheartedly with Admiral Mullen. We cannot nor 
should we respond unilaterally to every crisis around the world. When 
it is appropriate, the United States supports sending U.N. peacekeepers 
as part of an agreed to, and cooperative multilateral strategy for, 
restoring peace and stability. Under the right circumstances, a U.N. 
peacekeeping operation may indeed be the best and the only response to 
a crisis. In addition, U.N. peacekeeping helps spread the costs as well 
as the risks. For example, a 2006 GAO study concluded that the cost to 
the United States of conducting its own peace operation in a low-threat 
environment like Haiti would be nearly eight times as much as what we 
pay through U.N. assessments.
    As one of the five Permanent Members of the U.N. Security Council, 
we play a key role in formulating the Security Council's responses to 
international crises. In many cases U.N. peacekeeping plays the right 
role. However, it is not the only option. For example, the U.N. 
Security Council currently has 16 sanctions regimes.
    From a diplomatic perspective, our participation in, and support 
for, U.N. peacekeeping operations means that we are working with 192 
other member states to promote and maintain international peace and 
stability. This close cooperation is integral to building mutual 
respect and understanding, and to forging better relationships with a 
wide range of partners.

    Question #66. Maintaining stability in Sudan and South Sudan is a 
key priority for the United States. Currently, we support three 
separate peacekeeping missions in the region, but all are underfunded. 
Due to the legislative cap on peacekeeping contributions that is 
currently in place, the United States has not paid its full assessed 
rate for any peacekeeping mission in fiscal years 2013 or 2014. This 
has amounted to a shortfall of nearly $80 million for all three 
peacekeeping missions currently operating in Sudan and South Sudan. The 
President's FY 2015 request calls for Congress to allow us to pay our 
peacekeeping dues at the full assessed rate of 28.3 percent.

  <diamond> How important is full funding to the missions in South 
        Sudan and elsewhere? And what does it say to troop contributing 
        countries when we don't fully pay for missions we voted for in 
        the Security Council?

    Answer. Peacekeeping missions are critical tools to maintain 
international peace and security, and to advance U.S. interests around 
the world in places such as Haiti, Liberia, South Sudan, the Democratic 
Republic of the Congo (DRC), and Mali. The U.N. Mission in South Sudan 
(UNMISS) is currently sheltering over 68,000 civilians in the midst of 
a conflict that has displaced over 1 million people, and is supporting 
the delivery of humanitarian assistance in an environment of severe 
food insecurity. Full funding of U.S. contributions is essential to 
support mission operations and deployments, to curb accumulation of 
funding shortfalls and potential arrears, and to allow continued U.S. 
leadership in U.N. peacekeeping activities. Any reduction strains vital 
U.N. peacekeeping operations and causes delays in reimbursements to 
troop contributing countries that can affect future troop rotations. In 
South Sudan, such shortfalls would significantly undermine efforts to 
reinforce the mission during its greatest time of crisis.
    The U.N.'s current assessment rate for the United States for 
calendar year 2014 is 28.36 percent. However, at present, the 
Department only has the authority to make payments from appropriated 
funds at the calendar year 2012 assessed rate of 27.14 percent. Due to 
the difference in the amount assessed and the amount authorized to pay 
with appropriated funds, the United States has already accrued $117 
million in new arrears stemming from FY 2013 assessments. Additional 
arrears will continue to accrue for FY 2014. We are looking at 
potential options to reduce or mitigate those arrears before they 
impact mission operations, as well as to encourage the U.N. to further 
pursue cost saving measures and efficiencies. However, budget 
shortfalls strain vital U.N. peacekeeping operations and can cause 
delays in reimbursements to troop contributing countries that affect 
future troop rotations. As they accumulate over time, arrears will 
begin to affect overall mission effectiveness and erode U.S. 
negotiating strength in U.N. peacekeeping budget deliberations.

    Question #67. U.N. Peacekeeping.--The President's FY 2015 budget 
requests a sizable increase in funding for U.N. peacekeeping missions 
next year. The FY 2014 omnibus appropriations bill significantly 
underfunded our peacekeeping commitments by: (1) failing to provide any 
funding for the U.N.'s new peacekeeping mission in Mali; (2) including 
no language allowing the U.S. to pay its peacekeeping dues at the full 
assessed rate. The combined effect of these and other shortfalls left 
us at least $350 million short on our peacekeeping dues in FY 2014. As 
a result, while the FY 2015 budget request does get us much closer to 
fulfilling our financial obligations to U.N. peacekeeping, we still 
have a good amount of ground to make up. The United States is now 
suggesting there be a new mission in the Central African Republic 
(CAR).

  <diamond> How do we do that if we are not fulfilling our financial 
        obligations to peacekeeping operations that are already in the 
        field, such as the U.N. Multidimensional Integrated 
        Stabilization Mission in Mali (MINUSMA)?

    Answer. The FY 2014 appropriations act creates challenges for the 
United States to pay our anticipated U.N. peacekeeping assessments on 
time and in full, to which the President and the administration remain 
committed. We expect additional assessments during FY 2014 as a result 
of the U.N. Mission in South Sudan (UNMISS) troop surge in response to 
the ongoing crisis there. Additionally, because the President's FY 2014 
request was submitted to Congress prior to the creation of the MINUSMA, 
it did not include a request for CIPA funds for the mission. 
Accordingly, Congress did not appropriate any such funds in the FY 2014 
appropriations act.
    Similarly, on April 8--after the President submitted his FY 2015 
budget request to Congress--the U.N. Security Council authorized the 
U.N. Multidimensional Integrated Stabilization Mission in the Central 
African Republic (MINUSCA). Due to the timing of the U.N. 
authorization, the FY 2015 Budget does not include a request for CIPA 
funds for MINUSCA. However, the President's FY 2015 Budget Request for 
State and Foreign Operations does include $100 million in FY 2015 CIPA 
funds to help offset FY 2014 MINUSMA assessments. The budget also 
includes a $150 million request for a proposed Peacekeeping Response 
Mechanism (PKRM), an account that would ensure the United States has 
the ability going forward to respond to urgent and unexpected 
peacekeeping requirements involving U.N., regional security 
organizations, or coalition efforts, either assessed or voluntary, 
without impacting ongoing, planned peacekeeping activities--exactly the 
circumstance presented by MINUSMA for FY 2014 and MINUSCA for FY 2015.
    Given the critical role that U.N. peacekeeping missions play in 
protecting civilians under threat of physical violence, facilitating 
the delivery of life-saving humanitarian assistance, and helping create 
the conditions for lasting peace in countries emerging from conflict, 
U.S. leadership demands that we continue to meet our treaty obligations 
to pay in full our U.N. peacekeeping assessments and so avoid any 
damage to mission operations and the risk that would pose for civilian 
protection and international peace and security. We hope that Congress 
will fully fund the President's FY 2015 request, including the 
establishment and funding of the PKRM.
    Furthermore, we continually press the U.N. to pursue cost saving 
measures and new efficiencies in peacekeeping missions as well as keep 
missions under regular review to determine where we may be able to 
close or downsize them as appropriate.

    Question #68. In addition to funding traditional peacekeeping-
related accounts, the administration's FY 2015 request also calls for 
the establishment of a $150 million Peacekeeping Response Mechanism 
(PKRM) ``to support initial urgent and unexpected requirements of new 
U.N. and non-U.N. missions without compromising support for existing 
U.S. peacekeeping commitments.'' This mechanism would give the United 
States the financial flexibility to respond quickly to emerging crises 
around the world that fall outside of the normal budgetary cycle. While 
the PKRM is not tied to a specific country or region, the serious 
funding challenges that have faced the U.N. peacekeeping mission in 
Mali (MINUSMA) demonstrate the wisdom of creating a mechanism for 
flexible peacekeeping funding. Last year, as the President's budget did 
not include a request for MINUSMA, Congress declined to fund the 
mission in the FY 2014 omnibus, leaving a hole of nearly $250 million 
in our U.N. peacekeeping commitments. Clearly, crises requiring the 
authorization of new or expanded peacekeeping operations can arise at 
any time, without regard to our normal budgetary procedures. Failing to 
adequately fund these missions, which we vote for as a permanent member 
of the Security Council, can have a negative impact on U.S. strategic 
interests.

  <diamond> As a result, please discuss the importance of having a 
        source of flexible funding to address unanticipated 
        peacekeeping needs that emerge outside of the regular budget 
        cycle?

    Answer. The purpose of the Peacekeeping Response Mechanism is to 
ensure that the United States has the ability to respond to urgent and 
unexpected peacekeeping requirements without impacting ongoing, planned 
peacekeeping activities. There are numerous historical examples when 
the Department has had to shift funding between programs to meet 
requirements (e.g., Darfur, Somalia, Mali, and the Central African 
Republic) and experience indicates that the time required to identify 
and reprogram funding is an impediment to responding quickly and 
effectively. Delays in financing the startup of new missions or 
emergency expansion of existing ones not only endangers lives of 
vulnerable civilians during the critical initial period of mission 
deployment, but it might also lead to the need for a more costly and 
lengthier intervention than might otherwise be the case if the response 
is quicker.
    The PKRM would be assessed on an as-needed basis as requirements 
are identified. All relevant bureaus would coordinate to determine 
requirements and use of PKRM funding would be subject to a 
determination by the Secretary that additional resources are necessary. 
Additionally, the use of PKRM funds would be subject to existing 
congressional notification procedures, and we would consult with 
committee staff on the use of this mechanism.
    Unexpected peacekeeping requirements often arise in a timeframe 
that does not allow us to address them through the normal budget 
process. In some cases we are able to cover such costs without 
impacting ongoing peacekeeping activities. However, we cannot assume 
this will always be the case, especially as overall requirements for 
U.N. peacekeeping have been increasing. At the same time, our own 
budgets are decreasing, leaving less space for tradeoffs and transfers 
from other accounts. Over the past 2 years, we have transferred more 
than $200 million in Overseas Contingency Operations (OCO) funding from 
other accounts into the Peacekeeping Operations Account in response to 
unanticipated or rapidly changing peacekeeping requirements. The PKRM 
would help to ensure that we have funding available to respond rapidly 
to urgent and unexpected requirements without the risk of impacting 
critical, ongoing, budgeted peacekeeping efforts.

    Question #69. National Action Plan on Women, Peace, and Security.--
In December 2011, the White House released the United States National 
Action Plan on Women, Peace, and Security (NAP) with the goal of 
empowering women as equal partners in preventing conflict and building 
peace in countries threatened by conflict and insecurity. This plan 
represents a government-wide strategy, let by the Department of State, 
Department of Defense and the U.S. Agency for International 
Development, under the guidance of the National Security Advisor. 
Implementation relies on proactive engagement with partner governments 
and civil society to ensure women's inclusion in all aspects of 
conflict-prevention and peace-building.

  <diamond> What is the status of the 2013 annual review of the 
        National Action Plan on Women, Peace, and Security and the 
        Strategy to Prevent and Respond to Gender-based Violence 
        Globally, and will any results be made publicly available?

    Answer. The Secretary's Office of Global Women's Issues takes the 
lead for the Department in coordinating input from all relevant offices 
and bureaus, as well as with our embassies in the field, for both the 
National Action Plan and Strategy to Prevent and Respond to Gender-
based Violence Globally. These reports enable the Department to reflect 
on progress, challenges, lessons learned and recommendations for moving 
forward.
    In 2015, the National Security Council Staff will lead a process to 
update this National Action Plan, based on inputs provided by 
implementing agencies and in consultation with Congress, international 
partners, and civil society.
    As for reporting on implementation of the National Action Plan for 
calendar and fiscal year 2013, the Department of State annually reports 
to the National Security Council staff on its implementation of the 
National Action Plan, in accordance with Executive Order 13595. The 
Executive Summaries of both reports will be made available for the 
public.

    Question #70. How is the Department ``advocating for the 
integration of women and gender perspectives'' in peace processes in 
which the U.S. is involved, such as the Geneva negotiations on Syria or 
the Middle East peace talks, as mandated by the National Action Plan on 
Women, Peace and Security?

    Answer. Recognizing that peace and security outcomes are more 
resilient when women are afforded an equal seat at the table, the 
Department is committed to integrating women's meaningful participation 
in peace processes and conflict resolution. As I noted in Montreaux in 
January, the journey of Syrian women is one of courage and 
perseverance. They are rallying civil society to the cause of peace, 
negotiating cease-fires, delivering relief, advocating for detainees, 
and countering extremism. We have seen the women of Syria working to 
bring about a political transition and envisioning a new future for a 
pluralistic, free and democratic Syria. These stories carry a simple 
message: No country can succeed if it leaves half its people behind. 
Women bring important perspectives to conflict resolution, and no peace 
can endure if women are not afforded a central role.
    In Syria, the Department has played a sustained role in integrating 
women into its efforts to support of the opposition and civil society 
actors. Moreover, in our diplomatic engagement we have actively 
integrated women as participants and agents of change in resolving the 
conflict in Syria by providing Syrian women's groups with training and 
diplomatic support to prepare for future peace processes and promote 
their involvement in track one negotiations.

    Question #71. Despite the fact that policewomen have proven to 
greatly increase the operational effectiveness of police forces and are 
critical assets in efforts to counter terrorism and violent extremism, 
women currently compromise only 1 percent of Pakistani forces.

  <diamond> What efforts has the United States undertaken to increase 
        the recruitment and retention of policewomen in Pakistan and 
        how does the U.S. intend to highlight this issue in the U.S.-
        Pakistan Strategic Dialogue's Law Enforcement and 
        Counterterrorism Working Group?

    Answer. Advancing the status of women and girls is a central 
element of U.S. foreign policy under the Obama administration. The 
United States has strategic interests in supporting the Government of 
Pakistan's efforts to improve security, working conditions, and 
professional standards for policewomen in Pakistan through adequate 
recruitment, training, equipment, and infrastructure assistance.
    Since 2011, the Department of State's Bureau of International 
Narcotics and Law Enforcement Affairs (INL) has renovated women's 
police stations in Islamabad and Karachi and a women's police barracks 
outside of Islamabad. INL also has provided equipment and vehicles to 
women police officers and police stations in Islamabad, Sindh, and 
Balochistan. INL-supported training, conferences and exchanges for 
policewomen, including a conference in Islamabad on March 25, 2014, in 
celebration of International Women's Day, are advancing the skills and 
opportunities for women police. To improve the quality of cases brought 
to trial, promote the importance of women in the criminal justice 
system, and expand skill sets, INL has also supported two women-only 
police-prosecutor trainings for female police and prosecutors from all 
over Pakistan during the past 6 months.
    We continue to work with the Government of Pakistan to set a date 
for the Law Enforcement and Counterterrorism Working Group. We plan to 
raise this issue as part of our broader discussion on law enforcement 
training, assistance, and reform during the 2014 session.

    Question #72. Power Africa.--Why wasn't the Power Africa Initiative 
given its own line item in the budget? Without such a line item it is 
very difficult to determine what resources are being sought for the 
effort and as a result it seems as if the initiative is less important 
than other initiatives that have received their own line item.

    Answer. Consistent with other Presidential Initiatives, funding is 
sourced from a combination of bilateral and regional development 
assistance funds. We justify and report on Presidential Initiatives and 
key areas of interest in the Congressional Budget Justification, 
including a specific funding breakdown of where the funds are located 
(bilateral or regional) and accompanying narratives that explain 
programming priorities and what the requested funding will accomplish.

    Question #73. I would like to better understand the plan to double 
access to electricity in sub-Saharan Africa as part of the Power Africa 
Initiative. The initiative is described as a private sector, 
transaction-based program, but, at least at this point, there are few 
opportunities for U.S. businesses to invest in transmission and 
distribution services in Power Africa countries.

  <diamond> How does the initiative plan on creating private investment 
        in transmission and distribution? If private investment in 
        distribution infrastructure is unlikely, how can the initiative 
        support rural cooperatives or other mechanisms to bring power 
        to rural areas? Finally, how does the initiative plan on 
        supporting the growing, but capital constrained, off-grid 
        lighting and power sector in sub-Saharan Africa? Success of the 
        Power Africa Initiative cannot just be measured in megawatts, 
        but also must be measured in the number of people getting 
        access to power.

    Answer. Power Africa anticipates that over 100 million Africans 
will benefit from the Initiative's efforts by 2020. Power Africa plans 
to do this by facilitating public-private partnerships and unlocking 
investment potential through host government policy reforms. Instead of 
taking years or even decades to create an enabling environment for 
energy sector investment, Power Africa takes a transaction-centered 
approach that provides incentives to host governments, the private 
sector, and donors. These incentives galvanize collaboration, producing 
near-term results and driving systemic reforms that pave the way to 
future investment.
    To achieve these ambitions, Power Africa includes:

  <bullet> An interagency Transactions Solutions Team to provide the 
        catalysts needed to bring power generation, transmission and 
        distribution investments to fruition. The team does this by 
        leveraging financing, insurance, technical assistance, and 
        grant tools from across the U.S. Government and our private 
        sector partners.
  <bullet> Field-based Transaction Advisors to help governments 
        prioritize, coordinate, and expedite the implementation of 
        power projects, while simultaneously building the capacity of 
        existing host government ministries to deliver results. These 
        Advisors have already begun their work in each of Power 
        Africa's partner countries.
Increased Efficiency through Privatization
            Nigeria
    In addition to working on facilitating new generation transactions 
that will lead to higher availability of power, and thus enable greater 
access, Power Africa has also been working in selected countries to 
improve transmission and distribution services. Most notable of these 
is Nigeria, where USAID has been involved in assisting the Government 
of Nigeria in its landmark power sector privatization program after 
power sector assets were unbundled into a series of successor 
companies. As a result of the privatization, 10 distribution companies 
(DISCOs) were successfully privatized and their assets transferred to 
the private sector in late 2013. The new owners are now sizing up the 
strengths and weaknesses of these companies and are planning major 
management improvements and capital expenditures to help reduce 
technical and financial losses. As these distribution companies are 
operated in a more efficient manner, their financial viability will 
improve significantly, allowing them to extend their services to many 
more customers.
    The weak state of Nigeria's transmission system has emerged as a 
major risk to the bold power sector privatization and reform initiative 
in Nigeria. The government has appointed Manitoba Hydro International 
(MHI) of Canada as a management contractor for the Transmission Company 
of Nigeria (TCN) in 2013, which is considered a step in the right 
direction to commercialize TCN. However, the contract is undersized 
relative to the challenges. USAID-funded experts have bolstered the 
management ranks and are helping implement critical priority 
initiatives. Additionally, the experts will help develop and implement 
a network expansion blueprint; assist in financial and economic 
planning, modeling, budgeting, and development of a cost-reflective 
transmission tariff and a corporate business plan; conduct power system 
reliability and other studies; and assist with responsibilities for 
transitional electricity markets.
            Ghana
    The Millennium Challenge Corporation (MCC) is a key Power Africa 
implementation agency. As a part of its second compact negotiations, 
MCC is actively engaged with the Government of Ghana to encourage it to 
induct the private sector in its power distribution sector, in 
particular the Electricity Company of Ghana (ECG). MCC is offering an 
incentive in the form of grant assistance to the Electricity Company of 
Ghana for this purpose. MCC has already engaged the International 
Finance Corporation (IFC), a member of the World Bank Group, to perform 
a private sector participation options analysis for ECG and the 
Northern Electricity Distribution Company (NEDCO), a small distribution 
entity in Ghana.
Rural Electrification
    Regarding rural electrification, USAID supports community 
consultation on projects as well as models for communities owning, 
operating, and maintaining power systems. For example, in Liberia, 
Power Africa is supporting the establishment of local community 
cooperatives to own and operate renewable energy microgrids. Through 
the U.S. African Development Fund and GE's Off Grid Challenge, Power 
Africa awarded six $100,000 grants to support sustainable renewable 
power generation initiatives at the community level. For example, 
Kenyan suppliers will expand delivery of pay-as-you-go lighting options 
to households in rural areas, while TransAfrica Gas and Electric will 
power cold storage facilities with solar systems for farmers and 
fishermen. Afrisol Energy's bio-digester will produce electricity for 
small businesses in Nairobi's urban settlements. The Off Grid Challenge 
has enabled a high level of innovation and community participation, and 
will be expanded to all six Power Africa countries later this year with 
USAID support.
                                 ______
                                 

Responses of Secretary Kerry to Additional Set of Questions Concerning 
             Northern Ireland Submitted by Senator Menendez

           northern ireland peace and reconciliation process
    Beginning in 1986, the United States has provided assistance for 
the peace and reconciliation process in Northern Ireland through the 
International Fund for Ireland, and most recently through the Economic 
Support Fund for Europe and Eurasia. This assistance helped support 
economic regeneration and social development projects in those areas 
most affected by the instability in Northern Ireland. Over the years, 
focus has shifted from supporting economic development programs toward 
programs that promote community reconciliation.
    A. How has the State Department directed these funds to support the 
goal of reconciliation in Northern Ireland and where have the funds had 
the greatest impact?
    B. How is the United States Government working with our partners in 
the European Union and England to leverage the resources we provide to 
the effort?
    C. In FY15, what changes will be made to State Department's goals 
and programming in Northern Ireland?

    Question A. How has the State Department directed these funds to 
support the goal of reconciliation in Northern Ireland and where have 
the funds had the greatest impact?

    Answer. Since 1986, the United States has provided over $500 
million in assistance to the International Fund for Ireland (IFI), 
which has supported remarkable progress in Northern Irish society:

  <bullet> Full Implementation of the ``Good Friday Agreement''--The 
        implementation of the ``Good Friday Agreement'' was completed 
        with the devolution of policing and justice powers from the 
        central U.K. Government in London to the Northern Ireland 
        Executive in 2010.
  <bullet> Northern Irish Economy Strengthened--At the height of the 
        ``Troubles,'' the unemployment rate for Catholic males in 
        Northern Ireland was 30 percent, leaving a sizable proportion 
        of the population vulnerable to paramilitary recruitment. 
        Thanks, in part, to the 55,000 jobs the IFI helped create over 
        its lifetime, the unemployment rate in Northern Ireland today 
        is nearly identical to what it is in the United States. During 
        the period from October to December 2013, the Northern Ireland 
        unemployment rate averaged 7.3 percent, and the U.S. 
        unemployment rate averaged 7.0 percent.
  <bullet> Education Reform Mainstreamed in Northern Ireland--In 
        response to the success of past IFI programming, the Northern 
        Ireland Executive recently committed to making integrated 
        education opportunities available to all interested Northern 
        Ireland students. Access to cross-community (Catholic/
        Protestant) educational opportunities is a critical component 
        of the U.S. Government's commitment to a ``Shared Future'' for 
        Northern Ireland.

    Question B. How is the United States Government working with our 
partners in the European Union and the United Kingdom to leverage the 
resources we provide to the effort?

    Answer. The State Department works closely with the U.K. Government 
to support the Northern Ireland peace process. Recently, during St. 
Patrick's Day events in March in Washington, the State Department's 
Director of Policy Planning David McKean met with U.K. Secretary of 
State for Northern Ireland Theresa Villiers to discuss ways to 
encourage cooperation among Northern Ireland leaders following the 
conclusion of the All-Party Talks. He also met with Sinn Fein President 
and member of the Irish, Dail Gerry Adams, while officials from the 
Bureau of European Affairs met with political and community 
stakeholders.
    Working closely with the Department of Commerce, U.S. Embassy 
London and U.S. Consulate General Belfast provided assistance for the 
U.K. Government's G8 investors' conference in Northern Ireland, held 
October 2013. Forty-four U.S. companies traveled to Belfast to build 
the investment linkages needed to create jobs for Americans and the 
people of Northern Ireland.
    Both the United Kingdom and the European Union are leveraging the 
resources the United States provides to the International Fund for 
Ireland (IFI). Throughout the duration of the IFI's ``Strategic 
Framework for Action (2012-2015),'' the British Government will 
contribute roughly $400,000 per year toward the administrative costs of 
the programming the United States supports through its Economic Support 
Funds. The IFI Board also expects the IFI will receive an additional 
payment of =3 million ($4.1 million USD) from the EU sometime during 
calendar year 2015.

    Question C. In FY15, what changes will be made to State 
Department's goals and programming in Northern Ireland?

    Answer. Supporting the Northern Ireland peace process is a U.S. 
foreign policy priority. Helping the people of Northern Ireland achieve 
the goal of a lasting and prosperous peace, the State Department 
continues extensive diplomatic engagement through the U.S. Consulate 
General in Belfast and the U.S. Embassies in London and Dublin. We 
promote economic development through fostering of public/private 
partnerships and the advancement of science and innovation 
collaboration. Northern Ireland civil society leaders and government 
officials also benefit from State Department cultural and educational 
exchanges. The administration did not request financial support for the 
International Fund for Ireland (IFI) in FY 2015 because of significant 
budget constraints and the need to focus scarce resources on the 
highest priorities globally. With the funding it expects to provide 
from Fiscal Years (FY) 2011-2014, the Department is confident the 
United States will be able to fulfill the U.S. commitment of $7.5 
million toward the IFI's ``Community Transformation: Strategic 
Framework for Action'' for Calendar Years 2012-2015. We will also 
review additional assistance if the situation on the ground warrants. 
(All of the assistance that the United States has committed toward the 
``Strategic Framework for Action'' for Calendar Years 2012-2015 is 
being provided in the form of a grant of Economic Support Funds to the 
IFI for specific activities that reduce sectarian differences and 
foster economic revival, targeting those communities in Northern 
Ireland and the border counties of Ireland that have not realized the 
benefits of the peace process.)
    In January 2014, Special Representative O'Brien chose Northern 
Ireland as the first location for the new Partnership Opportunity 
Delegations initiative. Representative O'Brien led a delegation of U.S. 
investors, entrepreneurs, philanthropists, members of the Irish 
diaspora, and representatives from academia and civil society to 
identify potential partnership opportunities to boost Science, 
Technology, Engineering, and Mathematics education, promote 
entrepreneurship, and increase overall economic growth. This visit has 
already yielded promising partnerships between U.S. and Northern 
Ireland institutions to bring educational and entrepreneurial 
opportunities to disadvantaged communities.
    The U.S.-Ireland Research and Development Partnership furthers 
economic development in Northern Ireland. The Partnership encourages 
research collaboration among scientists from the United States, 
Ireland, and Northern Ireland in five priority areas: health, sensor 
technology, nanotechnology, telecommunications, and energy and 
sustainability. The Partnership Steering Committee will hold its next 
meeting in Belfast in September 2014. In November 2013, the Oceans and 
International Environmental and Scientific Affairs Bureau Assistant 
Secretary Dr. Kerri-Ann Jones, who serves as U.S. cochair of the 
Partnership Steering Committee, traveled to Belfast to meet with 
government officials and discuss opportunities to further economic 
growth and cross-community youth development in Northern Ireland 
through science and technology cooperation.
    Hundreds of students and scholars from the United States and 
Northern Ireland also participate in the Fulbright Program. Senior 
public sector employees from Northern Ireland benefit from the 
Fulbright Northern Ireland Public Sector Award. In addition, Northern 
Ireland students, civil society leaders, legislators, artists, and 
activists, participate in State Department educational and professional 
exchange programs.
                                 ______
                                 

      Responses of Secretary of State John F. Kerry to Questions 
                    Submitted by Senator Bob Corker

    Question. Since Secretary of State Clinton announced in 2011 that 
the U.S. would join the International Aid Transparency Initiative 
(IATI), the State Department (which oversees the Foreign Assistance 
Dashboard) has not published any data, either on the Dashboard or to 
the IATI Registry.

  <diamond> Please provide the plan for meeting the U.S. commitments, 
        including timeline and specific steps. What steps will you take 
        specifically to ensure that the data is of high quality and is 
        able to be accessed and used by both domestic and partner 
        country stakeholders?

    Answer. The Department of State has been publishing data to 
ForeignAssistance.gov and the IATI registry since December 2010. 
Additional data is being phased in over time, with Department of State 
financial data and additional data for PEPFAR scheduled for release in 
mid-2014. Gathering large amounts of data from systems not designed to 
gather that data presents technical challenges, but we are working to 
overcome those hurdles to publish greater quantity and quality of data 
with improved access, usability, and in compliance with all U.S. 
transparency commitments. Because of the complexity of this challenge, 
a more detailed discussion of specific steps and timelines can best be 
achieved through briefing of relevant staff, which State Department 
stands ready to provide.

    Question. There are currently 16 United Nations peacekeeping 
operations worldwide. Many of them have existed for decades, and the 
mission in Cyprus just ``celebrated'' its 50th anniversary. The 
President is requesting a billion dollars more this year for CIPA and 
the Peacekeeping Response Mechanism.

  <diamond> What is the administration's plan to reduce the number of 
        U.N. peacekeeping missions and reduce the burden of supporting 
        those missions?

    Answer. The United States supports U.N. peacekeeping operations to 
address crises and to help countries emerge from violent conflict. By 
nature, these missions are challenging and their number and costs 
fluctuate depending on the crisis. First, for FY 2014 appropriation for 
Contributions to International Peacekeeping Activities (CIPA) account 
provided less than the requested amount, which reflected known 
requirements at the time the budget request was submitted to Congress. 
The appropriation also did not include funding for the new U.N. 
Multidimensional Stabilization for Mali (MINUSMA), which was 
established by the U.N. Security Council after the President submitted 
his FY 2014 budget request, or for the reinforcements of the U.N. 
Mission in South Sudan (UNMISS) in response to the ongoing crisis that 
started on December 15, 2013. The President's budget request for FY 
2015, however, reflects funding necessary to make up some of these 
shortfalls.
    Second, unexpected peacekeeping requirements often arise in a 
timeframe that does not allow us to address them through the normal 
budget process. In some cases we are able to cover such costs without 
impacting ongoing peacekeeping activities. However, we cannot assume 
this will always be the case, especially as overall requirements for 
U.N. peacekeeping have been increasing. At the same time, our own 
budgets are decreasing, leaving less space for tradeoffs and transfers 
from other accounts. Over the past 2 years, we have transferred more 
than $200 million in Overseas Contingency Operations (OCO) funding from 
other accounts into the Peacekeeping Operations Account in response to 
unanticipated or rapidly changing peacekeeping requirements.
    The Peacekeeping Response Mechanism (PKRM) would help to ensure 
that we have funding available to respond rapidly to urgent and 
unexpected requirements without the risk of impacting critical, 
ongoing, budgeted peacekeeping efforts. The PKRM would be accessed on 
an as-needed basis as requirements are identified. Additionally, the 
use of PKRM funds would be subject to existing congressional 
notification procedures, and we would consult with committee staff on 
the use of this mechanism.
    Through both our mission to the U.N. in New York and at State in 
Washington, we continually press the U.N. to pursue cost saving 
measures and new efficiencies in peacekeeping missions as well as to 
keep missions under regular review to determine where we may be able to 
downsize, close, or transition them to a peace-building arrangement, as 
appropriate. We have succeeded in having the U.N. establish the 
equivalent of an inspector general for U.N. peacekeeping forces that 
will help insure troops are meeting established standards and 
performing at acceptable levels, thereby improving a mission's ability 
to fulfill its mandate. Not satisfied with relying only on assessments 
and recommendations of the U.N. Secretariat on such matters, we have 
developed a more rigorous approach and have started conducting our own 
field visits to U.N. missions to help inform interagency considerations 
regarding whether and how to best adjust a mission's mandate and 
performance when it comes up for renewal.
    With exception of the small peacekeeping missions in Cyprus 
(UNFICYP), which is partly funded by the governments of Greece and 
Cyprus, and Western Sahara--both of which are still needed pending a 
political solution to their respective crises--most U.N. peacekeeping 
missions are dynamic. In recent years, the U.N. missions in East Timor 
and Sierra Leone have closed altogether. The peacekeeping missions in 
Haiti (MINUSTAH), Liberia (UNMIL), Cote d'Ivoire (UNOCI), and Darfur 
(UNAMID) are undergoing Security Council-directed structured drawdowns 
in line with the security and political situation on the ground. In 
some cases, we have had to temporarily raise the troop levels to 
address crises--such as in UNMISS--or to take advantage of 
opportunities to create security conditions that promote a political 
solution, such as deployment of the Intervention Brigade in the U.N. 
mission in the Democratic Republic of the Congo (MONUSCO) and its 
successful operations against armed groups.
    Overall, U.N. peacekeeping is a cost-effective tool for the United 
States to contribute to international peace and stability. As one of 
the five Permanent Members of the U.N. Security Council, we play a key 
role in formulating the best possible U.N. Security Council responses 
to international crises. In certain circumstances, a U.N. peacekeeping 
operation may indeed be the most efficient and the only functional 
response. U.N. peacekeeping helps to spread the costs as well as the 
risks. A 2006 GAO study concluded that the cost to the United States of 
conducting its own peace operation in a low-threat environment like 
Haiti would be nearly eight times as much as what we pay through U.N. 
peacekeeping assessments. However, U.N. peacekeeping is not the only 
option. In many cases, peace operations led by regional security 
organizations such as NATO and the African Union, or coalitions are 
better suited to the challenge.

    Question. What type of action would the Kremlin have to pursue to 
trigger sectoral sanctions against the Russian economy?

    Answer. What we do next depends on what Russia does to end the 
crisis in Ukraine. It is in Putin's hands. If Russia decides to 
escalate its intervention in Ukraine, then we will escalate our 
sanctions. We have been consistently clear, in the event that Russia 
does not take steps to de-escalate tensions in Ukraine, the United 
States, working in tandem with the EU and G7 partners, is prepared to 
launch additional sanctions affecting certain sectors of the Russian 
Federation economy, including the defense, energy, and financial 
sectors. At the recent April 17 Quad talks in Geneva, Russia agreed to 
diplomatic options to de-escalate the situation in Ukraine. We are 
watching very closely to see whether Russia meets its commitments to 
use its influence to get pro-Russian separatists in eastern Ukraine to 
disarm and abandon public buildings they had seized. If it does not, we 
will impose great cost on Russia in response.

    Question. Because of the close cultural links between Ukraine and 
Russia, I believe that a free, democratic, and prosperous Ukraine would 
demonstrate to the Russian people that similar change is possible in 
their country. In addition to supporting Ukraine's democracy, how can 
we more effectively help stimulate positive change in Russia? How is 
this objective reflected in the President's budget?

    Answer. The U.S. Government's commitment to democracy and civil 
society in Russia remains firm despite the enactment of laws and 
practices in Russia that restrict fundamental freedoms and the ability 
of Russian NGOs to receive international support. The U.S. Government 
has made clear our concerns about these restrictions, conveyed our 
support for a legal framework that does not restrict fundamental 
freedoms, and underscored that democratic principles and a vibrant 
civil society are essential to Russia's development. We continue to 
support the Russian people's aspirations to live in a modern country 
with transparent and accountable governance, a free marketplace of 
ideas, free and fair elections, and the ability to exercise their 
universally recognized human rights without fear of retribution.
    Although the traditional routes for support in these areas have 
been challenged, Russian organizations, universities, and individuals 
continue to express a desire to engage with the United States. As a 
result, the U.S. Government is developing new ways to increase direct 
interactions between Russians and Americans, including by establishing 
peer-to-peer and other regional programs that support exchanges of best 
practices on themes of mutual interest. Further opportunities for 
interaction include educational and cultural exchanges that provide 
opportunities for Russians to have firsthand experiences in the United 
States or attend events with Americans that travel to Russia through 
U.S. Government sponsored programs.
    The State Department will continue to consult key congressional 
committees on further efforts.

    Question. State Department Management and Accountability.--In 
recent conversations surrounding statutorily required reports to 
Congress, my staff was told that the State Department observes a policy 
that limits the overall length of reports sent to Congress to 10 pages 
or fewer. Is there a Department policy that places a limit on 
congressional reports, and if so why?

    Answer. Effectively and fully communicating with Congress, 
including through congressionally mandated reports, is one of the 
Department's most important responsibilities. Each year, the Department 
submits several hundred legislatively required reports to Congress. 
Supporting this critical function consumes significant resources that 
we have an important responsibility to conserve by keeping reports 
streamlined, concise and avoiding redundancy while, above all, ensuring 
that the information provided is relevant and useful to Congress.
    Therefore, as a general matter, the State Department strives to 
maintain a concise reporting format, aiming to keep Congress informed 
in a more effective and timely manner while prudently managing the 
resources that go into report preparation and consistent with our 
shared interest in using taxpayer resources wisely. Our approach 
strives to avoid repeating the content of previously reported 
information, to include links to previously reported information, and 
to cross-reference to congressional budget justification materials and 
other reports. There are general exceptions for certain highly regarded 
global reports on human rights, counter terrorism international 
religious freedom, and trafficking in persons.
    These efforts are part of a broader report reform initiative aimed 
at providing the most relevant and useful information while ensuring 
taxpayer resources are effectively used by State and USAID for both its 
important programmatic functions as well as for reporting on the same. 
We would welcome the opportunity to discuss legislative initiatives 
which would assist us working together to eliminate outdated and 
duplicative reports.

    Question. Diplomatic Security Abroad.--Given the State Department's 
global footprint and the expense associated with providing adequate 
security for the State Department's global workforce, has the State 
Department ever conducted an internal feasibility review or other 
planning process of the possibility of reducing the number of U.S. 
consular facilities worldwide?
    If the State Department has not attempted any such study or review 
to date, please provide a list of all consular facilities that are in 
high-risk, high-threat countries, and an assessment of whether 
elimination of any number of these consular facilities might improve 
the State Department's ability to better manage the security needs of 
State Department personnel in the absence of additional funding.

    Answer. In today's 21st century world, diplomacy and development 
are more important than ever in protecting U.S. interests at home and 
abroad. Relationships with our overseas partners promote peace, foster 
economic growth, support security cooperation, and encourage 
environmental security, which all lead to greater prosperity and safety 
in the United States. Diplomacy, by nature, must be practiced in 
dangerous places.
    Following the cold war, the United States diplomatic presence 
expanded overseas, and the principle of universality has been adhered 
to since the time of George Shultz, Secretary of State for President 
Reagan, and by all administrations since then. We have looked at our 
presence within a country, and closed some locations that are no longer 
needed, e.g., Lille, France in 2008; Cluj-Napoca, Romania in 2007.
    With regard to high-threat, high-risk posts, the United States has 
consulates at the following such posts: Lagos, Nigeria; Basrah, Iraq; 
Erbil, Iraq; Alexandria, Egypt; Lahore, Pakistan; Peshawar, Pakistan; 
Karachi, Pakistan; Herat, Afghanistan; and Mazar-e Sharif, Afghanistan 
(located on military base).
    Hard decisions must be made when it comes to whether the United 
States should operate in dangerous overseas locations. To manage the 
balance between risk and advancing core U.S. national interests at our 
most dangerous posts overseas, the Department has developed an 
institutionalized, repeatable, transparent, and corporate process to 
ensure we have the ability and resources required to mitigate risk to 
an acceptable level. This process will also address the personnel and 
resources required to maintain a post while taking into account the 
importance of U.S. programs and mission in that location. We can 
provide a briefing on this process in an appropriate setting.

    Question. Last week, Congress passed (and the President signed) S. 
2183, which seeks to ensure that both the Voice of America and Radio 
Free Europe/Radio Liberty increase their radio and other broadcasts 
into Ukraine, Moldova, and other Russia-influenced areas. Please 
provide a summary of some of the Russian-led efforts to prevent 
external broadcasts (including broadcasts of the Voice of America and 
Radio Free Europe/Radio Liberty) from reaching people in Russia, 
Ukraine, Moldova, and other regional neighbors.

    Answer. An integral part of Russia's strategy in and around Ukraine 
is an expanding propaganda campaign to justify its actions to local 
residents, its population back home, and the world. This has included 
undermining independent media by intimidating the leadership of and, in 
some cases, taking over the facilities of Ukrainian TV and radio 
stations. An array of VOA and RFE/RL programs remain available on some 
of the leading media in the region, but on April 8 Crimean authorities 
acting on orders from Moscow shut down the Crimea-based transmitter for 
RFE/RL Ukrainian affiliate Radio Era.
    There have also been numerous incidents in which journalists 
working for VOA and RFE/RL have been threatened, assaulted, and 
arrested by armed forces wearing Russian uniforms; these incidents have 
included forcing a reporter who was covering a demonstration to kneel 
and kiss a Russian flag, seizing video cameras, and severe beatings. 
Additionally, journalists covering Crimea and Eastern Ukraine have 
received explicit warnings, both officially and anonymously, to stop 
this coverage.
    Within Russia, there has been a recent escalation of a years-long 
campaign to intimidate and censor U.S. international broadcasting. In 
late March, the information agency Rossiya Segodnya (Russia Today) 
abruptly ended a contractual arrangement for VOA programs in Russian 
and English-language lessons to be heard on a local AM station, the 
last vestige of VOA radio programming broadcast on Russian soil. The 
move comes amid a fast-moving campaign to target opposition and 
independent media. Lists of ``traitors'' have been circulating in 
Moscow, among them RFE/RL's Russian Service, Radio Liberty. Beginning 
in 2006, Moscow forced a substantial number of Radio Liberty and VOA 
radio and TV affiliates to stop carrying such programs or face the loss 
of their licenses. In 2012, Russian authorities forced Radio Liberty 
off its last remaining domestic radio outlet in Moscow.

    Question. Funding for democracy support in Venezuela is to be cut 
by $800,000 in FY 2015, and USAID has had to withdraw from Ecuador. At 
a time when civil society is under increasing pressure, why doesn't the 
budget submission provide support for a coherent strategy in Western 
Hemisphere countries where democracy is threatened?

    Answer. Our commitment to support human rights and democracy, 
including in challenging environments of the Western Hemisphere, 
remains strong.
    Our assistance request reflects no decrease in priority toward 
these areas. We have the resources we need to advance U.S. objectives 
and support democracy and human rights in countries of concern.
    For Venezuela and Ecuador, the U.S. Government will support ongoing 
assistance for civil society to push for public accountability, defend 
human rights, and increase the public's access to independent 
information. We will continue to monitor events and circumstances 
closely.

    Question. I was surprised to see that the budget justification does 
not include any allocation of funding to at least plan for support of 
the implementation of the peace process in Colombia. What role do you 
foresee the U.S. playing in the peace process and have you calculated 
the magnitude of resources we might wish to commit?

    Answer. The United States has been strongly engaged in support of 
peace in Colombia, both as an advocate for negotiations and in laying 
the groundwork for a negotiated settlement.
    In his December meeting with President Santos, the President 
praised the ``bold and brave efforts to bring about a lasting and just 
peace inside of Colombia.''
    Our ongoing foreign assistance has helped the Colombian Government 
initiate talks and prepare for a peace agreement, and laid the 
groundwork to sustain an agreement once it is finalized. 
Counternarcotics programs have reduced cocaine production, thereby 
reducing illicit funding to terrorist groups, including the 
Revolutionary Armed Forces of Colombia (FARC). U.S. programs engage 
government, civil society, and the private sector to strengthen 
Colombia's ability to implement a sustainable and inclusive peace. This 
includes initiatives to support conflict victims, reduce impunity, 
develop rule of law, bring government services to rural areas 
previously controlled by the FARC, and improve land tenure and 
livelihoods in rural areas. By supporting efforts by the Colombian 
people to secure justice and good governance, we help lay the ground 
work for the accountability, stability, and reconciliation necessary 
for any peace deal to be successful.
    We are in regular, close contact with the government about the 
status of peace talks and have encouraged the government to inform us 
of possible assistance the United States may offer in support of a 
final peace agreement. We will stay in contact with the Committee as we 
receive requests from the Colombian government and develop proposals to 
respond. Assistance to Colombia has declined in recent years due to 
both budgetary constraints and Colombia's success in improving 
security. In the event of a peace deal, we should be prepared to 
increase funding to demonstrate our commitment to the Colombian people. 
Our programs should continue to promote justice and strengthen the 
security so the people of Colombia quickly see the benefits of peace, 
and so organized crime is not strengthened as the FARC demobilize.

    Question. Do we have a policy to persuade China to pursue 
constructive rather than antagonistic relations with its neighbors in 
the Asia-Pacific?

    Answer. The United States welcomes a stable and prosperous China 
that plays a responsible role in regional and world affairs and adheres 
to international law and standards in its activities and relations with 
its neighbors. There are some security concerns in Asia that require 
our consistent engagement with China. These concerns include the 
importance of de-escalation of tensions among China and its neighbors 
over territorial and maritime disputes and the restoration of healthy 
Chinese relations with U.S. allies Japan and the Philippines. Our most 
senior leaders consistently and frankly discuss these issues with 
Chinese leaders. Positive relations between China and its neighbors are 
beneficial not only to our Asian partners, including China, but also to 
the United States.

    Question. When the President travels to Tokyo and Seoul next month, 
what message will he deliver to two of our most important allies on the 
U.S. commitment to the Asia-Pacific?

    Answer. We are firmly committed to the rebalance toward the Asia-
Pacific, and the President's visit demonstrates our continued 
engagement with our allies and partners in the region. Our rebalance 
strategy stems from the recognition that the Asia-Pacific region is not 
only important now but that it will become increasingly vital to U.S. 
security and economic interests as the center of global politics and 
economics continues to shift toward this dynamic region.
    We have a broad, productive, and important agenda with Japan and 
the Republic of Korea. Our alliances with Japan and the Republic of 
Korea are stronger than ever. Japan has long been the cornerstone of 
peace and security in the Asia-Pacific region. In 2013, we celebrated 
the 60th anniversary of our alliance with the Republic of Korea, the 
linchpin of peace and prosperity in the region. We see the President's 
visit as an opportunity to reaffirm our increasingly comprehensive, 
global cooperation with Japan and the Republic of Korea and discuss a 
wide range of bilateral, regional, and global issues of mutual 
interest.
    The United States remains firmly committed to the defense of the 
Republic of Korea and of Japan. We will enhance our close coordination 
with both countries on responding to the threat from the DPRK, 
including our common approach to denuclearize the DPRK. One of the key 
messages that the President will reiterate in both capitals is the 
importance of trilateral security cooperation.
    We also remain intently focused on North Korea's deplorable human 
rights situation. All three countries cooperated to cosponsor the most 
recent U.N. Human Rights Council resolution on the DPRK, which 
condemned the DPRK for its ongoing human rights violations and 
highlighted the work of the U.N. Commission of Inquiry, which we helped 
establish. The President and other senior U.S. officials will continue 
to engage their ROK and Japanese counterparts on this growing issue of 
international concern.
    We will work with the Republic of Korea to enhance our economic 
partnership, invest in a future of shared prosperity, and fully 
implement the U.S.-Korea Free Trade Agreement (KORUS FTA). The 
President will also work to strengthen our economic ties with Japan, 
encourage continued structural reforms, and seek to advance our 
critical Trans-Pacific Partnership trade agreement negotiations. We 
will highlight our increasingly global partnership, from cooperation on 
climate change to humanitarian assistance, and we will underscore the 
critical role of people-to-people ties, including educational and 
cultural exchanges, in supporting the alliances between the United 
States and Japan and the Republic of Korea.

    Question. What message have you delivered to Chinese leadership on 
the declared ADIZ over the East China Sea and any future potential 
declarations over the South China Sea? Have you affirmed that the 
United States neither recognizes nor accepts China's declared ADIZ?

    Answer. Since the Chinese first made their provocative declaration 
of an East China Sea Air Defense Identification Zone (ADIZ), U.S. 
officials at the highest levels, including during Vice President 
Biden's December 2013 trip to China, have publicly and privately raised 
our deep concerns. The United States does not recognize and does not 
accept the ADIZ, which we believe was a provocative and destabilizing 
measure. We have called on China to not implement the ADIZ.
    Publicly and in private discussions with Chinese officials, we have 
also made clear to China that it should refrain from taking similar 
actions elsewhere in the region, including in the South China Sea. We 
have encouraged China to work with all of its neighbors to address the 
dangers its recent declaration has created, to deescalate tensions, and 
to support crisis management procedures that could manage incidents if 
and when they arise in the East China and South China Seas.

    Question. Would you agree that any Chinese claim to maritime rights 
not based on claimed land features is inconsistent with international 
law?

    Answer. Yes. While the United States does not take a position on 
which country or countries enjoy sovereignty over land features in the 
South China Sea, we do take a position on whether maritime claims are 
in accordance with international law and on how countries pursue their 
claims. We strongly oppose the use of coercive measures by any party to 
advance their territorial and maritime claims. All claims to maritime 
space in the South China Sea, such as China's Nine-Dash Line, must be 
derived from land features in the manner set out under the 
international law of the sea, as reflected in the Law of the Sea 
Convention. Any claim to maritime space in the South China Sea not 
based on land features, in accordance with the maritime zones accorded 
to such features under the international law of the sea, would not 
align with international law. The international community would welcome 
China to clarify or modify its ambiguous Nine-Dash Line claim to make 
it consistent with the international law of the sea.
    We also continue to urge the Senate to ratify the Law of the Sea 
Convention, which, among other things, would boost U.S. diplomatic 
efforts to ensure that countries around the world properly implement 
their international obligations.

    Question. Given that all three frontrunners in the Afghan election 
have made clear they support signing the BSA, will the President still 
wait until September to firmly establish the appropriate policy toward 
our national security interests in Afghanistan? Will the President 
publicly acknowledge and support the recommended 8,000-12,000 U.S. 
forces recommended by our military commanders in Afghanistan? Does the 
State Department support those levels?

    Answer. The White House has made clear that we are leaving open the 
possibility of concluding a BSA later this year with a committed Afghan 
Government. However, the longer we go without a BSA, the more 
challenging it will be to plan and execute any U.S. mission. Should we 
have a BSA and a willing and committed partner in the Afghan 
Government, the administration has been clear that a limited post-2014 
mission focused on training, advising, and assisting Afghan forces and 
going after the remnants of core al-Qaeda could be in the interests of 
the United States and Afghanistan. The President is reviewing options 
regarding the size and scope of our post-2014 presence and has not made 
a final decision. The State Department is working closely with the 
White House to ensure that the President has a range of options and to 
ensure that we are prepared to support whatever option he may choose.

    Question. What is our strategy for countering Iranian influence in 
the Middle East? How do military support, State, and USAID programs 
provided in the Middle East serve to counter the influence of Iran and 
its proxies?

    Answer. The United States strategy to counter Iran's destabilizing 
regional activities involves a number of elements designed to disrupt 
and deter threats from Iran by working in close concert with our 
regional partners. We prioritize efforts to uncover and expose the 
malign activities of Iran and its proxies, and to share this 
information with our regional partners. We also dedicate diplomatic, 
military, intelligence, and law enforcement resources to assist and 
enable our regional allies to counter aggressive actions by Iran or its 
proxies. We implement sanctions and designate individuals and entities 
to impede Iran's movement of illicit material or money. In all these 
dimensions, the State Department works closely with our colleagues at 
the Departments of Defense and Treasury to make sure our strategies to 
counter the influence of Iran and its proxies are synched. Below are 
two examples of recent steps we have taken:

  <bullet> In March 2014, we worked with Israeli naval forces to 
        interdict the Klos C cargo ship in the Red Sea along the border 
        of Sudan and Eritrea. The Klos C was carrying Iranian weapons 
        and explosives, including long-range M-302 rockets, likely 
        destined for Palestinian militant organizations in Gaza.
  <bullet> In February 2014, the Department of Treasury announced a 
        number of new terrorism-related designations linked to Iran. 
        Among these were various entities and individuals linked to 
        Mahan Air, a private Iranian airline that was designated in 
        October 2011 for its support to the terrorist activities of 
        Iran's Islamic Revolutionary Guard Corp-Quds Force (IRGC-QF). 
        Also designated were various IRGC-QF individuals associated 
        with Iran's activities in Afghanistan. Finally, an individual 
        known for supporting al-Qaeda's facilitation network in Iran 
        was also designated.

    Similarly, our State and USAID programs counter the Iranian 
Government's negative policies by providing capacity-building training 
to Iranian civil society activists to hold their government accountable 
to international standards and Iran's international commitments. Since 
2004, the administration has supported projects to help Iranian civil 
society make its voice heard in calling for greater freedoms, 
accountability, transparency, and rule of law from its government. 
Additional efforts provide access to uncensored information to 
Iranians, allowing Iranian citizens to make informed decisions about 
their government's policies and actions.

    Question. Does this budget request reflect a hard look at the $1.3 
billion in FMF and what it gets us? How? Have you considered how we 
might take steps to modernize the Egyptian military and restructure our 
relationship over the long-term? What are our ``shared security 
interests'' and how does your budget refocus FMF around those 
interests?

    Answer. We continue to assess FMF to Egypt as part of the ongoing 
assistance review that was directed by the President last August. Our 
request for $1.3 billion in FMF supports our shared security interests 
in maintaining regional peace and stability and countering 
transnational threats. This includes aiding border security; countering 
terrorism; weapons and contraband smuggling, including in the Sinai; 
promoting secure passage through the Suez Canal; and preparing Egyptian 
forces to participate in peacekeeping operations. Additionally, FMF 
serves to support the Egyptian military with modern equipment and 
training.
    We remain deeply concerned about the serious security threats Egypt 
faces and their potential to destabilize the region. Our assistance is 
a critical factor in ensuring safety and security for Egypt and the 
region at large, which is a key U.S. national security interest.

    Question. Do you anticipate being able to certify that the 
Government of Egypt ``is supporting a democratic transition,'' as the 
latest appropriations act requires? What does the reduction in ESF say 
about our ability to influence the progress of democracy and governance 
in Egypt?

    Answer. The Egyptian Government is well aware that certification 
and continued aid depends on credible progress toward an inclusive, 
peaceful, and democratic transition to a civilian-led government by way 
of a free and transparent election process. We have serious concerns 
about restrictions on freedom of expression, assembly and association, 
as well as abuses by security forces that have not been held 
accountable, and an ongoing lack of inclusivity in the political 
process. We have reiterated these concerns at high levels consistently 
in public and private, and we will continue to urge Egypt to make 
progress on these fronts. While a timetable has not been tied to 
certification, we continue to evaluate whether the interim government 
is taking steps to meet the conditions outlined in the Appropriations 
Act.
    As conditions in Egypt continue to change, we have continued to 
reevaluate how assistance best supports our objectives. While the 
dollar amount of assistance is often seen as the primary metric by 
which our commitment to our goals is measured, a better approach is to 
focus on what our assistance can accomplish and where U.S. support is 
most effective. We have retargeted our economic assistance to support 
the Egyptian people more directly in areas of economic growth, 
education, health, democracy promotion and improved governance. We 
believe that with this targeted approach, the prior year resources 
available to us for economic assistance, combined with the FY 2015 
request, provides us sufficient resources to achieve these objectives 
in the near term. The decision to request a reduced amount from the 
Economic Support Fund (ESF) pipeline for Egypt in FY 2015 was 
budgetary, and reflects constraints on our economic assistance writ 
large. We will continue to press for democratic progress in Egypt and 
believe our FY 2015 request is a sufficient funding level.

    Question. What are you doing to coordinate interagency efforts for 
the Power Africa initiative in order to avoid redundancies, use 
government resources to the best possible effect, and provide a clear 
line of accountability for outcomes?

    Answer. As the Secretariat, USAID coordinates the efforts of the 
Power Africa Working Group, which is comprised of all 12 of the Power 
Africa U.S. Government agencies. Together, we work to identify 
strategic power generation projects and coordinate efforts based on 
agency core competencies. Each power generation project requires 
various inputs. For example, the U.S. Trade and Development Agency has 
provided extensive support for feasibility studies for potential 
distribution and transmission lines that can connect remote villages. 
OPIC and EX-IM have considerable financing power; a necessary component 
to achieving long term infrastructure development. Additionally, USAID 
has been instrumental in providing technical assistance in host 
governments to encourage policy reforms. This combined effort helps 
advance projects toward financial close and commissioning.
    Regarding accountability, USAID chairs the monitoring and 
evaluation subworking group, coordinating performance monitoring and 
developing shared indicators. The common metrics reflect the 
initiative's whole-of-government approach. Over the last year, USAID 
has worked extensively with partner agencies to develop these metrics 
and a common reporting platform to maintain consistency in data 
collection across the U.S. Government.

    Question. Is the addition of 23 new positions for the Department's 
``Economic Statecraft'' initiative representative of a broader trend to 
raise the importance of economic statecraft within the State 
Department, and if so, specifically how will these new positions 
support that goal?

    Answer. The Department has placed a high priority on elevating the 
importance of economic and commercial issues in our foreign policy, 
including supporting U.S. jobs and exports, and has made supporting 
U.S. business an important part of both his work in Washington and his 
overseas trips. We are convinced that foreign policy is economic 
policy. The U.S. economy is increasingly dependent on exports, and we 
need to strengthen economic relationships across the world. United 
States foreign policy must reflect a world in which economic concerns 
and economic power cannot be separated from political and strategic 
imperatives. Furthermore, as we have seen in the Middle East, lack of 
economic and social opportunities can breed continuing and broader 
instability that threaten U.S. national interests. It is thus in the 
interests of the United States to leverage our economic toolkit to work 
with governments and societies abroad to bolster job growth and 
economic stability in their respective countries. Renewing the U.S. 
economy at home must go hand in hand with enhancing U.S. economic 
leadership around the world. Across a wide range of foreign policy 
challenges, the Department must harness markets and economic forces to 
create the stability and prosperity globally that would allow 
advancement of our strategic and political goals.
    The 23 new positions for the ``Economic Statecraft'' initiative, 
will support our broad Economic Diplomacy efforts, and the ``Shared 
Prosperity Agenda,''--the expanded and rebranded ``Economic 
Statecraft.'' These new positions will increase the number of officers 
throughout the Department who are implementing our critical economic 
policy work through multiple initiatives, including:

  <bullet> A more focused and systematic advocacy effort with the 
        Department of Commerce on behalf of U.S. companies;
  <bullet> Promoting and institutionalizing a regional trade and 
        investment framework with market-oriented rules that promote 
        open, transparent, and fair trade in the Asia-Pacific region;
  <bullet> Working closely with the U.S. Trade Representative (USTR) to 
        finalize the Trans-Pacific Partnership (TPP) negotiations, 
        which will increase U.S. export opportunities in Australia, 
        Brunei Darussalam, Canada, Chile, Malaysia, Mexico, New 
        Zealand, Peru, Singapore, Vietnam, and Japan;
  <bullet> Supporting expanded domestic U.S. employment and economic 
        growth through increased U.S. exports under the auspices of the 
        National Export Initiative; expanded facilitation of foreign 
        direct investment in the United States through the SelectUSA 
        program, and promotion and facilitation of tourism to the 
        United States.

    To better equip the State Department to effectively implement our 
economic priorities abroad, the majority of the 23 new positions would 
be assigned to embassies in key locations around the globe. Many of the 
issues the new positions will focus on include:

  <bullet> Boosting Trade and Investment: Officers will negotiate to 
        reduce regulatory and tariff barriers to trade in order to 
        level the playing field for U.S. companies and help U.S. 
        exports reach foreign consumers.
  <bullet> Commercial Advocacy: Officers will identify specific export 
        opportunities and provide assistance to U.S. exporters facing 
        challenges in foreign markets, complementing the efforts of the 
        foreign commercial service (FCS) where they are present and 
        serving as a primary commercial liaison where FCS is absent.
  <bullet> Market Analyses: Officers will monitor business and 
        regulatory conditions abroad and provide general guidance to 
        potential U.S. exporters new to overseas markets.
  <bullet> Foreign Direct Investment: New officers will facilitate 
        investment into the United States by foreign individuals and 
        companies, creating more jobs for Americans and expanding the 
        tax base.
  <bullet> Internet Freedom: Engage with foreign regulators, 
        multilateral agencies and civil-society to ensure that the 
        Internet remains free from undue governmental control and 
        restrictions and that there is wider access to new technologies 
        and to the digital economy.
  <bullet> Entrepreneurship: Encourage public-private partnerships that 
        catalyze and coordinate nongovernmental partners around 
        activities that create jobs and improve economic conditions and 
        political stability worldwide.
  <bullet> Open Skies: Negotiate air transport agreements that link 
        American cities with the rest of the world; work to alleviate 
        burdensome measures on U.S. air carriers; and create more 
        competition in the airline industry, resulting in lower 
        airfares.
  <bullet> Intellectual Property Rights: Increase public understanding 
        and government enforcement of intellectual property rights 
        concerns.

    In Africa, the new Economic and Commercial officer will support our 
mission in Tanzania's increased engagement under the Partnership for 
Growth, the Power Africa initiative with the Tanzanian energy sector 
and also contribute to the realization of the Trade Africa initiative.
    The additional Foreign Service officers requested for the Bureau of 
Near Eastern Affairs (NEA) will help further the critical economic 
policy priorities at our missions in the region. NEA and its posts 
abroad work closely with interagency partners to promote U.S. exports 
to the Middle-East and North Africa region. In addition, the shared 
economic prosperity that will benefit these countries shall provide 
viable and productive alternatives to the lure of extremism. In the 
UAE, for example, extra officers will be critical to help facilitate 
and boost economic and commercial engagements in a market that attracts 
approximately $22 billion in U.S. exports and in which over 1,000 U.S. 
companies operated in 2013. In other countries, increased numbers of 
economic officers are required to adequately cover economic 
developments and promote progress on economic reforms that help boost 
jobs and stability. Creating greater economic opportunity will help 
cement democratic change and enhance confidence in local governments, 
thus increasing stability and reducing the attractiveness of extremism.
    Four overseas positions will be assigned to various missions in 
Europe. The recent events in Ukraine have highlighted the importance of 
economic diplomacy in assuring a secure energy future and in preventing 
the use of energy as a political weapon. The United States is working 
closely with European partners to help Ukraine achieve energy security, 
for which, diversification, transparency, and private investment are 
key. We need to work with Ukraine to create the conditions--to control 
corruption--to attract the private investment it needs to double its 
gas production by 2020.
    The addition of four Foreign Service economic positions in the 
Western Hemisphere will enhance the Department's ability to take 
advantage of new opportunities in the region. The Bureau of Western 
Hemisphere Affairs and its overseas posts engage frequently with 
foreign governments to promote policies advantageous to U.S. businesses 
through bilateral dialogues as well as multilateral engagements, 
including the North American Leaders Summit and the Summit of the 
Americas. Priority issues for 2014 include deepening regulatory 
cooperation, accelerating regional integration, easing barriers to 
trade for small and medium enterprises, promoting increased public-
private consultations, and improving regional energy market efficiency.
    Positions will be added to missions in key trading partners, such 
as Mexico, Brazil, and India. Domestically, new positions will enhance 
the Office of the Chief Economist; strengthen our ties with 
international organizations; and strengthen the regional bureaus' 
ability to support the Secretary's broad vision of shared prosperity.

    Question. Last week, Ugandan police reportedly raided the PEPFAR-
supported Makerere University Walter Reed Project in Kampala, forcing 
it to suspend its operations. What is the current diplomatic strategy 
to ensure the implementation of this law does not undermine U.S. 
efforts to reach all Ugandans who need access to HIV/AIDS treatment?

    Answer. Uganda's decision to enact the Anti-Homosexuality Act (AHA) 
runs counter to universal human rights and dignity. Now that the law 
has been enacted, we are looking closely at its implications. At the 
same time and where appropriate, we are adjusting some of our 
activities and engagements to ensure intended goals.
    None of this diminishes our commitment to the people of Uganda, and 
in particular our commitment to promoting regional security and justice 
and accountability for perpetrators of atrocities like the Lord's 
Resistance Army (LRA) and ensuring that lifesaving treatment for HIV/
AIDS continues to be effective and can reach those in need.
    We have expressed our deep concern over this legislation and have 
been in touch with senior Ugandan Government officials and LGBT leaders 
since this legislation was first introduced in 2009. Since the AHA's 
enactment, we have sought--though yet to receive--unequivocal 
assurances from the highest levels of the Ugandan Government that 
nondiscriminatory HIV services provision for all individuals will 
continue. It is critical that Uganda's leaders recognize that support 
to all individuals with HIV/AIDS must continue in order to be effective 
so that lifesaving services are not interrupted for those who depend on 
the United States for medications and treatment.
    Passage of the law complicates our ability to provide these and 
other services effectively to those in need and to support efforts to 
control the HIV/AIDS epidemic in Uganda. Where necessary and 
appropriate we will take steps to ensure that our programs can still be 
effective and conducted in a nondiscriminatory manner, fully cognizant 
of our ethical responsibility to the patients that depend on U.S. 
assistance for their survival. We want our efforts to advance our 
policy objective, which is to promote and protect the universal rights 
and fundamental freedoms of all Ugandans, including LGBT individuals.
    At the same time, we will not shy away from expressing U.S. 
Government views on this law, and on the importance we place on 
ensuring respect for human rights--including those of members of the 
LGBT community. We will continue to make clear our view that this 
abhorrent law should be repealed.

    Question. Last year, the Democratic Republic of the Congo suspended 
its issuance of Exit Letters for international adoptions. This decision 
has put in jeopardy over 100 adoption cases of Congolese children by 
American families, including 54 cases which have been fully finalized 
by the DRC courts, the DRC Government authorities, and the U.S. 
Embassy. Unfortunately, this is a situation that is not unique to the 
DRC and has happened in too many countries over the years.

  <diamond> (a). What is the State Department's plan to rectify this 
        situation in the DRC?

    Answer. While several countries have suspended adoptions for a 
variety of reasons in recent years, the Democratic Republic of the 
Congo's (DRC) decision to implement a 1-year suspension on exit permit 
issuances is unique in that it is the first country in which the 
national government has opted to review the work of its lower adoption 
offices and courts after the adoption decrees are issued. The DRC is 
also the first country in which the courts continue to grant adoption 
decrees in new cases, even though the adopted children will not be 
allowed to leave the country during the exit permit suspension. The DRC 
has indicated that the purpose of the suspension is to allow the 
national government to investigate press reports of abuses and re-
homing of Congolese adopted children in receiving countries, as well as 
to conduct a review of all internal adoption processes after the 
discovery of some cases that DRC authorities believe involved fraud, 
corruption, and potential child-buying. To address this challenge in 
the DRC, the Department of State has taken a multipronged approach, 
including engagement with the Congolese Government, efforts to address 
the root causes for the suspension, and thorough information-sharing 
with U.S. families, adoption service providers, and congressional 
offices.
    The announcement of the suspension on exit permit issuances for 
adopted Congolese children was followed by extensive engagement by U.S. 
Government officials, including Ambassador Swan, with the most senior 
officials in the various Congolese Ministries responsible for the 
decision. When it became clear that the DRC Government would not lift 
the suspension immediately, Embassy Kinshasa sought concessions for the 
families who already had their adoption decrees and U.S. immigrant 
visas for the children. Following high-level meetings, Embassy Kinshasa 
was able to secure an agreement by the Congolese Government in October 
to grandfather in those families who had received a bordereaux letter 
certifying the validity of the adoption from the Congolese Ministry of 
Gender and Family's interministerial adoption committee prior to 
September 25, 2013. Thirteen children adopted by U.S. families 
benefited from this concession before Congolese immigration authorities 
(the General Directorate of Migration, DGM) discovered an allegedly 
backdated bordereaux letter submitted by a U.S. family in November. 
Since then, the DGM has subjected the remaining grandfathered cases to 
increased scrutiny and has not issued exit permits to any adopted 
children.
    The U.S. Embassy in Kinshasa's staff has also raised the suspension 
with prominent local NGOs and with embassies of other countries in the 
DRC affected by the suspension. USAID in Kinshasa continues to engage 
with Congolese officials and local NGOs on child welfare issues. 
Additionally, high-level engagement by the Department with the DRC's 
Ambassador in Washington led to a reversal last fall of the DRC's 
decision to suspend tourist visas for adoptive families wishing to 
travel to the DRC to visit their children.
    The second prong of the strategy to resolve the suspension on exit 
permit issuances has been to address the root concerns about 
intercountry adoptions held by the Congolese Government. By assuaging 
these concerns in relation to U.S. adoptions specifically, offering 
assistance and expertise in intercountry adoptions to Congolese 
authorities, and actively encouraging Congolese authorities to increase 
their capacity to process ethical and transparent adoptions, we are 
striving to accelerate the lifting of the suspension.
    On March 10, the Department of State and the Department of Homeland 
Security, U.S. Citizenship and Immigration Services (USCIS) sent a 
delegation to Kinshasa to discuss the U.S. adoption process, to 
highlight how intensely Embassy Kinshasa investigates an adopted 
child's background in order to verify that the child is an ``orphan'' 
prior to issuing an immigrant visa, and to encourage Congolese 
authorities to end the suspension. The delegation also discussed the 
U.S. Pre-Adoption Immigration Review program, which, if adopted by the 
DRC, would ensure that Embassy Kinshasa would conduct its 
investigations prior to adoptions being finalized in Congolese courts. 
The program may help provide Congolese authorities greater confidence 
in the validity of adoptions to the United States.
    The Department also invited Congolese authorities to send two 
delegations to the United States on Department-funded Voluntary Visitor 
programs April 11-May 2 and April 16-26. The Congolese Ministry of 
Foreign Affairs, DGM, Ministry of Social Welfare, and Children's Court 
participants were scheduled to meet with U.S. federal and state 
officials regarding the U.S. intercountry adoption process and U.S. 
child welfare protections for adopted children. The Department arranged 
additional meetings with U.S. families with children adopted from the 
DRC living in the United States, U.S. adoption service providers, and 
U.S. stakeholder organizations. These meetings were designed to address 
the Congolese authorities' concerns about the intercountry adoption 
process and the welfare of children adopted from the DRC by U.S. 
citizen parents. Unfortunately, Embassy Kinshasa was informed by the 
Congolese Ministry of Foreign Affairs on April 15 and 16 that the 
delegations' visits would need to be postponed due to several urgent 
issues in the DRC. The Department remains convinced of the value of the 
programs and looks forward to rescheduling the DRC authorities' visits 
to the United States.
    The third prong of the Department's strategy entails thorough 
information-sharing with adoptive parents, prospective adoptive 
parents, the United States Congress, adoption service providers, and 
the public. The Department has published six adoption notices, most 
recently on April 16, promptly advising all parties about new 
developments related to the suspension on exit permits since September 
2013. The Department has also held at least nine telephone and in-
person briefings for adoptive parents, adoption service providers, and 
congressional members and their staffs since the suspension on exit 
permit issuances. Embassy Kinshasa staff, including Ambassador Swan, 
have personally met with adoptive families in the DRC and with adoption 
service providers to brief them on the situation and what the 
Department is doing to address the suspension. Further, on April 18, 
the Special Advisor for Children's Issues and officers from the Office 
of Children's Issues met with families who adopted from the DRC.
    Despite these efforts and some successes, the suspension remains in 
place, and the prospect for it ending is uncertain. The issue of 
intercountry adoptions is a very sensitive subject for the Congolese 
people and government, who perceive child welfare as a fundamental 
issue of national sovereignty. The Congolese Government has asked all 
affected countries to give it the time necessary to review its adoption 
policies and processes following an unprecedented rise in the number of 
adoptions since 2008 and growing Congolese concerns about potential 
fraud, corruption, and child-buying in the adoption process. Given 
these sensitivities and concerns, Congolese Government officials have 
not responded favorably to perceived foreign pressure. We are aware of 
families from other receiving countries who were prohibited from 
remaining in the DRC with their children and who have not been allowed 
to visit the children after their governments took a more aggressive 
stance on the issue of adoptions. Despite these challenges, we will 
continue to press actively for the lifting of the suspension, 
independently and in coordination with the 14 other affected countries, 
so that adopted children may travel to join their families in the 
United States. We plan to send another delegation to the DRC in May or 
June of 2014.

  <diamond> (b). What is the State Department's overall strategy to 
        improve the international adoptions process and provide a 
        consistent policy on international adoption that American 
        families can rely on as they go through the process?

    Answer. The Department of State supports intercountry adoption as 
an essential part of a fully developed child welfare system. We promote 
ethical and transparent adoption processes for prospective adoptive 
parents, birth families, and children involved in intercountry 
adoptions, a process that tries to ensure that an adoption is completed 
when it is in the best interests of the child and when a domestic 
placement in the child's home country is not possible. The Office of 
Children's Issues, within the Department's Bureau of Consular Affairs, 
engages bilaterally with foreign governments and collaborates with 
stakeholders in the adoption community and with our interagency 
partners on intercountry adoption to promote these policy objectives. 
The Hague Adoption Convention (Convention) is an important tool in 
support of this goal. Ninety-three countries are currently party to the 
Convention, including the United States.
    Working with our partners at U.S. Citizenship and Immigration 
Services (USCIS), Congress, and other stakeholders, the Department 
helped to create innovative means to further ethical adoption practices 
and to prepare non-Convention countries to move seamlessly to 
Convention implementation with no disruption in adoptions. Two such 
innovations are the Universal Accreditation Act (UAA) and the U.S. Pre-
Adoption Immigration Review (PAIR) program. UAA adds protections for 
families adopting in countries that are not parties to the Convention. 
Under the UAA, all U.S. adoption service providers (ASPs) providing 
adoption services in Convention and non-Convention cases must be 
accredited, approved, supervised, or exempted from the requirement. An 
accredited or approved ASP must act as a primary provider in each case 
covered by the UAA. After July 14, 2014, the conduct of all ASPs must 
meet the same standards of practice and will be subject to the same 
accountability provisions that now apply in Convention cases. Right 
now, more than half of all U.S. intercountry adoptions fall under non-
Convention processes.
    Through the PAIR process, State and USCIS provide U.S. citizens 
with a method of processing intercountry adoptions that incorporates a 
Convention-like procedure for establishing the child's adoptability and 
likely immigration eligibility prior to the issuance of an adoption 
decree. Choosing to participate in this process can ease the transition 
for partnering countries toward implementation of a Convention system. 
PAIR serves as a precursor to the eventual implementation of a 
Convention-compliant system by the foreign government.
    On September 1, 2013, Ethiopia implemented PAIR. PAIR represents a 
joint effort between the U.S. Government and the Government of Ethiopia 
to help ensure that every adoption by a U.S. family is ethical, 
transparent, and in the best interests of the child. The Ethiopian 
Government has a long-term plan for joining the Convention. The 
Department is working closely with Ethiopian counterparts to emphasize 
the importance of gradual implementation of Convention principles prior 
to accession, improving safeguards for intercountry adoptions while 
preserving the ability for intercountry adoption to proceed in the 
interim. There were 1,567 adoptions from Ethiopia to the United States 
in FY 2012, and 993 in FY 2013.
    Another example of our efforts to ensure that U.S. families have a 
consistent intercountry adoption process is our work with the U.S. 
clients of the ASP International Adoption Guides (IAG) following the 
indictment of several IAG employees. The Office of Children's Issues 
established and maintained a dialogue via e-mail and conference calls 
with U.S. clients of IAG who sought answers to their questions when the 
ASP essentially folded overnight as a result of the indictment and 
arrests. Due to the large number of adoptions IAG was processing in 
Ethiopia (affecting approximately 50 U.S. families, with more families 
interested in initiating new cases), consular officers at U.S. Embassy 
Addis Ababa, as well as the U.S. Ambassador to Ethiopia, immediately 
engaged with the Government of Ethiopia to request guidance for 
affected families on whether and how they could proceed with their 
adoptions. Through our coordination with the Government of Ethiopia, 
the Office of Children's Issues and the U.S. Embassy in Addis Ababa, we 
were able to provide clear guidance to families and to address 
Ethiopian concerns about the indictment. Our intervention persuaded the 
Minister of Women, Children, and Youth Affairs to allow families to 
continue with a new ASP, preventing any impact from the indictment on 
Ethiopian intercountry adoptions as a whole.
    As the U.S. Central Authority for the Convention, the Department of 
State must certify that each adoption from a Convention country was 
made in compliance with the Convention and the Intercountry Adoption 
Act of 2000. If a country's adoption system does not uphold the 
safeguards of the Convention, adoptions finalized in such country would 
not be considered compliant. It is therefore instrumental for the 
Department to assess each country's ability to implement procedural 
safeguards and governing structures consistent with Convention 
standards.
    The Department reviews laws, procedures, practices, and 
infrastructure to assess each country's ability to implement procedural 
safeguards consistent with Convention standards. Our Web site provides 
a thorough description of our approach (http://adoption.state.gov/
hague_convention/overview.php). If the Department determines that a 
country does not meet the required standards, it will strongly 
encourage the country to first implement the necessary legal framework 
and procedures to uphold the Convention's standards and principles 
before becoming a party to the Convention. The Department will also 
encourage the country's officials to consider establishing procedures 
to allow adoptions initiated prior to the Convention's entry into force 
to be completed through the pre-Convention procedures. The Department's 
goal is to prevent a disruption in adoptions and ensure that there is 
no unnecessary delay in processing pending adoptions due to the 
Convention entering into force.
    Haiti is a great example of the Department's success in encouraging 
a country to transition to the Convention while preventing 
interruptions to processing so that intercountry adoption by U.S. 
families remains an option for Haitian children. The Department and 
U.S. Embassy Port-au-Prince have worked closely with officials in Haiti 
since 2010 to encourage Haiti's smooth transition to the Convention. 
Working in coordination with other receiving countries, we encouraged 
the Haitian Government to sign the Convention and to develop 
implementing legislation. We reviewed Haiti's proposed legislation in 
draft form, and the guidance we provided ensured that there would not 
be problems once the Convention's entry into force was imminent. We 
provided answers to Haitian officials' questions and worked with the 
Hague Permanent Bureau to encourage the Haitian Government to seek 
resources there. Senior State and USCIS officials have traveled to 
Haiti several times to raise the importance of intercountry adoptions 
through the Convention. In February, Special Advisor for Children's 
Issues Susan Jacobs and Chief of USCIS' International Operations Joanna 
Ruppel met with the Director of Haiti's Central Authority, UNICEF 
representatives, and diplomatic officials from the French Embassy in 
Haiti to discuss Haiti's capacity to implement the new adoption law 
(which Haiti passed in November 2013), to receive updates on child 
welfare projects in Haiti, and to discuss challenges that Haiti 
currently faces and ways to best address its needs. The Convention 
entered into force in Haiti on April 1, 2014. In light of Haiti's 
progress, the Department announced in March on the adoption.state.gov 
Web site that consular officers will be able to verify on a case-by-
case basis that an intercountry adoption case from Haiti conforms with 
the Convention and the Intercountry Adoption Act.
    The Department's efforts in Vietnam are also noteworthy. Resuming 
adoptions with Vietnam has been among State's highest priorities, and 
Special Advisor for Children's Issues Susan Jacobs has traveled to meet 
with Vietnamese adoption officials four times since 2010 to encourage 
the development of successful reforms. Though the Convention entered 
into force on February 1, 2012, Vietnam has only recently trained its 
central and provincial adoption officials on the Convention and 
Vietnam's new law. USAID support for UNICEF on adoptions has been 
instrumental in improving Vietnam's legal and regulatory system. 
Currently, the Department is working toward establishing a limited 
adoption program for children with special needs, children aged 5 and 
older, and children in biological sibling groups. The Government of 
Vietnam is currently vetting U.S. adoption service providers and has 
indicated that it plans to authorize two. (For more information, please 
see our September ``Adoption Notice.'') The Department is hopeful that 
we will be able to announce our ability to issue Hague Certificates for 
adoptions from Vietnam later this year.

    Question. In the administration's Implementation Plan for the 
National Strategy for the Arctic Region, the State Department is listed 
as the lead agency for six programs: Promote International Law and 
Freedom of the Seas; Prevent Unregulated Arctic High Seas Fisheries; 
Develop a Robust Agenda for the U.S. Chairmanship of the Arctic 
Council; Accede to the Law of the Sea Convention; Delineate the Outer 
Limit of the U.S. Extended Continental Shelf; and Resolve Beaufort Sea 
Maritime Boundary. The Department was also designated as a supporting 
agency for numerous other projects. The intent of having multiple 
agencies involved is to avoid duplication, make the Federal 
Government's role in the Arctic more efficient and effective, and 
enhance the potential for government support by showing the interest 
across agencies.

  <diamond> Could you tell me what funding is included in your 
        Department's budget request for the six projects the State 
        Department is the lead agency for as well as any other projects 
        the Department is involved in for the Arctic region?
  <diamond> What is the United States agenda for its chairmanship of 
        the Arctic Council?
  <diamond> When do you anticipate naming a Special Representative to 
        the Arctic Region?
  <diamond> What do you expect the Special Representative's role and 
        authority to be within the State Department, within the Federal 
        Government as a whole, and within the international Arctic 
        community?

    Answer. The FY 2015 budget request for the Arctic Council 
Chairmanship and the Extended Continental Shelf project is $2.622 
million. The U.S. Chairmanship of the Arctic Council spans fiscal years 
2015, 2016, and 2017. Future budget requests will be made for fiscal 
years 2016 and 2017. Regarding the four other leadership areas and 
other Arctic activities, there is no budget request other than travel 
funding to attend meetings.
    The agenda for the U.S. Chairmanship is still under development. We 
expect that the agenda will align with objectives identified in the 
National Strategy for the Arctic Region and its Implementation Plan.
    The Special Representative for the Arctic Region will be named 
within the coming weeks and will play a critical role in advancing 
American interests across the Arctic. The role and authority of the 
Special Representative are still being refined and will take into 
account the current Arctic governance structures within the State 
Department, the Federal Government, and the international community.

    Question. Do you or do you not support increasing military training 
for the vetted, moderate opposition in Syria?

    Answer. As you know, our support to the moderate armed opposition 
is limited to nonlethal equipment. We have worked with Congress to 
provide this assistance through the regular notification process, and 
we greatly appreciate your support in these areas. We continue to look 
for ways to bolster moderates and will consult with the Congress, 
including with this committee, as we move forward.

    Question. Do you believe that increase training for the rebels 
would change the situation on the ground in Syria for the better?

    Answer. The conflict in Syria must ultimately be resolved by the 
parties through negotiations. The State Department provides training to 
the civilian leaders of Syria's moderate opposition to support them as 
they govern liberated areas and fight a two-pronged war against the 
regime and extremists. With this in mind, we continue to look for ways 
to bolster moderates and will consult with the Congress, including with 
this committee, as we move forward.

    Question. Have you met with Salim Idriss's replacement as the head 
of the Syrian opposition's Supreme Military Council and what is your 
assessment of him and his leadership potential?

    Answer. Assistant Secretary of State Anne Patterson, Special Envoy 
Rubinstein, and other Department officials have met with Abdelillah al-
Bashir, the newly named Chief of Staff of the Supreme Military Council. 
He impressed them as a commander with battlefield experience who shares 
our concerns with the destructive role extremists have played in 
distracting the moderate opposition from the fight with the Syrian 
regime and abhors those groups' violent attacks on Syrian civilians. We 
look forward to working with him as we continue to deliver our 
nonlethal assistance, and as he helps identify priority needs and 
recipients.

    Question. Recently, the energy security calculus for Europe has 
shifted with the Russian annexation of Crimea and threats to cut off 
natural gas to Europe. What is the State Department doing to encourage, 
promote, or facilitate the expedited export of natural gas to our 
European allies from our energy allies, including Azerbaijan, which is 
currently working to complete the Southern Gas Corridor that is 
intended to deliver natural gas to Europe? What is the State Department 
doing to facilitate or encourage U.S. natural gas companies to provide 
technical assistance and other aid to help Ukraine extract more of 
their own gas? Finally, is the State Department engaged in efforts to 
restructure energy laws within Ukraine to eliminate corruption and 
improve energy efficiency?

    Answer. Ukraine's energy security, and the commitment of the United 
States to support Ukraine, was at the forefront of the U.S.-European 
Union (EU) Energy Council meeting which I chaired with EU High 
Representative Ashton, EU Energy Commissioner Oettinger, and U.S. 
Deputy Secretary of Energy Poneman on April 2.
    The United States is working with Ukraine, its western neighbors, 
the EU, and the private sector to provide gas from European companies 
to Ukraine to offset its reliance on Russian imports. We have long 
supported diversification of energy supply and energy routes to Europe, 
including the Southern Corridor. We are seeking to provide urgently 
needed international financial support to Ukraine and encouraging 
Ukraine to use its foreign exchange reserves to finance gas purchases.
    In addition to these short-term measures, we are working with other 
donors and the private sector to help Ukraine bridge to long-term 
increased self-sufficiency in gas by raising domestic production, 
through modernization of existing conventional fields and contracts 
negotiated in 2013 for unconventional gas development. On LNG, the 
Department of Energy has now conditionally approved LNG export permits 
for 9.3 billion cubic feet per day that can be exported both to 
countries with which we have Free Trade Agreements (FTA) and to those 
where we do not, such as European countries. However, the destination 
and price for LNG exports will not be earmarked and will be determined 
by the market.
    The United States is also working closely with the Government of 
Ukraine to increase energy efficiency practices, which will further 
decrease reliance on energy imports. The $1 billion in loan guarantees 
provided by the United States will be available to help the Ukrainian 
Government ensure that increased energy costs, which will go into 
effect as early as May 1 as part of a reform package mandated by the 
IMF, will not adversely impact Ukraine's most vulnerable energy 
consumers.
    The United States is also working with Ukraine on anticorruption 
across the board. We have identified significant funding from existing 
budgets to enhance fiscal transparency and natural resource management 
and Embassy Kyiv has created an anticorruption roadmap to support the 
Ukrainian Government in tackling this issue in all sectors.
    Under the auspices of the U.S.-Ukraine Energy Security Working 
Group, the U.S. Special Envoy for International Energy Affairs Carlos 
Pascual and Ukrainian Minister of Energy Yuriy Prodan, will continue to 
advance these initiatives.
                                 ______
                                 

      Responses of Secretary of State John F. Kerry to Questions 
                   Submitted by Senator Barbara Boxer

    Question. Afghan Women--In elections this weekend in Afghanistan, 
initial reports show that 35 percent of the estimated 7 million voters 
were women. A record 300 women ran for provincial council seats. And 
three of the Presidential candidates chose female vice Presidential 
running mates.
    In addition, the three frontrunners for President have all made 
commitments to support women's rights. In fact, one of the Presidential 
frontrunners--Abdullah Abdullah--told a British newspaper, ``If you 
want to see this country or any other country even being able to deal 
with the challenges and develop, it cannot happen without the role of 
half the population.''
    These advances are important, but they are also fragile. And Afghan 
women continue to face barriers in all aspects of society.

  <diamond> How can the United States work to ensure that Afghanistan's 
        new government makes women's rights a priority?
  <diamond> As the United States draws down its military presence in 
        Afghanistan, how can we help protect the hard-fought gains made 
        by Afghan women over the past decade?

    Answer. Afghanistan has made enormous strides since 2001, and no 
one has benefited more than Afghan women, minorities, and civil society 
groups. Most recently, women turned out in large numbers to vote in 
Afghanistan's provincial and Presidential elections. They also served 
as candidates and searchers, demonstrating the enormous potential for 
the sustained advancement of women. As the Presidential elections move 
forward, the United States will continue to support initiatives for 
Afghan women and girls as it is clear the advancement of women's rights 
is critical to political, social, and economic progress and to ensuring 
a stable and secure future for Afghanistan. In particular, continued 
support by the United States--including through grants--and other 
international donors for Afghan civil society organizations and Afghan 
women's networks will be key to ensuring that views and voices of 
Afghan women are incorporated into the new government's priorities. It 
will also be essential to continue emphasizing the vital role of women 
at the decisionmaking table, particularly as the new government takes 
root at the national, provincial, and district levels.
    As the transition process moves forward, the United States will 
remain committed to supporting and expanding a strong role for Afghan 
women by continuing to prioritize women's issues through our 
programmatic and policy efforts. For instance, the U.S.-Afghanistan 
Strategic Partnership Agreement and the 2012 Tokyo Mutual 
Accountability Framework speak to the mutual commitments of the United 
States and the Afghan Government in protecting and promoting women's 
rights and role in society. Also, the U.S. Embassy in Kabul adopted a 
new ``Gender Strategy'' in 2012 that highlights the need to continue to 
mainstream gender issues into all policies and programs through 
transition and beyond. The U.S. gender strategy focuses missionwide 
resources on five key areas: health, education, economic development, 
leadership opportunities, and security and access to justice, which are 
consistent with the five cross-cutting priorities set by the Afghan 
Government's National Action Plan for the Women of Afghanistan (NAPWA) 
and is consistent with the U.S. National Action Plan on Women, Peace 
and Security, launched in December 2011. Implementation of the gender 
strategy will also help to ensure that women are not disproportionately 
affected by any decreases in U.S. funding in Afghanistan.
    Additionally, over the past decade U.S. Government programming has 
helped Afghan women and girls achieve dramatic progress in the areas of 
health, education, and access to justice. At this critical moment of 
transition, USAID is making a long-term commitment to build upon 
current and past programs to advance opportunities for women to help 
ensure that Afghanistan has a critical mass women who are political, 
economic, and civil society leaders in public, private, and civil 
society sectors. For example, Promote, which commits up to $216 million 
to Afghanistan over a 5-year period, is USAID's largest gender program 
and is a symbol of the U.S. Government's commitment to empowering 
Afghan women. It aims to encourage educated young women to enter and 
advance into mid-high level positions in all sectors of society--
business, government, academia, nonprofits, and even politics. The 
program builds on earlier investments in the education, health, 
democratic governance and economic growth sectors and will assist 
75,000 women between 18 and 30 years of age who have completed 
secondary education to enter and advance into decisionmaking positions 
in Afghanistan's public, private and civil society sectors.

    Question. In January, Nigerian President Goodluck Jonathan signed a 
bill that criminalizes same-sex relationships. A month later, Ugandan 
President Museveni signed a law that imposes a lifetime jail sentence 
for the crime of ``aggravated homosexuality.''
    Both these laws are deplorable and represent a discouraging trend 
globally where LGBT individuals are harassed, attacked, and have had 
legal protections removed.
    I appreciate that you strongly condemned the passage of the anti-
LGBT laws in Nigeria and Uganda. But sadly, despite strong 
international opposition, these laws were enacted.

  <diamond> What more can the United States do to hold countries like 
        Nigeria and Uganda accountable for actions that infringe on the 
        basic human rights of LGBT individuals?

    Answer. We share your concern about the impact of anti-LGBT 
legislation on the human rights of all persons, including members of 
the LGBT community. We continue our close work with LGBT and other 
human rights organizations throughout the world to advance the 
fundamental tenet that LGBT rights are human rights.
    In assessing our approach, we are considering how best to 
demonstrate our support for the LGBT communities in countries where 
their rights are infringed and abuses occur, deter other countries from 
enacting similar laws, and reinforce our commitment to the promotion 
and defense of human rights for all people--including LGBT 
individuals--as a U.S. priority.
    We continue to look at additional steps we may take to work to 
protect LGBT individuals from violence and discrimination, and to urge 
the repeal of such abhorrent laws in countries where they have been 
enacted.

    Question. In March, al-Qaeda-linked fighters attacked Kessab, 
Syria--a town near the Turkish border populated by ethnic Armenians. 
The violence and fighting in Kessab put its Armenian community at risk 
and forced many to flee their homes. In light of this attack, I am 
deeply concerned about the safety and well-being of ethnic Armenians in 
Syria.

  <diamond> Can you provide some additional information about the 
        attack?
  <diamond> What is the United States doing to ensure the safety of 
        ethnic Armenians and other minorities in Syria?

    Answer. The tragedy in Syria is indeed heartbreaking. The Assad 
regime's actions have created a humanitarian catastrophe of enormous 
proportion. Helping to end the tragic suffering of all Syrian people 
remains a top priority for the United States. To that end we are 
devoting significant resources to address the humanitarian situation, 
including assisting refugees and internally displaced persons. We also 
recognize the importance of ensuring that Armenian Christians can 
continue to live and flourish in the land of their ancestors, and we 
understand that the situation in Kessab is particularly fraught.
    We have reached out broadly to gather more information regarding 
events in Kessab. On April 9, officials from our consulate in Adana, 
Turkey, met with 21 Syrian Armenians from Kessab in the Turkish village 
of Vakifli to ensure they were receiving quality care. Turkish 
residents in Vakifli, with help from the Turkish Government, are 
providing food, clothing, and services for the refugees.
    As we have said throughout this conflict, we deplore threats 
against Christians and other minorities in Syria. We note that the 
Syrian groups fighting in Kessab have issued statements saying they 
will not target civilians and will respect minorities and holy places. 
We expect those commitments to be upheld.

    Question. A legacy of this administration has been its focus on 
women and girls as a cornerstone of foreign policy. I was pleased that 
the President's budget request continues to prioritize investments in 
international family planning and reproductive health.

  <diamond> How are family planning programs supporting broader global 
        health outcomes and achieving the goals of equality and 
        empowerment of women and girls worldwide?

    Answer. There is solid evidence that demonstrates that access to 
family planning, particularly modern contraception, not only saves 
lives but also empowers women and reduces poverty. Recent research from 
the Guttmacher Institute and U.N. Population Fund (UNFPA) shows that 
meeting the current unmet need for family planning would have dramatic 
effects: unintended pregnancy would decline by two-thirds globally and 
there would be 1.1 million fewer infant deaths. Further, research 
published in The Lancet shows that family planning could prevent up to 
30 percent of the estimated 287,000 maternal deaths that occur every 
year, by enabling women to delay their first pregnancy and space later 
pregnancies at the safest intervals. The prevention of unintended 
pregnancies through family planning is also one of the four prongs of 
the prevention of mother-to-child transmission of HIV, a crucial 
intervention for the U.S. Government goal of Creating an AIDS-Free 
Generation. More often than not, women who can time, plan, and space 
their pregnancies give birth to and raise healthier children; this can 
lead to a reduction of the economic burden on their families and enable 
them to invest more in each child's care and schooling. This in turn 
helps to break the cycle of poverty.
    Many believe that access to family planning is the single greatest 
liberator of women in the last century, allowing important progress 
toward equality and empowerment. Having access to family planning 
services not only directly reduces maternal and child mortality, but 
also supports girls' and women's rights. If girls and women are allowed 
to delay childbearing and achieve their desired family size, they are 
more likely to stay in school, find meaningful employment, and fully 
participate in society. The evidence is overwhelming that gender 
equality and women's meaningful empowerment is inextricably tied to 
promoting women's rights, including their right to choose if, when, and 
how often to have children and their right to have control over and 
decide freely and responsibly on matters related to their sexuality. 
Moreover, poor sexual and reproductive health has a negative impact on 
the overall health and sustainability of a community, including lower 
enrollment in school, reduced labor productivity, and unpredictability 
in structure and size of a population.
    Therefore, it is a U.S. foreign policy priority that women and 
girls everywhere are able to decide for themselves on matters related 
to their own reproductive lives. Through USAID, the U.S. Government 
advances and supports voluntary family planning and reproductive health 
programs in more than 45 countries around the globe. As a core partner 
in the Family Planning 2020 Initiative, the U.S. Government is 
committed to working with the global community to reach an additional 
120 million women and girls with family planning information, 
contraceptives and other commodities, and services by 2020. The U.S. 
Government will continue to support access to sexual and reproductive 
health services for girls and women, especially voluntary family 
planning, as essential to advancing gender equality, promoting 
sustainable economic development, and contributing to the U.S. 
Government's goals of Ending Preventable Child and Maternal Deaths and 
Creating an AIDS-free Generation.

    Question. Keystone XL Pipeline--More and more health groups--
including National Nurses United, the American Public Health 
Association, and the National Association of County and City Health 
Officials--are joining the call Senator Whitehouse and I made for an 
in-depth health impact study on the effects of more tar sands oil 
coming into our country.
    Clearly, the Keystone XL pipeline will greatly increase the amount 
of this dirty, filthy carbon polluting oil entering the country. 
Doctors from Canada are telling us that there have been increased 
incidents of certain cancers in the region close to tar sands mining. 
In our country, community activists have come forward publicly to talk 
about the illnesses and other negative impacts from tar sands oil 
refining in places like Port Arthur, TX, and the open storage of the 
tar sands waste byproduct pet coke in places like Chicago.
    Knowing of your deep concern for the health and safety of the 
American people and your understanding that your decision must be in 
the ``national interest,'' I am assuming that you will take this 
request for an in-depth health impact study to heart and will not make 
a decision on the Keystone XL pipeline until such an in-depth study is 
completed.

  <diamond> Will you comment on this?

    Answer. The Department of State has considered the potential for 
impacts on human health throughout its review of the Keystone XL 
Presidential Permit application. The Final Supplemental Environmental 
Impact Statement includes information about potential health impacts of 
the project. The best available science on potential health impacts 
pertaining to the proposed project will be considered as part of the 
National Interest Determination, along with many other factors.
    The Final Supplemental Environmental Impact Statement (Final 
Supplemental EIS) took peer-reviewed research into account to examine 
the proposed Project's potential impacts on human health in several 
areas. Section 4.13, Potential Releases, examines potential health 
risks associated with exposure to crude oil and other relevant 
chemicals, were there to be a spill. Section 4.12, Air Quality and 
Noise, addresses air pollution that would be associated with the 
construction and operation of the proposed Project. Section 4.15, 
Cumulative Effects Assessment and Extraterritorial Concerns, describes 
potential changes in pollution associated with refineries. Section 4.15 
also examines potential human health impacts in Canada associated with 
oil sand development and pipeline construction and operation.
    The current phase of the Presidential Permit review process focuses 
on whether the proposed project would serve the national interest. In 
addition to considering the best available science, the Department is 
taking into account information provided by federal agencies and other 
interested parties as well as comments submitted during the public 
comment period. The Department is consulting with the eight agencies 
identified in Executive Order 13337: the Departments of Defense, 
Justice, Interior, Commerce, Transportation, Energy, Homeland Security, 
and the Environmental Protection Agency. We are also reviewing and 
appropriately considering the unprecedented number of new submissions, 
approximately 2.5 million, received during the public comment period 
that closed on March 7, 2014.
                                 ______
                                 

      Responses of Secretary of State John F. Kerry to Questions 
                  Submitted by Senator James E. Risch

    Question. As you are aware one of the national security gems that 
we have in Idaho is the Idaho National Lab (INL). At INL they have a 
project called the Wireless Test Bed, which allows different government 
agencies to go out and test how devices that are just that--wireless. 
We can't get into all the details in this setting, but my understanding 
is that the State Department is looking at making a small investment in 
the test bed and going out and using it to conduct some force 
protection type of tests.

  <diamond> Would you be able to check on the status of this and get me 
        an update on that?

    Answer. There are ongoing discussions between the U.S. Army Program 
Office for Counter Radio Controlled Improvised Explosive Device 
Electronic Warfare and the Joint Improvised Explosive Device 
Organization regarding the need for ``Wireless Test Bed Technology.'' 
While the Department may make use of ``Wireless Test Bed Technology,'' 
the Department will not be investing in the test bed infrastructure at 
the Idaho National Lab. The Idaho National Lab test facilities and 
required infrastructure the Department uses are owned and operated by 
the Department of Defense.

    Question. The President's budget request included $370 million in 
economic assistance for the West Bank and Gaza which supports economic 
development, humanitarian needs in Gaza as well as increasing the 
capacity of the PA to meet the needs of its own people through budget 
support. In light of President Abbas' decision last week to return to 
unilateral measures, if the Palestinians continue forward in the 
international arena, what will be the consequences for U.S. assistance 
to the Palestinians?

    Answer. Assistance to the Palestinian people is an essential part 
of the U.S. commitment to a negotiated two-state solution for 
Palestinians and Israelis, promoting a comprehensive peace in the 
Middle East. It is in the interest of the United States to ensure these 
efforts continue as they help to build a more democratic, stable, 
prosperous and secure region.
    The Department of State, Foreign Operations, and Related Programs 
Appropriations Act for Fiscal Year 2014 enables continued economic 
assistance to the Palestinian Authority. We continue to abide by the 
complex legal authorities with respect to providing foreign assistance 
to the PA.
    The United States continues to strongly oppose unilateral actions 
that seek to circumvent or prejudge outcomes that can only be reached 
through negotiations, including Palestinian statehood. As President 
Obama has said, there are no shortcuts to statehood. We oppose such 
measures and believe the only way to a two-state solution is through 
direct negotiations between the two parties.
    U.S. economic assistance serves as a critical stabilizing force for 
the PA, enabling it to leverage contributions from other donors. Our 
economic assistance also supports an economically viable PA and 
Palestinian state-building, through programs that advance democracy and 
good governance; security and rule of law; education; health and 
humanitarian assistance; private enterprise; and water resources and 
infrastructure. U.S. security assistance is helping to create 
professional and competent Palestinian Authority Security Forces that 
can enhance stability and combat terrorism in the West Bank, which 
serves our overall policy goal of achieving a two-state solution. Taken 
together, U.S. assistance is essential to ensuring that the necessary 
Palestinian institutions are developed that will help build a more 
democratic, stable, and secure region.

    Question. In the FY14 Omnibus appropriations bill, we included new 
language linking any disbursement of economic aid to the Palestinians 
to a certification by you that the Palestinian Authority is acting to 
counter incitement of violence against Israelis and is supporting 
activities aimed at promoting peace, coexistence, and security 
cooperation with Israel.

  <diamond> What steps is the PA taking that will help to condition the 
        environment for peace?
  <diamond> In what ways are they reaching out to prepare their own 
        people for peace--for recognition of Israel as a Jewish state, 
        for compromise on important final status issues like refugees 
        and Jerusalem?

    Answer. The Palestinian Authority (PA) is taking steps to condition 
the environment for peace and to counter incitement to violence. 
President Abbas regularly speaks publicly in support of tolerance and 
nonviolence. In mid-February, Abbas hosted 300 Israeli students in 
Ramallah, where he emphasized the need for a peaceful resolution to the 
Israeli-Palestinian conflict. In his remarks, which were later 
broadcast on Palestinian television, he discussed several final status 
issues including Jerusalem, borders, recognition of Israel as a Jewish 
state, and refugees.
    Abbas also appointed Mohammed al-Madani to serve as the head of the 
``Palestinian Committee for Interaction with Israeli Society.'' Al-
Madani facilitated the first visit of Palestinian officials to the 
Knesset in July 2013, and recent meetings between Fatah and Israeli 
officials in Ramallah and Budapest.
    The impact of the PA's effort is visible throughout Palestinian 
society. For example, in the education sector, the PA has made 
significant progress in the past two decades by revising official PA 
textbooks in order to remove instances of incitement to violence. As 
part of the post-Oslo process, between 1996 and 2005, the PA began 
introducing new textbooks that included many references to promoting 
values of reconciliation, human rights, religious tolerance, respect 
for the law, diversity, and environmental awareness, and has replaced 
textbooks for all 12 grades. A succession of studies has found that the 
new textbooks represent a significant improvement and constitute a 
valuable contribution to the education of young Palestinians, and in 
general, concluded that the new textbooks eliminated a number of 
negative references to Israel and Jews and made attempts to promote 
tolerance.
    The PA also monitors the content of Friday sermons delivered in 
over 1,600 West Bank mosques to ensure they do not endorse incitement 
to violence. The PA Minister of Awqaf and Religious Affairs prohibits 
speech that is likely to lead to incitement to violence.
    The PA leadership, under President Mahmoud Abbas, remains committed 
to nonviolence and a peaceful solution to the Israeli-Palestinian 
conflict. The Palestine Liberation Organization (PLO) has recognized 
the existence of the State of Israel since 1993, and in international 
fora and in bilateral contacts the PA leadership has insisted on 
recognition of Israel even while others have sought to delegitimize 
Israel. Abbas stated in his September 2012 speech at the United Nations 
General Assembly that ``The two-State solution, i.e., the State of 
Palestine coexisting alongside the State of Israel, represents the 
spirit and essence of the historic compromise embodied in the Oslo 
Declaration of Principles.''

    Question. In the past we've discussed an issue with the 
Intermediate-Range Nuclear Forces (INF) Treaty. As you know, this is 
something that my colleagues and I take very seriously. While I don't 
want to get into the classified portion of this, I would like to know 
whether you have personally spoken with your counterpart, Foreign 
Minister Lavrov about this important issue? And if not will you raise 
this issue with him the next time you both meet?

    Answer. I have personally raised treaty compliance issues broadly 
with Russia, and Under Secretary of State Rose Gottemoeller has 
discussed our specific INF concerns directly with her Russian 
counterpart. Other senior officials have also raised the matter with 
Russia and will continue to do so. We will continue to press Russia for 
clear answers, at senior levels, in an effort to resolve our concerns. 
We are committed to keeping Congress informed of treaty compliance 
matters and developments, and will stay in close touch with you and 
your colleagues on these matters.

    Question. I'm concerned about harassment of U.S. personnel working 
out of the U.S. Embassy in Moscow by local Russian security services. 
My understanding is that incidents are at an all-time high and that 
it's not just U.S. personnel working in the embassies, but also extends 
to their families. Isn't it time that we take steps to reduce this? A 
good start would be by replacing some of the locally hired security 
force, especially the supervisors, with cleared U.S. personnel. When 
will we do this--I hope it isn't after harassment crosses the line into 
violence.

    Answer. The safety of U.S. citizens abroad, including our Chief of 
Mission personnel and their families, is of the utmost importance to 
the Department of State. The administration is deeply troubled by 
harassment of U.S. Embassy personnel by Russian security services, and 
we have repeatedly expressed these concerns to the Russian Government.
    In response to your specific question, I am pleased to inform you 
that, like other U.S. embassies, the Local Guard Force (LGF) in Russia 
is already supervised by cleared American personnel. The Regional 
Security Officer (RSO), a Diplomatic Security Special Agent, manages 
security operations at U.S. missions abroad, including overseeing the 
vetting, hiring, training, and supervision of local guard personnel.
    We are happy to offer a more in-depth briefing on this important 
issue in an appropriate setting.

    Question. Given Russia's recent and increasingly belligerent 
actions on the world stage, do you believe that the U.S. should be 
making any concessions to Russia vis-a-vis the Open Skies Treaty?

    Answer. Today, the Open Skies Treaty contributes to European 
security and aids the efforts of the United States and our partners by 
providing releasable images and information on Russian and other 
forces. The United States and other countries have conducted Open Skies 
Treaty flights throughout the Ukraine crisis, providing insight into 
Russian military activity. In addition, Russia accepted an 
extraordinary flight by Ukraine in mid-March. At Kyiv's request, the 
United States and other Treaty Partners have also conducted multiple 
Open Skies flights over Ukraine to provide insight into developments in 
the eastern part of the country. Open Skies flights provide a source of 
unclassified images and information on Russian military deployments and 
the ongoing situation in Ukraine that we can share with Treaty 
Partners. A fully functioning Open Skies Treaty is one of the few 
transparency and confidence-building tools available to the United 
States and our allies during this crisis.
    The United States has emphasized to Russia at senior levels that 
implementation of arms control agreements should continue, even in 
difficult political times. In the case of the Open Skies Treaty, 
continued implementation, including good-faith consideration of 
Russia's certification of digital sensors, serves both current and 
future U.S. interests. The transition to digital sensors represents 
normal implementation of the Open Skies Treaty. The Open Skies Treaty 
permits the introduction of new sensor technology, and since the Second 
Review Conference for the Open Skies Treaty in June 2010, the States 
Parties, including the United States, have recognized that the 
transition from obsolete wet film-based cameras to digital sensors is 
key to maintaining the long-term viability of the Treaty. Many Treaty 
parties, including the United States and several NATO allies, as well 
as Russia, are planning to develop and certify digital sensors in the 
next few years.

    Question. The current developments in Ukraine point to the 
importance of the principle of territorial integrity for the stability 
of the international legal order. It is very concerning that Russia 
uses and supports separatist movements in Nagorno-Karabakh, South 
Ossetia, Abkhazia, Transnistria, and now Crimea to leverage former 
Soviet Republics and hinder their integration to the Euro-Atlantic 
institutions, with the hope of eventually forcing them into the 
Eurasian Union. To counter this, the U.S. should consistently stand for 
the territorial integrity of our partners in this region and provide 
them with the necessary support against Russian intimidation. Our 
consistency in upholding the principle of territorial integrity is 
crucial to make it credible.

  <diamond> Given these issues, what policy changes is the 
        administration taking to counter Russian pressure to undermine 
        sovereignty and territorial integrity of our partners like 
        Ukraine, Georgia, Azerbaijan, and Moldova?

    Answer. The United States stands firmly behind the sovereignty and 
territorial integrity of our partners in the region, and has made clear 
our strong and public support of these principles. We are actively 
engaged in negotiations that seek to resolve each partner's territorial 
conflicts in a manner consistent with the core principles of the U.N. 
Charter and the Helsinki Final Act. With respect to Moldova's 
Transnistrian region, the United States is actively encouraging the 
parties to the 5+2 format to reach a comprehensive settlement that 
affirms Moldova's sovereignty and territorial integrity, while 
providing a special status for Transnistria. As a participant in the 
Geneva International Discussions on the conflict in Georgia, we are 
working to hold Russia to its 2008 cease-fire commitments, improve the 
security situation along the administrative boundary lines, and address 
the humanitarian needs of people living in conflict-affected areas. As 
a cochair of the OSCE Minsk Group, the United States is working to help 
the sides reach a durable and peaceful settlement to the Nagorno-
Karabakh conflict.
    In the case of Russia's occupation of Crimea, we have sanctioned 
Russia and worked to isolate it globally to make it clear to Moscow 
that its actions are unacceptable. Our strong support for the March 24, 
2014, United Nations General Assembly resolution on the territorial 
integrity of Ukraine was but the latest opportunity to reaffirm this 
position, and to join the General Assembly in calling on all states to 
desist and refrain from actions aimed at the partial or total 
disruption of the national unity and territorial integrity of Ukraine.

    Question. In Georgia we have witnessed an increasing trend of 
interrogations and prosecutions of current and former government 
officials for what appears to be political reasons. At the same time 
Georgia continues to ask for a NATO Membership Action Plan with the 
hope of ultimately becoming a member. Do you believe issues regarding 
the rule of law and political prosecutions could jeopardize Georgia's 
aspirations? What measures should the U.S. use to help Georgia avert 
this outcome?

    Answer. Answer: We are closely following the investigations and 
prosecutions of former and current Georgian officials. We continue to 
stress to the highest levels of the Georgian Government the importance 
of conducting investigations and prosecutions of serious allegations 
with full transparency and respect for due process and the rule of law, 
as well as the importance of promoting justice while avoiding any 
perception or reality of political retribution.
    At the recent meeting of the NATO-Georgia Commission at the NATO 
Foreign Ministerial, the United States made clear to the Georgians that 
the nature and timing of their recent actions are problematic. Other 
allies echoed this sentiment.
    The alliance committed in Bucharest to supporting Georgia's 
aspirations to join NATO. To assist in attaining that goal, it provides 
mentorship through the development of mutually agreed Annual National 
Programs, evaluation processes, and support for internal reforms. The 
United States supplements NATO's efforts with bilateral support of 
Georgian defense modernization, professionalization of the armed 
forces, and anticorruption initiatives. In Tbilisi, our Embassy and the 
NATO Liaison Office cooperate in efforts to support the Georgians in 
their pursuit of NATO membership.
    We continue to support Georgia's efforts to build consensus within 
the alliance for granting it a Membership Action Plan.

    Question. In May 2012, then Secretary of State Clinton said, ``I 
believe this [NATO] summit should be the last summit that is not an 
enlargement summit.'' While some nations are in various stages along 
the path to membership, Montenegro appears to be an ideal candidate to 
make the summit in Wales an enlargement summit, having made significant 
progress in security and defense reforms, the rule of law and public 
support.

  <diamond> What specifically do you believe Montenegro still needs to 
        do to qualify for an invitation in September? Will you commit 
        to U.S. leadership in supporting Montenegro to overcome any 
        remaining issues, and in mobilizing allies to secure an 
        invitation at the Wales summit?

    Answer. The United States and our allies remain committed to the 
Open Door policy and look forward to welcoming new members when they 
are ready. We fully support Montenegro's path to NATO membership. 
Through NATO and bilateral channels, including during the recent visit 
to the United States of Prime Minister Djukanovic, we have encouraged 
Montenegro to make further progress in the areas of judicial reform. In 
addition, Montenegrin public support for NATO remains weak. We have 
commended the current government on its campaign to increase public 
awareness on the benefits and responsibilities of NATO membership, but 
additional work is necessary.
    Montenegro has made great strides in the passing of legislation to 
address corruption and organized crime; the government now needs to 
focus on implementation of this legislation. Our Embassy in Podgorica 
is providing guidance and mentorship in all of these areas.
    The NATO International Staff will present a report on each 
aspirant's progress toward NATO membership at the NATO Foreign 
Ministers' meeting in June. At that time we and other allies look 
forward to a facts-based debate on the readiness of Montenegro and the 
three other aspirant nations.

    Question. There has been a long standing dispute with Argentina and 
its refusal to settle debts it owes to U.S. investors. As you know, 
Argentina has refused to even negotiate with its creditors--presenting 
them only with take-it-or-leave it offer. In addition, Argentina has 
evaded U.S. court judgments it has pledged to respect, openly vowed to 
disobey future court rulings, and even passed a domestic law forbidding 
itself from paying investors what it owes.

  <diamond> Do you agree this makes Argentina a ``uniquely recalcitrant 
        debtor,'' as the Court of Appeals has ruled? What specific 
        steps are you taking to encourage Argentina to normalize 
        relations with its creditors?

    Answer. At every opportunity, the Department urges Argentina to 
repay its debts to the U.S. Government and to engage with its 
creditors, both public and private. Argentina owes the U.S. Government 
$600 million and the Department is doing everything it can to recover 
those funds. Thanks in part to our efforts, Argentina recently made a 
repayment proposal to the Paris Club, which is currently under 
consideration. The Paris Club, including the United States, has invited 
Argentina for further discussions in May.
    Faced with Argentina's failure to honor its international financial 
obligations, we have opposed most multilateral development bank lending 
to Argentina (except projects that benefit the poorest). We have 
encouraged Argentina to repair its relationship with the International 
Monetary Fund (IMF). The United States and other Paris Club members 
have also stopped offering export credits to the Argentine Government. 
We will continue to use these and other policy tools to urge Argentina 
to fulfill its international financial responsibilities and normalize 
its relationship with creditors.
                                 ______
                                 

      Responses of Secretary of State John F. Kerry to Questions 
                    Submitted by Senator Marco Rubio

    Question. Cuba.--According to Human Rights Watch's 2014 Annual 
report: ``The Cuban Government continues to repress individuals and 
groups who criticize the government or call for basic human rights . . 
. The government controls all media outlets in Cuba and tightly 
restricts access to outside information, severely limiting the right to 
freedom of expression.''

  <diamond> Do you agree with that statement?

    Answer. While we welcomed the Cuban Government's decision in 2010 
and 2011 to release dozens of political prisoners with the support of 
the Spanish Government and the Catholic Church, human rights conditions 
in Cuba remain poor. The Cuban Government continues to limit 
fundamental freedoms, including freedoms of expression and peaceful 
assembly. We remain deeply concerned by the Cuban Government's repeated 
use of arbitrary detention, at times with violence, to silence critics, 
disrupt peaceful assembly, intimidate independent civil society, and 
stifle peaceful dissent. We condemn the use of force against citizens 
peacefully exercising their human rights, and we believe all Cuban 
citizens should have a voice in determining their own future.

    Question. Cuba.--Last week, the Associated Press published a 
sensationalist and ill-informed report on USAID efforts to help the 
Cuban people freely communicate with each other.

  <diamond> Is it in the U.S.' interests to provide the Cuban people 
        the means to exercise freedom of speech in a way available to 
        any student in the free world?
  <diamond> Is it in the U.S.' interests to provide law-abiding 
        citizens the means to communicate freely without government 
        censorship?
  <diamond> Is it in the interests of the United States to give people 
        a way to voice their opinions without fear of repression by the 
        security apparatus of one of the oldest dictatorships in the 
        world today?
  <diamond> Would you agree that Cubans working to build an independent 
        civil society and hold the Cuban regime accountable for its 
        violations of internationally accepted human rights risk their 
        lives?
  <diamond> Has the administration taken any steps to investigate the 
        leak of USAID's efforts to help Cubans communicate freely with 
        each other?

    Answer. President Obama has made clear that the primary U.S. policy 
objective in Cuba is to support the Cuban people's desire to freely 
determine their future. The administration has improved conditions for 
Cuban citizens through initiatives aimed at increasing the free flow of 
information to, from, and within the island
    Cuban authorities continue to deny the Cuban people their human 
rights, including through repression of Cubans seeking to advance 
peacefully civil society and human rights. President Obama stated that 
he will continue to stand up for those rights and encourage others to 
do so as well. The Cuban Government limits access to the Internet to a 
small number of professionals and party faithful, and employs 
monitoring and blocking technologies to further restrict Internet 
freedom, making Cuba among the least-connected countries in the world.
    The Cuban people deserve the right to freely express themselves and 
the right to petition their government. U.S. assistance supports the 
Cuban people's desire to freely determine their future through programs 
that promote democratic principles, foster the development and training 
of independent Cuban civil society, provide humanitarian assistance to 
victims of political repression and their families, support Cuban-led 
efforts to promote increased respect for human rights and document 
human rights violations, and promote fundamental freedoms.
    We continue to think creatively about how to provide people in Cuba 
with the information and tools they need to facilitate a vibrant civil 
society, to enhance their ability to determine their own future, and to 
secure their human rights. We look forward to the day when all Cubans 
can freely express their ideas and opinions and assemble freely.

    Question. Cuba.--American humanitarian worker Alan Gross has now 
been a hostage of the Cuban Government for 1,588 days, almost 4\1/2\ 
years. Mr. Gross has been unjustly imprisoned for helping the Jewish 
community in Cuba get uncensored access to the Internet. Despite his 
fragile health, Mr. Gross has been on hunger strike for at least a week 
in protest for the inaction of our government to resolve his ordeal.

  <diamond> Has the time come for the U.S. Government to begin applying 
        pressure on the Cuban Government to unconditionally release 
        Alan Gross?

    Answer. Alan Gross has been imprisoned by Cuban authorities for 
more than 4 years for facilitating uncensored Internet access between a 
small religious community on the island and the rest of the world. The 
State Department has kept Mr. Gross' case at the forefront of 
discussions with the Cuban Government and made clear the importance the 
United States places on his welfare. President Obama has engaged 
foreign leaders and other international figures to use their influence 
with Cuba to call for Mr. Gross' release so he can be reunited with his 
family. We have made abundantly clear to Cuban officials our position 
that Mr. Gross ought to be released immediately and will continue our 
diplomatic efforts to achieve this.

    Question. Cuba.--Last summer, the Cuban regime was caught smuggling 
over 240 tons of weapons to North Korea, in violation of international 
law. This was the largest interdiction of weapons to or from North 
Korea since United Nations sanctions were imposed. Moreover, it was the 
first time a country in the Americas has been found guilty of violating 
international sanctions. We continue hearing about Iranian and Russian 
activities in the Western Hemisphere, about which we should remain 
vigilant. However, it seems clear that if we allow this egregious 
violation pass without consequences, it would only embolden other rogue 
actors to pursue and foment dangerous and illegal activities in the 
Western Hemisphere.

  <diamond> What is the effect of Cuban-North Korean actions on the 
        international nonproliferation regime?
  <diamond> What changes to U.S. policy toward Cuba and North Korea 
        have occurred because of this violation of multiple U.N. 
        Security Council resolutions?

    Answer. The Chong Chon Gang case was a clear attempt by North Korea 
to violate U.N. sanctions and circumvent the international 
nonproliferation regime, but because of the responsible actions of 
Panama, the shipment was discovered and disrupted. North Korea and Cuba 
were embarrassed on the world stage and paid a significant price in 
terms of seized cargo and other financial penalties.
    We used this incident to advance our nonproliferation objectives. 
We continue to work closely with the U.N. Security Council's DPRK 
Sanctions Committee to shine a light on all aspects of this violation 
and to ensure that all violators of U.N. sanctions are held accountable 
for their actions.
    In March, the United States along with like-minded states, pushed 
to make the Panel of Experts annual Final Report on the incident 
public. This report described the Panel findings on the Chong Chon Gang 
violation, including details demonstrating that the actors involved in 
the shipment tried to conceal its illicit nature. The report was 
released in March and is on the committee's Web site.
    We, along with several U.N. member states, made clear that this 
shipment violated sanctions and that Cuba's interpretation of U.N. 
Security Council resolutions is incorrect. Over the last few months, we 
have been consulting with Council members about an appropriate 
response. We will review the final results of the U.N. process before 
considering other policy steps, but we anticipate the Security 
Council's DPRK Sanctions Committee will take some actions, including 
the release of a public statement on the incident that will rebuke 
Cuba's position. U.S. policy remains insistent that all countries, 
including Cuba, implement fully their legal obligations to enforce U.N. 
sanctions.

    Question. At a hearing last week, Assistant Secretary of State for 
East Asian and Pacific Affairs Daniel Russel was unwilling to reaffirm 
that President Reagan's so-called ``Six Assurances'' regarding Taiwan, 
although he clarified his comments after the hearing when asked about 
the same question by journalists. Given recent efforts by China to 
imply that U.S. policy toward Taiwan has changed, I wanted to get your 
comments regarding this on the record.

  <diamond> Can you reaffirm that this administration remains committed 
        to President Reagan's ``Six Assurances'' as a core component of 
        our policy toward Taiwan?

    Answer. The United States remains firmly committed to the one-China 
policy, the three U.S.-China Joint Communiques, and our 
responsibilities under the Taiwan Relations Act. The United States also 
remains firmly committed to its ``Six Assurances'' to Taiwan. Taken 
together, these commitments and assurances form the foundation of our 
unofficial relations with Taiwan.
    The United States has long maintained that cross-strait differences 
are matters to be resolved peacefully, without the threat or use of 
force, and in a manner acceptable to the people on both sides of the 
Taiwan Strait. There is no change in our position. Our commitments and 
assurances to Taiwan are firm and long-standing.

    Question. As you know, Prime Minister Abe is exploring the 
possibility of a change to the interpretation of Japan's Constitution 
which would allow Japan to carry out military activities to provide for 
collective self-defense. This would benefit U.S. and other allied 
militaries in crisis situations given that the Japan Self Defense 
Forces are currently not allowed to intervene to defend allied 
militaries unless they are directly attacked.

  <diamond> Is this administration supportive of this effort?

    Answer. Constitutional revision or reinterpretation is strictly a 
matter for Japan to decide for itself. With that being said, the United 
States recognizes Japan's long-standing commitment to regional and 
global peace and stability, and we welcome Japan's efforts to play a 
more proactive role in the alliance, including by reexamining the 
interpretation of its constitution relating to the exercise of the 
right of collective self-defense. To be clear, collective self-defense 
is a right that is enshrined for all nations in the U.N. charter. It 
allows for a nation to act to protect a second nation against 
aggression by a third. Since Japan's Constitution renounces war as an 
instrument of foreign policy, some have interpreted this as limiting 
Japan's exercise of its right of collective self-defense, and this is 
what the Japanese Government is studying.
    We also support expanding the role of the Japan Self Defense Forces 
within the framework of the alliance, investing in cutting-edge 
capabilities, improving interoperability, modernizing force structure, 
and adapting alliance roles and missions to meet contemporary and 
future security realities. We note Japan's outreach to explain its 
security policies, including by sending officials to foreign capitals. 
We appreciate these efforts by Japan to be transparent as it implements 
its evolving defense policies. However, overall we see this as an 
example of the Government of Japan taking positive steps to increase 
its ability to contribute to the alliance and to international and 
regional security and stability.

    Question. The U.N. Commission of Inquiry (COI) on human rights in 
North Korea issued its report last month, finding that there was 
``abundant evidence'' of crimes against humanity in that country. What 
is the administration doing to follow through on the report's 
recommendations?

    Answer. We remain deeply concerned about the deplorable human 
rights situation in the DPRK and the welfare of the North Korean 
people. We strongly support the Commission's final report, including 
its calls for accountability for the perpetrators of the ongoing, 
widespread, and systematic violations of human rights taking place in 
North Korea. In March 2013, the United States cosponsored, along with 
Japan, the European Union, and the Republic of Korea, the U.N. Human 
Rights Council (HRC) resolution that established the Commission. On 
March 28 this year, the United States was proud to cosponsor the HRC 
resolution that passed overwhelmingly. In the resolution, the HRC 
condemned the DPRK's abuses, renewed the mandate of the Special U.N.'s 
Rapporteur for human rights abuses, and called for accountability for 
those responsible for human rights violations.
    We support the Human Rights Council recommendation that the U.N. 
General Assembly forward the Commission's final report to the U.N. 
Security Council for its consideration, and we continue to work closely 
with a broad range of partners across the international community to 
sustain attention on the deplorable human rights situation in North 
Korea and to seek ways to hold the regime accountable for its abuses. 
Our Special Envoy for North Korean Human Rights, Robert King, has urged 
the Office of the High Commissioner to establish a field-based 
mechanism to follow up on the Commission's important work by continuing 
to monitor and document human rights abuses in the DPRK. Deputy 
Secretary William Burns met April 14 with the Hon. Michael Kirby, 
former chair of the COI, to discuss how to sustain international 
attention on the issue and how to hold accountable those responsible 
for human rights violations in the DPRK. And on April 17, Ambassador 
Samantha Power, representing the United States--together with French 
and Australian officials--convened an Arria-formula meeting for U.N. 
Security Council members to discuss the DPRK human rights situation 
with the Commissioners. This meeting was a further testament to the 
growing international consensus that the human rights situation in the 
DPRK is unacceptable.

    Question. The administration's sanctions against Russia seem to 
have paused, even though Russian provocations continue. When will the 
next round of sanctions occur and what is the administration doing to 
increase pressure on Moscow?

    Answer. We are continuing to apply pressure on Russia for its 
military intervention in Ukraine, purported annexation of Crimea, 
ongoing violation of Ukraine's sovereignty and territorial integrity, 
breach of core obligations under international law, and threat to 
international peace and stability. We will not recognize Russia's 
purported annexation of Ukraine's territory. On April 11, we 
significantly escalated sanctions to include Crimean separatist leaders 
and a company that was involved with the misappropriation of Ukrainian 
state assets. The consequent uncertain business climate has already 
had, and will continue to have, significant consequences for Russian 
interests. Whenever necessary to advance our goals, we will continue to 
increase the pressure and the costs for actors associated with Russia's 
occupation of Ukraine and work closely with our allies and partners so 
that sanctioned individuals will experience the full costs of the 
sanctions. We are applying sanctions and diplomatic pressure in an 
effort to persuade Russia to de-escalate the situation. Russia's 
implementation of de-escalation measures will be key. Russia must know 
that further escalation will only isolate it further from the 
international community.

    Question. What is the status of the administration's response to 
Ukraine's reported request for lethal assistance to its military? What 
will have to happen before we are willing to send a strong message of 
support to the interim government in Kiev about our willingness to 
stand by them in their time of need?

    Answer. On April 22, 2014, the White House announced the provision 
of $8 million of nonlethal military assistance to allow the Ukrainian 
Armed Forces and State Border Guard Service to fulfill their core 
security missions, including explosive ordinance disposal equipment, 
handheld radios, engineering equipment, communications equipment, 
vehicles, and nonlethal individual tactical gear. Additionally, the 
United States is moving forward on a plan to deliver an additional $3.5 
million in assistance to the Ukrainian Ministry of Defense to include 
medical equipment, water purification systems, and other basic 
nonlethal items. On March 29, the U.S. delivered about 330,000 MRE 
rations to Ukraine. We continue to review possible additional 
assistance as well.
    Since 1997, the United States has provided military assistance to 
Ukraine through Foreign Military Financing (FMF). FMF in recent years 
has focused on supporting defense reforms, increasing the 
interoperability of Ukrainian forces, and expanding Ukraine's 
deployable peacekeeping capabilities. We continue to work with Ukraine 
to determine requirements across the security sector. Based on those 
requirements, we will review additional options for providing security 
assistance where needed.

    Question. The New York Times and The Daily Beast have recently 
reported on Russian violations of the 1987 Intermediate-Range Nuclear 
Forces Treaty (INF Treaty) with the United States, which were not 
previously disclosed by the Obama administration. The INF Treaty bans 
Russia from testing, producing, and possessing medium-range missiles 
capable of carrying nuclear warheads--in other words, nuclear-armed 
missiles that would most directly threaten our allies in Europe. The 
Obama administration has reportedly known about Russia's violations 
since 2012.

  <diamond> Why were Russia's alleged or actual violations of the INF 
        Treaty not disclosed in the State Department's unclassified 
        compliance reports?
  <diamond> Have you personally raised these concerns about Russian 
        compliance with your Russian counterpart? If so, what has been 
        the response?
  <diamond> If Russia is in violation of the INF Treaty, why should the 
        United States remain a party to this treaty?

    Answer. The Administration takes treaty compliance very seriously 
and, as directed by law, produces the Annual Report to Congress on 
Adherence to and Compliance with Arms Control, Nonproliferation, and 
Disarmament Agreements and Commitments. This administration has 
produced this Compliance Report every year since taking office. The 
2014 Compliance Report, in both classified and unclassified versions, 
will be delivered later this spring. We will keep Congress informed 
through briefings with relevant congressional committees.
    Under Secretary of State Rose Gottemoeller has discussed our 
specific INF concerns directly with her Russian counterpart. Other 
senior officials have also raised the matter with Russia and will 
continue to do so. We will continue to work with Russia to resolve this 
issue.
    We value the INF Treaty and believe that the treaty benefits the 
security of the United States, our allies, and Russia. For that reason, 
we will make every effort to resolve any concerns we have about Russian 
compliance and to ensure the continued viability of the treaty.

    Question. What steps are you taking to break the logjam on NATO 
accession and ensure that NATO remains open for new members at the 
summit in September?

    Answer. The United States and our allies remain committed to the 
Open Door policy and look forward to welcoming new members, when they 
are ready. The alliance's standards are high and should remain so. 
However, the alliance does not leave aspirant nations stranded or 
without guidance. It mentors aspirants through the development of 
mutually agreed Annual National Programs, evaluation processes, and 
support for internal reforms. NATO takes a tailored approach with its 
mentorship, recognizing that each aspirant's path to NATO membership is 
unique. Following a U.S. Government proposal, the NATO International 
Staff will present a report on each aspirant's progress toward NATO 
membership at the NATO Foreign Ministers' meeting in June.

    Question. There have been press reports that the administration has 
decided to accede to the Ottawa Treaty. What is the status of the 
administration's review of this issue? Do you share the view of 
Chairman of the Joint Chiefs Dempsey recent testimony that landmines 
are ``an important tool in the arsenal of the Armed Forces of the 
United States?''

    Answer. With respect to consideration of U.S. landmine policy, as 
we indicated at the most recent Ottawa Meeting of States Parties in 
December 2013, we are pressing forward to bring that work to closure. 
While I cannot comment on internal deliberations, I can confirm we are 
carefully considering all issues related to antipersonnel landmines, 
including military utility and humanitarian concerns.

    Question. Earlier this year, DNI Clapper testified to Congress that 
``Hezbollah has increased its global terrorist activity in recent years 
to a level that we have not seen since the 1990s.'' As I'm sure you 
know, Hezbollah is a proxy of Iran. Has Iranian support for terrorism 
changed in any way since the Joint Plan of Action between the P5+1 
countries and Iran was agreed to in late November?

    Answer. We do not believe there has been a change in Iran's 
behavior since the Joint Plan of Action was agreed to last November. 
Iran continues to support terrorism, promote regional instability, and 
provide the Assad regime in Syria with financial, material, and 
personnel support. In December 2013, the Bahraini Coast Guard 
interdicted a speedboat filled with Iranian weapons and explosives, 
likely destined for Shia oppositionists in Bahrain. The Bahraini Chief 
Prosecutor stated the suspects detained received paramilitary training 
in Iran prior to smuggling the weapons and explosives.
    In March 2014, Israeli naval forces interdicted the Klos C cargo 
ship in the Red Sea along the border of Sudan and Eritrea. The Klos C 
was carrying Iranian weapons and explosives, including long-range M-302 
rockets, likely destined for Palestinian militant organizations in 
Gaza. Iran has denied being behind either of these smuggling attempts.

    Question. In their briefings about the Geneva agreement, White 
House officials specifically said that nothing in the agreement 
prevented the United States ``from imposing new sanctions targeting 
Iran's sponsorship of terrorism or its abysmal human rights record.''

  <diamond> What actions has the administration taken on either front 
        since November 24?

    Answer. In February 2014, the Department of Treasury announced a 
number of new terrorism-related designations linked to Iran. Among 
these were various entities and individuals linked to Mahan Air, a 
private Iranian airline that was designated in October 2011 for its 
support to the terrorist activities of Iran's Islamic Revolutionary 
Guard Corp-Quds Force (IRGC-QF). Also designated were various IRGC-QF 
individuals associated with Iran's activities in Afghanistan. Finally, 
an individual known for supporting al-Qaeda's facilitation network in 
Iran was also designated.

    Question. What does the administration plan to do to address the 
fact that if anything, Iran's actions regarding terrorism and human 
rights have not improved, and in some respects, even worsened, over the 
last 2 months?

    Answer. The U.S. Government continues to raise its voice in support 
of the Iranian people and their desire for greater respect for human 
rights and the rule of law. With our allies, we will continue to 
highlight and condemn Iran's ongoing human rights abuses, which include 
the unlawful killing, torture, and imprisoning of its own people, 
executions in the absence of due process, politically motivated 
repression, harassment of members of ethnic and religious minority 
communities, and its excessive limitations on freedom of expression.
    As part of this work, the United States led lobbying efforts in 
support of the successful March 28 vote on the U.N. Human Rights 
Council resolution extending the mandate of the Special Rapporteur on 
human rights in Iran, a mandate we were instrumental in establishing. 
We will continue to urge the international community to press Iran to 
allow the Special Rapporteur to visit the country and observe its human 
rights conditions directly and freely. We will also continue to lobby 
for the U.N. General Assembly's annual resolution condemning Iran's 
human rights practices. Additionally, we will remain committed to 
documenting Iran's human rights abuses in our annual Human Rights and 
International Religious Freedom Reports, drawing attention to, and 
raising awareness of, the regime's actions.

    Question. Since November 24, has there been any progress in 
obtaining the releases of Americans imprisoned or missing in Iran such 
as Pastor Saeed Abedini, Robert Levinson, or Amir Hekmati?

    Answer. The U.S. Government is dedicated to the return of U.S.-
Iranian dual nationals Saeed Abedini and Amir Hekmati, and U.S. citizen 
Robert Levinson. The President, the Secretary, and Under Secretary 
Wendy Sherman have raised the cases directly with the Iranian 
Government. We have made clear that we are calling on Iran to release 
Mr. Abedini and Mr. Hekmati, to ensure that Mr. Abedini receives 
necessary medical care, and to work cooperatively with us to locate Mr. 
Levinson, so they can be reunited with their families. At our request, 
the Swiss Government, in its role as our protecting power, has also 
continued to raise the issue on our behalf, as have other countries 
that we have asked to press Iran to cooperate on these cases.
    On March 3, Mr. Abedini was transferred to a private hospital for 
medical tests and treatment, although he has not yet received treatment 
or been informed of the results of his tests. His family is permitted 
to visit him during his stay in the hospital. We will continue to 
pursue all available options until all three Americans return home 
safely.

    Question. Last month, you said during testimony in front of the 
House Foreign Affairs Committee, that the administration would make a 
decision about certification of FY14 assistance to Egypt in the 
``coming days.'' Given the ongoing arrests and harassment of NGOs and 
civil society activists, do you think that Egypt meets the requirement 
of ``taking steps to support a democratic transition'' to receive this 
certification?

    Answer. We have consistently expressed, in public and private, that 
the protection of fundamental rights and freedoms is a required 
component of any roadmap to a peaceful democratic transition. We also 
believe that a vibrant and unfettered civil society is necessary for 
Egypt to build the accountable and responsive democratic institutions 
that its citizens have demanded. As such, we have expressed grave 
concern over the politicized arrests, trials, and sentences of civil 
society activists in Egypt and have urged the government to redress 
unjust verdicts, including through pardons, and provide full and 
transparent due process to all accused. We continue to urge the 
Egyptian Government to uphold these democratic principles, many of 
which are enshrined in the new Egyptian Constitution, and to build an 
environment free of threat and intimidation in order to create a stable 
and secure country for all Egyptians. As we monitor the situation in 
Egypt, we will continue to consult with Congress.

    Question. Do you believe that General el-Sisi's decision to step 
down as Minister of Defense and announce his Presidential candidacy 
makes it more or less likely that Egypt will continue to make progress 
in its transition to democracy?

    Answer. We believe that Egypt's next President has another critical 
opportunity to shape Egypt's future for the better. However, this will 
only be possible if they are elected through a credible and transparent 
process, and commit to governing democratically and inclusively and 
upholding the universal rights of all Egyptians. For the past 3 years 
Egyptians have demanded responsive and accountable governance, and 
Egypt's next President has an obligation to meet those aspirations, and 
to ensure that all Egyptians have the ability to exercise their 
universal rights and freedoms without fear of intimidation or 
retribution. We continue to urge Mr. el-Sisi, as well as all other 
Presidential candidates, to remain faithful to the interim government's 
commitment to an inclusive, democratic and peaceful transition as they 
engage in their Presidential campaigns.

    Question. I and other members of the Senate have called for the 
establishment of an overt train-and-equip program by the Department of 
Defense to identify and train moderate elements of the Syrian 
opposition. Would you support such an effort?

    Answer. Any Department of Defense effort to train and equip 
elements of the Syrian opposition would be a significant undertaking. 
The President has repeatedly stated that no options have been taken off 
the table in our pursuit of a political settlement and a durable end to 
the violence in Syria, and I will work to preserve his flexibility and 
policymaking prerogatives as we evaluate the numerous options under 
discussion.
    The administration acknowledges that there can be no military 
solution to the conflict, but we are working with our partners to 
ensure that Syria's moderate opposition gets the help it needs to 
protect civilian populations from regime assault, stabilize territory 
it controls, enable civilian governance and service delivery, and drive 
out extremists. For the Department of State's part, we are providing 
approximately $80 million in nonlethal assistance to vetted, moderate 
armed groups in coordination with the Supreme Military Council (SMC). 
To date this aid has included cargo and pickup trucks, ambulances, 
food, communications gear, generators, tents, blankets, mattresses, 
medical kits and equipment, and specialized equipment such as forklifts 
and backhoes to units in both the north and south of Syria.

    Question. The proposed budget includes $4.35 billion for PEPFAR--
the same amount allocated under fiscal year 2014. With dried up 
pipeline funding, and continued flat funding, the proposed budget 
leaves in question how PEPFAR will scale up treatment and other life-
saving HIV/AIDS services and fulfill the goals set out in the Blueprint 
for an AIDS-Free Generation.

  <diamond> With continued flat-funding for PEPFAR, will we be able to 
        reach our goal of an AIDS-free Generation?

    Answer. The President is strongly committed to creating an AIDS-
free generation and stated on World AIDS Day that ``the United States 
of America will remain the global leader in the fight against HIV and 
AIDS.'' The U.S. provides more than 60 percent of all donor government 
funding to address the pandemic through PEPFAR, in terms of both 
bilateral assistance and multilateral investments through the Global 
Fund to Fight AIDS, Tuberculosis and Malaria.
    However, reaching an AIDS-free generation is a shared goal. No one 
country can do it alone. While we cannot continue alone at the pace we 
were at, with millions more now on treatment, we will continue to 
support all patients who we have initiated on therapy and enroll as 
many new people as we can. We anticipate that countries and other 
entities, including the Global Fund, will work with the United States 
to provide prevention, care, and treatment services.

    Question. In February, the administration announced plans to create 
a new Global Health Security Agenda to prioritize building the global 
capacity to detect global health risks rapidly, prevent them when 
possible, and respond effectively when they occur.

  <diamond> Although this agenda is being primarily lead by the CDC, 
        how will State and USAID partner with CDC on this new Agenda?

    Answer. The Global Health Security (GHS) Agenda is a multifaceted 
interagency effort that includes the State Department and USAID; 
several elements of the Department of Health and Human Services, 
including the Centers for Disease Control and Prevention; the 
Departments of Defense and Agriculture; and the National Security 
Council (NSC). Representatives from these and several other U.S. 
agencies meet regularly and collaboratively under NSC auspices to 
develop and advance the GHS Agenda. The GHS Agenda is intended to first 
and foremost build on existing U.S. Government and international 
investments and commitments, drawing from a diverse pool of U.S. 
Government expertise. The multiple U.S. Government agencies involved in 
the GHS Agenda work closely together not only in Washington, but also 
with host governments overseas under the leadership of the Chief of 
Mission to maximize coordination and cross-agency synergies for maximum 
contribution to the GHS Agenda objectives.
    The State Department has played a particularly active role in 
adapting the GHS Agenda to the global geopolitical context, advising 
which countries and international organizations to invite as partners, 
having our embassies and missions worldwide approach partners through 
diplomatic channels, planning international meetings to advance the 
Agenda, and preparing written materials to support the effort.
    USAID has been a leader over the past decade in promoting an agenda 
of ``prevent, detect, and respond'' that is fully consistent with nine 
objectives elaborated under the GHS Agenda. USAID has taken part in the 
interagency process from the beginning, and has provided input based on 
its long experience in health-related development, as well as how its 
existing and planned assistance programs fit into and advance the GHS 
agenda.

Attachment:

                 Additional Detail on USAID Activities

    USAID has been a leader over the past decade in promoting an agenda 
of ``prevent, detect, and respond'' that is fully consistent with nine 
objectives elaborated under the GHS Agenda. The hallmark of the GHS 
Agenda is its bold commitment to a multisector approach as it 
recognizes that the source of new infectious diseases is most commonly 
found in events and practices that fall outside the scope of 
traditional public health initiatives.
    USAID has a unique and central role among our U.S. Government 
counterparts in implementing the GHS Agenda. The Agency's broad 
bilateral partnerships and its multisector capacities--spanning human 
health, agriculture, food security, the environment, economic growth, 
and education--are the basis for this role. The nine GHS objectives 
accord well with USAID's capacities, and its standing engagement with 
multiple Ministries, underscoring the GHS Agenda's broad multisector 
scope. USAID is now actively identifying opportunities where enhanced 
coordination across its portfolio can directly contribute to the GHS 
Agenda. For example, activities to strengthen surveillance for diseases 
in livestock may be linked to public health disease surveillance. Such 
cross-sector linkages could enable earlier identification and 
mitigation of potential infectious diseases originating in animals 
before they pose a significant threat to human populations. Other areas 
of USAID strengths that applicable to GHS Agenda include:

  <bullet> In the agriculture sector, support for livestock production 
        and biosecurity, animal markets and value chains, training 
        veterinarians and agricultural extension workers, strengthening 
        livestock disease surveillance and veterinary laboratories, and 
        addressing the use of antibiotics in animal feed.
  <bullet> Food security and livelihoods.
  <bullet> In the environmental sector, activities supporting wildlife 
        conservation, conserving biodiversity and forests, sustainable 
        land management, transboundary water management, habitat and 
        climate change.
  <bullet> In higher education, strengthening capacities of 
        professional schools for public health, veterinary medicine, 
        human medicine, and environment.
  <bullet> Disaster preparedness and response.
  <bullet> In human health, immunization, emerging infectious diseases, 
        laboratory strengthening (particularly in the areas of 
        diagnostic capacities, biosafety and quality assurance), and 
        antimicrobial resistance (particularly for antimalarials and TB 
        drugs, and prescriber/user practices).
  <bullet> In addition, USAID's Emerging Pandemic Threats Program has 
        been specifically designed to address the GHS objectives. Its 
        team of technical experts is actively working with USAID 
        missions across the globe to determine how best to link the 
        elements of their bilateral portfolio to maximize opportunities 
        to prevent, detect, and respond to emerging infectious disease 
        threats.

    Question. As part of the Federal Strategic Action Plan on Services 
for Victims of Human Trafficking in the United States for 2013-2017, 
the State Department is supposed to develop procedures for in-person 
registration of domestic workers employed by diplomatic personnel in 
Washington, DC. What is the status of these procedures?

    Answer. Procedures for in-person registration of domestic workers 
employed by diplomatic personnel have been continually discussed at the 
State Department in an interbureau internal working group. The 
Department continues its efforts to implement in-person registration 
while addressing the need for the system to be operational for the many 
non-English speaking domestic workers employed by foreign diplomatic 
personnel. This effort will likely entail additional resources and 
budgetary discussions. However, in the interim the Department is 
preparing to hold a briefing for domestic workers in the Washington, 
DC, area in the fall. This briefing will ensure that domestic workers 
understand their rights and responsibilities, as well as the resources 
available to them should they suffer abuse or mistreatment.

    Question. When does the State Department plan to expand the program 
to domestic workers employed by diplomatic personnel all over the 
United States?

    Answer. The Department does not currently have a date for 
nationwide implementation of an in-person registration system as the 
Department is still working to address language management for the 
multinational population of domestic workers employed by foreign 
diplomatic personnel.

    Question. The Ambassador At Large for International Religious 
Freedom post has been vacant for 6 months. When will this important 
position be filled?

    Answer. Thank you for your leadership in international religious 
freedom. I agree with you on the need to fill this important position. 
The White House is actively working to nominate a strong leader as soon 
as possible.
    In the meantime, the Department continues to work to advance 
religious freedom worldwide through a wide range of efforts, including 
dialogue with foreign government counterparts and ongoing discussion 
with civil society, including religious leaders, people of faith, and 
NGO representatives. Promoting religious freedom is a whole-of-
government effort, and the President and other senior Department 
officials, including myself, our Assistant Secretaries and our 
ambassadors, regularly raise religious freedom concerns around the 
world.

    Question. Due to Pakistan's engagement and toleration of 
systematic, ongoing and egregious violations of freedom of religion, 
would you support the designation of Pakistan as a Country of 
Particular Concern for religious freedom?

    Answer. We are currently reviewing all countries for possible CPC 
designations and I take note of your recommendation to designate 
Pakistan.
    We continue to engage with the Government of Pakistan regarding our 
concerns about the state of religious freedom there. In keeping with 
President Obama's comments at the National Prayer Breakfast making 
clear our opposition to blasphemy laws, we continue to encourage the 
Pakistani Government to work toward repealing discriminatory laws, 
including the blasphemy and anti-Ahmadi laws. We continue to express 
our concerns to Pakistani authorities about the poor state of religious 
freedom. A recent example occurred when Principal Deputy Special 
Representative for Afghanistan and Pakistan Ambassador Jones visited 
Islamabad during the last week of February. We also encourage the 
government to take further concrete action to combat sectarian violence 
and bring perpetrators to justice, and we consistently urge officials 
to ensure that all Pakistanis are free to exercise their universal 
rights, including freedoms of religion, expression, association, and 
assembly.
    In Pakistan, the State Department is funding a variety of programs 
to promote respect for human rights. These programs include projects 
funded by the Bureau of Democracy, Human Rights and Labor that support 
victims of religion-based persecution; promote peaceful coexistence 
between religious groups; and develop school curricula and training 
materials to advance religious freedom, promote mutual respect and 
tolerance, and combat violent extremism.
                                 ______
                                 

      Responses of Secretary of State John F. Kerry to Questions 
                     Submitted by Senator Tom Udall

    Question. The problems in Central America increasingly reverberate 
into the U.S. For example, according to a Los Angeles Times Report from 
last December, the United States is seeing a surge in Central American 
asylum seekers attempting to escape the violence in the region. 
According to the article, over the last 5 years, ``Credible Fear 
applications have increased sevenfold, from just under 5,000 to more 
than 36,000, driven largely by an influx from El Salvador, Honduras, 
and Guatemala.''
    The problem in Central America is complex. While the headlines 
point to drug trafficking and gang violence, the roots of these 
problems are in the lack of educational and economic opportunities, and 
the lack of a strong judicial and law enforcement system that is 
resistant to corruption and can hold violent criminals accountable.

  <diamond> (a). When we have worked with our friends in the region to 
        combat these problems, our work has had results. The Merida 
        initiative in Mexico and Plan Colombia are two such examples. 
        But Central America is not a success story. Why isn't a 
        similar, regional and coordinated approach which deals with 
        economic development, law enforcement and judicial reform to 
        prevent violence on the Department's agenda?
  <diamond> (b). How will a $15 million cut in funding for the Central 
        America Regional Security Initiative over FY13 levels impact 
        our efforts to reduce violence and improve rule of law in the 
        region?

    Answer. Central America faces serious challenges that directly 
impact the United States and our hemispheric goal of economically 
integrated democratic nations collaborating in peace and prosperity. 
Central America suffers from deep poverty, the world's highest murder 
rates, severe judicial impunity, poor governance, drug- and gang-fueled 
violence, and corruption.
    We employ a coordinated approach to combat these systemic problems, 
working with Central American nations through the Central America 
Regional Security Initiative (CARSI) to strengthen institutions to 
counter the effects of organized crime, uphold the rule of law, and 
protect human rights. We believe that the region's needs fall into 
three categories: security, governance, and prosperity. We continually 
refine our engagement to meet the complex and evolving challenges the 
region faces so our assistance will best address regional and 
individual country circumstances.
    U.S. assistance in Central America is complemented by our work with 
North American and other partners under mechanisms such as the North 
America-Central American Integration System (SICA) Security Dialogue 
and the Group of Friends of Central America. The United States and its 
partners consult on how best to combine our resources and work with 
SICA to improve citizen security and combat transnational organized 
crime while enhancing the effectiveness of our bilateral assistance.
    The decrease to the FY 2015 CARSI request does not reflect a 
decrease in the priority the United States places on Central America. 
We are requesting a 19-percent increase for USAID programs from the 
$50.6 million FY 2013 level. The increase will enable us to support 
community-based approaches to preventing youth violence and 
strengthening criminal justice systems in the region. The 26-percent 
decrease from the $95 million FY 2013 level in International Narcotics 
Control and Law Enforcement (INCLE) assistance reflects the conclusion 
or nationalization of various projects, a strategic shift from 
procurement-heavy to training-specific projects, and our capacity to 
draw from existing resources in pipeline. The request will sustain 
current and planned programing. We are mindful that our future requests 
need to reflect our efforts to refocus and refine engagement to promote 
prosperity and good governance in addition to security.

    Question. Russia has significant leverage over Europe through its 
natural gas resources. Natural gas also has potential to be a valuable 
tool in reducing carbon emission--if we do it right. What is the State 
Department's view on LNG exports in general and for the European 
situation in particular?

    Answer. The Department of Energy has regulatory authority over 
Liquefied Natural Gas (LNG) exports and the Federal Energy Regulatory 
Commission has regulatory authority over the construction of LNG export 
facilities. To date, the Energy Department has conditionally approved 
seven LNG permits for 9.3 billion cubic feet per day that can be 
exported both to countries with which we have Free Trade Agreements and 
to those where we do not, such as in Europe.
    These are significant volumes. To put it in perspective, the 
amounts conditionally approved to date, i.e., which the Department of 
Energy has said it will approve assuming the satisfactory completion of 
environmental review processes and compliance with any and all 
preventative and mitigative measures imposed by federal or state 
agencies, including the Federal Energy Regulatory Commission, are more 
than double the amount of LNG that Europe imported in 2013.
    The first project to export this gas is not expected to come online 
until late 2015. DOE will continue to make public interest 
determinations on a case-by-case basis, where appropriate, considering 
economic, energy security, environmental and geopolitical impacts, 
among other factors. FERC has approved one LNG export facility, is in 
the process of reviewing other applications to construct LNG export 
facilities, and expects more companies to apply for approval to build 
LNG export facilities in the near future.
    In sum, we are committed to putting gas onto the global market in a 
way that is consistent with U.S. public interest because we know that 
increased global supplies help our European allies and other strategic 
partners.

    Question. As you know, the Colombian Government is currently 
negotiating with the FARC to resolve longstanding issues. Do you 
believe the U.S. should continue to stay on the sidelines or is there 
room for possible U.S. engagement?

    Answer. The United States has been strongly engaged in support of 
peace in Colombia, as an advocate for negotiations and in laying the 
groundwork for a negotiated settlement.
    Most recently the Secretary, in public remarks with Foreign 
Minister Holguin on February 28, noted that it is ``so important to 
bring a lasting peace to Colombia once and for all'' for the benefit of 
the Colombian people. In his December meeting with President Santos, 
the President praised the ``bold and brave efforts to bring about a 
lasting and just peace inside of Colombia.''
    Our ongoing foreign assistance has helped the Colombian Government 
initiate talks and prepare for a peace agreement, and laid the ground 
work that will sustain an agreement once it is finalized. 
Counternarcotics programs have reduced cocaine production, thereby 
reducing illicit funding to terrorist groups, including the 
Revolutionary Armed Forces of Colobmbia (FARC). In addition, U.S. 
programs currently engage government, civil society, and the private 
sector to strengthen Colombia's ability to implement a sustainable and 
inclusive peace. This includes initiatives to support conflict victims, 
reduce impunity, develop rule of law, bring government services to 
rural areas previously controlled by the FARC, and improve land tenure 
and livelihoods in rural areas. By supporting efforts by the Colombian 
people to secure justice and good governance, we help lay the ground 
work for the accountability, stability, and reconciliation necessary 
for any peace deal to be successful.
    We are in regular, close contact with the government about the 
status of the peace talks and have encouraged the government to inform 
us of possible assistance the United States may offer in support of a 
final peace agreement.

    Question. The situation in Venezuela has been alarming, especially 
as President Maduro attempts to distract individuals in Venezuela by 
blaming the problems on the United States.

  <diamond> (a). What can we do to encourage a greater respect for 
        democracy and human rights in the region without inciting the 
        ideological paranoia that the United States is attempting to 
        interfere in Latin America?

    Answer. The United States remains deeply concerned by the 
government's response to ongoing protests in Venezuela. The 
government's arbitrary detention and excessive use of force against 
protesters and journalists, lack of due process, and the shutdown of 
foreign media and Internet endanger human rights. We join with the 
international community to call for an end to violence, respect for 
human rights, support for the freedoms of expression and peaceful 
assembly, due process of law, and release of those detained for 
exercising their right to peaceful protest and free expression.
    This is not a U.S.-Venezuela issue, it is an internal Venezuelan 
issue. We've been clear all along that the future of Venezuela is for 
the Venezuelan people to decide. That is why our focus has been to 
bring an end to the violence and encourage an authentically inclusive 
dialogue to address the Venezuelan people's legitimate grievances. We 
have been actively engaging international partners to find a peaceful 
solution.
    The U.S. Government supports a wide range of civil society 
organizations that promote and defend fundamental freedoms, democratic 
processes, and nonviolent advocacy. Civil society organizations play an 
important role in the promotion and effective exercise of democracy and 
accountable governance.

  <diamond> (b). What more should the OAS be doing to help restore calm 
        in Venezuela and highlight human rights violations?

    Answer. We believe the Organization of American States (OAS), as 
the region's premier multilateral institution, must assume a greater 
role to find a peaceful resolution to the crisis in Venezuela, 
consistent with its mandate to promote peace, democracy, and respect 
for human rights in member states, as expressed in the OAS Charter and 
in the Inter-American Democratic Charter.
    The Inter-American Commission on Human Rights continues to focus 
attention on the situation in Venezuela, including during recent 
sessions, and we welcome its views and recommendations.

  <diamond> (c). The President is proposing a cut of $800 thousand in 
        democracy assistance, despite an increasingly complicated 
        political situation. How is this helpful to U.S. democracy 
        goals in the region?

    Answer. Our commitment to support human rights and democracy, 
including in challenging environments in the Western Hemisphere, 
remains strong.
    Our assistance request reflects no decrease in priority toward 
these areas. We have the resources we need to advance U.S. objectives 
and support democracy and human rights in countries of concern.
    For Venezuela, the U.S. Government will support ongoing assistance 
for civil society to push for public accountability, defend human 
rights, and increase the public's access to independent information. We 
will continue to monitor events and circumstances closely.

    Question. Your leadership on climate change is commendable. While 
climate change is a global problem, it is a problem with serious local 
implications. In New Mexico and the Southwest, we are starting to see 
the impacts of climate change in the form of decreased snowpack and 
rainfall, and more intense droughts. Unless we act on a global scale, 
climate models show an increasingly dry future for the American West. 
We understand however that negotiations through the UNFCCC remain 
difficult.

  <diamond> Please provide detail on how the Department's funding 
        request for climate change will help accelerate these talks, 
        and U.S. efforts to address this important issue?

    Answer. Funding through the President's Global Climate Change 
Initiative (GCCI) not only directly supports efforts with partners 
around the world to reduce emissions and help the world's most 
vulnerable communities adapt to climate change, these funds also 
provide important leverage and facilitation toward an ambitious global 
agreement.
    Through GCCI funding, the United States has made low-emissions, 
climate-resilient sustainable economic growth a priority in our 
diplomacy and development. Our efforts involve two major areas of 
engagement: (1) lowering the atmospheric accumulation rate of 
greenhouse gases that cause climate change; and (2) helping societies 
anticipate and incorporate plans for responding to potential climate 
change impacts.
    The Enhancing Capacity for Low Emission Development Strategies (EC-
LEDS) program is an important example. EC-LEDS is an interagency 
program led by the Department of State and USAID that blends our 
respective strengths in diplomacy and development. EC-LEDS seeks to 
guide policymakers in developing countries to analyze greenhouse gas 
emissions and economic trends and pursue policies that enable economic 
growth along a lower emission pathway. This program directly supports 
partner countries in developing the technical expertise required to 
make and keep emission reduction commitments. It not only has emission 
reduction benefits, it also builds on the recognition that all 
countries must be and can be a part of the climate change solution. 
Additionally, this program builds confidence in developing countries 
that tackling climate change can, at the same time, boost job creation 
and economic competitiveness.
    EC-LEDS stands as a key element of U.S. support, alongside other 
critical efforts including the Major Economies Forum, Clean Energy 
Ministerial, Climate and Clean Air Coalition, Tropical Forest Alliance 
2020, and a range of multilateral funds, such as the Climate Investment 
Funds and funds focusing on adaptation such as the Least Developed 
Countries Fund and the Special Climate Change Fund.

    Question. The new Global Development lab is an exciting and 
important pillar in our approach to development globally. Innovation, 
entrepreneurship, and job creation are critical to U.S. economic 
competitiveness as well. Just last year 75 U.S. industries classified 
as intellectual property intensive added $5.8 trillion to U.S. output. 
Technology transfer, which accelerates innovations from the lab to the 
market, is critical to maintaining our role as a leader in science and 
technology, and developing solutions to complex global challenges such 
as disease, pollution, and access to energy. Our National Labs 
including Sandia and Los Alamos in New Mexico are actively involved in 
basic and applied research, and examining ways to accelerate tech 
transfer.

  <diamond> How will you ensure that the research and technologies you 
        support through the lab mature into viable businesses, and are 
        scaled up to benefit those in need around the world?
  <diamond> How will this new lab link with other agencies such as the 
        Department of Energy, Small Business Administration, and 
        Department of Commerce, also focused on innovation?

    Answer. The U.S. Global Development Lab (The Lab) is building 
directly off of the successes of its two predecessor organizations--the 
Office of Innovation and Development Alliances and the Office of 
Science and Technology. Those two offices were able to generate 
hundreds of new innovative and cost-effective approaches to solving 
long-standing development challenges. Where the Lab seeks to improve is 
in the area of making sure the most promising of those solutions are 
taken to global scale, impacting hundreds of millions of people. This 
can only be done if these efforts become sustainable. For a large 
subset of these solutions, it means ensuring that they become viable 
businesses.
    The Lab will do this in two ways. First, we will provide staged 
financing, making increased investments to those solutions where there 
is solid evidence of a sound business model that will enable global 
impact. Second, the Lab is establishing innovative financing models and 
other tools for nascent development enterprises, and connecting 
entrepreneurs with accelerators like the USAID Higher Education 
Solutions Network Health Accelerator at Duke University and USAID 
partnerships like LAUNCH (Department of State, NASA, and Nike) that 
connect entrepreneurs with business advisory services. Successful 
examples include: the Odon Device, which will be manufactured by 
Becton, Dickinson and Company, of Franklin Lakes, NJ; Subsurface Vapor 
Transfer Irrigation, which has licensed the technology to Dupont; and 
d.Light, which just closed on $11 million in Series C venture capital 
financing.
    The Lab has created a strong network of partners with whom it will 
work from the outset to help scale proven solutions. The Lab's 
cornerstone partner network includes corporations, foundations, donors, 
universities, and nongovernmental organizations. The Lab also has a 
close network of U.S. Government Partners that we are already working 
with to help the Lab design and implement programs. This list includes 
the State Department, USDA, NASA, the U.S. Geological Survey, the 
National Science Foundation, the Millennial Challenge Corporation, the 
National Geospatial Intelligence Agency, and the National Oceanic and 
Atmospheric Administration.
                                 ______
                                 

      Responses of Secretary of State John F. Kerry to Questions 
                    Submitted by Senator Jeff Flake

    Question. Department of State Contract Files Missing.--According to 
a report from the Associated Press, an inspector general recently found 
that the files for more than $6 billion in State Department contracts 
over the past 6 years are either missing or incomplete. The State 
Department has called the issue a ``bureaucratic'' one, and stated that 
it is addressing the matter.

  <diamond> When does the State Department expect to explain its 
        inability to account for $6 billion in contracts over the last 
        6 years?
  <diamond> Does this matter call into question any of the State 
        Department's methods for tracking and retaining files?

    Answer. The OIG Management Alert did not state that moneys were 
missing or contracts were otherwise unaccounted for. The OIG Management 
Alert letter advised the Department that over the past 6 years the OIG 
had identified Department of State contracts with a total value of more 
than $6 billion in which contract files were incomplete or could not be 
located and noted that, in the IG's opinion, inadequate files ``exposes 
the Department to significant financial risk . . .''
    Please note that the OIG Management Alert is a compilation of 
audits, inspections, and investigations previously completed over the 
past 6 years. What the OIG Management Alert did not mention are the 
many changes implemented over the past several years to improve 
contract management nor did it mention current efforts--such as a pilot 
for electronic filing that has been underway at several posts for the 
past several months. When completed, we will have a better idea of the 
overall feasibility and resources required to develop, deploy, and 
maintain such a system, both domestically and at our over 280 posts 
worldwide.

    Question.OCO Funding.--DOD OCO funding has been plussed up 
significantly over the past decade. In the past few years, however, the 
State Department has also begun requesting OCO funding outside of the 
base budget. It is unclear what this precedent this will set for future 
years after Iraq and Afghanistan.

  <diamond> Do you believe that it will be the new status quo for the 
        State Department to come up with a base estimate for responding 
        to humanitarian crises across the globe, and then to also 
        submit an OCO request for ``unforeseen'' expenses?

    Answer. The OCO request of $5.9 billion for the Department of State 
and USAID is consistent with the practice of the past 3 years and 
allows the Department the flexibility to respond to extraordinary needs 
and contingencies that are critical to immediate U.S. national security 
objectives without unnecessarily undermining funding for longer term 
efforts to sustain global order and tackle transnational challenges. 
The OCO request funds exceptional operations and assistance expenses in 
Iraq, Afghanistan, and Pakistan; our response to ongoing challenges 
presented by the Syria crisis; and emergent peacekeeping needs.
    The OCO request for humanitarian needs in Syria ($1.1 billion) is 
consistent with appropriations since FY 2012, which have included 
significant amounts of OCO for humanitarian expenses and enabled us to 
respond appropriately to crises worldwide, including in and around 
Syria. The entire $4.8 billion humanitarian assistance request--base 
and OCO--will allow us to respond to the unprecedented Syria crisis and 
other humanitarian needs around the world. The administration will 
continue to seek the necessary flexibility to enable the most 
appropriate U.S. response to these and other crises.
                                 ______
                                 

 Testimony Given By Secretary of State John F. Kerry at The Hearing on 
           September 9, 2013, Submitted by Senator Bob Corker

      STATEMENT OF HON. JOHN F. KERRY, SECRETARY OF STATE,
            U.S. DEPARTMENT OF STATE, WASHINGTON, DC
    Secretary Kerry. Well, Mr. Chairman, members of the committee, 
Ranking Member Corker, thank you very, very much for having us here 
today. We look forward to this opportunity to be able to share with you 
President Obama's vision with respect to not just this action but, as 
Senator Corker has inquired appropriately, about Syria itself and the 
course of action in the Middle East.
    Mr. Chairman, thank you for welcoming Teresa. This is her first 
public event since early July. So we are all happy she is here.
    As we convene for this debate, it is not an exaggeration to say to 
you--all of you, my former colleagues--that the world is watching not 
just to see what we decide, but it is watching to see how we make this 
decision, whether in a dangerous world we can still make our Government 
speak with one voice. They want to know if America will rise to this 
moment and make a difference.
    And the question of whether to authorize our Nation to take 
military action is, as you have said, Mr. Chairman, and you have 
echoed, Mr. Ranking Member, this is obviously one of the most important 
decisions, one of the most important responsibilities of this committee 
or of any Senator in the course of a career.
    The President and the administration appreciate that you have 
returned quickly to the Nation's capital to address it and that you are 
appropriately beginning a process of focusing with great care and great 
precision, which is the only way to approach the potential use of 
military power.
    Ranking Member Corker, I know that you want to discuss, as you 
said, why Syria matters to our national security and our strategic 
interests beyond the compelling humanitarian reasons, and I look 
forward, with Secretary Hagel and General Dempsey, to laying that out 
here this afternoon.
    But first, it is important to explain to the American people why we 
are here. It is important for people who may not have caught every 
component of the news over the course of the Labor Day weekend to join 
us, all of us, in focusing in on what is at stake here. That is why the 
President of the United States made the decision as he did, contrary to 
what many people thought he would do, of asking the Congress to join in 
this decision. We are stronger as a Nation when we do that.
    So we are here because against multiple warnings from the President 
of the United States, from the Congress, from our friends and allies 
around the world, and even from Russia and Iran, the Assad regime, and 
only undeniably the Assad regime, unleashed an outrageous chemical 
attack against its own citizens. We are here because a dictator and his 
family's personal enterprise, in their lust to hold onto power, were 
willing to infect the air of Damascus with a poison that killed 
innocent mothers, and fathers, and hundreds of their children, their 
lives all snuffed out by gas in the early morning of August 21st.
    Now, some people here and there amazingly have questioned the 
evidence of this assault on conscience. I repeat here again today that 
only the most willful desire to avoid reality can assert that this did 
not occur as described, or that the regime did not do it. It did 
happen, and the Assad regime did it.
    Now, I remember Iraq. Secretary Hagel remembers Iraq. General 
Dempsey especially remembers Iraq. But Secretary Hagel and I and many 
of you sitting on the dais remember Iraq in a special way because we 
were here for that vote. We voted. And so we are especially sensitive, 
Chuck and I, to never again asking any member to take a vote on faulty 
intelligence.
    And that is why our intelligence community has scrubbed and re-
scrubbed the evidence. We have declassified unprecedented amounts of 
information, and we ask the American people and the rest of the world 
to judge that information. We can tell you beyond any reasonable doubt 
that our evidence proves the Assad regime prepared for this attack, 
issued instructions to prepare for this attack and warned its own 
forces to use gas masks. And we have physical evidence of where the 
rockets came from and when. Not one rocket landed in regime-controlled 
territory, not one. All of them landed in opposition-controlled or 
contested territory.
    We have a map, physical evidence, showing every geographical point 
of impact, and that is concrete. Within minutes of the attack--90 I 
think to be precise, maybe slightly shorter--the social media exploded 
with horrific images of the damage that had been caused, men and women, 
the elderly, and children sprawled on a hospital floor with no wounds, 
no blood, but all dead. Those scenes of human chaos and desperation 
were not contrived. They were real. No one could contrive such a scene.
    We are certain that none of the opposition has the weapons or 
capacity to affect a strike of this scale, particularly from the heart 
of regime territory. Just think about it in logical terms, common 
sense. With high confidence, our intelligence community tells us that 
after the strike, the regime issued orders to stop, and then fretted 
openly, we know, about the possibility of U.N. inspectors discovering 
evidence.
    So then, they began to systematically try to destroy it, contrary 
to my discussion with their foreign minister, who said we have nothing 
to hide. I said, if you have nothing to hide, then let the inspectors 
in today and let it be unrestricted. It was not. They did not. It took 
four days of shelling before they finally allowed them in under a 
constrained pre-arranged structure. And we now have learned that the 
hair and blood samples from first responders in East Damascus has 
tested positive for signatures of sarin.
    So, my colleagues, we know what happened. For all the lawyers, for 
all the former prosecutors, for all those who have sat on a jury, I can 
tell you that we know these things beyond the reasonable doubt that is 
the standard by which we send people to jail for the rest of their 
lives.
    So we are here because of what happened two weeks ago, but we are 
also here because of what happened nearly a century ago in the darkest 
moments of World War I and after the horror of gas warfare when the 
vast majority of the world came together to declare in no uncertain 
terms that chemical weapons crossed the line of conscience, and they 
must be banned from use forever. Over the years that followed, over 180 
countries, including Iran, Iraq, and Russia, agreed, and they joined 
the Chemical Weapons Convention. Even countries with whom we agree on 
little agreed on that conviction.
    Now, some have tried to suggest that the debate we are having today 
is about President Obama's red line. I could not more forcefully state 
that is just plain and simply wrong. This debate is about the world's 
red line. It is about humanity's red line. And it is a red line that 
anyone with a conscience ought to draw.
    This debate is also about Congress' own red line. You, the United 
States Congress, agreed to the Chemical Weapons Convention. You, the 
United States Congress, passed the Syria Accountability Act, which says 
Syria's chemical weapons ``threaten the security of the Middle East and 
the national security interests of the United States.'' You, the 
Congress, have spoken out about grave consequences if Assad, in 
particular, used chemical weapons. So I say to you, Senator Corker, 
that is one of the reasons why Syria is important.
    And as we debate and the world watches, as you decide and the world 
wonders, not whether Assad's regime executed the worst chemical weapons 
attack of the 21st century. That fact, I think, is now beyond question. 
The world wonders whether the United States of America will consent 
through silence to standing aside while this kind of brutality is 
allowed to happen without consequence.
    In the nearly 100 years since the first global commitment against 
chemical weapons, only two tyrants dared to cross the world's brightest 
line. Now Bashar al-Assad has become the third. And I think all of you 
know that history holds nothing but infamy for those criminals, and 
history reserves also very little sympathy for their enablers. So the 
reality is the gravity of this moment. That is the importance of the 
decision that this Congress faces and that the world is waiting to 
learn about in these next days.
    Now, Ranking Member Corker asked a central question: Why should 
Americans care beyond what I have just said, which ought to be enough 
in the judgment of the President and this administration. Well, it is 
clear that in addition to what I have just mentioned about the Syria 
Accountability Act and the threat to the Middle East, we cannot 
overlook the impact of chemical weapons and the danger that they pose 
to a particularly volatile area of the world in which we have been 
deeply invested for years because we have great friends there. We have 
allies there. We have deep interests there.
    Since President Obama's policy is that Assad must go, it is not 
insignificant that to deprive Assad of the capacity to use chemical 
weapons, or to degrade the capacity to use those chemical weapons, 
actually deprives him of a lethal weapon in this ongoing civil war, and 
that has an impact. That can help to stabilize the region ultimately.
    In addition, we have other important strategic national security 
interests, not just in the prevention of the proliferation of chemical 
weapons, but to avoid the creation of a safe haven in Syria or a base 
of operations for extremists to use these weapons against our friends. 
All of us know that the extremes of both sides are there waiting in the 
wings, working and pushing and fighting. They would be desperate to get 
their hands on these materials. And the fact is that if nothing happens 
to begin to change the equation or the current calculation, that area 
can become even more so an area of ungoverned space where those 
extremists threaten even the United States and, more immediately, if 
they get their hands on their weapons, allies and friends of ours, like 
Jordan, or Israel, or Lebanon, or others.
    Forcing Assad to change his calculation about his ability to act 
with impunity can contribute to his realization that he cannot gas or 
shoot his way out of his predicament. And as I think you know, it has 
been the President's primary goal to achieve a negotiated resolution, 
but you got to have parties prepared to negotiate to achieve that.
    Syria is also important because, quite simply, and I cannot put 
this to you more plainly than to just ask each of you to ask 
yourselves, if you are Assad or if you are any one of the other despots 
in that region, and the United States steps back from this moment 
together with our other allies and friends, what is the message? The 
message is that he has been granted impunity, the freedom to choose to 
use the weapons again or force us to go through this cycle again with 
who knows what outcome after once refusing it. We would have granted 
him the capacity to use these weapons against more people with greater 
levels of damage because we would have stood and stepped away.
    As confidently as we know what happened in Damascus, my friends, on 
August 21st, we know that Assad would read our stepping away or our 
silence as an invitation to use those weapons with impunity. And in 
creating impunity, we will be creating opportunity, the opportunity for 
other dictators and/or terrorists to pursue their own weapon of mass 
destruction, including nuclear weapons.
    I will tell you there are some people hoping that the United States 
Congress does not vote for this very limited request the President has 
put before you. Iran is hoping you look the other way. Our inaction 
would surely give them a permission slip for them to at least 
misinterpret our intention, if not to put it to the test. Hezbollah is 
hoping that isolationism will prevail. North Korea is hoping that 
ambivalence carries the day. They are all listening for our silence.
    And if we do not answer Assad today, we will erode a standard that 
has existed for those 100 years. In fact, we will erode a standard that 
has protected our own troops in war, and we will invite even more 
dangerous tests down the road.
    Our allies and our partners are also counting on us in this 
situation--the people of Israel, of Jordan, of Turkey. Each look next 
door and they see that they are one stiff breeze away from the 
potential of being hurt, of their civilians being killed as a 
consequence of choices Assad might make in the absence of action. They 
anxiously await our assurance that our word means something. They await 
the assurance that if the children lined up in un-bloodied burial 
shrouds for their own children, that we would keep the world's promise. 
That is what they are hoping.
    So the authorization that President Obama seeks is definitely in 
our national security interests. We need to send to Syria and to the 
world, to dictators and terrorists, to allies, and to civilians alike 
the unmistakable message that when the United States of America and the 
world say ``never again,'' we do not mean sometimes, we do not mean 
somewhere. Never means never.
    So this is a vote for accountability. Norms and laws that keep the 
civilized world civil mean nothing if they are not enforced. As Justice 
Jackson said in his opening statement at the Nuremberg trials, ``The 
ultimate step in avoiding periodic wars, which are inevitable in a 
system of international lawlessness, is to make statesmen responsible 
to the law.'' If the world's worst despots see that they can flout with 
impunity prohibitions against the world's worst weapons, then those 
prohibitions are just pieces of paper. That is what we mean by 
accountability, and that is what we mean by we cannot be silent.
    So let me be clear. President Obama is not asking America to go to 
war. And I say that sitting next to two men, Secretary Hagel and 
Chairman Dempsey, who know what war is. Senator McCain knows what war 
is. They know the difference between going to war and what President 
Obama is requesting now. We all agree there will be no American boots 
on the ground. The President has made crystal clear we have no 
intention of assuming responsibility for Syria's civil war. He is 
asking only for the power to make clear, to make certain, that the 
United States means what we say, that the world, when we join together 
in a multilateral statement, mean what we say. He is asking for 
authorization to degrade and deter Bashar al-Assad's capacity to use 
chemical weapons.
    Now, some will undoubtedly ask, and I think appropriately, what 
about the unintended consequences of action? Some fear a retaliation 
that leads to a larger conflict. Well, let me put it bluntly. If Assad 
is arrogant enough, and I would say foolish enough, to retaliate to the 
consequences of his own criminal activity, the United States and our 
allies have ample ways to make him regret that decision without going 
to war. Even Assad's supporters, Russia and Iran, say publicly that the 
use of chemical weapons is unacceptable.
    Now, some will also question the extent of our responsibility. To 
them I say, when someone kills and injures hundreds of children with a 
weapon the world has banned, we are all responsible. That is true 
because of treaties like the Geneva Convention and the Chemical Weapons 
Convention, and, for us, the Syria Accountability Act. But it is also 
true because we share a common humanity and a common decency.
    This is not the time for arm chair isolationism. This is not the 
time to be spectators to slaughter. Neither our country nor our 
conscience can afford the cost of silence. We have spoken up against 
unspeakable horror many times in the past. Now we must stand up and 
act, and we must protect our security, protect our values, and lead the 
world with conviction that is clear about our responsibility.
    Thank you.

                                  [all]
</pre></body></html>
